<html>
<title> - U.S. FOREST SERVICE LAND MANAGEMENT: CHALLENGES AND OPPORTUNITIES FOR ACHIEVING HEALTHIER NATIONAL FORESTS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







 U.S. FOREST SERVICE LAND MANAGEMENT: CHALLENGES AND OPPORTUNITIES FOR
                  ACHIEVING HEALTHIER NATIONAL FORESTS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON CONSERVATION, ENERGY,
                              AND FORESTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 27, 2012

                               __________

                           Serial No. 112-32



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

73-659 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                        COMMITTEE ON AGRICULTURE

                   FRANK D. LUCAS, Oklahoma, Chairman

BOB GOODLATTE, Virginia,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
TIMOTHY V. JOHNSON, Illinois         TIM HOLDEN, Pennsylvania
STEVE KING, Iowa                     MIKE McINTYRE, North Carolina
RANDY NEUGEBAUER, Texas              LEONARD L. BOSWELL, Iowa
K. MICHAEL CONAWAY, Texas            JOE BACA, California
JEFF FORTENBERRY, Nebraska           DENNIS A. CARDOZA, California
JEAN SCHMIDT, Ohio                   DAVID SCOTT, Georgia
GLENN THOMPSON, Pennsylvania         HENRY CUELLAR, Texas
THOMAS J. ROONEY, Florida            JIM COSTA, California
MARLIN A. STUTZMAN, Indiana          TIMOTHY J. WALZ, Minnesota
BOB GIBBS, Ohio                      KURT SCHRADER, Oregon
AUSTIN SCOTT, Georgia                LARRY KISSELL, North Carolina
SCOTT R. TIPTON, Colorado            WILLIAM L. OWENS, New York
STEVE SOUTHERLAND II, Florida        CHELLIE PINGREE, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  JOE COURTNEY, Connecticut
MARTHA ROBY, Alabama                 PETER WELCH, Vermont
TIM HUELSKAMP, Kansas                MARCIA L. FUDGE, Ohio
SCOTT DesJARLAIS, Tennessee          GREGORIO KILILI CAMACHO SABLAN, 
RENEE L. ELLMERS, North Carolina     Northern Mariana Islands
CHRISTOPHER P. GIBSON, New York      TERRI A. SEWELL, Alabama
RANDY HULTGREN, Illinois             JAMES P. McGOVERN, Massachusetts
VICKY HARTZLER, Missouri
ROBERT T. SCHILLING, Illinois
REID J. RIBBLE, Wisconsin
KRISTI L. NOEM, South Dakota

                                 ______

                           Professional Staff

                      Nicole Scott, Staff Director

                     Kevin J. Kramp, Chief Counsel

                 Tamara Hinton, Communications Director

                Robert L. Larew, Minority Staff Director

                                 ______

           Subcommittee on Conservation, Energy, and Forestry

                 GLENN THOMPSON, Pennsylvania, Chairman

BOB GOODLATTE, Virginia              TIM HOLDEN, Pennsylvania, Ranking 
MARLIN A. STUTZMAN, Indiana          Minority Member
BOB GIBBS, Ohio                      KURT SCHRADER, Oregon
SCOTT R. TIPTON, Colorado            WILLIAM L. OWENS, New York
STEVE SOUTHERLAND II, Florida        MIKE McINTYRE, North Carolina
MARTHA ROBY, Alabama                 JIM COSTA, California
TIM HUELSKAMP, Kansas                TIMOTHY J. WALZ, Minnesota
RANDY HULTGREN, Illinois             CHELLIE PINGREE, Maine
REID J. RIBBLE, Wisconsin            MARCIA L. FUDGE, Ohio
KRISTI L. NOEM, South Dakota         GREGORIO KILILI CAMACHO SABLAN, 
                                     Northern Mariana Islands

               Brent Blevins, Subcommittee Staff Director

                                  (ii)
















                             C O N T E N T S

                              ----------                              
                                                                   Page
Holden, Hon. Tim, a Representative in Congress from Pennsylvania, 
  opening statement..............................................     4
    Prepared statement...........................................     5
Thompson, Hon. Glenn, a Representative in Congress from 
  Pennsylvania, opening statement................................     1
    Prepared statement...........................................     3

                               Witnesses

Tidwell, Tom, Chief, U.S. Forest Service, U.S. Department of 
  Agriculture, Washington, D.C...................................     6
    Prepared statement...........................................     7
    Submitted questions..........................................   126
Barth, Gary, Director, Business and Community Services, Clackamas 
  County, Oregon City, OR........................................    28
    Prepared statement...........................................    30
Hoover, Gregory A., Ornamental Extension Entomologist, Senior 
  Extension Associate, Department of Entomology, College of 
  Agricultural Sciences, Pennsylvania State University, 
  University Park, PA............................................    34
    Prepared statement...........................................    35
Watkins, Charles ``Chuck'', Chief Operating Officer, Rex Lumber, 
  Graceville, FL; on behalf of Federal Forest Resource Coalition.    42
    Prepared statement...........................................    43
Zimmer, Gary, Certified Wildlife Biologist<SUP>'</SUP>, 
  Coordinating Wildlife Biologist, Ruffed Grouse Society, Laona, 
  WI.............................................................    47
    Prepared statement...........................................    49

                           Submitted Material

Armstrong, Marcia H., Supervisor District 5, Siskiyou County, CA, 
  submitted letter...............................................    63
Muse, Rhonda, National Institute for the Elimination of 
  Catastrophic Wildfire, submitted e-mail........................   108
Petik, Jerry, Director, Grand River Grazing Cooperative 
  Association, submitted statement...............................    86

 
 U.S. FOREST SERVICE LAND MANAGEMENT: CHALLENGES AND OPPORTUNITIES FOR
                  ACHIEVING HEALTHIER NATIONAL FORESTS

                              ----------                              


                        TUESDAY, MARCH 27, 2012

                  House of Representatives,
        Subcommittee on Conservation, Energy, and Forestry,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Glenn 
Thompson [Chairman of the Subcommittee] presiding.
    Members present: Representatives Thompson, Stutzman, 
Tipton, Southerland, Hultgren, Ribble, Holden, Schrader, 
McIntyre, Costa, and Sablan.
    Staff present: Brent Blevins, Tamara Hinton, Patricia 
Straughn, Lauren Sturgeon, Wyatt Swinford, Heather Vaughan, 
Suzanne Watson, Liz Friedlander, Lisa Shelton, Anne Simmons, 
John Konya, Jamie Mitchell, and Caleb Crosswhite

 OPENING STATEMENT OF HON. GLENN THOMPSON, A REPRESENTATIVE IN 
                   CONGRESS FROM PENNSYLVANIA

    The Chairman. Good morning, everyone. I want to welcome 
everyone to today's hearing to review the U.S. Forest Service 
land management and its impact on the health of our National 
Forests.
    The question of the health of our National Forests is an 
important one for Members of our Subcommittee, a number of whom 
represent National Forests in different regions of the country. 
As Chairman of this Subcommittee and a representative whose 
district includes the Allegheny National Forest, I have a keen 
appreciation for the value of our nation's National Forests.
    The health of our National Forest is an issue of vital 
importance for rural America. Not only are our National Forests 
a source of immense natural beauty, but they provide us with 
natural resources, recreational opportunities, wildlife 
habitat, and serve as economic engines for our local 
communities. By promoting healthier forests, everyone wins. 
Healthier National Forests are more sustainable for generations 
to come due to decreased risk of catastrophic fires and 
invasive species outbreaks. Rural economies will benefit 
economically from increased timber harvest. We can continue to 
support a diverse population of wildlife through active land 
management practices such as prescribed burns.
    Our National Forests are not museums and never were 
intended to sit idle. I say this frequently, National Forests 
are not National Parks. This is why the U.S. Forest Service is 
housed in the U.S. Department of Agriculture rather than the 
Department of the Interior. Our National Forests are meant to 
provide timber, oil, natural gas, wildlife habitat, 
recreational opportunities, and clean drinking water for rural 
communities across America.
    For today's hearing, we will focus on a few specific areas 
of forest management. Now, I want to draw particular attention 
to the timber harvest occurring in our National Forest system. 
Timber harvesting is an important means for achieving healthier 
National Forests and is crucial to supporting rural economies. 
Yet, the level harvesting on most National Forests is nowhere 
near the target each Forest Plan recommends. The Forest 
Service's timber harvest has dropped dramatically from a high 
of 12.7 billion board feet in 1987. Last year, we harvested a 
mere 2.4 billion board feet, though that has increased slightly 
over the last 10 years.
    Now, I am sure I speak for many in this room when I say I 
was pleased by USDA's announcement last month that it intended 
to increase the annual harvest to 3 million board feet off 
National Forest land by 2014. However, for the sake of our 
forest health and the health of our rural economies, I believe 
we can and must go beyond that figure. I look forward to 
hearing about some of the tools the Forest Service is using to 
increase its timber harvest like stewardship contracting. I am 
also interested in learning about the steps the Forest Service 
is taking to simplify the process of harvesting timber.
    Another important factor affecting forest health is 
invasive species outbreaks. In recent years, we have seen 
numerous outbreaks of invasive species such as the pine bark 
beetle in the West, emerald ash borer in Pennsylvania in other 
areas in eastern United States. Invasive species outbreaks 
can't be avoided. However, we can be sure that our forests are 
managed in such a way that they are more resistant during 
outbreaks. We want to also be certain that the remnants from 
the outbreaks do not become hazardous fuel. Catastrophic 
wildfires are a perfect example of what can happen when our 
forests are not well managed. The country witnessed a series of 
wildfires during the last decade that were the worst we have 
seen in more than 50 years. I am concerned that the frequency 
and intensity of these fires is a result of forests that have 
not been adequately managed.
    In 1736, as a famous Pennsylvania said, ``an ounce of 
prevention is worth a pound of cure.'' Many people have heard 
Benjamin Franklin's maxim but are unaware of its origins. He 
was referring to the threat of fire in Philadelphia and the 
steps that could be taken to reduce fire-related risks. I 
believe his advice is no less sage today than it was 276 years 
ago.
    And we have taken steps to reduce the threat of wildfires 
and reduce the associated costs to the agency, but more work 
remains to be done. I am going to be certain that our National 
Forests are managed so that they are good neighbors with 
adjoining state and private forests and do not pose an 
unnecessary fire threat.
    Last, the Forest Service recently released its preferred 
alternative for its planning role. This Subcommittee held a 
hearing to review the planning rule last May, and I look 
forward to hearing how the changes will impact forest 
management practices.
    I want to welcome Chief Tidwell and thank him for appearing 
before us today. I have had the opportunity to work extensively 
with Chief Tidwell and the Forest Service since I was elected 
and I look forward to continue to collaborate to promote 
healthier National Forests across America.
    I also look forward to hearing from our second panel of 
witnesses today. We have a wide variety of stakeholders who 
will tell us what the Forest Service does well and what they 
should be doing better. I particularly want to welcome Mr. 
Gregory Hoover, who is testifying on our second panel this 
morning. Mr. Hoover is a constituent from the Penn State 
Agricultural Extension who brings considerable experience in 
research in combating various invasive species, including the 
emerald ash borer, which has been a problem in Pennsylvania.
    And finally, I want to recognize--I know he is in the 
room--Mr. Ross Gorte of the Congressional Resource Service who 
is retiring this week after 29 years of service. Ross has been 
a valuable resource on forestry matters for Members and staff 
of this Committee, including my own staff, and I wish him a 
very enjoyable retirement.
    [The prepared statement of Mr. Thompson follows:]

Prepared Statement of Hon. Glenn Thompson, a Representative in Congress 
                           from Pennsylvania
    Good morning. I want to welcome everyone to today's hearing to 
review U.S. Forest Service land management and its impact on the health 
of our National Forests.
    The question of the health of our National Forests is an important 
one for Members of our Subcommittee, a number of whom represent 
National Forests in different regions of the country.
    As Chairman of this Subcommittee and a representative whose 
district includes the Allegheny National Forest, I have a keen 
appreciation for the value of our nation's National Forests.
    The health of our National Forests is an issue of vital importance 
for rural America.
    Not only are our National Forests a source of immense natural 
beauty, but they provide us with natural resources, recreation 
opportunities, wildlife habitat, and serve as economic engines for the 
local communities.
    By promoting healthier National Forests, everyone wins.
    Healthier National Forests are more sustainable for generations to 
come due to decreased risk of catastrophic fires and invasive species 
outbreaks.
    Rural economies will benefit economically from increased timber 
harvests.
    We can continue to support a diverse population of wildlife through 
active land management practices such as prescribed burns.
    Our National Forests are not museums and were never intended to sit 
idle.
    I say it frequently, but National Forests are not National Parks.
    This is why the U.S. Forest Service is housed in the U.S. 
Department of Agriculture, rather than the Department of the Interior.
    Our National Forests are meant to provide timber, oil, natural gas, 
wildlife habitat, recreational opportunities, and clean drinking water 
for rural communities across America.
    For today's hearing, we will focus on a few specific areas of 
forest management.
    I want to draw particular attention to the timber harvests 
occurring in our National Forest system.
    Timber harvesting is an important means for achieving healthier 
National Forests and is crucial to supporting rural economies.
    Yet the level of harvesting on most National Forests is nowhere 
near the target each forest plan recommends.
    The Forest Service's timber harvest has dropped dramatically from a 
high of 12.7 billion board feet in 1987.
    Last year, we harvested a mere 2.4 billion board feet, though that 
has increased slightly over the last ten years.
    I am sure I speak for many in this room when I say that I was 
pleased by USDA's announcement last month that it intended to increase 
the annual harvest to 3 billion board feet off National Forest land by 
FY 2014.
    However, for the sake of our forests' health and the health of our 
rural economies, I believe we can and must go beyond that figure.
    I look forward to hearing about some of the tools the Forest 
Service is using to increase its timber harvest like stewardship 
contracting.
    I am also interested in learning about the steps the Forest Service 
is taking to simplify the process of harvesting timber.
    Another important factor affecting forest health is invasive 
species outbreaks.
    In recent years, we have seen numerous outbreaks of invasive 
species such as the Pine Bark Beetle in the West and the Emerald Ash 
Borer in Pennsylvania and other areas in the eastern United States.
    Invasive species outbreaks are inevitable.
    However, we can be sure that our forests are managed in such a way 
that they are more resistant during outbreaks.
    We must also be certain that the remnants from the outbreaks do not 
become hazardous fuel.
    Catastrophic wildfires are a perfect example of what can happen 
when our forests are not managed well.
    The country witnessed a series of wildfires during the last decade 
that were the worst we've seen in more than 50 years.
    I am concerned that the frequency and intensity of these fires is a 
result of forests that have not been adequately managed.
    In 1736, a famous Pennsylvanian said ``An ounce of prevention is 
worth a pound of cure.''
    Many people have heard Benjamin Franklin's maxim but are unaware of 
its origins.
    He was referring to the threat of fire in Philadelphia and the 
steps that could be taken to reduce fire-related risks.
    I believe his advice is no less sage today than it was 276 years 
ago.
    We have taken steps to reduce the threat of wildfire and reduce the 
associated costs to the agency, but more work remains to be done.
    I want to be certain that our National Forests are managed so that 
they are good neighbors with adjoining state and private forests and do 
not pose an unnecessary fire threat.
    Last, the Forest Service recently released its preferred 
alternative for its planning rule.
    This Subcommittee held a hearing to review the planning rule last 
May and I look forward to hearing how the changes will impact forest 
management practices.
    I want to welcome Chief Tidwell and thank him for appearing before 
us today.
    I have had the opportunity to work extensively with Chief Tidwell 
and the Forest Service since I was elected and I look forward to 
continuing to collaborate to promote healthier National Forests across 
America.
    I also look forward to hearing from our second panel of witnesses 
today.
    We have a wide variety of stakeholders who will tell us what the 
Forest Service does well and what they should be doing better.
    I particularly want to welcome Mr. Gregory Hoover, who is 
testifying on our second panel this morning.
    Mr. Hoover is a constituent from Penn State's Agricultural 
Extension who brings considerable experience in researching and 
combating various invasive species, including emerald ash borer, which 
has been a problem in Pennsylvania.
    And, finally, I want to recognize Mr. Ross Gorte of the 
Congressional Research Service, who is retiring this week after 29 
years of service.
    Ross has been a valuable resource on forestry matters for Members 
and staff of this committee, including my own staff and I wish him an 
enjoyable retirement.
    I now recognize the Ranking Member, Mr. Holden, for his opening 
statement.

    The Chairman. I now recognize the Ranking Member, Mr. 
Holden, for his opening statement.

   OPENING STATEMENT OF HON. TIM HOLDEN, A REPRESENTATIVE IN 
                   CONGRESS FROM PENNSYLVANIA

    Mr. Holden. Well, thank you, Mr. Chairman. I would like to 
thank Chief Tidwell and our other witnesses and guests for 
coming today to discuss the U.S. Forest Service land management 
and the challenges and opportunities for achieving healthier 
National Forests.
    This hearing presents an opportunity for Members of this 
Subcommittee to get reacquainted with the national framework 
for forest land management and to learn how we can best assist 
the agency in maintaining and improving the health of the 155 
National Forests and 20 grasslands in the National Forest 
System.
    As we discuss reauthorization of the current farm bill 
under tight budgetary constraints and even tighter budgetary 
expectations, it is important to hear from those in and around 
our forest communities about which programs are working and 
which are not, and what we can do better to promote both a 
healthy forest and a hearty economy. The Forest Service should 
always consider the multiple uses of our National Forest land, 
including timber production, habitat preservation, natural 
resource management, and recreation and ensure local economic 
development and environmental protections work in harmony 
instead of in competition with each other. We need to make sure 
the Forest Service and its partners work together to improve 
forest restoration and conservation while promoting a robust 
forest industry that supports local stakeholders and results in 
restored jobs and a vibrant rural economy. Only in partnership 
can we ensure the viability of our forest land and forest 
communities in the 21st century.
    I look forward to today's expert testimony and the 
opportunity to listen, learn, and question those on the 
forefront of this very important issue. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Holden follows:]

  Prepared Statement of Hon. Tim Holden, a Representative in Congress 
                           from Pennsylvania
    I would like to thank Chief Tidwell and our other witnesses and 
guests for coming today to discuss U.S. Forest Service land management 
and the challenges and opportunities for achieving healthier National 
Forests.
    This hearing presents an opportunity for Members of the 
Subcommittee to get reacquainted with the national framework for 
forestland management and to learn how we can best assist the agency in 
maintaining and improving the health of the 155 National Forests and 20 
Grasslands in the National Forest System.
    As we discuss reauthorization of the current farm bill under tight 
budgetary constraints and even tighter budgetary expectations, it is 
important to hear from those in and around our forest communities about 
which programs are working, which are not, and what we can do better to 
promote both a healthy forest and hearty economy.
    The Forest Service should always consider the multiple uses of our 
National Forestland including timber production, habitat preservation, 
natural resource management and recreation and ensure local economic 
development and environmental protections work in harmony instead of in 
competition with each other.
    We need to make sure the Forest Service and its partners work 
together to improve forest restoration and conservation while promoting 
a robust forest industry that supports local stakeholders and results 
in restored jobs and a vibrant rural economy. Only in partnership can 
we ensure the viability of our forestland and forest communities in the 
21st century.
    I look forward to today's expert testimony and the opportunity to 
listen, learn and question those on the forefront of this important 
issue.

    The Chairman. I thank the Ranking Member.
    Now, the chair would request that other Members submit 
their opening statements for the record so that the witnesses 
may begin their testimony to ensure there is ample time for 
questions.
    And I would like to welcome--we have one witness, our first 
panel, Mr. Tom Tidwell, Chief, the Forest Service, United 
States Department of Agriculture. Chief Tidwell, please begin 
when you are ready.

  STATEMENT OF TOM TIDWELL, CHIEF, U.S. FOREST SERVICE, U.S. 
          DEPARTMENT OF AGRICULTURE, WASHINGTON, D.C.

    Mr. Tidwell. Mr. Chairman, Members of the Subcommittee, 
once again it is a privilege to be here today to discuss the 
challenges and the opportunities for achieving healthier 
National Forests. I appreciate the support this Subcommittee 
has shown the Forest Service in the past and I look forward to 
working with you to help address this very important issue that 
we are facing on our National Forests today.
    Our ability to sustain the National Forests and provide all 
the benefits that the public wants and needs is increasingly at 
risk. The droughts that we are seeing, the invasive species, 
more development in the wildland-urban interface, 
uncharacteristically severe wildfires, unprecedented outbreaks 
of insect and disease, all of these stresses and disturbances 
are affecting America's forests. The Forest Service recognizes 
that we need to increase the pace and scale of our restoration, 
our active management of our National Forests to address these 
threats, these threats to the resiliency of our National 
Forests and watersheds, to address the threats to the health 
and safety of America's forest-dependent communities. We also 
recognize a need for a strong integrated wood products industry 
to provide the skills to do the restoration work and to be able 
to use the markets to reduce the cost to the taxpayer.
    There are between 65 and 82 million acres of our National 
Forests that need some form of restoration, and we are 
committed to increasing the number of acres treated by 20 
percent over the next 3 years. This will not only increase 
forest health but it will increase jobs and increase timber 
harvest to 3 billion board feet. Now, how are we going to get 
this done? Well, I have a series of opportunities I want to 
share with you.
    And the first one is to increase our collaboration with 
projects like the Collaborative Forest Landscape Restoration 
Program, which is proving to be a very effective model for 
increasing the amount of work that is being accomplished and 
increasing the number of jobs that are being created. We want 
to be able to demonstrate that we can restore more acres with 
our pilot authority for a more efficient integrated resource 
restoration budget structure. We are going to complete our 
wildland fire management strategy that will reduce wildland 
fire hazards to communities by thinning forests, helping 
private landowners to remove fuels and hazards on their 
property, and increasing the effectiveness of our suppression 
efforts.
    We are going to continue to implement our bark beetle 
strategy to deal with 18 million acres of dead and dying timber 
out West on our National Forests by focusing our timber harvest 
in areas to protect the public and communities and slowing the 
spread where we can. We want to continue to work with Congress 
to make permanent our stewardship contracting authority, which 
has proven to be a very effective tool to increase the 
implementation of restoration work, timber harvest, and 
increase jobs. And we need to continue to explore ways to 
expand our markets for wood products through our work at our 
Forest Products Lab and to continue to develop the science: on 
how we need to manage our forests to protect wildlife, to 
provide clean water, to provide the recreational settings that 
170 million people enjoy every year.
    And then, of course, we are going to move forward with 
implementing our new planning rule, which is going to reduce 
the time, reduce costs to revising our plans to ensure that our 
Forest Plans address the need for restoration of our National 
Forests. We are also working on improving the efficiency of our 
NEPA processes through our work with CEQ to reduce the time and 
cost of doing analyses saving time and be able to implement the 
projects and put people back to work.
    The opportunities are here for us to increase the health of 
our National Forests and I look forward to working with 
Congress to implement these opportunities. Restoring our 
National Forest to ensure that they provide the benefits, the 
goods and services, the benefits of clean water, clean air, 
wildlife habitat, the recreational opportunities like hunting 
and fishing, the economic activity that employs hundreds of 
thousands of Americans, it is a good investment for America.
    Again, thank you for the opportunity to address the 
Subcommittee and I look forward to answering your questions.
    [The prepared statement of Mr. Tidwell follows:]

  Prepared Statement of Tom Tidwell, Chief, U.S. Forest Service, U.S. 
              Department of Agriculture, Washington, D.C.
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to present the views of the U.S. Department of Agriculture 
regarding U.S. Forest Service Land Management: Challenges and 
Opportunities for Achieving Healthier National Forests.
    Today, people understand that forests provide a broad range of 
values and benefits, including biodiversity, recreation, clean air and 
water, forest products, erosion control and soil renewal, and more. We 
have National Forests in 42 states and Puerto Rico that comprise a land 
area of nearly 193 million acres. Our mission is to sustain the health, 
diversity, and productivity of the nation's forests and grasslands for 
present and future generations. The Forest Service does this through 
working with numerous Federal, state, and local partners, citizens, and 
industry.
    Our collective ability to sustain the nation's forests and provide 
ecosystem services is increasingly at risk. Drought, invasive species, 
loss of open space, uncharacteristically severe wildfires, 
uncharacteristically severe outbreaks of insects and disease--all these 
stresses and disturbances are affecting America's forests on an 
unprecedented scale.
    The Forest Service is responding by restoring the functions and 
processes characteristic of healthy, resilient ecosystems. Our goal is 
to sustain and restore ecosystems that can deliver all the benefits 
that Americans want and need. Due to changing climate, we may not be 
able to restore them to their original condition, but we can move them 
toward ecological integrity and health. The Forest Service recognizes 
that increasing the pace and scale of restoration and active management 
of the National Forests is critically needed to address these threats 
to the resiliency of our forests and watersheds and the health and 
safety of America's forest-dependent communities.
    The Forest Service also recognizes the need for a strong forest 
industry to help accomplish forest restoration work. A vibrant industry 
can provide both the manpower and the know-how to undertake mechanical 
treatments and other restoration activities. Forest industry also 
lowers the cost of restoration to the taxpayer by providing markets for 
forest products. The Forest Service is committed to increasing the 
number of acres being mechanically treated by 20% over the next 3 
years. This increase would allow the Forest Service to increase the 
number of acres and watersheds restored across the system, while 
supporting jobs and increasing annual forest products sale to 3 billion 
board feet of timber. A critical part of this effort is building public 
support for forest restoration and management activities. To this end, 
the Forest Service continues to emphasize the importance of 
collaboration among diverse stakeholders in developing restoration 
projects on National Forest lands. Such collaboration not only results 
in better projects, but it also reduces the risks of litigation.
    An additional benefit of this restoration work is job creation. For 
example, through implementation of the Collaborative Forest Landscape 
Restoration Program (including the use of stewardship contracts), the 
proponents of projects on National Forest lands anticipate creating or 
maintaining 1,550 jobs. The benefits of maintaining a robust forest 
industry flows not only to local communities but also to the Forest 
Service itself as the agency relies on local forest contractors and 
mills to provide the work force to undertake a variety of restoration 
activities. A study has shown that every million dollars spent on 
activities like stream restoration or road decommissioning generates 
from 12 to 28 jobs.\1\ In addition, restoring the health and resilience 
of our forests generates important amenity values. Healthy, resilient 
forests and grasslands are magnets for outdoor recreation, with more 
than 170 million visits per year to the National Forest System. That in 
turn leads to jobs and economic opportunity.
---------------------------------------------------------------------------
    \1\ Cassandra Moseley and Max Nielson-Pincus, ``Economic Impact and 
Job Creation from Forest and Watershed Restoration: A Preliminary 
Assessment'' (Ecosystem Workforce Program Briefing Paper #14; winter 
2009; Institute for Sustainable Development, Eugene, OR).
---------------------------------------------------------------------------
    The Forest Service continues to work toward restoring more land to 
accomplish restoration objectives, maintain a robust forest industry, 
and in turn create jobs. We are striving to efficiently implement 
existing programs and policies, as well as pursuing a number of new 
policies and initiatives to increase the pace of forest restoration and 
conservation through collaboration and management of the National 
Forests. The aim of these efforts is to move beyond the conflicts which 
have characterized forest policy in the past and toward a shared vision 
that allows environmentalists, forest industry, local communities, and 
other stakeholders to work collaboratively toward healthier forests and 
watersheds, safer communities and more vibrant local economies.
    Within the framework of the overall restoration program, the Forest 
Service is focused on the role of active forest management--including 
hazardous fuels reduction, reforestation, stream restoration, road 
decommissioning, forest thinning and harvesting, prescribed fire, and a 
range of other practices--as important tools to accomplish needed 
restoration work. The following are a series of actions that will allow 
the agency to further restoration and management on the National 
Forests:
    Investing in restoration projects with partners though the 
Collaborative Forest Landscape Restoration (CFLR) Program. In Fiscal 
Year 2012, the Forest Service received slightly less than the full $40 
million authorized by the CFLR Act. The Secretary funded ten new 
projects, in addition to the continued funding for ten projects 
selected in 2010. Three additional high priority collaborative projects 
were also funded from other appropriated FS funding. These 23 projects 
have demonstrated that collaboration among stakeholders can facilitate 
large, landscape scale restoration, thereby improving forest health, 
reducing wildfire risk, restoring fire-adapted ecosystems, and 
increasing timber and biomass production from our National Forests.
    Current CFLR projects range from longleaf pine restoration in 
Florida to restoration of several forest types on both public and 
private land in the Sierra Nevada. One example is the Four Forest 
Restoration Initiative in Arizona, where we are working with partners 
to implement a collaborative landscape-scale restoration strategy 
across 2.4 million acres on the Coconino, Kaibab, Apache-Sitgreaves, 
and Tonto National Forests. This project will implement treatments in 
dry ponderosa pine that is overgrown and in need of thinning and under-
burning to restore the role of fire in this fire-adapted forest type.
    Watershed Condition Framework (WCF). This framework provides a 
consistent and comprehensive approach for classifying the condition of 
the 15,000 watersheds that comprise the National Forests and 
Grasslands, and for prioritizing our restoration needs. The WCF informs 
project planning by identifying the essential suite of projects to 
improve a watershed's condition and aids in project location 
effectiveness. The WCF also will inform Integrated Resource Restoration 
project planning and implementation.
    Integrated Resource Restoration (IRR).--This approach is a better 
way for the agency to align its budgeting to focus on landscape scale 
restoration projects across resource areas, and with partners, by 
combining the restorative focus of several line items into a single 
item. It combines work done under vegetation and watershed management, 
forest products, wildlife and fish habitat management, hazardous fuels, 
legacy roads and trails, and road decommissioning into a single 
account. IRR will provide the Forest Service flexibility to focus on 
priority work using a more integrated approach to management and allows 
the needs of the land to drive what work gets done. In FY12 this 
program is being piloted in Forest Service Regions 1, 3, and 4. The 
emphasis in these regions will be on program integration, and the 
outcomes will be measured using traditional targets such as timber 
volume sold, miles of road decommissioned, acres of hazardous fuels 
treated, and miles of stream habitat restored, while also including new 
measures related to the watershed condition framework. The three pilot 
regions, located in North Dakota, Montana, Idaho, Nevada, Utah, western 
Wyoming, Arizona, and New Mexico, have already determined the condition 
class of all 5,926 watersheds containing significant portions of NFS 
lands. Among them, 78 priority watersheds were selected for restoration 
activities in the next 3 to 5 years. The IRR pilot regions will have 
increased flexibility to focus restoration treatments on the priority 
watersheds in a more efficient manner.
    National Cohesive Wildland Fire Management Strategy. (Cohesive 
Strategy)--The Federal Land Assistance, Management, and Enhancement 
(FLAME) Act of 2009 charged the Secretaries of Agriculture and Interior 
to create a cohesive wildfire management strategy. Federal Land 
Managers responded by working through the Wildland Fire Leadership 
Council to direct the development of the Cohesive Strategy. The 
Cohesive Strategy is a collaborative process with active involvement of 
all levels of government and non-governmental organizations, as well as 
the public, to seek national, all-lands solutions to wildland fire 
management issues. The Cohesive Strategy addresses the nation's 
wildfire problems by focusing on three key areas: (1) Restore and 
Maintain Landscapes, (2) Fire Adapted Communities, and (3) Response to 
Fire.
    The Cohesive Strategy will soon be moving into Phase III where a 
trade-off analysis of national risk will be conducted. We expect one 
result will be a better understanding of how the Forest Service can 
play a larger role in restoring and maintaining fire-adapted ecosystems 
and landscapes within an all-lands context. This understanding should 
help focus and support efforts that I've already described under 
Integrated Resource Restoration and the Collaborative Forest Landscape 
Restoration Program.
    The Forest Service Bark Beetle Strategy.--Bark beetles have 
impacted nearly 18 million acres of National Forest System lands. The 
Bark Beetle Strategy, developed in 2011, focuses management efforts on 
priority treatment areas to ensure human health and safety and to 
reduce hazardous fuel conditions. In FY 2011, a total of approximately 
16,800 acres were treated to reduce safety hazards to forest visitors, 
50,100 acres were reforested, and 237,000 acres were thinned to improve 
resilience, producing approximately 300 million board feet of timber, 
153,800 green tons of biomass, and resulting in removal of hazard trees 
along 978 miles of road.
    Use of Stewardship Contracting.--This tool helps the Forest Service 
to acquire additional restoration services. Stewardship contracting 
allows the Forest Service to offset the value of the services received 
with the value of forest products removed pursuant to a single contract 
or agreement. Reauthorizing this authority and expanding the use of 
this tool is crucial to our ability to collaboratively restore 
landscapes at a reduced cost to the government. In Fiscal Year 2011, 
19% of all timber volume sold was under a stewardship contract and 
funded activities such as watershed and wildlife habitat improvement 
projects, trails projects, road decommissioning, and hazardous fuels 
reduction.
    Expand markets for Forest Products. Struggling markets have made it 
more difficult for the Forest Service to undertake restoration 
projects. The Forest Service is taking steps to assist in the 
development of new markets for woody biomass utilization and green 
building materials by working toward providing a reliable and 
predictable supply of biomass for potential investors through 20 
coordinated resource offering protocol studies. In addition, the Forest 
Service is working in partnership with two other USDA Agencies on 12 
Wood to Energy emphasis areas that will assist in creating jobs. The 
Forest Service continues to promote wood as a green building material.
    Rigorous, applied research supports new and emerging markets with 
innovations that enhance and diversify the forest products industry. 
The Forest Products Lab (FPL), located in Madison, Wisconsin, plays a 
key role in research related to forest products markets. The FPL's 
mission is to identify and conduct innovative wood and fiber 
utilization research that contributes to conservation and productivity 
of the forest resource, thereby sustaining forests, the economy, and 
quality of life.
    Since 1993, the Forest Products Laboratory (FPL) has focused some 
of its research effort on characterizing small-diameter logs and woody 
biomass, identifying potential uses, and providing technology that can 
help rural-based communities create successful businesses from the by-
products of sustainable forest management. FPL research projects are 
exploring the potential of the small-diameter roundwood as a structural 
material for uses such as bridges, boardwalks, trail structures, picnic 
shelters, storage sheds, and other rustic-type buildings. Other FPL 
research is finding other innovative ways to use underutilized woody 
biomass.
    Restoration Research.--Our research staff develops new technologies 
and brings cutting-edge science to land managers that bears on the 
sustainable management of the nation's forests and rangelands. Long-
term research from our experimental forests and rangelands contribute 
to an understanding of the impacts of forest disturbance on natural and 
cultural resources. This knowledge assists land managers in forest 
restoration--restoring the functions and processes characteristic of 
healthy forested ecosystems.
    To restore Sierra Nevada forest ecosystems, for example, our 
researchers have recommended an emphasis on the ecological role of 
fire, adaptive strategies for changing climate conditions, and the 
importance of diverse forest structures. In the South, Forest Service 
research has helped focus our Longleaf Pine restoration efforts. There 
the objective is to reestablish the natural structure and function in 
these ecosystems by adjusting species composition, modifying stand 
structure, and facilitating ecological processes, such as periodic fire 
and longleaf pine regeneration.
    Implement a new forest planning rule.--The new rule corrects the 
inefficiencies of the 1982 planning procedures and provides a modern 
framework for planning in order to sustain and restore the health and 
resilience of our National Forests. The final rule provides an 
efficient planning process to guide management of National Forest 
System lands so that they are ecologically sustainable and contribute 
to social and economic sustainability, with resilient ecosystems and 
watersheds, diverse plant and animal communities, and the capacity to 
provide people and communities with a range of uses including timber, 
grazing, minerals and energy as well as hunting and fishing, 
sustainable recreation, wilderness, and cultural uses.
    This rule was developed in the most collaborative effort the agency 
has ever used in rule making, possibly ever in its history. The rule 
reflects what people told us as well as the experience of the agency 
gained over thirty years of land management planning. We have created a 
final rule that emphasizes restoration, public involvement, and 
sustainable management to provide benefits and services both today and 
for future generations.
    New Objections Process.--Another tool that has been helpful in 
building relationships and improving agency decision making is use of 
the objections process prior to a decision, rather than using an 
appeals process after a decision is made. Our experience with the 
objections process for hazardous fuel reduction projects authorized 
under the Healthy Forest Restoration Act indicates that the process 
tends to increase direct dialogue between the agency and stakeholders 
and often results in resolution of concerns before a decision is made, 
and thus better, and more informed decisions result. One example is the 
Sportsman's Paradise Fuels Reduction Project on the Mt. Hood National 
Forest. This project was initiated by local homeowners, who along with 
the Oregon Department of Forestry and an environmental group worked 
collaboratively to develop recommendations for the District Ranger. The 
most positive aspect of this effort is that the Sportsman's Paradise 
homeowner's group, which previously had not engaged with the Forest 
Service became an active participant in the project planning process 
resulting in new relationships. The Mt. Hood National Forest received 
an objection from a participating environmental group. After 
discussions with the group, the District Ranger made some minor 
revisions to the project which resulted in the group withdrawing their 
objection. Upon implementation, the authorized work will reduce the 
risk of potential catastrophic fire loss for approximately 900 acres 
surrounding the Sportsman's Paradise community of approximately 170 
lots.
    The 2012 Consolidated Appropriations Act includes a provision for 
the Secretary to expand and establish a pre-decisional objection 
process in lieu of the appeal requirements of the Appeal Reform Act. 
This provision allows the agency to apply the positive experience 
gained from use of the pre-decisional objections process for Herger 
Feinstein Restoration Act authorized fuel reduction projects. We have 
begun work on drafting the regulations.
    Improved efficiency of the National Environmental Policy Act (NEPA) 
process for restoration.--A robust comprehensive and extensive 
Planning/NEPA program is needed to accomplish the hundreds of thousands 
of acres of natural resource projects we do across the country each 
year. We continuously strive to save time and money in this program. 
The agency has initiated a NEPA learning networks project to learn from 
and share the lessons of successful implementation of streamlined NEPA 
analyses. The goal of this effort is to ensure that the agency's NEPA 
compliance is as efficient, cost-effective, and up-to-date as possible. 
Specifically we are looking at expanding the use of focused 
environmental assessments (EAs), iterative environmental impact 
statement (EIS) documentation, expanding categories of actions that may 
be excluded from documentation in an environmental as or an 
environmental impact statement, and applying an adaptive management 
framework to NEPA. Our landscape-scale NEPA projects will also increase 
efficiencies by analyzing across broad swaths of land, avoiding 
repetitive NEPA analysis. For example, our Mountain Pine Beetle 
Response Project on the Black Hills National Forest will implement a 
landscape-scale adaptive approach for treating future pine beetle 
outbreaks. We are also preparing for the NEPA decision on the Four 
Forest Restoration Initiative project in the Southwest for landscape-
scale forest restoration projects.
    In summary, in the 21st century the Forest Service will continue to 
strive to adopt and improve our ability to meet our mission of 
sustaining the health, diversity and productivity of the nation's 
forests and grasslands for present and future generations. Doing so 
will require working closely with our partners, including Congress and 
local governments.
    I want to thank the Committee for its interest, leadership, and 
commitment to our National Forests, their surrounding communities and 
the forest products infrastructure.
    This concludes my prepared statement and I would be pleased to 
answer any questions you may have.

    The Chairman. Thank you, Chief, for your testimony.
    The chair would like to remind Members that they will be 
recognized for questioning in order of seniority for Members 
who were here at the start of the hearing. After that, Members 
will be recognized in order of arrival and I appreciate the 
Members' understanding.
    I now will recognize myself for 5 minutes.
    Once again, Chief, thanks for your leadership and your 
testimony. I am going to come right back to the thing I led 
with in my opening statement. Most National Forests are not 
harvesting anywhere near how much their individual Forest Plans 
call for as a sustainable yield. And how specifically will the 
preferred Planning Rule encourage more harvesting on National 
Forests? How far will that move us towards meeting those 
sustainable yield goals?
    Mr. Tidwell. Well, Mr. Chairman, with our new Planning Rule 
as we move forward to revise our current plans, this Planning 
Rule will require that we have components that address the 
restoration needs on our National Forests. So it will be 
required that every forest will address what needs to be done 
out there on those National Forests to ensure that we are 
providing for healthy, productive National Forests.
    From that effort, by working with the public, we also are 
required in this new plan to be able to establish what is going 
to be the expected timber harvest. I think this will be a 
better approach than what we did under the 1982 rule where we 
developed an allowable sale quantity that basically set a 
maximum amount of harvest which could occur but it never did 
predict what we would expect to be able to produce when we deal 
with all the multiple use and also with the budgets we can 
expect. So under this Planning Rule, we are going to have a 
much better estimation of the amount of harvest that is going 
to occur, the amount of biomass that needs to be removed, and I 
think it will prove to be a better approach, especially for 
industry to be able to make their investments around those 
numbers versus what we did with the 1982 rule.
    The Chairman. Thank you. I remain troubled by the Forest 
Service's apparent reluctance--and I expressed my concern in 
our hearing last May--to deal with the viability standard. The 
language in the existing rule has been a magnet for litigation 
and so my question is why hasn't the Forest Service acted to 
improve the viability standard?
    Mr. Tidwell. Well, Mr. Chairman, I share your concerns with 
the problems we had with the 1982 rule when it came to 
viability for two reasons. Our approach that we used in 1982 
rule didn't work. The approach of using management indicator 
species is not science-based and it did not produce the results 
that we wanted to ensure we had wildlife diversity. With our 
new Planning Rule, we have taken an approach to focus on 
providing the ecological conditions, the habitat that species 
need to be able to thrive. And we believe by focusing on the 
habitat that we are going to satisfy the majority--85, 90 to 
maybe 95 percent--for all the needs for wildlife diversity.
    In those few cases where we need to do something else, 
where there is scientific evidence that we need to do something 
else to ensure a species doesn't trend towards listing, then we 
will take some additional steps to deal with the viability of 
those species. And we want to use an approach that is science-
based and will do a better job, first of all, to provide for 
wildlife and to ensure that we are doing what we can to prevent 
a species from being listed.
    The Chairman. In my district within the multiple uses, 
shale gas production obviously is one viable use and it has 
ramped up dramatically. There is a strong chance that some 
level of production will be occurring in the National Forest 
since 93 percent of the mineral rights are privately owned. 
Have you given any thought to forests like the Allegheny? How 
would this preferred Planning Rule impact water withdrawals in 
areas such as the Allegheny National Forest?
    Mr. Tidwell. The question was how would it affect water?
    The Chairman. The water withdrawal which is kind of a key 
component for shale gas, for the process of extracting shale 
gas. There is a large water requirement.
    Mr. Tidwell. Well, with the new Planning Rule, we will be 
required to address the access needs and to also be able to 
have a component that addresses energy production. And so we 
will be required to be able to look at what we need to do on a 
forest like the Allegheny to ensure that we have the standards 
and guides in place that will allow the private interests to be 
able to access their private minerals.
    As far as the water that is necessary, we are going to be 
focused on the surface impacts to minimize those as much as we 
can. But as far as the water, we will work with the state 
through the state's requirements to deal with subsurface water 
or in a few cases where there are federally owned minerals 
working with the BLM. But the focus for the Forest Service is 
going to be on managing that surface resource.
    The Chairman. Okay. Thank you.
    I now recognize Mr. Schrader, for 5 minutes.
    Mr. Schrader. Thank you, Mr. Chairman. I appreciate you 
having this hearing today. I think it is extremely important. I 
think everybody is concerned about the health of our National 
Forest and I agree with your comment about them being National 
Forests and not National Parks. And so we have to look at a new 
paradigm.
    I would suggest--and I am really worried, Chief--that the 
management styles we have tried in the past and despite all 
your best efforts and the agency's best efforts that given the 
litigious society we live in that so far it is not working, 
just not working. So while I wish you the best on your new 
approach, I would like to see the Committee get your targets 
for the new plan and how the plan is going to be implementing 
them and hopefully some benchmarks as we hit those going 
forward.
    The biggest concern I guess I have along the lines of my 
opening remark here is that we are not focusing on the health 
of the communities that live and nest inside our National 
Forests, and despite these strategies, the overstock is 
growing. And I would ask one basic question up front. Why is it 
that most states and local communities actually are able to 
harvest at a greater level and still provide the sustainable 
benefits you describe with the diverse species, healthy streams 
and that sort of thing? Why are they harvesting at higher 
levels for their small acres than our National Forest?
    Mr. Tidwell. Well, Congressman, I think one of the 
differences is that our mandate to manage the National Forest 
under multiple use where we need to address all of the 
different benefits that the public wants and needs off of these 
lands and then be able to find that----
    Mr. Schrader. So you are suggesting that the states and 
counties don't have that same goal?
    Mr. Tidwell. I think at least my experience with states and 
a few counties is that they are often under state law required 
to look at how to maximize more of the revenue to provide for 
State School Trust, for instance.
    Mr. Schrader. Well, that is not true in my state. I can 
tell you that much. And I will tell you that both in our state 
forests and on our county forests we actually do a better job 
of harvesting timber while meeting all the same guidelines in 
terms of diverse multiple use that you are talking about.
    How has our strategy worked with regard to the bark beetle? 
How many acres are not being infested now as a result of the 
strategy that the National Forest Service is implementing?
    Mr. Tidwell. Well, the bark beetle strategy has been 
focused on providing for public safety and community safety and 
then in the few areas where we can make a difference to slow 
the spread is where we have been focused. So the bark beetles' 
spread is actually starting to decline but it is primarily in 
areas where we just basically are running out of forested 
areas, at least mature forested areas where the bark beetles 
have actually run through that area. We are having some limited 
success in places like the Black Hills. We are in the Ponderosa 
Pine type where we are trying to quickly move to each of the 
new outbreaks and be able to deal with that small area to be 
able to slow down that----
    Mr. Schrader. How about my neck of the woods, which is 
Oregon and Northern California?
    Mr. Tidwell. We are using the same strategy there, when we 
see a new outbreak to be able to move quickly in there, to be 
able to take out the trees that are infested, to be able to 
slow down that spread.
    Mr. Schrader. So it is still spreading. That would indicate 
to me it is not working very well.
    Mr. Tidwell. The bark beetles are a native pest and we have 
always had to deal with bark beetle infestation.
    Mr. Schrader. So are we doing better with the emerald ash 
borer, gypsy moth and some of these others? Are we doing much 
better with them, then?
    Mr. Tidwell. We are struggling with all the invasives. The 
emerald ash borer is another significant problem, especially 
here in the East. And it is one of the things that it is 
essential that we are able to maintain our research efforts to 
be able to try and find some type of a biological control for 
that pest.
    Mr. Schrader. With all due respect it doesn't sound like we 
are being as successful perhaps as we would like to be. And I 
hope that with the new rule and new orientation that we will be 
doing a little bit better.
    You refer to the Collaborative Forest Landscape Restoration 
Program. Those are good initiatives. We have some of those in 
my home State of Oregon and really like them. How many are 
there if I may ask?
    Mr. Tidwell. With the Fiscal Year 2012 appropriations bill, 
we were able to receive full funding for that authority and so 
we now have 20 projects that have been identified and we have 
three more that we hope to bring on next year.
    Mr. Schrader. So that is not a whole lot across the United 
States of America. It is hard for me to conceive we are going 
to get to even your limited target increase of 3 billion board 
feet when we have only 20+ projects that really seem to be 
making a difference, and offering a new approach. Do you really 
think you are going to hit your targets with 20 projects?
    Mr. Tidwell. The Collaborative Forest Landscape Restoration 
Projects are just part of our strategy to move forward. But 
they will provide the model about how to look at much larger 
landscapes. Many of these projects are looking at 100,000 acres 
at a time. That is where we can really make a difference, to be 
able to use these projects as a model, to be able to 
demonstrate the difference by looking at large landscapes with 
a commitment to provide the funding over multiple years. It is 
going to encourage investment to be able to make sure that the 
mill owners and the loggers have the equipment that they need 
to be able to do the work. And so we expect that through these 
demonstration areas we can then encourage this approach across 
much larger areas than we currently are.
    Mr. Schrader. In Oregon where we are looking at different 
ways to manage what has been known historically as our O&C 
lands. We are maybe looking at turning some of them over to the 
National Forest Service, for work and stewardship while also 
providing a trust concept to manage some of the lands. We want 
to find that balance between preserving our old growth and 
making sure that the values in different parts of my state are 
respected. There has been a discussion draft circulated 
regarding the strategy and approach there. I wonder if you have 
seen it and if you could comment on that.
    Mr. Tidwell. Congressman, I haven't seen that discussion 
draft but I will look forward to having the opportunity to look 
at it and look forward to working with you to find this 
balance. It is one of the things we spend a lot of our time on, 
finding this balance of the different uses on every piece of 
our National Forest.
    Mr. Schrader. Well, those people that think setting them 
aside is the answer and we see that is not the case based on 
your testimony. And there are those that think that thoughtful 
management under some of the states' Forest Practice 
Managements Act and setting aside a certain amount of 
wilderness but setting aside some certainty for our communities 
and our employers that would like to get jobs created back in 
America is where we should be going. And I will make sure you 
get that draft, sir. Thank you for coming.
    Mr. Tidwell. Thank you.
    The Chairman. I thank the gentleman. I now recognize the 
gentleman from Wisconsin, Mr. Ribble, for 5 minutes.
    Mr. Ribble. Thank you, Mr. Chairman.
    Chief Tidwell, thanks for being here. I also want to 
express my personal appreciation to you for attending a 
forestry conference that I hosted in Rhinelander, Wisconsin. 
And it was very beneficial for those folks that care about our 
forests in Wisconsin to have you there, and I very much 
appreciated your time.
    I want to just read a quote from your testimony and then 
just talk a little bit about that. ``Our collective ability to 
sustain the nation's forests and provide ecosystem services is 
increasingly at risk. Drought, invasive species, loss of open 
space, uncharacteristically severe wildfires, 
uncharacteristically severe outbreaks of insects and disease, 
all of these stresses and disturbances are affecting America's 
forests on an unprecedented scale.''
    Mr. Tidwell. Yes.
    Mr. Ribble. Well, it seems to me that all of these threats 
except drought could be improved by using the army of experts 
already available to us that are provided by the U.S. timber 
industry. And it would be at no cost to the taxpayers simply by 
allowing and speeding up the process for them to harvest 
timber. I mean if we have a loss of open space, let's take some 
trees out. Wildfires, as you are aware, are caused by a bunch 
of different sources--drought being one of them--but also space 
that is too compact. Invasive species and outbreaks of insects 
and diseases can happen when we have single types of trees 
growing in a single area. And all of these are improved by a 
more robust management of the forest.
    I would like to ask a question specific to my district at 
the Chequamegon National Forest. Right now, the plan that the 
Forest Service has is to allow roughly 130 million board feet 
per year to be harvested there but we are only harvesting at 50 
percent of that level. I am curious. This has been going on for 
a number of years. Why does this continue to happen and what 
can we as Congress do to facilitate your agency to use the 
resources more efficiently so we can harvest more timber there?
    Mr. Tidwell. Congressman, once again, the allowable sale 
quantity is a requirement that we had in our 1982 regulations 
that established the maximum amount of harvest. The amount that 
is harvested each year is based on the analysis of the work 
that needs to be done and then the ability to get those 
decisions implemented. On your forest in the past we have 
struggled a little bit with the appeals and litigation. I am 
pleased to know that our folks have now worked through some of 
those issues and that some of our previous decisions that were 
held up, we are now going to be able to move forward with 
those.
    And so the way to move forward to be able to do more of the 
work that we need to do there is to continue to work with the 
communities to be able to reach agreement on the type of work 
that needs to be done and then to move forward and to be able 
to use that integrated wood products industry, those skilled 
folks that know how to do the work. We rely on them to be able 
to do this work.
    We also want to be able to look at much larger areas so it 
would improve our NEPA efficiencies so we are not spending as 
much time or as much of our funding on doing the analysis, but 
to be able to look at these large areas so that we can do one 
analysis that will cover tens of thousands of acres at one time 
and to be able to allow that amount of work to go forward over 
the next few years.
    We are also looking at how we can be more efficient in our 
timber sale layout, to do some things like sample weight 
scaling or designation by prescription, instead of doing the 
level of marking that we have done in the past so that we can 
be more efficient with our resources so we can actually get 
more work done.
    But you are right. We rely on the timber industry to be 
able to do the work that needs to be done in these National 
Forests, and it is essential that we work together to be able 
to find ways to get more of these acres treated, get more of 
this biomass removed that needs to be removed and thus create 
more jobs and keep those mills operating.
    Mr. Ribble. I am glad you mentioned NEPA. Are there reforms 
that need to happen there to basically lower timber sale costs 
and speed up the process? Are there things that we ought to be 
looking at on NEPA?
    Mr. Tidwell. Well, we are. We are looking at several things 
that NEPA allows us, and one of them is to look at using what 
we are calling an adaptive EIS. We look at hundreds of 
thousands of acres at one time, and to develop the analysis in 
the way that not only will address the issues we need to deal 
with today but also will allow us to move toward the next--
where we have an insect and disease outbreak or if we have a 
windstorm that comes through--to be able to move forward and do 
that work without any additional analysis.
    The other thing that we are working very closely with CEQ 
is how to do a better job to focus our analysis. We are 
definitely doing more analysis than we need to and most of this 
has been driven by past court decisions. And I accept the 
knowledge that we have a tendency to take the last ruling and 
then apply it across the board whether we probably need to or 
not. So we are doing a better job stepping back and really 
doing more of a focused NEPA just to address the issues that 
need to be addressed. And CEQ has been very helpful to provide 
some guidance on this to help our folks have a little more 
confidence.
    The challenge that our employees have is that they know if 
we do this outstanding level of NEPA analysis, we can get the 
decision implemented. For them to take a chance to do a little 
bit less, it is not just that that project is not going to go 
forward; it is also that the jobs are not going to be created. 
There is opportunity of potential for another mill to close. So 
it puts a lot of pressure on our folks to make sure that as 
they move forward that they can implement this and be 
successful because that is what we are focused on is getting 
the work done, not just completing the analysis, not just 
making a decision. We want to be able to implement that 
decision. So our work with CEQ is going to help build more 
confidence about how we can do this to be more effective, more 
efficient and really be able to reduce the amount of time we 
are spending on doing our analysis but at the same time to be 
able to address the issues, provide for the protections for the 
environment that the public wants, but at the same time, 
improve the health of our National Forests.
    Mr. Ribble. Okay. Thank you very much, Chief. Again, thank 
you for being here.
    Mr. Chairman, sorry I went over time. If there is a little 
chance to circle back, I would appreciate that. And I yield.
    The Chairman. I thank the gentleman and now it is my 
pleasure to recognize Mr. Sablan, for 5 minutes.
    Mr. Sablan. Thank you very much, Mr. Chairman.
    And good morning, Mr. Tidwell, Chief, welcome.
    You were discussing earlier in your testimony that the 1982 
viability rule didn't work and you said the new rule focused on 
it. How exactly is the new rule adjusted to make work what 
didn't work in the 1982 rule?
    Mr. Tidwell. Well, the 1982 rule we relied on what is 
called management indicator species. We relied on being able to 
track the population of an individual species that would then 
indicate that we are providing for the diversity of wildlife in 
the whole. And the science has borne out that that approach 
doesn't work. So what we are doing with the new Planning Rule 
is to take the approach to focus on providing ecological 
conditions, the habitat needs of species to be able to provide 
for by far the majority of the species. And then when we have 
situations where there is scientific evidence that there is a 
species at risk, then we are required to take some additional 
steps to ensure we are doing what we can to provide those 
additional habitat requirements to ensure we are doing what we 
can to prevent listing. This is a better ecological approach 
that in our view will do a better job to provide for diversity 
and where we need to address the viability of specific species.
    Mr. Sablan. And thank you. I join my colleague from Oregon 
in looking forward to the new rule working.
    In the second panel, one of the witnesses sets the cost of 
Forest Service for NEPA compliance at over $300 million, $356 
million exactly. Is the Forest Service the source of this 
estimate?
    Mr. Tidwell. Could you please restate the question? I am 
sorry; I couldn't hear it.
    Mr. Sablan. On the second panel there will be a witness, 
Mr. Watkins, who sets the cost of the Forest Service for NEPA 
compliance at $356 million. Is the Forest Service the source of 
this estimate, and if so, how was it determined? How did they 
come up with $356 million? Because I am leading to a second 
question.
    Mr. Tidwell. Well, that is the cost for doing all the NEPA 
analysis that we do that deals with forest restoration, timber 
harvest, along with everything else that we do. We do about 
3,600 analyses each year in the Forest Service, and so some of 
the things that I have laid out about how to do a better job is 
to focus on much larger landscapes to be able to address all 
the restoration needs through one decision. Those are going to 
increase the efficiency and it is my expectation that we will 
be able to reduce the costs of doing that analysis.
    Mr. Sablan. So the $356 million is fairly accurate?
    Mr. Tidwell. It is.
    Mr. Sablan. And it comes from your----
    Mr. Tidwell. Yes.
    Mr. Sablan. So are you saying that the EIS that you 
referred to earlier reduced NEPA compliance?
    Mr. Tidwell. It won't reduce NEPA compliance; it will just 
allow us to be able to do a better job to meet NEPA compliance. 
And so it is just so that we will be more efficient to be able 
to do the analysis that needs to be done and not to do 
additional analyses that really aren't necessary to address the 
issues that have been raised through the public involvement 
process.
    Mr. Sablan. Thank you, Mr. Tidwell. I come from the islands 
so we are not one of the 42 states. I am from Northern Mariana 
Islands and I can understand my colleagues' concerns also and 
your relationship with the timber industry. We import our 
timber from Oregon, too, so we still have to ship that.
    But we thank you, sir, for all you do and thank you for 
joining us this morning.
    And I yield back, Mr. Chairman.
    The Chairman. I thank the gentleman, and now recognize the 
gentleman from Colorado, Mr. Tipton, for 5 minutes.
    Mr. Tipton. Thank you, Mr. Chairman.
    Thanks for being here, Chief Tidwell. I am pleased to hear 
some of your testimony. We have had a few conversations in 
terms of our ability to be able to harvest in Colorado downed 
or standing dead timber to be able to turn that into biomass to 
be able to keep a mill going and also some problems that we 
have with our utilities as well, being able to get in and clear 
out under those lines. But what do you see as the biggest 
impediment to managing forest in the bark beetle epidemic?
    Mr. Tidwell. You know, probably just the scale of the work 
that needs to be done right away to protect our communities and 
provide for the public safety. And then the biggest challenge, 
especially there in Colorado, is the loss of the 
infrastructure, the integrated wood products industry to be 
able to use this material and to be able to have markets that 
will offset the cost of removing it. That is, I would say, in 
Colorado one of the biggest challenges. And where I have worked 
in other parts of the country where we have lost that wood 
products industry, it is very expensive for us to be able, 
then, to do the restoration work to be able to thin out these 
forests not only to protect the communities from wildfire but 
just to improve overall forest health.
    That is why we are focused on doing everything we can to be 
able to maintain the infrastructure that we currently have and 
then in a few places be able to look at using long-term 
stewardship contracts to be able to provide the incentive for 
someone to come in and make a new investment, either in a new 
mill or in a new operation. Those are the things that I look at 
as some of the biggest challenges that we have.
    Mr. Tipton. Okay. Could you maybe describe for us a few of 
the ideas that you have in terms of our local Forest Service 
officers exercising creativity and having some regulatory 
flexibility to be able to address some of those concerns?
    Mr. Tidwell. Well, I have talked about the NEPA 
efficiencies----
    Mr. Tipton. Right.
    Mr. Tidwell.--so that we can look at these much larger 
landscapes, I mean instead of looking at 500 to 1,000 acres at 
a time, to be looking at tens of thousands of acres so that we 
can have one analysis that will cover a lot of country and 
provide a lot of work over many years. The other thing is 
through our stewardship contracts. We have found that this 
contracting authority has been very beneficial. We find that we 
have less appeals, less lawsuits when we are using stewardship 
contracting authority, and it allows us to be able to do 
multiple-year contracts, to have contracts up to 10 years that 
will encourage someone to make the investment.
    The other thing is to look at using all the flexibility we 
have with when we are laying out a project, instead of in the 
past, I often would go out there and mark every tree that 
needed to be cut. We have other flexibilities to be able to use 
either weight scaling or this designation by prescription so 
that we can lay out how we want the area to look afterwards and 
then be able to then let the timber operator go in there and 
remove the trees based on that prescription. And we find this 
is another way that we can save some of the cost and make it a 
little bit easier for us to be able to get more work done. 
These are some of the things that we are looking at.
    We also are doing everything that we can to work with the 
industry, especially with some of the past timber sale 
contracts that they have purchased when we had a better market 
and be able to do everything we can to adjust those rates, or 
in the case there in Colorado, to actually cancel some timber 
sales that just were no longer economically viable because it 
is essential that we do what we can to be able to maintain the 
industry.
    Mr. Tipton. Okay. Could you speak maybe briefly a little 
bit to the importance of the existing utility infrastructure on 
Forest Service lands, providing electricity to America which we 
need, and how we can help protect that?
    Mr. Tidwell. Well, it is essential that we work with 
utility companies, they can maintain their lines and that they 
are able to do the clearing underneath all those power lines so 
when we do get a fire started, we don't lose that line. So one 
of the things there with the challenges with the mountain pine 
beetle outbreak, especially in your state and other parts of 
the West, is that utility companies were faced with a much 
larger job to be able to clear those lines and not only the 
material underneath the lines but any of the trees that had 
fallen----
    Mr. Tipton. I am going to run out of time. Could you maybe 
just give a little touch and let us know are there any 
regulatory or legal impediments to the Forest Service to use 
contractors for the utilities themselves as contractors to be 
able to remove underneath the lines?
    Mr. Tidwell. I believe we have the flexibility in our 
current authorities to work with the utility companies to be 
able to remove what they need to underneath their lines and 
then also to be able to work with them to actually address 
adjacent areas, too. It is one of the things we are looking at 
is being able to use that contracting flexibility for not just 
within the permit but also how we can work together to be able 
to get more of the work done where they have the equipment in 
place.
    Mr. Tipton. So just to be clear, so you don't see any legal 
impediments----
    Mr. Tidwell. We are looking into our current authorities 
and I would like to get back to you on that. If I find that we 
have exhausted our flexibility and there is a need for 
additional flexibility, I would like to come back to you with 
that.
    Mr. Tipton. Okay. I would appreciate that. Thank you, sir.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman. I think we have a 
request for one more round if that is okay with the chief. And 
I will start that out with my 5 minutes.
    Chief, I want to come back to stewardship contracts. You 
had talked about those with Mr. Tipton and you obviously 
identified the key role that they play within our forests. I 
believe within your written testimony it was like 19 percent of 
the timber that was harvested was under stewardship contracts. 
And I appreciate that you identified the long-term--my question 
really has to do with the economic benefit to the communities. 
Now, obviously, there are some long terms that you address. The 
healthy forests are good for our communities because they keep 
that viable forest available for timbering and all the other 
uses and then obviously fire safety. And this is just a point 
of clarification; I am not sure about this. Do stewardship 
contracts have the same short-term economic benefits that other 
timber sales have in terms of monies coming back into the local 
counties and communities and school districts that a 
traditional timber sale would have?
    Mr. Tidwell. With the stewardship contract, there aren't 
any of the revenues that are set aside to go back to the 
counties. But the difference is that in the number of jobs that 
are created because through a stewardship contract we look at 
the landscape and look at all the work that needs to be done, 
and then we put together one contract that not only does the 
timber harvest but it also does the roadwork, the culvert 
replacement, the trail improvement. And all of that then 
creates jobs so that the revenue that would come from the 
biomass from the timber harvest, it goes back into the site to 
do more work. So it creates more jobs. So the economic benefits 
are in more jobs that are created through a stewardship 
contract versus a timber sale contract. We need both and we are 
going to continue to hopefully have both authorities so that we 
can look at any one project and pick what is the right tool. Is 
the timber sale contract the right tool or should we use a 
stewardship contract?
    The Chairman. Well, I appreciate hearing that because that 
would be what I would hope for is we would use it to expand 
both. The one thing I wouldn't want to see obviously is that 
that 19 percent of production next year go to 25 percent of 
production because that tells me that on the traditional timber 
sales--and you worked your way up the ranks to position chief 
so you have lived in those rural communities and you know how 
important economically the lifeblood is of timbering really is 
the key function within those communities. It can either crush 
a community or keep it economically viable.
    So you noted in your testimony that the market for forest 
products is critical for forest restoration efforts. And Forest 
Service policies have arguably contributed to the struggling 
markets that you reference. ``Dramatic reductions in timber 
sales in some parts of the country decimated market ecology of 
the local timber industry.'' And I would appreciate your 
thoughts on ways the Forest Service can partner with industry 
to facilitate the development of consistent, sustainable 
markets for forest products across the different regions of the 
National Forest System. What did you have in mind when you 
identified that in your testimony?
    Mr. Tidwell. Well, one of the things, we can do a better 
job to work with the industry to be able to lay out our planned 
program of work in conjunction with what is expected to come 
off of state or private land. For instance, right now, we have 
a very high demand for our timber sales. I think last year, 
even in this market which, as explained to me, one of the most 
difficult especially softwood markets that we have had in a 
long, long time, but we were able to sell 98 percent of the 
timber sales that we put up last year and that is because of 
being able to work together. And so in markets like this where 
we see a significant reduction in the amount of timber sales on 
private land there is a greater need for us to be able to work 
with the industry to be able to have more of our restoration 
work ready to go in times like this.
    These are the sort of things that, ideally, we need to be 
able to do a better job in the future to have more of an all-
hands approach on the work done, but at the same time, we are 
doing what we need to do to support the industry and especially 
in these tough times that we are facing right now.
    The Chairman. Thank you, Chief.
    And I recognize Mr. Schrader, for 5 minutes.
    Mr. Schrader. Thank you, Mr. Chairman.
    And thank you, Chief, for listening to us and responding to 
our concerns and questions.
    One of the species I am most worried about in the forest 
areas is called the human species and rural America is slowly 
dying on the vine here. I would hope that in your landscape 
NEPA analysis you would take that into account a little bit.
    In my state, the NEPA analysis does not work very well. In 
some of the testimony we are going to hear later it actually is 
so cost-prohibitive that very few sales get done and frankly a 
lot of the sales are not subscribed to at all. So that would be 
an indicator that indeed things are terribly wrong and I look 
forward to you changing things there.
    I would hope that part of the strategy might be to use HFRA 
1 and maybe even go to a HFRA 2. We are trying to work that 
through our process here to look at Class II and Class III 
lands. How are you trying to approach Class II and Class III 
forests?
    Mr. Tidwell. Well, we want to be able to look at the work 
that needs to be done on the landscape and then to be able to 
move forward and implement that decision. Once again we want to 
use all the authorities we currently have in place and to make 
sure that we are using the right authorities so that we 
actually can implement the decision. We made a lot of good 
decisions in the past and we often win in court. I mean we 
win----
    Mr. Schrader. Not in my state you don't.
    Mr. Tidwell. Well----
    Mr. Schrader. The other states you do but not my state.
    Mr. Tidwell. The majority of the time we will win, but what 
happens is it takes years. And so we will go 2 or 3 years----
    Mr. Schrader. You have a statement in here, Mr. Tidwell, 
``due to changing climate, we may not be able to restore 
them''--talking about our river and ecosystems--``to their 
original condition but we can move them toward ecological 
integrity and health.'' You know what the courts in Oregon say? 
They say even if originally the streams were at a certain 
temperature that is not necessarily conducive to anadromous 
fish, you have to do it even better than what history has. I 
mean that is the type of stuff we are up against in Oregon. You 
know, out West it is a little different than back East here. We 
have huge, huge obstacles to get this done.
    In your new landscape NEPA analysis, it is going to take 
longer because it is obviously watershed-wide and trying to be 
more comprehensive. What assurances do you have from the legal 
community or some of the more extreme environmental groups that 
they are not going to sue you on a project-by-project basis 
after you do all that work?
    Mr. Tidwell. Well, I am confident as we move forward and we 
do the work and we do the required analysis that we will be 
able to implement those decisions. The other thing that we see 
that is changing is that we have a lot of support from the 
conservation community and a lot of the environmental groups 
that want to work with us, and especially on these large-scale 
projects that----
    Mr. Schrader. Would you agree--I am sorry, again; I have 
limited time, too, and I apologize for interrupting. But would 
you agree that the constant litigation is a huge barrier to 
getting any of these management projects done in our National 
Forest?
    Mr. Tidwell. Litigation takes up a lot of time and has been 
a barrier. However, we are doing a better job to have less 
appeals and less litigation. In fact, last year in 2011 we only 
had three percent of our timber sales that were litigated, 
which is the lowest level of any time that I can ever remember. 
So these things that we are doing----
    Mr. Schrader. It is just not doing it.
    Mr. Tidwell.--this collaborative approach is making a 
difference.
    Mr. Schrader. Well, I appreciate that, Chief. I know your 
intentions are honorable and good and I don't want to be a 
contrarian. It is just that in the real world that I live in, 
in my state, where \1/4\ of the land mass of Oregon is National 
Forest System, my communities are dying. And I would ask you to 
put your attention on that.
    And by the way, you do have the analysis draft I talked 
about to deal with our O&C-enforced lands out West. I urge you 
to take a look at that if you don't mind.
    Mr. Tidwell. Thank you.
    Mr. Schrader. Sure. I yield back.
    The Chairman. Thank you. I recognize Mr. Ribble for an 
additional 5 minutes.
    Mr. Ribble. Thanks again, Mr. Chairman.
    And the comments from my good friend from Oregon resonate 
with me a bit because I want to talk about a small community in 
northeastern Wisconsin called Laona. They are right in the 
heart of the Chequamegon-Nicolet National Forest, which used to 
have one of the most robust timber harvesting areas in the 
state. Now, due to lost employment and lost harvesting 
capacity, we are about to lose our school district. If we lose 
our school system, we lose our community. There is no reason 
for families to stay; there is no reason for children to come 
home. And without those jobs, we are going to lose those 
communities.
    And so to my colleague from Oregon, I completely appreciate 
the dilemma your communities find themselves in because 
Wisconsin has the same problem.
    Chief Tidwell, along that same line in following up with 
Representative Schrader, in Wisconsin you have been a bit more 
successful on some of your court challenges and court cases. In 
fact, 300 million board feet of sales have passed through the 
court challenges now and are ready to be harvested; yet only 65 
million board feet will be sold this year. Why the discrepancy? 
Can you help me understand that a little bit?
    Mr. Tidwell. Well, Congressman, when we were able to work 
through those past decisions, we can move forward with them. It 
takes a little bit of time to then be able to get out there and 
be able to put that decision on the ground, to be able to 
prepare the timber sales. So we have actually sent some 
additional money up to that region and the region itself had 
already focused on moving forward with that. And so there is a 
little bit of a lag to be able to move our limited resources to 
move forward in an area. Ideally, it would be nice if we had 
additional resources that we could just quickly move there, but 
as you have heard from the other Members that we are dealing 
with this same issue everywhere across the country in all of 
our National Forests. And so there has been a little bit of a 
lag and I would hope that not only will they be able to 
increase it this year but then also next year they will be able 
to put those additional sales up.
    Mr. Ribble. On behalf of several hundred school children, I 
would ask you to hurry.
    Just another comment. Back in 1987 we were harvesting about 
12.7 billion board feet off our National Forests. With your 
proposed plan you want to get back to 2.6 billion, maybe to 3 
billion by 2014. That is still only about 20 percent of where 
we were at 2 decades ago. Right now, some of my lumber mills 
are importing lumber from Canada when we should be exporting to 
Canada. If we really want to talk about the job paradigm, that 
would be one way of getting there. Rather than buying Canadian 
timber, let's harvest our own.
    But going back to my question earlier about forest fires, 
insect, open spaces, all your comments, will annual forest 
harvest of 3 billion board feet be enough to address the nearly 
82 million acres of National Forest lands in need of 
restoration?
    Mr. Tidwell. The answer is no. We will need to be able to 
do more. Of that 65 to 82 million, there are a lot of those 
areas we will treat with just fire. A lot of it is not 
commercial timberland. But there are a minimum of 12\1/2\ 
million acres that we know we have to use mechanical tree 
timber harvesters on to restore those acres. And so to be able 
to do that along with maintaining all the other areas--because 
we have to also continue to do the maintenance and not just the 
restoration--we are going to need to do more. I am optimistic 
as we move forward with implementing this list of opportunities 
I laid out today that we are going to continue to be able to 
increase our efficiencies to be able to actually treat more 
acres and thus will produce more saw timber, more biomass.
    I feel confident that we are going to be able to do this 
and that we are going to do this with our current budgets. That 
is the other thing that my estimations are all based on the 
President's budget request. If that doesn't hold true, then I 
will probably have to be up here having another discussion with 
you. But with a flat budget, we feel that we can increase the 
number of acres we are treating and increase the amount of saw 
timber by 20 percent. When we get the 3 billion and talk about 
the successes we have had there, then we will be talking about 
what else we need to do to be able to move forward.
    Mr. Ribble. Thanks again for being here.
    And I yield back.
    The Chairman. I thank the gentleman and now recognize my 
colleague from Florida, Mr. Southerland, for 5 minutes.
    Mr. Southerland. Thank you, Mr. Chairman.
    Mr. Tidwell, thank you very much. And I want to say how 
much I appreciated your personal visit to my office to discuss 
our forests. And I want to really echo the sense of urgency. As 
a small business owner who had never served in elected office 
before, you can imagine my dismay that this city has no sense 
of urgency when it comes to really meeting the needs of the 
American people. The communities that are dying, the children 
who, unfortunately, are not going to be able to go to rural 
schools because we are not producing what is our responsibility 
to produce. And I have been here 15 months and yet that 
aggravation and anger that is inside of me has not subsided 
because I am interested in results and I am not interested nor 
are the American people in talk. And that is cheap and that 
doesn't put food on the table for the American people, the 
hardworking men and women who are struggling to survive.
    And you have a very unique opportunity in your position. I 
was pleased with our visit but I am going to hold you 
accountable to results because I do believe that we must do 
more than just talk. The American people expect a Congress, for 
example, to pass a budget and yet we haven't. So they are 
aggravated and they should be.
    Our small communities, especially around our National 
Forests, expect us to harvest our timber and yet we don't. So 
therefore, the same aggravation that I think is leveled at us 
is leveled at your department and your agency because we are 
not doing what the American people need us to do.
    Closer to my home, Florida, the Apalachicola National 
Forest is critical to the rural communities around the 
Apalachicola National Forest. And now, I mean, we are only 
cutting 6.8 percent of its annual growth. The mortality rate 
exceeds the harvest rate. And you may have addressed this and 
if you have before I came in a few moments ago I apologize, but 
I would ask you to state again does that create any sense of 
urgency deep inside of you? Because the anger that I feel about 
this place that doesn't even sometimes appear to be listening 
to the cries and the hurts of the American people. Deep inside 
of you does that statistic, 6.8 annual growth when our 
mortality rate is higher than that, what does that produce 
inside of you?
    Mr. Tidwell. It produces what I have shared, the urgency 
for us to be able to increase the pace and the scale of our 
restoration work, the active management of our National Forest 
to be able to address the forest health concerns. And so I 
share your same concerns and it is one of the reasons why we 
are focused on doing what we can to improve our efficiencies so 
that we can get more work done out there on the ground, get 
more----
    Mr. Southerland. But let me say this--the American people 
work faster than your people, something I have noticed about 
government, okay? Give me two serious, serious people that are 
out there in the private sector, okay, they are risking their 
life each and every day in one of the most dangerous 
professions in the country, okay, but what creates more fear in 
them than the danger of their job is the danger of defaulting--
--
    Mr. Tidwell. Yes.
    Mr. Southerland.--on the skidders and the loaders and the 
bunchers, okay, that they are leveraged against and then to 
come in and have to deal with people that have no sense of 
urgency, that are not in a hurry, that don't work fast. You can 
see the aggravation of the American people. What I am saying 
is: several of my colleagues have said hurry. We need hurry. 
And I want to be honest and I don't want to be mean-spirited, 
but there is a sense of urgency that I do not see. And these 
numbers do not bear out that there is this sense of urgency 
that the American people have.
    The President can talk about jobs being the number one 
priority in his Administration, but quite honestly, sir, that 
is not true. It is just not true. Because if it were in the 
sense of urgency that you claim is inside of you would bear out 
in increased production from our National Forest in helping our 
communities and our schools that we made reference to all over 
this country. Do you understand how what the rhetoric that is 
said does not match the facts?
    Mr. Tidwell. Well, Congressman, I share your urgency. I 
have lived in those rural communities. Our employees live in 
those rural communities. I know exactly what you are talking 
about. And that is why you will see that each of the last few 
years we have been increasing the amount of work, increasing 
the timber harvest that has been occurring without an increase 
in budget, without changes in the authorities or in the laws, 
but we have been able to do that. And we are going to continue 
to maximize these efficiencies so that we can get more work 
done.
    I share with you that urgency. The other reason why we are 
doing everything we can to work with the industry to do rate 
adjustments on contracts, to do everything we can to keep them 
in business so that they can do the work, so that they can 
employ people to be able to get the work that has to be done on 
these National Forests. So I share the urgency but I also----
    Mr. Southerland. I want to be very candid. I know I am over 
my time and I apologize, Mr. Chairman, but I know that if you 
look at the number of mills we had in this country in 1970 
compared to what we have now, what you just said is banter. And 
I want to be very polite, okay, but you can't eliminate because 
of policy--hundreds of mills in this country--and the statement 
you just made hold any validity with the American people that 
are in the timber industry. America needs what we say to match 
what we do, to restore integrity that we lost a long time ago 
with the American people. And you are on the frontlines of that 
and I urge you, I implore upon you to make sure that our banter 
matches our actions.
    Mr. Chairman, I apologize. I have gone over and I yield 
back time that I have exceeded.
    The Chairman. Well, I thank the gentleman. And Chief, I 
want to thank you for being here. Obviously, this is a 
Subcommittee that--I think we share the same passion as you do 
and that is vibrant healthy forests and vibrant rural 
communities. And I will say our public policy for forestry for 
decades has been hijacked through the courts and special 
interest groups that self-fund their organizations by suing 
your agency and keeping us from having healthy forests and 
keeping us from having healthy rural communities. But I know 
your commitment to work with us to bring a new public policy 
along the issue of forestry that has vibrant healthy forests 
and vibrant healthy communities.
    You know, it is a sad fact today that in many rural 
communities across this great nation that the number one 
endangered species are the citizens in the communities that are 
located in or near our National Forests. And, it is all of our 
job to change that obviously and get them off that endangered 
species list.
    So thank you, Chief. We really appreciate you coming in.
    Mr. Tidwell. Okay. Well, thank you.
    The Chairman. That is fine.
    I would like to now welcome the second panel of witnesses 
to the table. We have our second panel of witnesses here, and 
as they find their place at the table, we will proceed with 
some introductions.
    I want to thank our second panel and for purpose for the 
introduction of the first speaker, our first witness, I will 
turn to my good friend from Oregon, Dr. Schrader.
    Mr. Schrader. Thank you again, Mr. Chairman.
    We are really pleased to have Gary Barth, Director of 
Business and Community Services from my home County of 
Clackamas, Oregon. As director, Gary oversees the Economic 
Development Department, county parks, North Clackamas Parks and 
Recreation District, county libraries, property resources, and 
quite a bit of my county's efforts, and management of nearly 
3,000 acres of county-held forestland. Prior to his public 
service career, he worked in the financial industry, earned a 
business degree from Portland State, an MBA from University of 
Portland.
    I really appreciate Mr. Barth for coming. Thank you.
    The Chairman. I thank the gentleman. It is my pleasure to 
introduce our second witness to the panel, and that is Mr. 
Gregory Hoover from the Department of Entomology at the great 
land-grant university, Pennsylvania State University. And he 
has over his lifetime dedicated himself to healthy forests and 
the studies of all those bugs that just provide a tremendous 
risk to healthy forests and the wildlife habitat and all the 
good things that come with it. So Mr. Hoover, I want to thank 
you for being here to testify.
    And I now turn to my good friend from Florida, Mr. 
Southerland, for purposes of introduction.
    Mr. Southerland. Thank you, Mr. Chairman. It is always a 
great honor to have our constituents here from our districts. 
And today, I am proud to introduce Chuck Watkins. Chuck is the 
Chief Operating Officer of Rex Lumber Company, which operates 
businesses in multiple areas throughout Florida. The family-
owned company is a founding member of the Federal Forest 
Resource Coalition, which represents purchasers of Forest 
Service timber across the country. The coalition has members in 
more than 24 states with approximately 650 member companies 
representing 350,000 workers and about $19 billion in payroll.
    I want to say that Rex Lumber Company traces its roots back 
to northwest Florida back to 1926, 10 years prior to the 
establishment of the Apalachicola National Forest, which I made 
reference to a few moments ago in my questioning. Rex currently 
operates mills throughout my district in Bristol and 
Graceville, Florida, and other regions of the country employing 
434 people and sourcing much of their materials from the 
Apalachicola National Forest in Florida.
    Mr. Watkins, thank you so much for being here today.
    The Chairman. I thank the gentleman.
    Now, for purposes of introduction, Mr. Ribble, from 
Wisconsin.
    Mr. Ribble. Thank you, Mr. Chairman.
    It is an honor today to introduce Gary Zimmer. Gary is the 
lead wildlife biologist for the Ruffed Grouse Society in charge 
of the Society's four regional biologists. As an interesting 
side note, Mr. Zimmer spent 20 years in the U.S. Forest 
Service. He coordinated multifaceted district fish, wildlife, 
and endangered and threatened species program. He has been in a 
small town that I referenced with Mr. Tidwell of Laona, 
Wisconsin. He is acutely aware of what is going on in our 
National Forests in northern Wisconsin. And his role with the 
Ruffed Grouse Society is increased public understanding of the 
role of forest management to society members, landowners, and 
the general public and to provide technical and financial 
assistance in support of habitat development on public lands 
and habitat management.
    Mr. Zimmer, it is an honor to have you here and thank you 
for coming.
    Mr. Chairman?
    The Chairman. I thank the gentleman.
    We will begin with our testimony now. Mr. Barth, please 
begin when you are ready. The timing system is in front of you 
there, and please proceed with your 5 minutes.

   STATEMENT OF GARY BARTH, DIRECTOR, BUSINESS AND COMMUNITY 
          SERVICES, CLACKAMAS COUNTY, OREGON CITY, OR

    Mr. Barth. Good morning, Chairman Thompson, Congressman 
Schrader, and Subcommittee Members. I certainly appreciate the 
opportunity to testify today on the opportunities and 
challenges facing the management of our National Forests. And 
as Congressman Schrader said, my name is Gary Barth. I am the 
Director of Business and Community Services for Clackamas 
County, Oregon.
    As the Director of Business and Community Services, I 
oversee a diverse number of divisions that include county 
libraries and urban park and recreation district, county-owned 
forest land, a county-wide park system, and the economic 
development team. My job title reflects the recognition of the 
integral relationship that exists between economic vitality and 
the services we provide to offer improvement to the quality of 
life of our citizens.
    In my position I have a unique perspective on seeking to 
improve all aspects of the ``triple bottom line'' so often 
discussed and considered in establishing public policy. How do 
we produce economic value, ensure environmental responsibility, 
and provide for social benefits? I believe that our county's 
management of our 3,000 acres of the county-owned forest land 
is a great example of delivering that ``triple bottom line'' to 
our local residents through good stewardship of public assets. 
My testimony is intended to provide greater detail on how we 
manage our forests and how our approach could serve as a model 
for needed changes in Federal forest management policies.
    As Congressman Schrader mentioned, the State of Oregon is 
vastly made up of Federal forests and Clackamas County even 
more so. Seventy-five percent of Clackamas County is 
forestland. We are perceived as an urban county. We are part of 
the greater Portland metro region, one of three counties making 
up the greater Portland area, but only five percent of our land 
is urban, 38 percent is rural agricultural land and over 50 
percent is forestland. Over 50 percent is in ownership in 
control of the U.S. Forest Service and the BLM.
    Forests have always been an important part of our economy 
and culture. Unfortunately, employment in our forests and wood 
products manufacturing has been in steady decline for decades. 
The primary cause of this decline has been changes in the 
Federal forest management policies. The amount of timber sold 
on Mt. Hood National Forest has declined 87 percent over the 
last 2 decades from 230 million board feet in the late 1980s to 
an estimated 30 million today. But the annual mortality rate is 
190 million board feet. Putting that into context, the Mt. Hood 
National Forest is dying six times faster than it is being 
harvested. The annual growth of the forest is 745 million board 
feet. Again in context, it is growing 25 times faster than it 
is being productively harvested. The economic opportunity lost 
through mortality and lack of harvest is enormous, as is the 
growing risk to the forest health and the lack of management.
    We are reliant on Federal payments. That is what we are 
here today also talking a little bit about the reauthorization 
of Secure Rural Schools. But since the early 1900s when the 
National Forest System was established, our government has 
shared in 25 percent of the receipts generated off the 
commodity of the forest. BLM O&C lands, once private, were 
brought back under Federal control at initial commitment to 
share 75 percent later reduced to 50 percent. For decades, 
Clackamas County received millions of dollars in shared timber 
receipts annually and many local residents were employed in the 
forest products sector. Through the vast amount of land in 
Federal ownership and the dramatic decline in timber harvest, 
unemployment has risen, mills have closed, and counties have 
had to deal with devastating declines in revenue.
    Again, this has been partially offset by the introduction 
of spotted owl guarantee payments in the early 1990s and Secure 
Rural Schools funding from the Self-Determination Act of 2000, 
since reauthorized twice. However, the current Secure Rural 
Schools has now expired. We received our last payment and 
because of the calculation in the final year of the 
reauthorization, our last payment was a quarter of what we have 
historically received on Secure Rural Schools. And even that 
was less than what we had received on commodity revenue 
sharing.
    Clackamas County Board of County Commissioners supports the 
reauthorization of Secure Rural Schools. It is abundantly 
clear, however, that the Secure Rural Schools Act does not 
represent a long-term sustainable funding solution, nor does it 
provide needed employment opportunities.
    Now, specifically about our plan, as mentioned, we have 
3,600 acres of forest owned by Clackamas County. That is 
roughly split \1/4\ in active parks and preservation areas, 
about \3/4\ in a Sustainable Timber Harvest Program. All 
activities in our Timber Harvest and Reforestation Program are 
done in accordance with and actually exceed the requirements of 
the Oregon Forest Practices Act. We manage harvests on a 55 
year rotation so that we can grow that product locally and we 
can harvest the amount of annual growth. This annual harvest is 
very outcome-based. We look to generate roughly $750,000 a year 
in revenue. That pays for the management of our Forest 
Management Program and provides needed funding to support my 
thousand acres of active park space. I do not receive any 
general fund support for any of my divisions in Business and 
Community Services. They are all self-funding through various 
other revenue streams, including county parks and forests.
    So we often think what if? What if the U.S. Forest Service 
lands were managed similar to Clackamas County in the way we 
manage our forests. If you just took half of the U.S. Forest 
Service lands in Clackamas County, that would be the equivalent 
of 90 of my 3,000 acres. If I can generate $750,000 a year, 90 
times that would be $67 million per year. That would be enough 
revenue to certainly fund local Forest Service operations and 
the management of those harvests, provide shared receipts to 
the county comparable to the historic levels we used to face, 
and provide net revenue to the U.S. Treasury. The impact on the 
private sector is just as dramatic. We harvest 2 million board 
feet per year. Ninety times that would be 180 million board 
feet. That is 17 direct jobs per million board feet. That would 
be 3,000 new high-wage jobs and probably double that when you 
look at the indirect and inducted. Lower unemployment equals 
less dependency on public support. We would have additional 
revenues coming in for needed public services with less demand. 
That is a great combination for our county.
    Forest Management legislation, Clackamas County believes 
that Federal legislation is needed to restore responsible 
management to Federal forest lands to provide a sustainable and 
predictable long-term solution to county revenue needs to 
restore economic vitality to our communities. The current 
Federal forest management policies are broken and our rural 
communities and forests are paying the price. Ultimately, any 
legislation should balance economic, social, and environmental 
values. We in fact exceed Oregon's Standard Practices Act as 
well as SFI certification standards in our management 
practices.
    Congressman Schrader recently joined Congressman DeFazio 
and Walden to release the O&C Trust, Conservation, and Jobs 
Act. Similar to the what-if scenario just discussed, that plan 
would manage approximately half of Oregon's 2.5 million acres 
of BLM O&C lands to yield timber production to benefit 18 O&C 
counties. This stable timber supply would support manufacturing 
and other jobs while providing revenue to cash-strapped 
counties. I would like to commend the efforts of Congressman 
Schrader and other Members of the Oregon delegation, for 
proposing management that will provide a sustainable and 
predictable long-term solution to county revenue needs and 
create much-needed employment opportunities for our citizens 
and ensure economic protection.
    As this Committee considers possible legislation for the 
National Forests, I would hope it will look to the management 
of our forest as well as the proposed O&C legislation as 
examples. I greatly appreciate the opportunity to appear before 
you today and will be happy to answer any questions you might 
have.
    [The prepared statement of Mr. Barth follows:]

  Prepared Statement of Gary Barth, Director, Business and Community 
              Services, Clackamas County, Oregon City, OR
    Good morning, Chairman Thompson, Congressman Schrader, and 
Subcommittee Members. I appreciate the opportunity to testify today on 
the opportunities and challenges facing the management of our National 
Forests. My name is Gary Barth and I am the Director of Business and 
Community Services for Clackamas County, Oregon.
    While I have lived here in the Portland area for 3 decades, I also 
have a strong connection to other areas of Oregon. I was born and 
raised in Springfield, Oregon, which was a middle-class, blue collar 
town with a strong traded-sector employment base. A large Weyerhaeuser 
plant, constructed under the supervision of my wife's grandfather 
provided significant employment opportunities for the residents of 
Springfield for decades. My uncle, a chemical engineer designed the 
pulp processing system. My father-in-law had a career at that plant, 
and my wife worked in the office of that plant as her first full time 
job out of school.
    Numerous other mills and related value chain businesses thrived in 
Springfield, Oregon providing residents with ample employment 
opportunities and solid living wages to support themselves, their 
families and their community. Timber was a competitive economic 
advantage that helped contribute to a solidly middle class community, 
with good schools, outstanding parks and other public amenities and 
with many career paths to pursue.
    My family and I retain a strong connection to Springfield and 
return often to visit family and friends and to attend games at the 
nearby University of Oregon.
    Sadly, Springfield is a shadow of its former self. It is no longer 
the vibrant traded-sector community I recall growing up in. Area 
unemployment rates are among the highest in the state and average wages 
that once mirrored the U.S. average are far below that today. My 
brother is a policeman in Springfield and deals with the negative 
social effects of serving in an economically depressed community on a 
daily basis.
    It is now clear to me that changes in Federal forest management 
policies and practices have had a profound impact on rural communities 
like Springfield and others across Oregon, including Clackamas County. 
As I have reflected on those earlier years in Springfield and the 
turmoil of the past 2 decades, I have a much greater appreciation for 
the importance of sustainable forest management. It remains quite 
personal to me and many other residents of rural Oregon.
    After a lengthy career in the financial services sector, I made the 
transition several years ago to the public sector in order to serve the 
public and the community in which I live. As the Director of Business 
and Community Services for Clackamas County, I oversee a diverse number 
of divisions that include county libraries, an urban Park & Recreation 
District, county-owned forest land, a county-wide park system and our 
Economic Development team. My job title reflects the county's 
recognition of the integral relationship that exists between economic 
vitality and the services we are able to offer to improve the quality 
of life. In my position I have a unique perspective on seeking to 
improve all aspects of the ``triple bottom line'' so often discussed 
and considered in establishing public policy; how do we produce 
economic value, ensure environmental responsibility, while providing 
for social benefits? How do we accomplish that with limited public 
funds to stimulate private sector investment?
    I believe that our county's management of nearly 3,000 acres of 
county-owned forest land is a great example of delivering that triple 
bottom-line of environmental, economic and social benefits to our local 
residents. My testimony provides greater detail on how Clackamas County 
manages its forests and how it could serve as a model for needed 
changes in Federal forest management policies that can help revitalize 
and restore rural, forested communities here in Clackamas County, in 
Springfield and across the country.
About Clackamas County
    Clackamas County, Oregon, is located in north-central Oregon, 
ranging from the Portland metropolitan area to the summit of Mount 
Hood. The county encompasses 1,879 square miles (1.2 million acres), 
and has a current population greater than 375,000. The county 
encompasses all or part of 15 cities.
    While many might consider Clackamas County part of the Greater 
Portland urban area, that is only a fraction of the county as a whole. 
Only 5% of Clackamas County's land area is urban, yet contains 80% of 
the population and 90% of the jobs. The rest of the county is rural and 
contains some of Oregon's richest farmland. 57% of Clackamas County is 
in public ownership with the U.S. Forest Service and Bureau of Land 
Management overseeing nearly all of it. Forested land comprises a 
staggering 75% of the land in Clackamas County, containing some of the 
most productive forest land, by many measures, anywhere in the world. 
Sustainable forest management practices are vital to our perceived 
``urban'' county as well as to the greater Portland-Vancouver economic 
region.
    Since Clackamas County was created in 1843, agriculture and timber, 
along with the associated metals manufacturing and commerce have been 
the county's principal economic activities. In recent years, as the 
County and its communities have continued to grow, the County has 
maintained and developed key industry clusters in advanced metals 
manufacturing, business & professional services, healthcare, high tech 
and software development, transportation and warehousing, forestry, 
food and beverage processing, and nursery and greenhouses. These 
clusters combine for over 50% of Clackamas County's economic activity.
Federal Forests
    As a heavily forested county, forests have always been an important 
part of our economy and culture. Unfortunately, employment in forestry 
and wood products manufacturing has been in steady decline for the past 
2 decades. The primary cause of this decline has been changes in 
Federal forest management policies. As noted, 51% of Clackamas County 
is comprised of Federal forests, including portions of the Mt. Hood and 
Willamette National Forests that account for 540,421 acres of the 
county and the Bureau of Land Management (BLM) oversees 78,749 acres of 
the county with Oregon & California (O&C) Grant Lands accounting for 
52,448 acres of that total. This has a major impact on our economic 
livelihood and our ability to provide county services.
    Since the National Forest System's establishment in the early 
1900's the Federal Government has shared 25% of the receipts generated 
from timber harvests and other commercial activities with local 
counties as compensation for our inability to tax these lands. The once 
private BLM O&C Grant Lands, which are unique to Oregon, were brought 
back under Federal control with an initial commitment to share 75% of 
timber harvest receipts. That was later reduced to 50%. For many 
decades Clackamas County received tens of millions in shared timber 
receipts and many local residents were employed in the forest products 
sector.
    In the 1990's controversy, lawsuits and changes in Federal policies 
dramatically reduced timber harvest levels on Federal lands. For 
example, the amount of timber sold on the Mt. Hood National Forest has 
fallen from over 230 million board feet (mmbf) in the late 1980's to 
approximately 30 mmbf today, an 87% reduction. Yet, the annual 
mortality of the forest is over 190 mmbf. Put in context, the Mt. Hood 
National Forest is dying six times faster than it is being productively 
harvested. The standing timber volume of the forest is 33.6 billion 
board feet, with an annual growth of 745 mmbf. At the current annual 
harvest rate of 30 mmbf, the forest is growing 25 times faster than it 
is being harvested. The economic opportunity loss through mortality or 
lack of sustained harvest is enormous as is growing risks to forest 
health due to a lack of management.
Federal Payments
    Due to the vast amount of land in Federal ownership and the 
dramatic decline in timber harvests, counties have had to deal with the 
associated impacts on revenue. Congress has recognized this through the 
passage of a number of payment programs to partially offset, at least 
temporarily, these loses. Beginning in the early 1990's Congress 
approved ``Spotted Owl Guarantee Payments'' to provide payments to 
counties in the Pacific Northwest impacted by reductions in Federal 
timber sales following the listing of the Northern Spotted Owl as an 
Endangered Species.
    The Secure Rural Schools and Community Self Determination Act of 
2000 (SRS) was enacted to further transform traditional timber receipt 
sharing into a nationwide payment program to offset the loss of revenue 
to rural counties with Federal forest land. The SRS program has been 
reauthorized twice since 2000 with further changes made in 2008 that 
shifted the formula away from actual historical receipts to also 
consider the amount of Federal forest land and local poverty. The 
current SRS expired at the end of 2011 and our county received its last 
payment in January.
    Clackamas County has relied heavily on SRS payments over the past 
decade as a substitute for the timber receipt revenue we received in 
the decades prior. For most of the program's life, Clackamas County 
received approximately $13 million annually in Forest Service and BLM 
O&C payments. The changes made during the 2008 reauthorization have 
gradually reduced those payments and the final 2011 payment was less 
than $3 million, \1/4\ the SRS average and significantly lower than the 
timber receipt sharing that existed before SRS. If the program is not 
reauthorized, and we revert back to actual revenue sharing, Clackamas 
County's projected 2012 payments from the Forest Service and BLM based 
on today's harvests will be less than $750,000.
    The Clackamas County Board of County Commissioners supports the 
reauthorization of the Secure Rural Schools Act. However, it has become 
increasingly clear that the Secure Rural Schools Act does not represent 
a long-term, sustainable solution for meeting county funding needs. The 
level of funding provided in 2011, and likely to be included in any 
reauthorization, is inadequate to meet the needs of timber dependent 
communities in our area. In Clackamas County, our road fund alone will 
experience a loss of up to $3 million per year. The significant 
reductions in SRS payments in recent years has also meant cutbacks in 
public safety, natural resource protection and assistance to schools.
Forest Management Legislation
    Clackamas County believes Federal legislation is needed to restore 
responsible management to Federal forest lands to provide a sustainable 
and predictable long-term solution to county revenue needs and to 
restore economic vitality to our communities. Our current Federal 
forest management policies are broken and our rural communities and the 
forests are paying the price.
    Ultimately, any legislation should balance economic, social and 
environmental values so that significant areas of Federal forest are 
focused on environmental protections and equally significant areas are 
focused on producing forest products and economic benefits. Our 
county's small forestry program produces a mix of benefits to the 
environment, the economy and local residents.
    Of the 3,600 acres of forest owned by Clackamas County, 
approximately 2,800 acres are managed utilizing sustainable forest 
management practices, including scheduled timber harvest and 
reforestation. All management activities are done in accordance with, 
and actually exceed, the requirements of the Oregon Forest Practices 
Act. Approximately 850 acres of forest are natural areas and parks 
where trees are only removed for public safety concerns or 
infrastructure development.
    Clackamas County manages it timber harvests on a 55 year rotation, 
to approximate annual growth rates and harvest timber that can still be 
milled locally. This translates to approximately 2 million board feet 
(mmbf) of timber harvested annually from our 2,800 acres of forest 
land. This annual average harvest has generated approximately $750,000 
in annual revenue for the county over the last 10 years. These revenues 
cover the cost of managing our forest lands as well as provide funding 
for the operations and maintenance of our nearly 1,000 acres of parks 
and preservation land. Our most recent timber sale went to a local 
mill, yet only produced enough raw material for a 2 week production 
run. The mill advised us that they could add a third shift of jobs with 
minimal capital investment if they could be assured of increased timber 
availability.
    By comparison, the Forest Service annually sells approximately 30 
mmbf of timber from the 1.1 million acre Mt. Hood National Forest and 
generated less than $270,000 in timber receipts for the U.S. Treasury 
in 2011. The county generates almost three times the revenue from 
timber harvests as the Forest Service does on less than .3% of the 
acreage. This massive discrepancy has only intensified in recent years 
and underscores the need for reform if counties are expected to return 
to actual 25% payments.
    The Forest Service is hamstrung by excessive bureaucracy, 
regulations and administrative costs. These costs typically consume up 
to 75% of its forest management budget, which severely restricts the 
amount of on-the-ground work and timber volume that can be 
accomplished. The type of timber sales offered by the Forest Service 
today also generate little-to-no receipts for the U.S. Treasury or 
local governments due to how the projects are designed and the 
extensive use of Stewardship Contracting Authority. Currently, no 
receipts are shared with counties for timber sales conducted under the 
Stewardship Contracting Authority. If the counties will again return to 
shared Forest Service receipts then Congress should amend this 
authority to ensure counties receive 25% of the value of stewardship 
contracts.
    Clearly if just a portion of the Mt. Hood National Forest were 
managed similar to how Clackamas County manages our forest land there 
would be significant revenue available to fund county payments and 
other important projects. Perhaps more importantly, it would be a 
tremendous boost to the local economy with an estimated 17.4 direct 
jobs annually per mmbf of timber harvest. This would lessen our 
citizen's dependence on public assistance while at the same time 
providing much needed revenue for schools, roads and other public 
needs. Using the values Clackamas County received from its last timber 
sale, if a little less than 4,000 acres (.7%) of the 540,421 acres of 
the Mt. Hood National Forest in Clackamas County was managed like this 
each year it would generate our average Secure Rural School Forest 
Service payment of approximately $8.5 million, deliver over $25 million 
to the U.S. Treasury in receipts and support approximately 1,700 jobs.
    Congressman Schrader recently joined together with Congressman 
Peter DeFazio and Congressman Greg Walden to release the ``O&C Trust, 
Conservation and Jobs Act.'' The plan would manage approximately half 
of Oregon's 2.5 million acres of BLM O&C Grant Lands by a board of 
trustees for sustained yield timber production to benefit our 18 O&C 
counties in Oregon. This stable timber supply would support 
manufacturing and other jobs and provide revenue to cash-strapped 
counties that have few options to recover lost income from Federal 
lands. The legislation would also protect all remaining old growth 
stands on more than 1 million acres. I expect our Board of 
Commissioners to formally adopt a resolution in support of this 
proposal later this week.
    I would like to commend the efforts of Congressman Schrader and 
other Members of the Oregon delegation to promote the responsible 
management of Federal forest lands that provides a sustainable and 
predictable long-term solution to county revenue needs, while ensuring 
environmental protection, stewardship and restoration efforts. Our 
County's management of its lands shows that these can go hand in hand 
as does the O&C Trust Act. As this Committee considers possible 
legislation for the National Forests I hope it will look to these 
examples.
    The situation is extremely urgent as our county and other rural 
counties across the country grapple with the reductions in Secure Rural 
Schools payments.
    I appreciate the opportunity to appear before you today and would 
be happy to answer any questions you might have.

    The Chairman. Thank you, Mr. Barth.
    Mr. Hoover, you can go ahead and proceed for 5 minutes 
testimony.

           STATEMENT OF GREGORY A. HOOVER, ORNAMENTAL
            EXTENSION ENTOMOLOGIST, SENIOR EXTENSION
 ASSOCIATE, DEPARTMENT OF ENTOMOLOGY, COLLEGE OF AGRICULTURAL 
                  SCIENCES, PENNSYLVANIA STATE
                UNIVERSITY, UNIVERSITY PARK, PA

    Mr. Hoover. Mr. Chairman and Members of the Subcommittee, 
thank you for the opportunity to appear before you today to 
provide an entomologist's view of the impacts and challenges of 
the invasive pests on the management and maintenance of the 
health of our forests. I appreciate the Subcommittee's interest 
in this matter of great importance and that is the health of 
our nation's forests for future generations.
    More than 400 species of invasive forest insects and 
disease are currently established in the United States. Some of 
these insects are able to spread quickly and cause significant 
economic and ecological impact to our nation's forest and urban 
trees. An estimate of the management costs associated with 
invasive insect and mite pests in our nation's forestland is at 
least $2.1 billion a year. The cost of insecticides applied 
against introduced pest insects is approximately $500 million a 
year in the U.S. Suburban and urban areas of the Northeast 
through the years have been locations of first detection of 
many invasive forest tree pests. For many years, scientists 
conducting basic and applied research and extension education 
activities in the disciplines of entomology and plant pathology 
have a long history of studying the biology and ecology of 
invasive forest pests and strategies and methods for their 
effective management. Collaborative research between 
entomologists and plant pathologists at land-grant 
institutions, state and Federal Government agencies, and others 
on tree diseases vectored by insects often leads to discoveries 
that result in the development of decision-making tools for 
achieving the goal of healthy forest and urban landscape trees.
    Some invasive species that impact the health of forest 
trees on which research and extension activities are currently 
being conducted include the emerald ash borer, hemlock woolly 
adelgid, the Asian longhorned beetle, and for years the gypsy 
moth. Some examples of diseases in the forest that are caused 
by invasive plant pathogens include sudden oak death and 
butternut canker. Some insect-vectored tree diseases that many 
of us are already familiar with include elm yellows, oak wilt, 
beech bark disease, Dutch elm disease, and most recently, 
thousand cankers disease on the black walnut.
    In my written testimony, I discuss a few invasive insect 
pests that have impacted the health of our trees in our 
nation's forests. Additionally, I have highlighted some 
research that has been conducted on these pests by 
entomologists, plant pathologists, chemical ecologists, 
horticulturists, regulatory agency employees, and others. Some 
research priorities associated with these invasive pests are 
also suggested that may lead to discoveries allowing for more 
effective management and maintenance of the health of the trees 
in our forests and landscapes.
    Many Members of the Subcommittee have used that word that 
frustrates many forest tree managers and that is the word 
drought. I can only tell you that with wood-boring insects, 
their olfactory abilities to sense trees that are stressed is 
beyond belief as to what we have been able to discover and 
there still is an awful lot of insight we need to investigate 
in how they perceive direct attack on trees that they can 
visualize, and when they get closer, there are chemical cues. 
And yes, with some longhorned beetles, when they land on the 
tree, they determine that those plant cells are collapsing due 
to lack of water. And so we really have our work cut out when 
it comes to wood-boring insects' attack on trees in our 
nation's forests.
    This concludes my prepared statement and I would be pleased 
to answer any questions you may have regarding the role 
invasive pests play in the challenge of managing and 
maintaining the health of our nation's forests.
    [The prepared statement of Mr. Hoover follows:]

     Prepared Statement of Gregory A. Hoover, Ornamental Extension
  Entomologist, Senior Extension Associate, Department of Entomology, 
    College of Agricultural Sciences, Pennsylvania State University,
                          University Park, PA
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear before you today to provide an entomologist's 
view of the impacts and challenges of invasive pests on the health of 
our forests. I appreciate the Subcommittee's interest in a matter of 
great importance and that is the management and maintenance of the 
health of the nation's forests for future generations.
    More than 400 species of invasive forest insects and diseases are 
currently established in the United States. Some of these insects are 
able to spread quickly and cause significant economic and ecological 
impact to our nation's forest and urban trees. An estimate of the 
management costs associated with invasive insect and mite pests in our 
nation's forest is at least $2.1 billion/year. The cost of insecticides 
applied against introduced pest insects is approximately $500 million/
year in the United States. Suburban and urban areas of the Northeast 
through the years have been locations of first detection for many 
invasive forest tree pests. For many years scientists conducting basic 
and applied research and extension education activities in the 
disciplines of entomology and plant pathology have a long history of 
studying the biology and ecology of invasive forest pests and methods 
for effective management. Collaborative research between entomologists 
and plant pathologists at land-grant institutions, state and Federal 
Government agencies, and others on tree diseases vectored by insects 
often leads to discoveries that result in the development of management 
strategies and decision-making tools for achieving the goal of healthy 
forest and urban landscape trees.
    Some invasive species that impact the health of forest trees on 
which research and extension activities are currently being conducted 
include the emerald ash borer, hemlock woolly adelgid, Asian longhorned 
beetle, and gypsy moth. Some diseases in the forest that are caused by 
invasive plant pathogens include sudden oak death and butternut canker. 
Some insect-vectored tree diseases include elm yellows, oak wilt, beech 
bark disease, Dutch elm disease, and most recently thousand cankers 
disease on black walnut.
    I would like to discuss a few invasive insect pests that impact the 
health of trees in our nation's forests. Additionally, I'd like to 
highlight some research that has been conducted on these pests by 
entomologists, plant pathologists, chemical ecologists, 
horticulturists, regulatory agency employees, and others. Some research 
priorities associated with these invasive pests will also be suggested 
that may lead to discoveries allowing more effective management and 
maintenance of the health of the trees in our forests and landscapes.
Emerald Ash Borer
    Ten years ago the emerald ash borer, Agrilus planipennis, was 
discovered as the cause of extensive ash, Fraxinus spp. mortality and 
decline in southeastern Michigan. The emerald ash borer is responsible 
for killing more than 40 million ash trees throughout much of the 
Midwest and in some states in the Northeast. This beetle is a member of 
the insect family Buprestidae whose adults are commonly called metallic 
wood-boring beetles and the larval stages are referred to as flatheaded 
borers. What's really important to note is evidence suggests that A. 
planipennis first entered Michigan from China at least 15 years ago 
prior to its detection in 2002, presumably from solid wood packing 
materials used to ship manufactured goods. The emerald ash borer is now 
found in at least 15 states and Ontario, Canada. Research has 
demonstrated that spread of the emerald ash borer results primarily 
from the flight of this invasive pest and human transport of infested 
ash firewood, logs, lumber, and nursery stock. As an example in 2003 
emerald ash borer infested nursery stock from Michigan was illegally 
sold to a nursery in Prince George's County, Maryland and sold in 
Maryland and Fairfax County, Virginia. In an attempt to limit the all 
too common human-assisted spread of this invasive pest from areas 
infested with the emerald ash borer, many states imposed orders of 
quarantines and regulations on the transport of ash trees and ash wood 
related products. Additionally, Federal quarantines were issued by both 
the USDA Animal and Plant Health Inspection Service (APHIS) as well as 
the Canadian Food Inspection Agency.
    Early detection of new infestations of the emerald ash borer is 
important for the success of any effective management efforts to 
protect the health of ash trees. Research has led to the development of 
sticky traps and associated lures that are being used to survey for 
this invasive pest. The emerald ash borer is very difficult to detect 
at low population densities. Continued research on the identification 
of an effective pheromone for the emerald ash borer should be 
supported. Further research on the identification of suitable natural 
enemies and biological control of this pest needs to occur.
    The movement of ash and ash-related products from emerald ash borer 
infested areas continues to be prohibited by Federal quarantines. One 
frustration is the unintentional movement of ash materials continues to 
occur due to the lack of awareness and understanding of the quarantine 
regulations and the impact this species has on forest products 
(baseball bats, etc.) and the green industries. An increase in 
cooperative extension education efforts that target the public and 
other stakeholders groups needs to be supported.
    A survey of communities in Ohio found losses in landscape value for 
ash trees within community boundaries were estimated to be between $800 
million and $3.4 billion assuming the complete loss of ash resulting 
from the emerald ash borer. Tree replacement costs in these communities 
would range between $300 million and $1.3 billion. The total losses for 
these Ohio communities, including ash landscape losses, tree removal 
and replacements, are estimated to range between $1.8 and $7.6 billion 
for a single insect pest in this one state. The potential total costs 
in Ohio were estimated to be between $157,000 and $665,000 per 1,000 
residents. It's suggested in this survey that communities can use these 
figures to begin developing contingency plans for the impact of the 
emerald ash borer on their budgets.
    Ash should make up no more than 10 to 25 percent of the basal area 
of a forest. If ash exceeds that level and you believe that you have 
marketable ash trees in the forest, you may want to get estimates and 
consider selling the ash trees. The level of urgency will depend on how 
close your property is to sites known to be infested with the emerald 
ash borer, your overall objectives for the property, and the abundance 
of ash compared with other species on the site. If you think you have 
marketable ash trees, work with a professional consulting forester. 
Decisions about timber sales and stumpage values can be complicated and 
it's important to work with a professional forester. Consulting 
foresters can help identify the markets that are available in an area. 
They may also know of portable or custom sawmills that can be hired to 
saw ash trees into boards for your own use or sale. It may be important 
to work with neighboring forest landowners. They may be facing a 
situation similar to yours. Often the per-acre costs of setting up a 
timber sale decrease when larger areas are involved. Cooperating with 
neighbors may lead to lower costs and better timber prices for 
everyone.
    Other tree species may be part of a timber harvest that removes 
ash. Many forests can benefit from a well-planned harvest in which ash 
reduction is only one of several landowner objectives. A mixed-species 
sale may be of interest to more buyers or result in higher profits for 
a forest landowner. Again, it is important to work with a professional 
forester to ensure that the productivity and the health of a forest are 
maintained or even enhanced by a harvest.
    The emerald ash borer as an invasive, wood-boring pest has already 
placed tremendous economic pressure on both state and municipal budgets 
as well as their human resources. Scientists estimate the cost of 
treatment, removal, and replacement of ash trees due to the impact of 
the emerald ash borer will exceed $10.7 billion over the next 10 years.
Hemlock Woolly Adelgid
    The hemlock woolly adelgid, Adelges tsugae, is a small, soft-
bodied, insect that removes plant cell fluid with its piercing-sucking 
mouthparts. This forest health pest is closely related to aphids and 
has caused widespread decline and eventual death of hemlock trees in 
the forests and landscapes the eastern United States. The hemlock 
woolly adelgid is native to Asia and was first detected in the eastern 
United States in 1951 in a park in Richmond, VA. It was first observed 
in southeastern Pennsylvania during the mid-1960s. This pest species is 
believed to have been unintentionally introduced into the United States 
on Japanese hemlocks that were planned for use in landscapes. The 
hemlock woolly adelgid spread slowly until the late 1970s when this 
invasive insect pest reached forest areas and began to cause death of 
host trees. This key pest of hemlock has since spread into at least 17 
states that include those in the Southeast to southern Maine. The 
hemlock woolly adelgid has few natural enemies in eastern North 
America, and our native eastern hemlock, Tsuga canadensis and Carolina 
hemlock, Tsuga caroliniana are highly susceptible to its attack. 
Currently, insect predators and an insect-killing fungus are the only 
known natural enemies of populations of the hemlock woolly adelgid. To 
date, it has no known parasitoids that reduce its populations on 
hemlocks. Research conducted by entomologists with the USDA-Forest 
Service, at land-grant institutions, state governmental agencies, and 
their cooperators has been focused on identifying effective management 
options for the hemlock woolly adelgid on forest and urban trees. The 
hemlock woolly adelgid and an another non-native insect pest that was 
detected in New York in 1908 known as the elongate hemlock scale, 
Fiorinia externa, poses another health risk to our eastern hemlocks. 
This armored scale insect species is attacked by some parasitoids, but 
it is very difficult to effectively manage when it infests forest 
trees. The elongate hemlock scale and the hemlock woolly adelgid pose a 
very serious threat to the sustainability of hemlock. Research on the 
biological control and the ecology of these pests in our forests needs 
to be investigated to an even greater extent. The loss of hemlocks in 
our eastern forests will have an impact on both wildlife habitat and 
the survival of wild trout. The loss of hemlock will also cause change 
in the structure and biodiversity of our eastern forests.
    There is often a desire to manage a forest in a way that is most 
``natural.'' However, the current widespread outbreak of the hemlock 
woolly adelgid is not like any other form of natural disturbance known 
to affect hemlock trees in our forests. Harvesting options and related 
costs will differ depending on the size structure of hemlock in a 
particular forest and whether the management goal is aesthetics, 
wildlife habitat, water quality protection, future forest successional 
dynamics, timber revenue, or a combination of these management goals. 
Unless timber revenue is the main objective, pre-emptive cutting or 
pre-salvage of uninfested forests is not recommended, as the future 
interactions between hemlock and the hemlock woolly adelgid are 
uncertain, and cutting could remove potentially resistant hemlock.
    There are a variety of silvicultural alternatives available to 
forest landowners with hemlock stands threatened by the hemlock woolly 
adelgid. The options range from doing nothing to directly influencing 
vegetation succession with a variety of cutting methods, depending on 
the forest landowner's objectives, overall hemlock health, and stand 
conditions. All options and associated costs should be considered 
carefully when planning the appropriate management strategies.
    Feeding by the hemlock woolly adelgid on susceptible hemlocks may 
cause rapid decline in tree health, followed by quick mortality. 
Hemlocks may die within 4 years of being infested. Stressed hemlock 
trees are more susceptible to attack by other insects, mites, or 
diseases. Eastern hemlock is an ecologically important species in our 
nation's forests. Hemlock stands provide unique habitat to many forest 
species that are dependent on the dense canopy of hemlocks. Wildlife 
species such as ruffed grouse, turkey, deer, snowshoe hare, and rabbit 
are afforded cover by healthy hemlocks. Many songbirds use eastern 
hemlocks as nesting sites, food source, roost sites, and winter 
shelter. Many plant species also inhabit hemlock stands. The impact of 
feeding injury caused by the hemlock woolly adelgid on hemlocks affects 
and disrupts the entire ecosystem as well as the health of our eastern 
forests.
Gypsy Moth
    The gypsy moth, Lymantria dispar, was accidentally introduced into 
Massachusetts in l869. By 1902 this pest was widespread in the New 
England states, eastern New York, and regions of New Jersey. The gypsy 
moth was first detected in Luzerne and Lackawanna Counties in 
northeastern Pennsylvania in l932. Heavy defoliation and subsequent 
tree mortality has occurred along mountain ridges in forests comprised 
primarily of oak. The gypsy moth is often considered the most important 
insect pest of forest and shade trees in the eastern United States.
    Egg masses are light tan, and each mass may contain 400-600 eggs. A 
mature larva is 50-65 mm long with a yellow and black head. The thorax 
and abdomen have five pairs of blue spots (tubercles) followed by six 
pairs of brick red spots. The pupal stage is dark reddish-brown. Male 
moths are dark tan and fly readily during the day. Females are white 
with black, wavy markings; they have robust abdomens and do not fly, 
and their wingspan can reach 5 cm.
    Egg masses deposited by females during July overwinter on trees, 
stones, and other substrates in the forest and landscapes. Eggs hatch 
from late April through early May with most eggs hatching by mid-May. 
Small first instar larvae do not feed right after they hatch and can be 
dispersed by wind. Young larvae feed on foliage and remain on host 
plants night and day. In late May when about half-grown, larvae change 
their behavior and usually feed in the trees at night, and move down to 
seek shelter in bark crevices or other protected sites during the day. 
Larvae reach maturity from mid-June to early July. Pupation takes place 
during late June and early July. The pupal cases may be observed 
attached to tree bark, stones, buildings, and other similar sites. 
Adults start emerging in late June with peak emergence in mid-July. The 
gypsy moth produces one generation a year.
    This key invasive insect pest is indirectly responsible for causing 
mortality of susceptible host trees in forests. Heavy defoliation by 
the larval stage of this pest causes stress to infested host plants. 
Secondary organisms such as the twolined chestnut borer, Agrilus 
bilineatus, and shoestring root rot, Armillaria spp., successfully 
attack stressed trees causing mortality.
    Preferred host plants for all larval stages of the gypsy moth in 
the forest include oaks, Quercus spp., alder, Alnus spp., aspen, 
Populus spp., gray birch, Betula populifolia, white birch, B. 
papyrifera, hawthorn, Crateagus spp., larch, Larix spp., linden, Tilia 
spp., mountain ash, Sorbus spp., Lombardy poplar, Populus nigra, 
willows, Salix spp., and witch-hazel, Hamamelis spp. Plants favored by 
older larvae but not by young larvae include beech, Fagus spp., red 
cedar, Juniperus spp., chestnut, Castanea spp., hemlock, Tsuga spp., 
plum, Prunus spp., pine, Pinus spp., and Colorado blue spruce, Picea 
pungens.
    Light defoliation in the forest is defined as 0 to 30% loss of 
foliage and has little effect on the health of trees. Defoliation is 
barely detectable. Moderate defoliation is described as 31 to 50% loss 
of foliage. At this level caterpillars may be abundant enough to be a 
nuisance in an area if not managed. Trees will have enough foliage 
remaining to stay green and little mortality is expected. Heavy 
defoliation is when 51% or more of the foliage is removed from a tree. 
Tree mortality may result from one year's defoliation to hemlock, pine, 
and spruce in the forest. Deciduous trees can normally withstand one 
year of defoliation, but 2 or more successive years may result in 
moderate to high mortality. Around the 50% defoliation level, most 
deciduous trees produce auxiliary leaf buds and new foliage by mid-
August. Refoliation in the same growing season creates a stress to an 
infested tree.
    A normal outbreak pattern for the gypsy moth may be described as 2 
years of light infestation with minimal defoliation followed by 2 years 
of moderate to severe defoliation with population collapse after the 
second year of heavy defoliation. Infestations may flare up in future 
years; however, caterpillar density and level of defoliation in the 
forest will probably not be as severe or widespread as encountered 
during an initial infestation.
    Some people are dermally allergic to the caterpillars. The 
urticating hairs cause skin rashes on some humans. This is most 
noticeable in May when larvae are small. Children appear to be more 
prone to this problem than adults.
    Air temperatures of ^20F or colder during the winter will destroy 
exposed eggs. Unfortunately, numerous egg masses are deposited on 
rocks, near the base of tree trunks and these may be covered with an 
insulating blanket of snow. Freezing temperatures in early May, after 
hatch, may also kill many larvae in the forest.
    When gypsy moth larvae are half-grown, many of them feed at night 
and crawl down the tree in the morning to seek shelter during the day. 
Tree trunks may be encircled with a 14-18 inch wide piece of burlap or 
similar material. Place it at about chest height and arrange it so it 
hangs apronlike around the tree trunk. Tie off the center of the burlap 
band with string and fold the top portion down over the string. This 
burlap apron provides a place under which larvae rest and can later be 
killed. The apron must be checked daily, and all ``trapped'' larvae and 
pupae should be destroyed on valuable trees in a landscape. This 
technique works best in light to moderate infestations from late May 
through early July or until males begin to fly. This management method 
is usually effective enough to keep defoliation levels less than 50% of 
the tree's crown. A few shade trees can be well protected with this 
method. Do not expect this technique to be effective on trees that are 
part of a heavily infested forest.
    Male moths readily respond to the female's sex pheromone. Males can 
be attracted to traps baited with a synthetic pheromone; however, such 
traps are not effective control measures. These traps do assist in 
monitoring an area for low level populations of this pest in the 
forest.
    There are some native predators and parasitoids that attack life 
stages of the gypsy moth in the forest. Several introduced species of 
fly and wasp parasitoids of the gypsy moth are established in 
Pennsylvania and other states. Parasitoids and predators do not provide 
an immediate solution to a gypsy moth infestation. However, once a 
gypsy moth population collapses, the value of these natural enemies is 
exhibited by helping maintain populations in forests at low levels for 
extended periods of time. These parasitoids and predators appear to be 
contributing to stabilizing the gypsy moth population in several areas. 
Native predators, such as birds, white-footed mice, and ground beetles 
assist in keeping gypsy moth populations in the forest at tolerable 
levels.
    A naturally occurring virus called the ``wilt'' has resulted in 
massive mortality of caterpillars causing populations to collapse in 
areas of severe defoliation. Although the virus is always present, it 
seldom affects the larval stage until they are under stress, due to 
overcrowding or reduced food availability in a forest. In recent years 
during wet spring weather, the fungal insect pathogen, Entomophaga 
maimaiga, has also caused collapse of heavy infestations of this pest 
in many areas.
    Several insecticide formulations (microbial, insect growth 
regulators, etc.) are registered for effective management of this key 
pest. To maintain good plant health, applications should be made before 
serious defoliation occurs in the forest. When healthy egg mass 
densities are approximately 500/acre, aerial suppression of gypsy moth 
populations is indicated in forest stands with oak and other 
susceptible trees species. Aerial applications of registered 
formulations should be made according to label directions after the 
majority of eggs have hatched during early to mid-May, when larvae are 
small. Be sure that small larvae have dispersed and they have begun to 
feed causing the characteristic shothole injury to host plant foliage 
in the forest.
Asian Longhorned Beetle
    The Asian longhorned beetle, Anoplophora glabripennis, is an 
unintentionally introduced, invasive species with the potential to 
become a major pest in the United States. This wood-boring pest is a 
member of the insect family Cerambycidae whose larval stages are called 
roundheaded borers. The Asian longhorned beetle was first discovered 
around New York City in 1996. Additional infestations were discovered 
in Chicago (1998) and Jersey City, NJ (2002), and Toronto and Vaughan, 
Ontario, Canada (2003). In 2008 a large infestation was found in 
Worcester, MA. A total of 66 square miles are now under quarantine with 
more likely to be added as the area is surveyed. As of 2009, 
established populations of the Asian longhorned beetle have been 
detected in Austria (2001), France (2003, 2004, 2008), Germany (2004, 
2005), and Italy (2007).
    In the United States, the USDA Animal and Plant Health Inspection 
Service (APHIS) has implemented an eradication program whereby all 
trees with signs of an Asian longhorned beetle infestation are removed 
and destroyed. The eradication program for the Asian longhorned beetle 
has greatly impacted the local areas where this invasive species has 
been found because of the removal of thousands of trees that cost 
states, municipalities, and residents millions of dollars. The United 
States has implemented stricter trade regulations to prevent further 
introductions of this wood-boring pest. The Asian longhorned beetle 
could pose serious economic and environmental threats to many important 
stakeholders such as the maple sugar industry, forest products 
industry, fall-foliage tourism, natural ecosystems, recreational areas, 
and many highly valued landscape and street trees. This is another 
invasive, wood-boring pest that has placed tremendous economic pressure 
on both state and municipal budgets.
    Little was known about ALB when it was first discovered in the 
United States, however, scientists have since provided considerable new 
information on detection and control methods now used by USDA APHIS in 
their Asian longhorned beetle eradication program. Although APHIS is 
progressing in its goal to eradicate this pest that attacks maple, 
boxelder, buckeye, horsechestnut, birch, willow, and elm, additional 
improvements in control methods are still needed to reduce costs, 
improve efficiency, and ensure successful eradication of the Asian 
longhorned beetle.
Thousand Cankers Disease
    Thousand cankers disease or TCD as it's known, was discovered in 
Bucks County, Pennsylvania in 2011. This insect-vectored disease poses 
a significant new threat to black walnut in Pennsylvania. Thousand 
cankers disease is a pest complex that is caused by the walnut twig 
beetle, Pityophthorus juglandis, and an associated fungus, Geosmithia 
morbida. Black walnut, Juglans nigra, is highly susceptible to this 
disease.
    It has been estimated that the value of the walnut nut crop in 
California is approximately $500 million. The economic value of black 
walnut for use in many different types of wood products is estimated to 
be $580 billion. Since Pennsylvania is the top producer of hardwoods in 
the United States, thousand cankers disease is of great concern to 
forest health managers and hardwood products manufacturers.
    The walnut twig beetle is native to North America. Its native range 
in the Southwest appears to coincide largely with the distribution of 
Arizona walnut, J. major, the likely original native host. Records from 
California suggest that the walnut twig beetle may be native to that 
state. The first published record of a cluster of black walnut 
mortality associated with the walnut twig beetle was in the Espanola 
Valley of New Mexico where large numbers of mature black walnut died in 
2001. Similar widespread decline also occurred about this time in the 
Boise, Idaho area where the insect was first confirmed in 2003. Black 
walnut mortality and the walnut twig beetle have been noted in several 
Front Range communities in Colorado since 2004 and in most infested 
cities the majority of black walnut has since died. The walnut twig 
beetle was detected in Portland, Oregon in 1997.
    Prior to these recent reports, the walnut twig beetle was not 
associated with any significant Juglans mortality. In most areas where 
the die-offs of black walnut have occurred, drought was originally 
suspected as the cause of the decline and death of trees, with the 
walnut twig beetle as a secondary pest. The widespread area across 
which Juglans spp. die-offs have been recently reported, combined with 
the documented presence of the associated canker producing fungal 
pathogen carried by the twig beetle, and the occurrence of black walnut 
death in irrigated sites not sustaining drought, all suggest an 
alternate underlying cause.
    The first confirmation of the walnut twig beetle and fungus within 
the native range of black walnut was in Knoxville, Tennessee in July 
2010. Geosmithia morbida was confirmed in samples under regulatory 
controls in August 2010. The potential damage of this disease to 
eastern forests could be great because of the widespread distribution 
of eastern black walnut, the susceptibility of this tree species to the 
disease, the capacity of the fungus and walnut twig beetle to invade 
new areas, and apparent ability to survive under a wide range of 
climatic conditions.
    On J. nigra, the walnut twig beetle prefers to colonize the 
underside of branches in rough areas and prefers branches larger than 1 
inch in diameter. Tunneling by the walnut twig beetle sometimes occurs 
in trunks and it prefers the warmer side of the tree. Winter is spent 
in the adult state sheltered within cavities excavated in the bark of 
the trunk. Adults resume activity by late April and most fly to 
branches to mate and initiate new tunnels for egg galleries; some may 
remain in the trunk and expand overwintering tunnels. During tunneling, 
the Geosmithia morbida fungus is introduced and subsequently grows in 
advance of the bark beetle. Larvae develop just under the bark and then 
enter the bark to pupate. Larval development takes 6-8 weeks to 
complete. Two overlapping generations were reported per season in 
Colorado. Adult beetles fly from mid-April to late October in Boulder, 
Colorado. The adult walnut twig beetle is estimated to fly one to 2 
miles. Peak adult captures occur from mid-July through late August. 
Data suggest that two or more generations may be produced annually. 
Walnut twig beetle populations can reach levels of 30 per square inch; 
a single black walnut tree may produce tens of thousands of beetles.
    Small, diffuse, dark brown to black cankers, caused by Geosmithia 
morbida, initially develop around the nuptial chambers of the walnut 
twig beetle in small twigs, branches and even the trunk. Geosmithia 
spp. are associates of bark beetles of hardwood and conifer trees but 
have not previously been reported as pathogens of Juglans or fungal 
associates of the walnut twig beetle. Branch cankers may not be visible 
until the outer bark is shaved from the entrance to the nuptial 
chamber; although a dark amber stain may form on the bark surface in 
association with the cankers. Cankers expand rapidly and develop more 
expansively lengthwise than circumferentially along the stem. On thick 
barked branches, cankers may at first be localized in outer bark tissue 
and extend into the cambium only after extensive bark discoloration has 
occurred. Eventually multiple cankers coalesce and girdle twigs and 
branches, resulting in branch dieback. The number of cankers that are 
formed on branches and the trunk is enormous; hence the name thousand 
cankers to describe the disease.
    Potential movement of thousand cankers disease may occur on veneer 
logs, sawlogs, burls, stumps, firewood, wood packaging material, 
nursery stock, scion wood for grafting, and natural spread. However, 
the unexpected discovery of this disease deep in native black walnut 
range, over one thousand miles from the nearest known infestation has 
confirmed some assumptions while diminishing others. It is important to 
keep in mind that the Tennessee infestation has likely been present for 
10-20 years. An important question is where else in the native range of 
black walnut could this disease be present but not yet detected. 
Drought, walnut anthracnose, and other symptoms may have masked 
thousand cankers disease from being readily detected.
    Thousand cankers disease is scattered throughout western states and 
reports of walnut mortality are occurring simultaneously in areas that 
are connected by major highways. This distribution along major commerce 
routes suggests that movement of thousand cankers disease and its 
vector may be human assisted. Extension education programs on thousand 
cankers disease need to be developed and delivered by specialists and 
educators at our land-grant institutions. Research conducted by 
scientists in both academia and state and Federal Government agencies 
should play a major role in disseminating applied research to 
stakeholders on this complex, insect-vectored disease of black walnut. 
Solving problems associated with thousand cankers disease will 
necessitate collaborative as well as interdisciplinary efforts to 
preserve the health of this important tree species.
Conclusion
    Research priorities on invasive species that impact the health of 
our forest as well as landscape trees needs to be focused on the 
development of prevention, prediction, detection, monitoring, 
management, and genetic evaluation as well as restoration of trees in 
the forests of our nation. With the global movement of many different 
products, the sustained health of our forests is being placed at a 
higher risk for survival. We need to be even better stewards of the 
health of our forests for future generations.
    This concludes my prepared statement, and I would be pleased to 
answer any questions you may have regarding the role invasive pests 
play in the challenges of managing and maintaining the health of our 
nation's forests.
Some References on Invasive Forest Pests in the United States
    Cranshaw, W. and N. Tisserat. 2008. Pest Alert: Walnut Twig Beetle 
and Thousand Cankers Disease Of Black Walnut. Colorado State 
University. http://wci.colostate.edu/Assets/pdf/ThousandCankers.pdf.
    Drooz, A.T. (ed.) 1985. Insects of eastern forests. USDA, Forest 
Serv., Misc. Publ. 1426, 608 pp.
    Johnson, W.T. and H.H. Lyon. 1991. Insects that feed on trees and 
shrubs. 2nd ed. rev., Cornell Univ. Press, Ithaca, New York, 560 pp.
    Newton, L. and G. Fowler. 2009. Pathway Assessment: Geosmithia sp. 
and Pityophthorus juglandis Blackman movement from the western into the 
eastern United States. USDA-APHIS Rev. 19 August 2009.
    Pimentel, D., R. Zuniga, and D. Morrison. 2005. Update on the 
environmental and economic costs associated with alien-invasive species 
in the United States. Ecological Economics 52: 273-288.
    Seybold, S.J., D. Haugen, J. O'Brien, and A. Graves. 2010. Pest 
Alert: Thousand Cankers Disease. USDA Forest Service, Northeastern 
Area, State and Private Forestry. Rev. August 2010.
    Sydnor, T.D., M. Bumgardner, and A. Todd. 2007. The potential 
economic impacts of emerald ash borer (Agrilus planipennis) on Ohio, 
U.S., Communities. Arboriculture & Urban Forestry 33: 48-54.
    Tisserat, N., W. Cranshaw, D. Leatherman, C. Utley, and K. 
Alexander. 2009. Black walnut mortality in Colorado caused by the 
walnut twig beetle and thousand cankers disease. Plant Health Progress.
Websites on Invasive Forest Pests in the United States
    Forest Disturbance Processes--Invasive Species, Northern Forest 
Research Station, USDA-Forest Service: http://nrs.fs.fed.us/
disturbance/invasive_species/
    Orwig, D.A., H. Forest and D. Kittredge. Silvicultural Options for 
Managing Hemlock Forests Threatened by HWA, Univ. Mass. Extension: 
http://na.fs.fed.us/fhp/hwa/silvi-mgt/silvi-mgt.shtm
    Introduced Species Summary Project, Hemlock Woolly Adelgid (Adelges 
tsugae) http://www.columbia.edu/itc/cerc/danoffburg/invasion_bio/
inv_spp_summ/Adelges_tsugae.html

    The Chairman. Thank you, Mr. Hoover.
    Mr. Watkins, go ahead when you are ready, proceed for 5 
minutes testimony.

         STATEMENT OF CHARLES ``CHUCK'' WATKINS, CHIEF
  OPERATING OFFICER, REX LUMBER, GRACEVILLE, FL; ON BEHALF OF 
               FEDERAL FOREST RESOURCE COALITION

    Mr. Watkins. Good morning. I am here as a representative of 
Rex Lumber. As Mr. Southerland said, we employ 434 people, 
produce about 450 million feet of lumber, and it is important 
to mention as Mr. Ribble said before, we are a gross exporter 
of lumber. About 20 percent of our lumber is exported out of 
this country to the Caribbean.
    So our mill is sitting on the doorstep of the Apalachicola 
National Forest and in 1980 that mill was built----
    The Chairman. Mr. Watkins, hold on. Mr. Hoover, is your 
microphone still on by chance?
    Mr. Hoover. It is off.
    The Chairman. I don't know where the feedback is--sorry 
about that, sir. We are used to getting all that feedback here. 
We don't want it to interfere with your testimony.
    Mr. Watkins. Is that better?
    The Chairman. That is great. Please go ahead. I am sorry 
about that.
    Mr. Watkins. So we built a mill, a lumber-producing 
facility in Bristol, Florida, in 1980 with the kind of verbal 
agreement with the Forest Service that we would get a lot of 
timber off of that land. That land covers a vast, vast area 
around us. So as that timber supply was basically reduced, it 
took a lot of our area away. Over the course of the 1990s and 
the 2000s, we are forced to buy timber and outsource and 
basically push away from the mill. And we all know with fuel 
costs, what that does to us. The reason was this little bird 
called the Red Cockaded Woodpecker. Well, we essentially 
reduced a lot of the harvesting on that forest, and so what we 
have found through some studies through between 2000 and 2009 
is that the density of that forest has gone up by 30 percent 
and that Red Cockaded Woodpecker likes open park spans, pine 
park-type of an environment and its population has actually 
decreased by 15 percent. So that is a little story of our mill.
    And we wonder as business owners and employers and members 
of our community, why? Why is that happening? Our National 
Forest supports over 770 Red Cockaded Woodpecker clusters, over 
2,000 black bears, over 60 bald eagle nests, and frankly, we 
could do better. We could certainly do better.
    But I am here representing the Federal Forest Resource 
Coalition with membership in 24 states. We have 650 member 
companies, 350,000 employees, and $19 billion payroll. And what 
we ask of you is that the Forest Service has stated that they 
are going to increase their harvest to 3 billion board feet and 
we are asking to increase it again to 3\1/2\ billion board feet 
in 2013. But keep in mind that that represents less than ten 
percent of the growth of our forests. And actually, that 
represents less than 50 percent of what their targets are, what 
their goals are now. So what we ask as a group is that we need 
some transparency in the Forest Service. We need to see what 
they are doing and understand what they are doing and see some 
results. We would like to see some type of progress reports.
    The recession from 2008 to 2011 was very tough on our 
industry. Our employment decreased by 50 percent across the 
country. And the ironic part of that is that as we lose these 
employees and we lose these mills and these manufacturing 
facilities, that actually is detrimental to the Forest Service. 
The Forest Service is losing partners in managing this land, in 
managing their timber harvests.
    So what we would like to stress to the Committee is that 
the health of the National Forests, the economic health of the 
member companies of our group, and the health of the 
communities where we live are all linked together. We would ask 
for your support with the Forest Service in some transparency, 
some progress reports in assuring that we reach those goals. We 
are optimistic but we are very cautious.
    Thank you.
    [The prepared statement of Mr. Watkins follows:]

   Prepared Statement of Charles ``Chuck'' Watkins, Chief Operating 
   Officer, Rex Lumber, Graceville, FL; on Behalf of Federal Forest 
                                Resource
                               Coalition
    Good morning, Mr. Chairman, Ranking Member Holden, and Members of 
the Subcommittee. My name is Chuck Watkins, and I am Chief Operating 
Officer Rex Lumber, which operates businesses in both Florida and 
Mississippi. Our family owned company is a founding member of the 
Federal Forest Resource Coalition (FFRC), which represents purchasers 
of Forest Service timber across the country. The coalition has members 
in more than 24 states, with approximately 650 member companies 
representing 350,000 workers and about $19 billion in payroll.
    The FFRC supports sustainable management of the National Forests 
lands to produce clean water, enhance wildlife habitat, produce forest 
products including timber and biomass, support rural economic 
development, and to reduce the threats of catastrophic wildfires and 
insect outbreaks. Our members come from every link on the forest 
products value chain, from loggers to landowners and from large pulp 
and paper facilities to forest bioenergy plants. Our member companies 
are frequently located in rural areas, which have higher than average 
unemployment, poverty, and population loss compared to their states' 
averages.
About Rex Lumber
    Rex Lumber traces its roots in Northwest Florida back to 1926, 10 
years prior to the establishment of the Apalachicola National Forest. 
Rex currently operates three mills in Bristol and Graceville, Florida, 
as well as Brookhaven, Mississippi. We source our raw materials from 
the Apalachicola National Forest in Florida and the Homochitto in 
Mississippi, as well as from private timberlands.
    Our mills employ 434 people directly. We have the capacity to 
produce 458 million board feet of Southern Yellow Pine lumber, most of 
which is subsequently pressure treated and sold for residential and 
commercial use. We export our products widely, including to the 
Caribbean where it is preferred for its strength and stability in an 
area known for hurricanes and seismic hazards. We purchase logs from 
over 100 local loggers, and employ over 30 other contractors for heavy 
maintenance and engineering projects on our facility. Our mills are one 
of the largest employers in our communities, where other jobs are 
frequently lowering paying and less desirable.
The National Forests in Florida: A Conservation Success Story
    The Homochitto and Apalachicola forests are, like the rest of the 
National Forests east of the Mississippi, conservation success stories. 
Most of the lands in the eastern National Forests were acquired in the 
1920's and 1930's after an era of ``cut and run'' logging that left 
watersheds subject to large fires, erosion, and depletion of both 
forests and their wildlife. Although it is hard to imagine today, 
conservationists in the 1920's and 1930's feared for the extinction of 
species like the wild turkey and the Whitetail deer. Reforestation and 
careful management have helped restore the 1.2 million acres of 
National Forests in Florida.
    Today, the National Forests in Florida support over 770 Red 
Cockaded Woodpecker clusters, 60 active bald eagle nests, and over 
2,000 Florida Black Bears. In total, these forests provide habitat for 
some 145 species of rare plants, and 52 threatened, endangered, or 
sensitive species of animals. Like much of the National Forest system, 
however, we firmly believe that these forests could produce far more of 
these benefits, while providing a steadier and more reliable source of 
wood fiber to our mills.
    Like most pine forests across the country, our forests are adapted 
to frequent wildfires. Overstocking of pine forests makes it difficult 
for forest managers to introduce fire, which controls understory 
vegetation and helps create and maintain the habitat preferred by such 
species as Red Cockaded Woodpecker, gopher tortoise, and bobwhite 
quail. Harvests which produce an open stand condition produce ideal 
wildlife habitat, while also providing high value sawtimber to a market 
which needs this raw material.
    As you can see from the table we've included here, over the last 5 
years the National Forests in Florida have been inconsistent in the 
harvests they have offered. Dropping from a high of 42.1 million board 
feet in 2007 to a low of 21 million feet in 2009, the forest has also 
been inconsistent in the level of sawtimber offered for sale.

                       NF's in Florida Sold Totals
------------------------------------------------------------------------
                                                             $ Total
    Fiscal Year            MBF           % Sawtimber       (Millions)
------------------------------------------------------------------------
          2011                31.9               39%             $2.90
          2010                22.4                               $2.04
          2009                21.5                               $1.78
          2008                25.4               22%             $1.99
          2007                42.1               36%             $3.20
------------------------------------------------------------------------

    This inconsistent level of harvest makes it difficult for loggers 
to find consistent work to make payments on expensive logging 
equipment, makes it difficult for mill managers to find consistent 
supplies, and in particular makes it difficult for businesses to make 
long-term plans and investments. Other forests in the Forest Service's 
Southern Region have been able to consistently offer considerably 
higher volumes of timber for sale, all while meeting their other forest 
plan objectives for wildlife and plant habitat.
Increasing the Pace of Forest Restoration
    Recently, Secretary of Agriculture Tom Vilsack announced that the 
Forest Service would step up both the pace and scale of their land 
management. We applaud and support this effort, but we believe it does 
not go far enough to meet the needs of the forests or the needs of our 
rural communities.
    Increased management and forest products outputs, from the current 
low level of 2.4 billion board feet nationwide to 3.5 billion board 
feet in 2013, would provide a much-needed economic boost to rural 
America, creating thousands of jobs. The health of the National 
Forests, the economic health of our member companies, and the health of 
the communities where we live and work, are inextricably linked. Moving 
from the current projected harvest level of 2.6 billion board feet to 
3.5 billion board feet could produce some 14,400 direct jobs, with 
thousands of additional indirect jobs. The current forest plans in 
place across the country call for a harvest level of roughly 6 billion 
board feet, still only \1/2\ of the peak harvest levels of the late 
1980's.
    Even in these challenging wood markets, some FFRC member companies 
have been frustrated by the Forest Service's lack of commitment to sell 
adequate log supplies. The result is idled investments, reduced shifts 
at sawmills, jobs lost to foreign competition, and a failure to sustain 
or enhance a value-added, manufacturing industry that can capture 
greater domestic and international market share. Our member companies 
are extremely competitive in the global market, and only need a fairly 
priced raw material to capture more of those markets. The time 
available to capture these opportunities is limited, and we urge you to 
reward the Forest Service's recent initiative by investing in more 
aggressive management of the National Forests.
    We have worked--and will continue to work--closely with the 
leadership in the Forest Service and USDA to find ways of reducing 
overhead and making the forest products and fuels reductions program 
more efficient. We believe some of the steps taken by the Forest 
Service in their February 2, 2012 report will help achieve these 
efficiencies. However, other authorities, like allowing the Forest 
Service to use designation by description on regular timber sales, much 
as they do on current Stewardship contracts, will help reduce unit 
costs even further.
Investing in Land Management
    We were pleased and thankful that the Omnibus appropriations bill 
for 2012 set a harvest goal of 3.0 billion board feet for 2012. We urge 
the Agriculture Committee to reinforce the importance of this new 
target by seeking frequent progress reports this fiscal year, and 
asking the agency to increase its outputs in 2013 to 3.5 billion board 
feet. The current annual harvest from the National Forests represents 
less than 10% of annual forest growth, and less than half the allowable 
sale quantity under existing forest plans. In many regions, the Forest 
Service is falling short of its own management goals; including in 
reacting to the pine beetle outbreak in the Rockies, salvaging beetle 
and drought killed timber in the Southeast, and managing aspen habitat 
in the Lake States.
    Stepping up management, through formal collaboratives where they 
exist and normal timber programs elsewhere, will help address pressing 
forest health concerns while helping bolster employment in rural 
communities where unemployment is frequently near 20% and poverty is 
well above state averages. Investing in the Forest Service timber 
program is a very effective job creator, generating 16.5 new direct and 
indirect jobs per million board feet harvested.
Reducing NEPA Costs
    The President's Council on Environmental Quality issued a memo on 
increasing the efficiency and effectiveness of environmental reviews 
required by the National Environmental Policy Act in December. The 
Forest Service has told Congress that complying with NEPA and other 
environmental laws costs them $356 million annually, which is more than 
the agency spends on timber management, or Research, or State and 
Private Forestry. Saving even a portion of these expenses would free up 
resources to actually manage forests and reduce the threat of wildfire 
and insect outbreaks.
    Timber purchasers across the country report that Forest Service 
personnel frequently conduct exhaustive NEPA analysis, only to propose 
and implement small scale land management projects which do not meet 
the objectives the agency set out to meet. Examples include leaving 
higher than called for stand densities, or dropping entire units from 
proposed sales even though doing so leaves forest stands susceptible to 
insects and mortality. The Forest Service's February 2nd report on 
increasing the pace of forest restoration touches on this subject, but 
we believe direction from this Subcommittee would help reinforce the 
urgency of directing the resources to management rather than paperwork.
    When National Forests in the Lake States are up to 75% behind on 
their management goals for early successional habitat, and the National 
Forests in the Rocky Mountains are falling woefully behind in dealing 
with a massive, 41 million acre and growing pine beetle outbreak, 
finding some way of reducing NEPA costs is urgently needed.
Forest Health and Forest Restoration
    2011 demonstrated that the poor health of our National Forests and 
other Federal Forests impacts everyone, from the industries that depend 
on useable wood fiber to casual weekend visitors to the Forests. The 
large fires in Arizona and New Mexico last year forced the closures of 
popular campgrounds, destroyed dozens of recreational cabins, and 
forced cancellations of Fourth of July events at popular mountain 
resorts. Many miles of forest roads and several campgrounds in Arizona 
remain closed. The large scale beetle infestation in the Black Hills 
has forced local campground owners to spend more than $100,000 annually 
to remove beetle killed trees and spray others in an effort to stop 
beetles from spreading off of the National Forests. The Pagami Creek 
fire in Minnesota disrupted popular hiking and canoeing areas in an 
around the Boundary Waters Canoe Area. Campers, hikers, hunters, and 
skiers all want to visit healthy, green, and growing forests.
    In each of these cases, wood using industries, from start-up 
biomass plants to family run sawmills to internationally competitive 
pulp and paper facilities, stand ready to help the Forest Service to 
actively manage the National Forests. Opportunities to expand this 
management, and the benefits that come from it, abound nationwide.
Reduce Overhead Costs to Expand Meaningful Management
    The Forest Service must reduce overhead and project preparation 
costs in its land management programs, particular forest products, 
hazardous fuels reduction, and salvage sales. Current overhead rates 
are over 50%, and in some regions, 70% of appropriated dollars go into 
NEPA compliance, not project design and implementation.
    Specific approaches currently available to the Forest Service and 
the Administration that would reduce costs include:

    1. Reduce project preparation costs (e.g.,--greater use of 
        designation by description and designation by prescription in 
        lieu of marking);

    The Forest Service allows the use of this management technique on 
some timber harvests, including on Stewardship contracts. Expanding its 
use can help reduce costs and move lower value wood fiber at lower 
costs, which should be a high priority given the slack markets for 
products like pulpwood and biomass. Allowing purchasers to harvest 
trees that meet sale specifications, while instituting controls such as 
post-harvest surveys and periodic scaling of sample loads, can reduce 
costs of sale administration to reflect the lower value of wood fiber 
being removed.

    2. Achieve economies of scale by conducting project planning and 
        associated economic analysis and NEPA analysis at larger 
        scales, and then marking all sales to reflect the NEPA that is 
        conducted;

    As noted above, the Forest Service is spending over $350 million 
per year on NEPA and associated environmental reviews. In many cases, 
purchasers report that the Forest Service staff then mark timber sales 
that do not meet the objectives outlined in the NEPA documents. This 
leaves stands more susceptible to subsequent bug infestation, 
mortality, and fires.

    3. Declare an emergency on forest lands in Condition Class II and 
        III, in particular in lands impacted by large scale beetle 
        infestations, allowing the use of alternative arrangements for 
        NEPA compliance; and

    The scale of the current pine beetle infestations in the Rocky 
Mountains is unprecedented. Yet NEPA analysis continues to take too 
long, while the infestations spread to new areas and threaten the 
viability of what little remains of the regions wood using industry. We 
urge rapid action to capture value and help prevent further loss of 
valuable forests and habitat.

    4. Move rapidly to implement the new objection authority enacted as 
        part of this year's Omnibus Appropriations Act.

    The Fiscal Year 2012 Omnibus Appropriations Act provided for a new, 
streamlined objection process to apply to all NEPA actions of the 
Forest Service. This authority, modeled on the objection process 
authorized by the Healthy Forest Restoration Act, which this Committee 
helped create, will allow the Forest Service to consolidate similar 
objections and work with interested parties to find a way forward on 
vital land management projects. We urge the Forest Service to finalize 
regulations to implement this important provision as soon as possible.
Stewardship Contracting Reauthorization
    The FFRC supports long-term reauthorization for Stewardship 
contracting, which was first authorized as a pilot program in 1999. In 
2003, the Forest Service and Bureau of Land Management (BLM) were 
granted 10 years authority to enter into Stewardship Contracts or 
Agreements. Stewardship Contracting allows the Forest Service and BLM 
to enter into a variety of different contracts which allow them to 
trade goods (usually timber or biomass) for services (which can cover a 
variety of land management practices, including habitat improvement, 
fish passage, and other activities which would otherwise have to 
obtained through service contracts). Stewardship Contracting has proven 
an effective, and increasingly important, mechanism to help Federal 
land management agencies achieve land management goals. Further, in 
many regions, timber volumes produced through Stewardship Contracts 
make up a significant percentage of the Forest Service's annual sale 
program. Authority for Stewardship Contracting expires on September 30, 
2013.
    It is important to recognize that Stewardship Contracting is one 
tool for achieving land management goals; in many cases, the same land 
management results can be--and are currently being--achieved with 
traditional timber sale contracts. Reauthorization of Stewardship 
Contracting authorities must not be considered a way to replace or 
supplant other contracting tools.
    We recommend minor changes to Stewardship contracting authority 
which will help the Forest Service and BLM to achieve greater program 
efficiency in the use of Stewardship Contracts, while ensuring local 
support for the projects performed using this important tool. They will 
also help attract a broader variety of potential partners who want to 
support and participate in Stewardship Contracting projects.
    We recommend the following minor changes to the existing authority 
for Stewardship Contracts:

  <bullet> Provide the Forest Service with the discretion to choose 
        whether to use ``best value'' selection criteria.

  <bullet> Provide the Forest Service and BLM with greater discretion 
        to select personnel responsible for awarding and administering 
        Stewardship contracts and agreements.

  <bullet> Make retention of existing wood products infrastructure a 
        co-equal objective with other goals of Stewardship contracts 
        and agreements.

  <bullet> Where Stewardship contracts or agreements result in payments 
        to the Forest Service, 25% of these payments should be directed 
        to the County where the project is being performed.

  <bullet> Provide liability limitations for operations fires 
        consistent with those in existing timber sale contracts.
Secure Rural Schools Reauthorization
    As this Subcommittee is aware, authority to make guaranteed 
payments to National Forest Counties from the treasury expired late 
last year. National Forest Counties are facing potentially devastating 
cuts to services if they are forced to rely solely on receipts without 
policy changes which direct higher levels of harvest and revenues.
    The guaranteed funding provided under SRS was never intended to 
permanently replace shared revenue from active management on Federal 
public lands. Congress should not provide further extension of 
mandatory funds without ensuring a transition that makes improvements 
in both the health of Federal forests and the economic condition of 
forest dependent counties through active forest management. H.R. 4019, 
approved last month by the Natural Resources Committee, would help re-
establish the connection between National Forest management and 
revenues to local communities.
    Alternative land management paradigms, including identification of 
lands to provide stable funding on a trust-trustee basis, whether in 
Federal or other ownership, should be encouraged, while restoring and 
strengthening the overall multiple use framework on Federal forests. We 
applaud the Oregon delegation for exploring these alternatives for the 
O&C lands managed by the BLM in Oregon.
Conclusion
    FFRC appreciates this Subcommittee's focus on these important 
issues. The recession of 2008 to 2011 was particularly cruel to the 
wood products industry. In some states, employment in wood using 
industries dropped by 50% or more. The Forest Service has been helpful 
in offering some timber for sale even in these economically trying 
times.
    However, we believe a more concentrated effort is needed to help 
ensure that further losses in wood using capacity do not take place 
near the National Forests. Whether the Forest Service is attempting to 
create early successional habitat for grouse and woodcock in the Great 
Lakes, maintain or improve quail or woodpecker habitat in the 
Southeast, or restoring habitat diversity in older forests in the 
Pacific Northwest, the existence of viable wood consuming mills helps 
reduce their management costs and improve the quality of life in 
adjacent communities. We appreciate your efforts to keep these issues 
front and center at the Department, and look forward to working with 
you to achieve healthier National Forests and more prosperous rural 
communities.

    The Chairman. Thank you, sir.
    I now recognize Mr. Zimmer for 5 minutes of testimony.

          STATEMENT OF GARY ZIMMER, CERTIFIED WILDLIFE
BIOLOGIST<SUP>'</SUP>, COORDINATING WILDLIFE BIOLOGIST, RUFFED 
                   GROUSE SOCIETY, LAONA, WI

    Mr. Zimmer. Thank you, Mr. Chairman.
    I am going to stray a little bit from my comments just from 
what I have heard today. One point that I would like to make is 
that 12 years ago I made one of the toughest decisions--
probably almost the toughest decision of my life when I left 
the U.S. Forest Service. It was the first organization that 
really gave me the chance to become and exercise my wildlife 
management skills that I have learned and grew up loving as a 
career. While that lasted we did some great work, had a good 
family relationship with the folks I worked with, some of the 
best people I have ever worked with. That changed as things 
changed in the organization and I became a NEPA writer. All I 
did every day was writing documents, writing documents, writing 
documents, and writing documents.
    I left 12 years ago. One of the documents that I was 
working on 12 years ago was one of the documents that Chief 
Tidwell referred to that just finally passed the court system 
and is now being implemented. I feel good about that. I was 
part of the start and I guess I will be part of the finish. 
Sitting back in the audience today, I realized yesterday would 
have been my first day I would have been eligible for 
retirement from the U.S. Forest Service. I made a good choice 
because I feel I do a lot more on-the-ground work for the 
benefit of wildlife species, especially those of my 
constituents in the society and those 15,000 members of the 
society nationwide asked me to do. I am not sure in the last 12 
years I could have done that being employed in a sense by the 
taxpayer of this nation.
    Also, I would like to say one other thing. I am also proud 
that I have 157 acres of woods in northern Wisconsin that is 
certified under the Forest Stewardship Council and the 
Sustainable Forestry Initiative third-party certification 
process. I join many, many other private landowners in the 
State of Wisconsin, many industry landowners, many state and 
county forests that have this certification. The only large 
forest landowner in the State of Wisconsin that is not 
certified is our National Forest. That is sad. It is very, very 
sad. We meet all the criteria of all these other landowners and 
I wish the Forest Service would.
    A pilot study was done a few years ago and the Chequamegon-
Nicolet was in that pilot study, and one of the biggest 
impediments to going forward with certification was that they 
weren't sustainable. These forests weren't sustainable and it 
in part was because of litigation.
    I am really here today, though, to emphasize the critical 
role that active forest management plays in sustaining wildlife 
populations dependent on young forest habitats. Today, active 
forest management through the use of commercial forest provide 
the only realistic opportunity to maintain the range of 
forested habitats needed to sustain wildlife diversity. 
Unfortunately, this act of forest management, especially on our 
National Forests, has fallen well behind forest management 
goals, as you have heard today. As a result, young, deciduous 
forest habitats, those less than 20 years old, have decreased 
by 33 percent over the past decade and has had a significant 
effect on wildlife habitats.
    In 2007, the American Bird Conservancy listed the early 
successional deciduous forest habitats in the eastern part of 
the country as one of the nation's 20 most threatened bird 
habitats. The dense, young forests that provide important 
protection from predators and feeding areas for young birds are 
being lost at an alarming rate. In the absence of fire, even-
age silvicultural systems are the most appropriate method of 
regenerating young forest habitats. However, acreage treated 
using even-age silvicultural prescriptions on National Forests 
in the East has declined by 52 percent since 1995.
    In the past 10 years, the Chequamegon-Nicolet National 
Forest in northern Wisconsin, one of the most actively managed 
forests in the eastern region, has only met 28 percent of its 
Forest Plan goals for aspen forest type; 28 out of 100 percent 
is failure in any test I have ever taken and it is a failure 
here, too. And we are currently behind on over 17,000 acres in 
the Forest Plan of aspen forest communities. No species can 
tolerate this 72 percent drop in habitat.
    Really only through a balanced approach to forest 
stewardship, an approach that recognizes the ecological 
necessity of periodic disturbance today impacted primarily 
through commercial forest management, can the needs of our 
forest wildlife resources be adequately addressed.
    Thank you very much.
    [The prepared statement of Mr. Zimmer follows:]

         Prepared Statement of Gary Zimmer, Certified Wildlife 
 Biologist<SUP>'</SUP>, Coordinating Wildlife Biologist, Ruffed Grouse 
                           Society, Laona, WI
    Mr. Chairman:

    I am a lifelong resident of Northern Wisconsin and live within the 
boundaries of the Chequamegon-Nicolet National Forest (NF). Since 2000, 
I have been a Wildlife Biologist for the Ruffed Grouse Society, a 
nonprofit wildlife conservation organization dedicated to improving the 
environment for ruffed grouse, American woodcock, and other forest 
wildlife. Eighteen years prior to that, I was a U.S. Forest Service 
employee on the Chequamegon-Nicolet NF, the majority of those years as 
a District Wildlife Biologist. From both inside and outside the 
organization I have seen the impacts that a reduction in forest 
management on our National Forests has had on some wildlife 
populations.
    Periodic forest disturbance is essential to maintain healthy forest 
ecosystems. Vibrant populations of a diverse array of forest wildlife 
are critical components of healthy forests. In order to maintain the 
full array of forest wildlife, a landscape must support the full array 
of forest habitats--forests of various types and various ages--very 
young, very old, and ages in between. Today, wildlife dependent upon 
young forest habitats, sustained only through active forest management, 
are declining as a result of reductions in management of these 
habitats.
    Throughout time across North America, disturbance events have 
shaped the composition, structure, and distribution of wildlife 
habitats and, therefore, of wildlife populations. Changes in 
disturbance regimes beyond the range of natural variability due to 
man's actions, or lack thereof, can affect the sustainability of 
wildlife populations on altered landscapes. Disturbance agents 
historically affecting vegetative communities included fire, wind, ice 
storms, disease, insect infestation and grazing. Since the early 20th 
Century, society has worked to minimize the effects of fire on the 
landscape through rigorous suppression in an effort to safeguard lives 
and property. Today, active forest management through the use of 
commercial timber harvest provide the only realistic opportunity to 
maintain the range of forest habitats needed to sustain wildlife 
diversity.
    In February 2007, the American Bird Conservancy classified early 
successional deciduous forest habitats (young forests) in the eastern 
United States as one of the nation's 20 most threatened bird habitats. 
Throughout the eastern United States today, young (1 to 20 years old) 
deciduous forest habitats have decreased by 33% over the past several 
decades, while total forest land has increased by approximately 7%. In 
the absence of fire, young forest habitats are sustained primarily 
through the natural succession of open lands to shrub-dominated fields 
or through the use of silvicultural treatments in existing forest 
stands. Even-age silvicultural systems (clearcut, seed tree, two-aged, 
shelterwood) are the most appropriate methods to create young forest 
habitats.
    Acreage treated using even-aged silvicultural prescriptions on 
National Forests in the East has declined by 52 percent since 1995. 
Over the past 10 years, the Chequamegon-Nicolet NF, one of the more 
actively managed Forests in the Service's Eastern Region, has only met 
28% of its Forest Plan goal for aspen management, a critical early 
successional forest species, and is currently over 17,000 acres behind 
in managing its aspen forest communities. Neither we nor the suite of 
wildlife species that utilize this important young forest habitat can 
tolerate a 72% drop in available habitat.
    Thick, young forest habitat provides protective cover from 
predators for many wildlife species that are being negatively impacted 
by a decline in forest management. The Wisconsin Department of Natural 
Resources' Wildlife Action Plan identifies 27 vertebrate Species of 
Greatest Conservation Need with declining or vulnerable populations 
associated with young forest and shrub-like habitat. Included in this 
list are the Kirtland's warbler, a Federal Endangered Species found 
primarily in regenerating jack pine forests less than 15 years old in 
Michigan and Wisconsin. There are currently an estimated 1,800 breeding 
pairs of Kirtland's warblers in the world--as compared to 2,260 
breeding pairs of northern spotted owls in the U.S. alone. The Huron-
Manistee NF in central Michigan supports approximately half of the 
global population of the Kirtland's warbler.
    The New England cottontail rabbit is a candidate for protection 
under the Federal Endangered Species Act. Once found across the 
Northeast, the New England cottontail rabbit has seen its range shrink 
by 86% since 1960 as the thicket habitats it requires become less and 
less abundant.
    Another bird found only in young forests and shrub-like habitats is 
the golden-winged warbler, a bird petitioned for Federal listing under 
the Endangered Species Act in 2010. It is estimated that 78% of the 
continents golden-winged warbler population resides in the upper 
Midwest and is dependent on young aspen forests and other shrub-like 
habitats. The Great Lakes National Forests include some of the primary 
sources of golden-winged warbler populations in the entire United 
States and some of the last opportunities to halt the downward decline.
    Over 40 species of songbirds in the Eastern United States are 
considered dependent on young forest habitat. More than half of the 187 
species of neo-tropical migratory songbirds that breed in the Midwest 
use shrub or young-forest habitats to some degree during the breeding 
season. Breeding Bird Survey data document that bird species dependent 
upon shrub-dominated and young forest habitats are approximately twice 
as likely to be experiencing population declines in the Eastern United 
States as are birds that breed in mature forests.
    Wildlife that rely upon young forest habitats also include the 
ruffed grouse, the state bird of Pennsylvania, and the American 
woodcock, two important game species pursued by over one million 
sportsmen and women each year in North America. These hunters have a 
significant economic impact, spending an estimated $500 million in 
local communities.
    Without a doubt, a diverse landscape that includes a wide array of 
forest ages and forest types is essential for the survival of a litany 
of species. National Forests and other public forestlands play an 
important role in the conservation of wildlife dependent on young 
forest habitats. Only through a balanced approach to forest 
stewardship, an approach that recognizes the ecological necessity of 
periodic disturbance, today imparted primarily through commercial 
forest management, can the needs of our forest wildlife resources be 
adequately addressed.
    Well-intended laws and regulations including the National Forest 
Management Act (NFMA) and National Environmental Policy Act (NEPA) have 
guided the management of our National Forests for many decades but have 
been used by some to strangle the agency. It took the Chequamegon-
Nicolet NF 8 years and thousands of staff hours to complete their 
latest Forest Plan revision in 2004. As Forest Plan implementation 
began nearly every resource management project that involved timber 
harvests was appealed and litigated by a single environmental group. 
Legal challenges have resulted in continuing forest health issues, a 
failure to protect the forest from damaging agents and as noted 
earlier, a significant decline in young forest habitats. The National 
Forest system is the only publicly owned forest system in many eastern 
states currently lacking third party certification. This is due in 
large part to legal challenges delaying the implementation of approved 
management activities for sustainable forestry. The cost for the 
Federal Government to implement NEPA on National Forests exceeds well 
over $300 million annually.
    We must increase the use of active forest management on National 
Forests if we are to safeguard wildlife that requires young forest 
habitats. We must reduce the ability of groups or individuals to tie up 
habitat management activities for years and years at little cost to 
them, but at a very high cost to those that live and work in the 
vicinity of the National Forests and to the taxpayers of this great 
nation. These forests provide some of the last opportunities to 
maintain essential young forest habitat as an important part of the 
biodiversity of our National Forests and meet the social and economic 
demands of the public.
    Thank you for your time.

    The Chairman. Thank you, Mr. Zimmer.
    We will now proceed with 5 minutes of questioning, and I 
will take the first 5 minutes.
    Mr. Hoover, you mentioned in your testimony that additional 
research in identifying suitable natural enemies, pheromones, 
and biological controls for the emerald ash borer is greatly 
needed. Has there been any success on these fronts? And also 
what successes have there been with other invasive species that 
you can recount?
    Mr. Hoover. Well, to effectively manage forest pests, we 
really don't have the tools in the way of chemical materials, 
so what needs to be relied on and what has been effective are 
those successes where parasitoids and predators have been 
released targeting the gypsy moth. There is a rearing facility, 
USDA facility in Brighton, Michigan, that is rearing three 
parasitoids, two larval parasitoids, and one egg parasitoid of 
the emerald ash borer. In Pennsylvania just last year, there 
were three release sites made of those natural enemies of the 
emerald ash borer. In 2012, there is successful establishment 
and evaluation will be taking place. I believe, Mr. Chairman, 
that the long-range effective management of many of these 
invasive pests in our forests is hinged to establishing 
effective natural enemies to keep their populations at 
tolerable levels.
    The Chairman. Thank you. In your experience, has there been 
research--research obviously is incredibly important in this 
area in terms of our previous discussion, the invasive species 
can change the entire characteristic of a forest having all 
kinds of ramifications. Has there been a positive research 
partnership between institutions of higher education, private 
organizations, industry, state governments, and Federal 
Government? And particularly, what has the collaboration been 
that you have seen with the U.S. Forest Service on invasive 
species both in terms of prevention and suppression?
    Mr. Hoover. It has been my experience in Pennsylvania, we 
formed--instead of having task forces that addressed each 
individual invasive pest, those have all been consolidated into 
a Forest Pest Council that is made up of state and Federal 
Government agencies, which includes the Forest Service out of 
their Morgantown office. My experience has been that 
collaboration between state and academia with the Forest 
Service has been very good in the way of human resources, in 
the way of experimental materials that need to be evaluated on 
a statewide basis. So it has been my experience that the Forest 
Service role in research regarding invasives has been what you 
would want in the way of an interaction that benefits state 
governments and our National Forest, as well as state and 
private forests.
    The Chairman. The method of transport appears to be where 
it is carried in. You know, in another situation in California 
where logs were imported and now there is significant outbreak 
of a specific invasive species--I know in my own National 
Forest, there are signs about, use the firewood that you find; 
don't carry wood in and out. And I know your role with the 
agriculture extension, how important is education in terms of 
preventing invasive species from being inadvertently introduced 
into an area?
    Mr. Hoover. Well, Mr. Chairman, from a frustrated former 
biology teacher, I regret to say we have a scientific 
illiterate society. And what cooperative extension's role is is 
to try to educate the public as to the impact of unintentional 
movement of firewood that is infested with invasive wood-boring 
insects. And so again in collaboration with funding that 
supports publications, USDA Forest Service, along with 
regulatory agencies have been trying to make inroads along with 
Penn State cooperative extension in the case of Pennsylvania 
trying to provide outreach programming.
    I can give you one specific example where I provided some 
training to our county extension office. One of the people 
present there was a blogger and they put the information on 
emerald ash borer up on their blog, and lo and behold, someone 
saw it and said I think I have that in my backyard. And as it 
turns out, the regulatory agencies went there and indeed they 
had emerald ash borer about 30 miles south of State College in 
Lewistown, Pennsylvania.
    The Chairman. Thank you.
    I will now recognize Mr. Ribble, for 5 minutes.
    Mr. Ribble. Thank you, Mr. Chairman.
    First of all, Mr. Barth, thank you for taking the long trip 
from Oregon all the way to Washington, D.C. You had quite a 
distance to come. I think we could transplant you into northern 
Wisconsin and you would feel right at home based on your 
testimony. We could probably transplant you to Pennsylvania or 
to Florida and you would feel right at home. Do you believe 
this is a national problem, the description that you made of 
your county?
    Mr. Barth. Absolutely, just listening to some of the 
comments made by the Subcommittee Members, it certainly 
resonated with everything that we deal with on a daily basis.
    Mr. Ribble. I would like to invite you sometime to come to 
northern Wisconsin. I think you would find it beautiful. And 
our lakes and streams are something else. And Representative 
Schrader and Representative Walden who you mentioned in your 
testimony and I have spoken often about the issues in your 
forest, in ours, and they compare very favorably or unfavorably 
depending on your perspective.
    Mr. Zimmer, thank you for coming from northern Wisconsin. I 
know that you have been a lifelong resident up there and you 
have really dedicated pretty much your entire professional life 
from your college days all the way to today. I would almost 
describe you as an environmentalist. You care about our 
National Forest, you care about the habitat, you care about the 
wildlife, and yet when I hear from the national environmental 
movement and they contact me, they would paint somebody like 
Mr. Watkins as a person who wants to rape and pillage for 
profit. What has having lived in northern Wisconsin having 
managed those forests, seen the current Chequamegon-Nicolet 
Forest under the National Forest Service management and also 
seeing private land management, what recommendations would you 
have for Congress and for the Forest Service to better achieve 
their forest management goals?
    Mr. Zimmer. Thank you, Congressman. I appreciate you 
introducing me also today.
    I think three things that really stick out in my mind, one 
is better accountability. And the accountability has to come 
down to the forest supervisor and regional forester levels at 
least, but they are better held accountable to planned goals 
and targets rather than just funded. We recently got the 
monitoring plan from the Chequamegon-Nicolet. It has taken a 
long time to put together, but they came out and they 
constantly said in there, we achieved our funded targets. That 
is doing the job on the ground. I did hear Chief Tidwell 
mention earlier about wildlife habitat goals in the new 
planning regs, and I hope those goals are carried down in 
something before supervisors have to hold on to. And also 
things like making jobs or retaining jobs in the community 
should be a targeted goal, not just those funded things that 
come down.
    I think also these forests need better flexibility. You 
mentioned clearly in your statement earlier the forest at 
Chequamegon-Nicolet now has over 300,000 million board feet 
available that is through the NEPA process but hasn't increased 
their sell hardly at all. They have plenty of people in the 
NEPA, in the planning shop. Let's shift that shop now as any 
industry as this gentleman over here. This gentleman would 
shift his industry to get things done out there. And by doing 
that, it may not have to cost you a dollar more, but we can 
shift the needs to implementers instead of planners now and 
even stop the need for anymore NEPA for about 2 or 3 years on 
that forest.
    Mr. Ribble. How would you advise us and how would you 
advise the nation's environmental movement that seems to have 
similar goals? I mean they want robust forests; they want 
habitat. Where is the disconnect happening? Is it that they 
don't have the science or there is a disagreement on science? 
What is the problem here? Why can't you all get along?
    Mr. Zimmer. That is a million-dollar question I think. I 
think it is some want it all and I think that is a big part of 
it. When the Forest Service did the last planning process that 
took nearly 8 years on the Chequamegon-Nicolet, they tried 
their darndest to work closely with these environmental groups, 
especially the group in Madison which has been the constant 
appeals in litigants to the plan. And they tried their darndest 
and the result was 40 percent of the forest was off-limits to 
any type of active forest management. In my thinking if I got 
even 40 percent in my ballpark, I would be kind of happy. 
Instead, they weren't; they wanted more. So they want it all.
    They want to actually shut down commercial forests thinking 
that that is a bad thing, and in my mind from a wildlife 
habitat standpoint, at least have some young forest, have some 
old forest, and have all those stages in between. And to have 
that end of the spectrum that meets the needs of young forest, 
we definitely have to have forest management and the use of 
commercial timber harvest. I understand it. I think those that 
live in your district understand it but there are a few folks 
or a few organizations that don't understand that yet.
    Mr. Ribble. Mr. Chairman, would you yield an additional 3 
minutes? Thank you.
    Going along the lines since you have had so much experience 
in the National Forest Service yourself, the next round of 
Forest Plan revisions are coming up on the horizon. Right now, 
in your role at the Ruffed Grouse Society, how active do you 
and your members plan on being in that? Will you participate in 
the hearings? And what role does your organization play in 
that?
    Mr. Zimmer. It is hard to justify to my boss that while we 
spent 8 years in discussions to get the last plan through, the 
result was a significant reduction in the target goals--about 
\1/3\ reduction in the targeted goals for aspen management, 
which was key to our group. It also resulted in about 40 
percent of the forest closed to harvest and now, even though we 
did all that work and cooperated with the Forest in the 
management planned discussions, we are only getting 28 percent 
of our aspen targets at this current time. Putting that all 
together, my boss is not too happy with me devoting a lot more 
time to that.
    And, one other thing I can say is for years, groups, 
conservation organizations, and industry state the Department 
of Natural Resources and others have been close partners with 
the National Forests. I think a lot of those partners have been 
forgotten or lost. And in our part of the world, as you know, 
you want to stick with your friends because they should always 
be there for you. It is tough to be a partner and a friend 
right now to this agency.
    Mr. Ribble. Yes. I was with a constituent not too long ago 
and he asked me, he said, Congressman, do you trust me? And I 
said, well, sure, I trust you. He said, then give me your 
wallet. And so I reached in my pocket and I gave him my wallet. 
He proceeded to pull out a Sharpie and he wrote on my wallet. 
And it says, develop a sense of urgency. Did you hear that, Mr. 
Southerland?
    Mr. Southerland. I got it.
    Mr. Ribble. Develop a sense of urgency. This is a 
constituent that wrote it on my wallet so every time I open it 
every single day--do you think our Forest Service needs a sense 
of urgency?
    Mr. Zimmer. Yes.
    Mr. Ribble. I yield back.
    The Chairman. I thank the gentleman and recognize my good 
friend from Florida, Mr. Southerland, for 5 minutes.
    Mr. Southerland. Thank you, Mr. Chairman. And I did not 
know that was on the inside of his wallet when I made my 
comments a few moments ago.
    But thank you all very much for coming. And I find your 
testimony fascinating and very helpful. And I commend the 
Chairman for this panel and this hearing today.
    You know, Mr. Zimmer, much of your comments were regarding 
culture. And so much of the time we spend as Members, we talk 
about at hearings about symptoms. And we appropriate money 
towards symptoms but we never get to the core of what the 
problem is. And I found your comments fascinating because you 
were very honest today in your tenure and your retirement and 
that you left an organization that you felt was time to leave. 
But so many of the challenges that I hear you state really deal 
with a culture that really needs a controlled burn to go all 
the way through it.
    You know, down in north Florida, we have controlled burns 
down pretty well. We have great organizations like Tall Timbers 
that are doing some incredible research to maintain a 
sustainable forest where humans and the environment can get 
along. I would throw out a congratulatory thanks to what they 
do. You talked about 28 percent that in any test you have ever 
taken that represents failure. Twenty-eight percent here in 
this culture and you get an attaboy and you get more dollars 
appropriated. That is nuts. So I can see why you wanted to 
exit. And the sense of urgency that my colleague mentioned, it 
is clearly something that we do not see. And that is really 
just a statement as I listen to your honest testimony today and 
thank you very much.
    Mr. Hoover, you made some fascinating statements and I 
enjoyed reading through your testimony educating me on some of 
the issues that you find that are very, very disturbing. What 
would a private landowner do by comparison to what the Federal 
Government is currently doing regarding invasive pests? And is 
there anything they could do or should do? You know, what does 
success look like? But really is there a good way that maybe a 
private landowner could and should do compared to what the 
government is doing regarding invasive pests?
    Mr. Hoover. I assume, Congressman Southerland, that when 
you said private, you mean a private forest landowner----
    Mr. Southerland. Yes.
    Mr. Hoover.--or a residential situation?
    Mr. Southerland. Yes.
    Mr. Hoover. Because as I said, there are complete different 
strategies and tools that exist between a landscape and a 
forest.
    Mr. Southerland. Sure, but I mean I know that we have 
individual landowners that own sizeable investments and they 
believe in aggressive forest management plans. And there may be 
nothing different I guess, but is there something different 
that someone who didn't have to deal with the culture that 
would say you know what? There is a need, we are going to meet 
it today, get it done.
    Mr. Hoover. Yes, and you are absolutely correct. That is 
what a private landowner has in the way of abilities to use in 
any state based on your question the extension system that is 
associated with every land-grant institution where in 
Pennsylvania, as an example, we extension foresters who would 
go out and help a landowner write a management plan for their 
forestland based on what their personal goals are. And those 
goals may be growing 2x4s----
    Mr. Southerland. Right.
    Mr. Hoover.--habitat for wildlife, or aesthetics. And so to 
compare Federal forest land management with a private landowner 
if they are indeed informed has the ability or maybe more 
accurately the flexibility to bring about management or 
effective management when compared to some of the restrictions 
that are put on Federal landowners or the management of Federal 
lands.
    Mr. Southerland. Very good. Very good. Are we going to have 
another round or could I have just--okay. Thank you very much.
    Now, you mentioned earlier, it is hard right now to be a 
partner and a friend. I would say that to the Service--and I 
would say oftentimes you have to start. If you are going to 
have a partner, you are going to have a friend, you have to 
start with a mutually agreed-upon goal. What is the purpose of 
our friendship, of our partnership? And unfortunately, I think 
that we enter into efforts assuming that we all have the same 
common goal. And we don't, which is apparent because if you 
cared about these rural schools, if you cared about these rural 
communities, then you certainly would act in a more concerted 
effort to increase the hardest rates in a management plan. You 
would sit down and work together.
    And that brings me to my next point. Chuck Watkins, again, 
thank you for being here. You know, one of the owners of the 
family was here last year--Caroline was here to testify and she 
made some statements regarding some things that I found 
interesting as I look back over her testimony. She claimed that 
there were some things, some solutions that could be pushed 
forward. I am interested in the FFRC's position on some of the 
things that she mentioned. She mentioned that, for example, one 
of the things that could be done is streamlining environmental 
documentation and outsourcing fieldwork would get foresters out 
of the office and into the field. That was one thing.
    Number two, including a resource advisory committee. Now, 
we mentioned the word partnership, and to have a resource 
committee where you had participants and stakeholders that 
worked together on a management plan since it is the people's 
forests and the taxpayers' forests. That is a novel idea.
    And then last, that we should require selected National 
Forests to test the feasibility of timber programs self-
financing as is now done in DOD land. But those were some of 
the things that I know we heard from last year. What does the 
Coalition think of some of these ideas in order to really get 
us where we need to be in a management plan?
    Mr. Watkins. Well, the first topic you mentioned were the 
NEPA rules and the costs of those rules.
    Mr. Southerland. Yes.
    Mr. Watkins. You know, if you think of forest and trying to 
manage the forest efficiently, and when I mean efficiently I 
mean economically. If you put a lot of effort, there are some 
instances in certain forests in this country where we spend 
millions of dollars on administration and a NEPA process to 
just decide we are not going to cut, that we are not going to 
cut that timber, we are not going to harvest that timber, or to 
just cut a lot less of it. In some instances, 70 percent of the 
value is spent on administration or NEPA rules. We spend more 
on NEPA and those rules than we do management of the forest, on 
state forestry, on education. So, the big thing we prefer is we 
make a plan together.
    So, for example, the Apalachicola Forest, we put a 10 year 
plan together, we do our documentation on our NEPA rules on 
that and follow the plan, streamlined, efficient, it is an 
economy of scale like any good business would do or perform. So 
in that process, that is where we stand.
    Mr. Southerland. Well, I think that there is a difference 
and a business owner who is sweating a payroll and working as 
hard as they can, I have often said that our family loves 40 
hour workweeks. That is why we squeeze two into every 7 day 
period. And, we understand the difference between activity and 
productivity.
    Mr. Watkins. Yes.
    Mr. Southerland. It sounds like the culture that is inside 
of many of the agencies and departments of the Federal 
Government. They are interested in activity but they do not 
know what true, positive, healthy productivity really looks 
like. And so I would say before spinning your wheels in working 
in a partnership--and I commend you for wanting that 
partnership--we have to have a clear, concise goal. Why do we 
exist? What is our purpose? Don't spin your wheels. Don't allow 
a Federal bureaucracy to eat up your time, your resources 
without that definition. Why do we exist? And what does success 
look like?
    I thank you all for caring and coming here to educate us 
and we need that. And I commend you. We want to be partners 
with you to do what is right for our rural communities and for 
healthy forests.
    And again, Mr. Chairman, I just commend you on the hearing 
today. Thank you. I yield back.
    The Chairman. I thank the gentleman. We will take the 
opportunity for another round of questions.
    Mr. Barth, I want to start with you. You discussed your 
work with stewardship contracting. In addition to seeing a 25 
percent share of revenue go to localities, what other changes 
would you like to see to the program?
    Mr. Barth. Well, some of the concerns with the stewardship 
contracting and the value is that the revenues stay on the 
land. I think the challenge is, though, that none of the 
revenue is shared again with the locals. And I don't 
necessarily know that that is a sustainable long-term strategy 
as well. I think we are even starting to hear from our 
stewardship alliances that if we don't have more productive 
force economically, we won't have long-term revenue for 
stewardship.
    Right now, we a very successful Dump Stoppers Program that 
we consider part of our stewardship as well. It is partners 
with private and Federal landowners to clear up illegal dump 
sites throughout all of our wilderness and forested areas. We 
use our funding from our Timber Harvest Program to match grant 
funding from the agencies. Both of our funding streams are at 
risk now because of the Secure Rural Schools payment issues as 
well as kind of the lack of productivity in the harvest. So, it 
kind of goes hand-in-glove. I think we need to have productive, 
healthy, sustainable forests that regenerate in order to 
produce the revenue for us to do the conservation and the 
stewardship efforts on the preservation lands.
    The Chairman. Okay. Thank you.
    Mr. Zimmer, how important is forest diversity? That is what 
you were describing in one of your last responses, having 
forest in many different stages of development and really only 
evident to me through proper management to have that forest 
diversity. How important is that to wildlife habitat?
    Mr. Zimmer. Well, to get the full array of wildlife 
species, some require very old forests, some require very young 
forests, and some require those in between or those that 
replace them. And in our instance, when we are talking about 
the range of species that utilize young forest habitat, that 
includes over half of the neotropical migratory birds in our 
part of the world. I think there are 187 listed in Midwest, 
neotropical migratory birds. At least half of them use young 
forest habitats at least some time during the breeding season 
often to hide their young and to feed their young even if they 
are in older habitats. You need kind of a mosaic; you need 
different sizes; you need the whole ball of wax out there to 
really truly meet the needs of all the wildlife species, at 
least all of the wildlife species found in our forests.
    If you just concentrate on going to one extreme and that is 
done artificially in a sense when we are restricting harvest 
and restricting disturbance to our forest, we do that with our 
fire suppression efforts especially in the eastern part of the 
country. So it comes down to if we are going to think about 
those species that need that younger end of the spectrum, we 
are going to have to use this forest management. At the same 
time, we have to look at these species that utilize older 
forests and older forest communities. So a nice mix of habitats 
and types of forests out there is essential to have the full 
range of forest wildlife species.
    The Chairman. And in your opinion that would be consistent 
with good, healthy----
    Mr. Zimmer. Correct.
    The Chairman.--production of timber?
    Mr. Zimmer. Correct. And commercial forest management is a 
key component of that. It is a key tool.
    The Chairman. Mr. Watkins, why do you believe that we are 
not harvesting as much on National Forests as each plan 
generally calls for?
    Mr. Watkins. Mr. Thompson, I don't know the answer to that 
question.
    The Chairman. Okay. In your time in northwest Florida, what 
has been the overall trend in terms of the health of the 
National Forests? Any observations on that?
    Mr. Watkins. The forests--like I said, we are cutting a 
very small amount of the growth. The mortality rate is six 
times the cut rate, as you mentioned in Oregon as well. I 
believe they are actively managing the health of the forest. 
However, when the densities increase to that level, there is 
certain habitat there that it affects. It certainly creates 
issue with fire protection and control and insect and disease 
control. So that density has increased over 30 percent, and 
that creates problem, particularly when the Forest Service 
tries to control burn of the understory of the forest. It makes 
it extremely difficult.
    The Chairman. Okay. Thank you.
    I now recognize Mr. Schrader for 5 minutes.
    Mr. Schrader. Thank you, Mr. Chairman. I apologize for 
having to step out for a little bit.
    Mr. Zimmer, I actually appreciate your comments. In Oregon 
through this O&C National Forest Service Plan we are trying to 
develop as a delegation, trying to look at the stage which 
seems to be lacking in our state so we get that continuum of 
biodiversity to make it conducive to the panoply of species 
that are out there.
    Just say if you can real quick your comment on--we have a 
spotted owl issue out where we come from and so a few years 
back we set aside large swaths of old growth forest which seem 
to be their preferred habitat. Recent data has come in and Fish 
and Wildlife has concluded that that hasn't helped at all. And 
indeed, the species is on an accelerated decline. The answer to 
that was to set aside more old growth forest. That doesn't 
sound smart to me. There is also apparently another species of 
barred owl that is a predator on the spotted owl, at least on 
their habitats. Does it make sense to you to set aside vast 
amounts of forest when we already concluded through the study 
that the increased forestland, old growth, wasn't really the 
answer at all? I am not saying we shouldn't have old growth 
forest, don't get me wrong, but to increase it even more when 
that didn't work in the first place, your comment?
    Mr. Zimmer. Yes, Congressman. One thing, I am not a spotted 
owl expert----
    Mr. Schrader. Fair enough.
    Mr. Zimmer.--but I am aware of the influence of the barred 
owl on the spotted owl and it appears at least at this time to 
be more of a factor in the limitations on the populations of 
spotted owl. It is going to be tough to justify having more, as 
you say, having more acreage of old growth for spotted owl. I 
would hope that when we are looking and those that are looking 
at the Forest Plans in your area address that and look at the 
whole community and the whole value of those forests and those 
that play an important role for spotted owl and spotted owl 
management be maintained----
    Mr. Schrader. Yes.
    Mr. Zimmer.--but if it is not needed or isn't doing the 
job, that decision has to be made by----
    Mr. Schrader. I appreciate your commonsense approach. 
Hopefully, people will get religion in Oregon and adopt some of 
what you are suggesting here.
    Mr. Watkins, you list in your prepared testimony some 
recommendations that you thought would be pretty helpful, in 
terms of reducing costs and getting better results. Is the 
National Forest Service implementing them?
    Mr. Watkins. Not that I am aware of.
    Mr. Schrader. Okay. Which speaks volumes. Okay. I would 
just make a comment on Mr. Barth's testimony, which I 
appreciate and maybe just reiterate what he talked about. On 
less than 3,000 acres their annual revenue goal which they seem 
to get is about $750,000. And in our neighboring Mt. Hood 
forest of 1.1 million acres, basically 300 times the size of 
acreage that Mr. Barth and my county manage, they get \1/3\ of 
the revenue he gets, about $275,000. I think that is a dramatic 
statement, Mr. Chairman. And I yield back.
    The Chairman. I thank the gentleman. I now yield to my 
friend from Wisconsin for an additional 5 minutes.
    Mr. Ribble. Thank you, Mr. Chairman. I am going to come 
back to Mr. Zimmer.
    You know, since about 1970, there has been a kind of ever-
increasing amount of Federal involvement in our forests and in 
our environmental issues, an ever-increasing regulatory burden 
all with the intent of actually improving things at the Ruffed 
Grouse Society would kind of support from my understanding that 
the whole idea here was to make those habitats better. Has kind 
of the onslaught of regulations improved things or not?
    Mr. Zimmer. Regulations----
    Mr. Ribble. Yes.
    Mr. Zimmer.--improved things?
    Mr. Ribble. Yes.
    Mr. Zimmer. Well, I am not sure. I think really common 
sense is better. Let us use the specialists we have out there. 
The Forest Service on the Chequamegon-Nicolet is blessed or has 
been blessed. In fact, it is the envy of the state folks that 
they can go to one office and get specialists from all around, 
trained professionals that could do the best management of the 
job. The state folks often have to call others in from academia 
or find some specialist in another state or something like that 
to help them with an issue, which the Forest Service has those 
professionals. Why do we need more and more regulations to 
hinder the work of people that are paid and have the training 
to do the job? I think that is where it makes sense to me to 
limit the regulations and have the people who are your 
employees--or our employees, the people the taxpayers hire to 
do the best job and limit the restrictions on those people to 
do that job. I worked with many of those folks, top-quality 
people, many of them are frustrated at all the regulations that 
they have in place.
    And I may say that in the Chequamegon-Nicolet National 
Forest plan in 2004, I believe it has 368 standards and 
guidelines are in place to regulate the management of any 
action on the forest. It is endless. And the pages in each 
document for a site-specific project that just shows how many 
other little things they have to cover is just way, way too 
much.
    Mr. Ribble. Mr. Watkins, I am assuming that in your line of 
work you have to comply with a number of Federal agencies on 
the regulatory standpoint. What should we as Members of 
Congress be doing? We want to make sure that we have clean air, 
clean water, forests that actually work and produce, but what 
role have regulations played in your business and what should 
we be looking at doing here?
    Mr. Watkins. Well, for example, Mr. Zimmer mentioned the 
SFI, that Sustainable Forestry Initiative. That is what we do. 
Our company is certified, our practices, by our certification, 
are more stringent than I understand the Forest Service's own 
regulations are and we don't have issues. We don't spend these 
volumes of dollars on administrative tasks where they seem to 
have to do that. And I don't quite understand that. I would say 
streamline that process and eliminate that overburdening items 
that are just not necessary. There are other private industries 
that use certification programs that don't do that or don't 
cost or put that burden on companies.
    Mr. Ribble. Surely there is a profit incentive for you to 
manage the forests that you are involved in in a way that is 
sustainable, is that correct?
    Mr. Watkins. Oh, certainly.
    Mr. Ribble. I mean at the end of the day, then, maybe the 
objectives could actually be met, couldn't they, that we could 
have a sustainable forest that is environmentally sound and 
profitable and provides some benefit to the taxpayer?
    Mr. Watkins. Absolutely. That is the perfect way to do it.
    Mr. Ribble. Very good. Thank you.
    And I yield back my time.
    The Chairman. I thank the gentleman for yielding back.
    And I want to thank both the Members and the members of the 
panel, the witnesses for coming here, bringing your expertise 
and your specific individual expertise. I thought we had a 
great diversity on this panel all focused on healthy forests 
and in the end our healthy rural communities. I appreciate 
everyone's patience. We took some liberties in terms of the 
amount of questions that we did, didn't adhere too well to the 
clock, but this is a pretty important topic that I don't think 
we have talked about near enough and deserves a tremendous 
amount of vetting. We certainly did well today, bringing your 
expertise here to Washington to be able to offer that to help 
us as we look at future forest policies.
    Under the rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material and supplementary written responses from 
the witnesses to any questions posed by a Member.
    This hearing of the Subcommittee on Conservation, Energy, 
and Forestry is adjourned.
    [Whereupon, at 12:14 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
      
    Submitted Letter by Marcia H. Armstrong, Supervisor District 5, 
                          Siskiyou County, CA
March 27, 2012

Subcommittee on Conservation, Energy, and Forestry,
House Committee on Agriculture,
Washington, D.C.

Re: Additional comments submitted in connection with today's hearing on 
    forest health, including timber harvests, wildlife management, 
    invasive species, and the U.S. Forest Service's planning rule.

    To Whom It May Concern:

    My following statements will describe:

    (1) In detail, how our local economy and public health and safety 
        has declined precipitously since the advent of the Northwest 
        Forest Plan, the listing of various endangered species, and 
        implementation of other environmental and land/water management 
        regulations;

    (2) The scope of environmental and land management regulations that 
        affects access to and the continued productive use of local 
        natural resources for the economic benefit, health, safety and 
        enjoyment of local communities;

    (3) Certain specific international credos, policies, platforms and 
        programs that have unduly influenced various Administrations, 
        the scientific community, Federal agencies, and influential 
        environmental groups;

    (4) How those international agendas have been specifically 
        implemented in Siskiyou County;

    (5) An Appendix showing timber harvest trends for the past two 
        decades on several of our local National Forests.

    Siskiyou County joins with other western counties in asking for 
        your assistance in:

      (a) restoring balance to the management of our National Forests;

      (b) recognizing the direct relationship between active forest 
            management and multiple use and the economic health, 
            cultural vitality and prospects of our local communities 
            and Counties;

      (c) mandating a real and substantive voice for local government 
            to communicate local needs and provide input on the 
            management of our Federal lands;

      (d) recognizing the value of retaining our surviving timber 
            infrastructure and the need for a stable supply of material 
            for our wood products industries;

      (e) stepping up the pace and scale of wildland fuel reduction in 
            the name of public safety (H.R. 1485 Herger Catastrophic 
            Wildfire Community Protection Act [http://www.govtrack.us/
            congress/bills/112/hr1485])--providing and supporting new 
            opportunities for biomass utilization; and

      (f) passing reforms to the Equal Access to Justice Act so that a 
            handful of special interests from outside our area cannot 
            hold the active management of our National Forests hostage 
            for profit.
Background on Siskiyou County and its Economy
    Sixty-three % (63%) of the land base in Siskiyou County is in 
Federal (or state) ownership. There are portions of the Klamath 
National Forest; Shasta-Trinity National Forest; Six Rivers National 
Forest; Modoc National Forest; and Rogue Siskiyou National Forest in 
Siskiyou County. The Klamath National Forest's 1.7 million acres alone 
comprises 42% of Siskiyou County's land base. The KNF has 381,100 acres 
allocated to wilderness, 396,600 acres allocated to late-successional 
reserves for the northern spotted owl and old growth species and 
another 458,000 acres allocated to riparian reserves for species such 
as salmon. 161,500 acres are designated an Adaptive Management Area. 
The remaining 300,000 acres (approx. 17.6% of KNF lands) are ``matrix 
lands'' or general forest where timber harvest may be conducted, 
(although not all matrix lands are even technically suitable for timber 
production.)

        (Ref: Charnley, Dillingham, Stuart, Moseley, and Donoghue 
        (2008) Northwest Forest Plan--The First 10 Years (1994-2003): 
        Socioeconomic Monitoring of the Klamath National Forest and 
        Three Local Communities Northwest Forest Plan. General 
        Technical Report PNW-GTR-764, August 2008 [http://
        www.fs.fed.us/pnw/pubs/pnw_gtr764.pdf])

    The county also includes the Tule Lake and Lower Klamath National 
Wildlife Refuges, as well as the Lava Beds National Monument. There are 
various BLM lands administered by the Redding, Medford, Ashland and 
Susanville BLM offices. There are lands held in tribal trust for the 
Karuk and Quartz Valley Indian tribes.
    The entire land base of Siskiyou County is 4,038,843 acres or 6,287 
square miles. Of this, 1,153,246 acres is in farmland, however only 
138,000 acres of these are irrigated. 2,525,216 acres is considered 
rangeland/woodland/ forest. Our population of 44,301 classifies the 
county as ``frontier.'' There are nine small incorporated cities that 
date back to the California Gold Rush.
    All communities in Siskiyou County are listed on the August 17, 
2001, Federal Register (Notices) as ``Urban Wildland Interface 
Communities Within the Vicinity of Federal Lands That Are at High Risk 
From Wildfire.'' Approximately 3.2 million acres in the county are in a 
high, very high or extreme fire hazard severity zone. There have been 
564 fires in the county since 2005 that burned 330,000 acres and caused 
in excess of $3.6 million in property damages. The fifth largest fire 
in California since 1932 occurred in Siskiyou County in 2008. The 
Klamath Theater Complex fire, which started by lightning, burned 
192,038 acres and caused two fatalities. Since the year 2000, the 
county has seen an average of 95 wildfires a year with an average of 
55,000 acres burned each year. The value of buildings and contents 
exposed to damage by wildfire are $1,855,175,933 in moderate fire 
areas; $964,520,981 in high risk fire areas; and $1,346,823,331 in very 
high risk fire areas. In total, 671 critical public structures are 
located in areas at risk of wildfire.
    The economy of Siskiyou County is based on small business. In 2008, 
there were 6,857 non-farm proprietors in Siskiyou County. According to 
2007 data, 61% of non-farming establishments in Siskiyou County had 
less than 4 employees; 82% had less than 10 employees and 93% had less 
than 20. The Small Business Association has documented that the cost of 
regulations hit small businesses disproportionately hard.
    In the year 2000, the average unemployment rate for the year was 
7.5%. By 2008, it had risen to 10.2%, rising again to 15.8% in 2009. In 
January of 2012, the unemployment rate was 18.6%, ranking Siskiyou 53rd 
out of 56 counties in the state. There are many forest-dependent 
communities in our county where local unemployment is estimated from 
30-40%. The average wage per job in 2008 was $32,707. That was only 63% 
of the state average. The median household income was $36,823--or 60% 
of the state median. Non-household median income is currently $27,718--
a ranking of 47th in the state. The AP Economic Stress Index ranks 
Siskiyou County as the 14th most economically stressed county in the 
United States.
    Agriculture is a major economic sector of the county. Our 2010 
Siskiyou County Annual Crop and Livestock Report indicates that the 
agricultural valuation in the county was $195,711,956 (gross and 
excluding timber.) According to the USDA Ag Census, in 1992 Siskiyou 
County had 647,446 acres in farms. By 2007, this had been reduced to 
597,534 acres. In 2000, there were 895 farm proprietors in Siskiyou 
County. This declined to only 730 in 2008. The county lost 81 livestock 
ranches from 1992 to 2007, with an accompanying loss of 20,882 fewer 
cattle and calves in inventory. According to the CA D.O.T. Siskiyou 
County Economic Forecast, since 1995, Siskiyou County's agriculture 
industries have experienced substantial job loss of about 586 jobs, 
declining almost 45%.
    During the past 20 years, there has also been a restructuring of 
size and sales in agricultural operations. Since 1992 to 2007, there 
has been an increase in the number of small farms: farms under 10 acres 
doubled to 80. Farms under 50 acres increased 59% to 229. Farms 50-179 
acres increased 27% to 228. Farms from 180-449 acres remained about the 
same at 79. However, there was a 19% reduction in farms 1,000 acres or 
more to 100 farms in 2007. One aspect of this is land conversion from 
private to Federal lands. Since 1999, 8,625.71 acres valued at 
$3,922,179 have been converted to Federal land. Another 11,236 acres of 
ranch land in the Shasta Valley is currently proposed for conversion to 
a new wildlife refuge. In addition, the proposed Klamath Basin 
Restoration Agreement seeks to convert 44,479 acres of farmland in the 
Upper Klamath Basin to wetlands, (some of which may be in Siskiyou 
County.) It also proposes to secure 21,800 acres of farmland by 
acquisition or conservation easements in the Scott and Shasta Valleys 
of Siskiyou County.
    At the same time, farms having less than $2,500 in sales increased 
105% to 359. Farms selling $2,500-$9,999 stayed about the same at 151. 
Farms selling $10-$24,999 decreased 10% to 95. Farms selling $25,000-
$49,999 decreased about 18% to 60. Farms selling $50,000 to $99,999 
decreased 45% to 44 and farms with sales in excess of $100,000 
increased by 28% to 137.
    Siskiyou County accounts for 15% of the timber harvested in 
California. At one time, it was the second largest timber production 
area in the state. However, our forest industries have been devastated 
by Federal and State regulations. For instance, the forestry section of 
Siskiyou County's 1972 Conservation Element of the General Plan 
indicated that there were 17 sawmills in the county (employing 2,055 
people or 24% of the employment base) and 8 wood processing facilities 
(employing 294 people or 3% of the employment base). There were 46 
logging contractors and support establishments employing 501 people or 
5% of the employment base. By 2007, all 17 sawmills were gone. The 
census indicates that there were a total of 6 wood products 
manufacturing establishments (including veneer mills) employing 380 
people (one mill has subsequently closed in Butte Valley). There were 
38 Logging, Forestry and Support Establishments employing 157 
employees.
    There is no doubt that the restrictions on timber harvest from 
public lands under the Northwest Forest Plan have played a significant 
role in this decline. In 1978, 239 MMBF of timber was harvested from 
the Klamath National Forest (KNF), 274 MMBF from the Shasta Trinity 
National Forest (STNF) and 73 MMBF from the Six Rivers National Forest 
(SRNF.) In 2008, 20 MMBF was harvested from the KNF, 22 MMBF from the 
STNF and 8 MMBF from the SRNF (see Appendix A).
    The Klamath National Forest alone went from having 636 employees in 
1993 to 441 in 2003, a loss of 31%. This job loss was related to a 
decline in the forest budget of 18% between 1993 and 2002 and had a 
strong impact on local employment opportunities. Declining budgets and 
staffing caused some of the KNF's Ranger District offices to close or 
consolidate in the 1990s. Between 1990 and 2002, the KNF spent a total 
of $44.5 million procuring land management services. Most of this 
spending (64%) took place between 1990 and 1993. After 1993, contract 
spending on the KNF dropped off sharply. Between 1990-1992 and 2000-
2002, contract spending declined 78%.

        (Ref: Charnley, Dillingham, Stuart, Moseley, and Donoghue 
        (2008) Northwest Forest Plan--The First 10 Years (1994-2003): 
        Socioeconomic Monitoring of the Klamath National Forest and 
        Three Local Communities Northwest Forest Plan. General 
        Technical Report PNW-GTR-764, August 2008 [http://
        www.fs.fed.us/pnw/pubs/pnw_gtr764.pdf])
Regulatory Environment in Siskiyou County
    Siskiyou County has suffered through more than its share of 
environmental regulations and has experienced long-standing regulatory 
fatigue.
    * Several local species have been listed under the state and 
Federal endangered species acts: bald eagle; great gray owl; Lost River 
and shortnose sucker fish; northern spotted owl and associated old 
growth species, including those under ``survey and manage''; northern 
CA coastal coho salmon; vernal pool fairy shrimp; Shasta crayfish; 
delta smelt; California red-legged frog; western yellow-billed cuckoo; 
western pond turtle; Siskiyou salamander; Scott Bar salamander; 
California wolverine; Swainson's hawk; peregrine falcon; greater 
sandhill crane; Sacramento splittail fish; bank swallow; marbled 
murrelet; northern goshawk and Oregon spotted frog (candidates.) We 
have also experienced endangered species reviews of the green sturgeon; 
Pacific lamprey; Pacific fisher; steelhead trout; McCloud redband 
trout; and spring, fall, and winter run chinook salmon (currently under 
additional review in the Klamath River System and proposed for re-
introduction in the Sacramento River system in Siskiyou County.) 
Consultations and opinions are a regular factor in the delay of 
processing timber sales, water quality and other permits. Endangered 
Species provide rich fodder for outside of the area environmental 
litigation, particularly on National Forest projects.

  <bullet> Forest Litigation by out-of-county Environmental Groups 
        mostly on the Klamath National Forest projects:

    1998  Upper South Fork Timber Sale--Klamath Forest Alliance (KFA) 
            Appeal [http://www.fs.fed.us/r5/ecoplan/appeals/1998/
            fy98_0075.htm]

    1998  Little Horse Peak Research Timber Sale--KFA Appeal [http://
            www.fs.fed.us/r5/ecoplan/appeals/1998/fy98_0011.htm]

    1998  Jack Timber Sale--KFA, Klamath Siskiyou Wildland Center 
            (KSWILD), Wilderness Coalition, ONRC Lawsuit [http://
            www.fs.fed.us/r5/ecoplan/appeals/1998/fy98_0103.htm]

    1999  Bald Elk/Hard Rock Timber Sale--KFA Appeal [http://
            www.fs.fed.us/r5/ecoplan/appeals/1999/fy99_0013.htm]

    1999  Happy Thinning Sale--KFA Lawsuit [http://www.fs.fed.us/r5/
            ecoplan/appeals/1999/fy99_0014.htm#correction]

    1999  Little Deer/Davis Cabin YG Timber Sale--Forest Guardians (FG) 
            Appeal [http://www.fs.fed.us/r5/ecoplan/appeals/1999/
            fy99_0019.htm]

    1999  Bogus Thin Chip Timber Sale--FG Appeal [http://www.fs.fed.us/
            r5/ecoplan/appeals/1999/fy99_0020.htm]

    1999  Kelly Pass YG Timber Sale--FG Appeal [http://www.fs.fed.us/
            r5/ecoplan/appeals/1999/fy99_0021.htm]

    1999  Twice Helicopter Timber Sale--KFA Appeal [http://
            www.fs.fed.us/r5/ecoplan/appeals/1999/fy99_0075.htm]

    2000  Salmon River Flood Road Damage Project--KFA Appeal [http://
            www.fs.fed.us/r5/ecoplan/appeals/2000/fy00_0022.htm]

    2001  East Fire Salvage Project--KSWILD Lawsuit [http://
            www.fs.fed.us/r5/ecoplan/appeals/2001/fy01_0039_40.htm]

    2001  Jones CT Timber Sale--National Forest Protection Alliance 
            Appeal [http://www.fs.fed.us/r5/ecoplan/appeals/2001/
            fy01_0056.htm]

    2002  Knob Timber Sale--KFA, KSWILD, Environmental Protection 
            Center (EPIC) Lawsuit [http://www.fs.fed.us/r5/ecoplan/
            appeals/2002/fy02--0035.htm] [http://www.fs.fed.us/r5/
            ecoplan/appeals/2003/fy03-0020-21.htm] [http://
            www.freerepublic.com/focus/f-news/920116/posts]

    2003  Beaver Creek--KSWILD EPIC KFA Lawsuit [http://www.fs.fed.us/
            r5/ecoplan/appeals/2002/fy02_0035.htm]

    2003  Little Grider Fuelbreak--EPIC Appeal [http://www.fs.fed.us/
            r5/ecoplan/appeals/2003/fy03-0029.htm]

    2003  Five Points Timber Sale--KSWILD Appeal [http://www.fs.fed.us/
            r5/ecoplan/appeals/2003/fy03-0034.htm]

    2004  Westpoint Westpoint Vegetation Treatment Project--KSWILD EPIC 
            Lawsuit [http://www.fs.fed.us/r5/ecoplan/appeals/2004/fy04-
            0006.htm]

    2005  Meteor Timber Sale--KSWILD, EPIC, American Lands Alliance, 
            Cascadia Wildlands Project Lawsuit [http://www.fs.fed.us/
            r5/ecoplan/appeals/2005/fy05-0004.htm] [http://
            www.envirolaw.org/cases/
            Meteor%20First%20Amended%20Complaint.pdf]

    2005  Pomeroy Timber Sale--KSWILD Appeal [http://www.fs.fed.us/r5/
            ecoplan/appeals/2005/fy05-0015.htm]

    2005  Elk Thin Timber Sale--KSWILD Appeal [http://www.fs.fed.us/r5/
            ecoplan/appeals/2005/fy05-0023.htm]

    2006  Tamarack Timber Sale--KSWILD, Calif. For Alternatives To 
            Toxics Appeal [http://users.sisqtel.net/armstrng/
            timber%20appeals.htm]

    2007  Tennant WUI Hazardous Fuel Reduction--KSWILD Appeal [http://
            users.sisqtel.net/armstrng/timber%20appeals.htm]

    2007  Happy Camp Fire Protection Phase 2 (HFRA)--KSWILD Objection 
            [http://users.sisqtel.net/armstrng/timber%20appeals.htm]

    2007-08  Pilgrim Vegetation Management Project (Shasta Trinity 
            NF)--KFA, Conservation Congress lawsuit [http://dmd-
            plt.ecosystem-management.org/appeals/
            displayDoc.php?doc=VjFab1EyUXhjRmhTYms1cVpXNU9OVl 
            JXVWxkYWF6RnhWbGhuUFE9PQ==]

    2008  First Creek Forest Health Project--American Forest Resource 
            Council Appeal [http://dmd-plt.ecosystem-management.org/
            appeals/
            displayDoc.php?doc=VjFab1EyUXhjRmhTYms1cVpXNU9OVlJXV 
            WxkYWF6bFZXbnBKUFE9PQ==]

    2010-2011  Elk Creek/Panther Salvage--KSWILD, EPIC, KFA, Center for 
            Biological Diversity lawsuit [http://www.leagle.com/
            xmlResult.aspx?xmldoc=In%20FCO%2020110325169.xml 
            &docbase=CSLWAR3-2007-CURR]

  <bullet> Use of the Federal forest lands of the county, particularly 
        for timber harvest, has been severely reduced by the Northwest 
        Forest Plan and Aquatic Conservation Strategy. The current 
        critical habitat designation for the northern spotted owl is 
        anticipated to sequester more land from harvest (see previous 
        section on economy and Appendix A).

  <bullet> In 2001, The Biological Opinions for sucker fish and salmon, 
        shut down the headgates for water delivery to Federal Klamath 
        Water Project farms. This caused mass economic hardship with 
        farmers losing their farms and migrant farm workers becoming 
        stranded without work. Protests were held at the headgates and 
        a civil disobedience event called the ``Bucket Brigade'' drew 
        20,000 people.

  <bullet> With the concurrent Federal and state listing of the SONCC 
        coho salmon, an attempt was made to create a programmatic 
        incidental take permit (ITP) and watershed-wide streambed 
        alteration permit. This was challenged by environmentalists and 
        the permit defeated in court as not being restrictive enough. 
        With some of the oldest water rights in the state dating back 
        to the 1850-70s allocated by long-standing adjudications, 
        permitting requirements and imposed conditions are being used 
        in an attempt to redirect private water to instream flows for 
        fish. Currently, two lawsuits are underway regarding permitting 
        for irrigation diversion and the regulation of groundwater use 
        under public trust for fish. Just this week, an environmental 
        group filed a notice of intent to sue a municipal water 
        district to remove an earthen dam under the claim that it 
        ``takes coho salmon.''

  <bullet> Recently, a Federal agent from NOAA accompanied by a state 
        fish and game warden in full armed flack jacket regalia visited 
        a local rancher on a complaint by an environmentalist that they 
        had dewatered a stream through irrigation, therefore ``taking'' 
        listed coho. The rancher was told they were looking into 
        whether to prosecute the rancher civilly or criminally. For the 
        past several years, many public hearings on fish and water 
        issues now take place with armed game wardens present.

  <bullet> In 1996, the ``17 rivers'' lawsuit against the U.S. EPA and 
        the SWRCB (CA State Water Resources Control Board) brought 
        water quality regulation to the county's major northern water-
        bodies (Klamath, Scott, Shasta, Salmon Rivers.) The lawsuit 
        directed the establishment of Total Maximum Daily Loads for 
        sediment, temperature, dissolved oxygen and nutrients. 
        Considerable (expensive) efforts must be made to reduce 
        sediment sources from roads. Tailwater recapture and recycling 
        systems are being installed and one irrigation district has 
        been given a mandate of donating a portion of its adjudicated 
        water right to instream flows for fish. New requirements 
        throughout the Klamath River system will require permits for 
        irrigated agriculture.

  <bullet> Siskiyou County was also among the counties impacted by the 
        state legislature's moratorium on suction dredge mining for 
        gold--an important historic industry to the area. Gold miners 
        are unable to exercise their Federal mining rights.

  <bullet> Local agricultural operations have been affected by the 
        California Wildlife Protection Act of 1990. This protected 
        mountain lions, which are a livestock and wild game predator. 
        Local deer herds have been decimated by predation, depressing a 
        once robust tourism opportunity for hunters. Depredation 
        permits are issued annually and sheep operations have been 
        particularly affected. Siskiyou County is the first county in 
        California to see a gray wolf stray into its environs--another 
        dangerous predator. Environmentalists have already petitioned 
        the state for protection of the species.

  <bullet> In 1996, the Federal Government initiated plans to acquire 
        additional lands. In 1998, the National Forests commenced road 
        decommissioning and implemented buffers of non-use around 
        wilderness areas. In 1999, the Presidential ``roadless policy'' 
        was implemented to declare additional areas off limits. This 
        impacted the Klamath National Forest which had scheduled an 
        Annual Planned Offer from Inventoried Roadless Areas of 1.49 
        MMBF, which was 4% of Average Volume Offered, 1996-1998. The 
        Shasta Trinity National Forest had an Annual Planned Offer from 
        Inventoried Roadless Areas of 3.68 MMBF, or 6% of Average 
        Volume Offered, 1996-1998. Last year, local USFS began another 
        round of road recognition, leading up to abandonment and 
        decommissioning of additional roads. In 2003, a road that had 
        been closed had to be re-opened for wildfire fighting. Its 
        condition contributed to the death of eight firefighters when 
        the engine rolled.

  <bullet> ``Rangeland Reform'' restricted traditional use of public 
        land grazing allotments for century-and-a-half-old local 
        ranches. In addition, the State Board of Forestry has further 
        restricted the management and use of private timber lands. 
        Integrated Pest Management has affected lease lands on Federal 
        refuges. Five-hundred-foot pesticide use restrictions will soon 
        affect riparian farmlands on salmon streams.

  <bullet> There are more than 152 miles of wild and scenic rivers in 
        the County.

  <bullet> Large areas of northern Siskiyou County have been under 
        discussion for designation as National Monuments. In 2000, 
        President Clinton declared the Cascade Siskiyou National 
        Monument over the border in Oregon. This was originally 
        proposed to include a portion of northern Siskiyou County, but 
        was locally opposed. Documents appear to indicate that the 
        Obama Administration is again considering expanding the Oregon 
        Monument into Siskiyou. Also, a second 200,000 acre National 
        Monument appears to have also been put forth for consideration, 
        known as the ``Siskiyou Crest.'' This is widely opposed by 
        local residents. Periodically, expansion of our already 
        substantial Wilderness Areas in Siskiyou County has been 
        proposed. For instance, in 2007, the proposed California Wild 
        Heritage Act, S. 493, proposed the addition of 64,160 acres to 
        the more than a quarter of a million acre Marble Mountain 
        Wilderness; 19,360 acres to the 12,000 acre Russian Wilderness; 
        and 51,600 acres to the 19,940 Red Butte Wilderness in Siskiyou 
        County. This would have brought Wilderness right to the edge of 
        Wildland Urban Interface areas. Portions of the 525,000 acre 
        Trinity Alps Wilderness and the 182,802 acre Siskiyou 
        Wilderness also fall into Siskiyou County. Also, the Castle 
        Crags Wilderness and Mt. Shasta.

  <bullet> Siskiyou County is the home of three of the four 
        hydroelectric dams on the Klamath River that a bi-state group 
        of several parties, including Federal agencies, wants removed. 
        Siskiyou County does not want the dams removed. There has 
        already been some litigation on this and it is likely that 
        there will be more. Despite: (1) several local water 
        adjudications with continuing jurisdiction by the Superior 
        Court; (2) the Klamath River Basin Compact between the States 
        of Oregon and California, ratified on April 17, 1957 which 
        delegates in-county, non Federal project jurisdiction over 
        surface water to the Siskiyou County Water Conservation 
        District; and (3) state law which leaves jurisdiction over 
        groundwater use to the county; the proposed Klamath Basin 
        Restoration Agreement (KBRA) establishes a new chartered 
        regional governance structure called the Klamath Basin 
        Coordinating Council (KBCC). The Council will implement the 
        KBRA resource, water management and fisheries restoration plan 
        in contravention of County and District jurisdiction. The KBCC 
        will include Federal and state agencies, tribal 
        representatives, two counties (not Siskiyou,) certain Klamath 
        Project water districts, environmental and commercial fishing 
        groups.

  <bullet> The Bureau of Reclamation has included the Klamath River 
        system in its WaterSMART (Sustain and Manage America's 
        Resources for Tomorrow) program [http://www.usbr.gov/
        WaterSMART/bsp/]. A study will look at the impacts of climate 
        change on water resources and develop potential adaptation 
        strategies. The program will create another multi-party 
        regional group to manage water. Although a letter has been sent 
        to the Bureau of Reclamation asking for coordination with the 
        Siskiyou Flood Control and Water Conservation District and 
        Siskiyou County, it has been ignored.
Sustainable Development, Ecosystem Management, Biodiversity and Re-
        wilding
        The American system of policymaking has a clear set of 
        principles governing the relations between various actors in 
        the process. Congress, acting on the preferences of the voters 
        who elected it, makes laws that establish the objectives for 
        programs. Administrative agencies, with Congressional grants of 
        authority and appropriations of funds, implement the objectives 
        established by Congress. In pursuing their statutory mandates, 
        agencies are expected to marshal expertise, from both within 
        and outside the agency. The role of the courts is to ensure 
        that agencies do not deviate from their statutory mandates.

        --Congress and the Administrative State by Lawrence C. Dodd, 
        Richard L. Schott, 1979

    This section uncovers the reasons for the confusion felt by 
Counties when comparing the statutes with current Forest Service 
management direction. It explains where we seem to have gone off track 
and why our National Forests no longer contribute much to the social 
and economic well-being of local communities and rural Counties. It 
explains why our National Forests experience huge, severe fires that 
threaten forest communities and leave our summers choked with smoke. 
For some reason, we no longer appear to be governing or managing for 
the people and human communities. It is like people are now a parasite 
to be protected against.
    It is why the proposed Planning Rule stated:

        The requirements for ecological sustainability would require 
        responsible officials to provide plan components to maintain or 
        restore elements of ecological sustainability. The requirements 
        for social sustainability would require plan components to 
        guide the unit's contribution to social and economic 
        sustainability. sets of requirements recognizes the Agency has 
        more influence over the factors that impact ecological 
        sustainability on NFS lands (ecological diversity, forest 
        health, road system management, etc.) than it does for social 
        and economic sustainability (employment, income, community 
        well-being, culture, etc.). National Forest System lands can 
        provide valuable contributions to economic and social 
        sustainability, but that contribution is just one in a broad 
        array of factors that influence the sustainability of social 
        and economic systems.

    Congress authorized presidents of the United States to reserve 
certain forest lands from the public domain by what is now called the 
Forest Reserve Act of 1891, and provided for management of these forest 
reserves by the Organic Act of 1897:

        ``. . . to improve and protect the forests . . . securing 
        favorable conditions of water flows, and furnish a continuous 
        supply of timber for the use and necessities of United States 
        citizens.'' In a later court decision, the court ruled that the 
        Secretary of Agriculture may also consider the economic well-
        being of the citizens of a state wherein timber is located in 
        administering national forest lands ``for the use and 
        necessities of citizens of the United States.''

    As the National Forest System evolved to its current size of almost 
193 million acres, the U.S. Forest Service managed these lands to 
provide an increasingly wider range of multiple uses and benefits in 
terms of commodity and amenity resources for the American people. 
Later, the Multiple Use-Sustained Yield Act of 1960 (MUSYA) provided 
that the plans for forest management ``. . . shall provide for multiple 
use and sustained yield of goods and services from the National Forest 
System'' [36 CFR  200.1(c)(2) (1997). Section 219.1] and that 
administration of the Forests should be ``. . . for outdoor recreation, 
range, timber, watershed, and wildlife and fish purposes . . .'' 
Multiple-use was defined as ``management of all the various renewable 
surface resources of the National Forest System so that they are 
utilized in the combination that will best meet the needs of the 
American people.'' Sustained yield was defined as the ``achievement and 
maintenance in perpetuity of a high-level annual or regular periodic 
output of the various renewable resources of the National Forest System 
without impairment of the productivity of the land.'' [36 CFR  219.3 
(1997)]
    In 1970, the Bolle Report criticized the Forest Service's emphasis 
on timber production and its reliance on clearcutting, and a court 
decision against the Forest Service in the Monongahela National Forest 
clearcutting case lead to the subsequent passage of the National Forest 
Management Act (NFMA). A fatal flaw in the 1976 NMFA opened the door to 
management according to an international platform never intended by 
Congress. NFMA requires that forest planning ``provide for diversity of 
plant and animal communities based on the suitability and capability of 
the specific land area in order to meet overall multiple-use 
objectives'' [16 U.S.C. sec. 1604(g)(3)(B)]. Congress ordered the 
Forest Service to set a goal of diversity in developing its forest 
plans, but it did not define the meaning of diversity.
    In 1982 National Forest System Land and Resource Management 
Planning Regulations [http://www.fs.fed.us/emc/nfma/includes/
nfmareg.html#Fish%20and%20
wildlife%20resource] for developing forest plans transformed this 
general guideline into a stringent requirement: Sec. 219.19 Fish and 
wildlife resource ``Fish and wildlife habitat shall be managed to 
maintain viable populations of existing native and desired non-native 
vertebrate species in the planning area. For planning purposes, a 
viable population shall be regarded as one which has the estimated 
numbers and distribution of reproductive individuals to insure its 
continued existence is well distributed in the planning area. In order 
to insure that viable populations will be maintained, habitat must be 
provided to support, at least, a minimum number of reproductive 
individuals and that habitat must be well distributed so that those 
individuals can interact with others in the planning area. fish and 
wildlife habitat shall be managed to maintain viable populations of 
existing native and desired non-native vertebrate species in the 
planning area.'' Sec. 219.26 Diversity. ``Forest planning shall provide 
for diversity of plant and animal communities and tree species 
consistent with the overall multiple-use objectives of the planning 
area. Such diversity shall be considered throughout the planning 
process.''
    That regulation directs that effects of alternative management 
plans be measured by ``management indicator species'' (both vertebrate 
and invertebrate species) because their population changes are believed 
to indicate the effects of management activities. The second management 
directive included a requirement that ``management prescriptions . . . 
shall preserve and enhance the diversity of plant and animal species, 
so that it is at least as great as that which would be expected in a 
natural forest.''
    This regulation would eventually lead to a fundamental 
transformation of forest policy when Judge Dwyer ordered the Forest 
Service to develop ``revised standards and guidelines to ensure the 
northern spotted owl's viability'' by March 1992. Then Dwyer proceeded 
to reject the Forest Service's attempt to adopt the Interagency 
Scientific Committee to Address Conservation of the Spotted Owl report 
of 1990, requiring the agency to address viability issues related to 
other species in addition to the spotted owl, which led to the creation 
of the Forest Ecosystem Management Assessment Team (FEMAT). In 
developing a response, the Forest Service relied on the new science of 
conservation biology, which had helped to formulate an international 
agenda. Although the act was explicitly designed as a multiple-use 
statute, the implementation of its viability regulations forced the 
agency to subordinate timber production and other economic outputs to 
the preservation of ecosystems.

        Ref: Science, Politics, and U.S. Forest Law: The Battle over 
        the Forest Service Planning Rule. George Hoberg, June 2003, 
        Discussion Paper 03-19 [http://ageconsearch.umn.edu/bitstream/
        10604/1/dp030019.pdf]
U.S. Involvement in an International Platform
        See: History of Dialogue Related to U.S. Government Commitment 
        to Sustainable Forest/Resource Management--Updated October 2002 
        by Ruth McWilliams of the USDA-Forest Service [http://
        www.fs.fed.us/sustained/history-updated-oct02.rtf])

    1968--UNESCO held a Biosphere Conference on ``ecosystems'' and 
ecological planning. Recommendations were to establish natural areas 
for the preservation of species.
    1970--The Man and the Biosphere (MAB) program established a 
statutory framework for a world network of biosphere reserves. The 
reserves were to contain three elements: one or more core areas 
securely protected for conserving biological diversity; a clearly 
defined surrounding buffer zone used for compatible sound ecological 
practices; and an transition area that might contain agriculture 
activities or settlements where resources are managed collaboratively 
on a sustainable basis. This pattern was later to be followed by the 
USFS in the designation of Late Successional and Riparian Reserves, 
Adaptive Management Areas and Matrix Lands.
    1980--The World Conservation Strategy--Living Resource Conservation 
for Sustainable Development [http://data.iucn.org/dbtw-wpd/edocs/WCS-
004.pdf] was formulated as an international framework for the 
preservation of species and sustainable development by the 
International Union for the Conservation of Nature and Natural 
Resources (IUCN) in cooperation with the U.N. Environmental Program 
(UNEP) and World Wildlife Fund (WWF), FAO and UNESCO.
    1983--UNESCO and UNEP jointly convened the First International 
Biosphere Reserve Congress in Minsk, in cooperation with FAO and IUCN. 
The Congress's activities gave rise in 1984 to an Action Plan for 
Biosphere Reserves which was formally endorsed by the UNESCO General 
Conference.
    1987-88--The Brudtland Commission Report, or Report of the World 
Commission on Environment and Development: Our Common Future [http://
www.un-documents.net/wced-ocf.htm] popularized term ``sustainable 
development.'' It defined sustainable development as ``. . . 
development that meets the needs of the present without compromising 
the ability of future generations to meet their own needs.''
    Note how this is reflected in the current stated USFS mission: 
``The mission of the USDA Forest Service is to sustain the health, 
diversity, and productivity of the Nation's forests and grasslands to 
meet the needs of present and future generations.'' That is not the 
mission as stated by the Organic Act or MUSYA.
    1990--Congress directed the Forest Service under The Global Climate 
Change Prevention Act to establish an Office of International Forestry 
under a new and separate Deputy Chief in the Forest Service to assume a 
greater role in international environmental affairs.

        International Forestry, a new ``leg'' of the Forest Service 
        (along with the National Forest System, Research, and S&PF), 
        was established in 1991 to coordinate and cooperate with other 
        countries on matters dealing with forestry and the environment. 
        Although previous programs had worked closely with other 
        countries to provide expertise and experience in these matters, 
        the International Forestry program area has given higher 
        priority to engaging in dialogue and cooperation with other 
        countries to solve global resource problems. The 1992 signing 
        of the Forest Principles and Agenda 21 at the United Nations 
        Conference on Environment and Development (UNCED)--the ``Earth 
        Summit''--was coordinated by this new branch of the agency. 
        [http://www.foresthistory.org/ASPNET/Publications/
        first_century/sec8.htm]

    1990--The USFS shifted emphasis from ``sustained yield to 
sustaining ecosystems'' including ``biological diversity and ecological 
function'' or ``ecosystems'' as exemplified in a paper by USFS research 
scientists entitled ``New Perspectives for Sustainable Resource 
Management'' (by Kessler, Salwasser, Cartwright and Caplan (1992) 
Ecological Applications, Volume: 2, Issue: 3) also known as ``New 
Forestry'' or ``ecosystem management.''
    1991--``Caring For The Earth: A Strategy for Sustainable Living'' 
[http://coombs.anu.edu.au/vern/caring/care-earth5.txt] was published 
by the IUCN--The World Conservation Union, UNEP--United Nations 
Environment Programme, and WWF--World Wide Fund For Nature. Items 
included: 4.1. Adopt a precautionary approach to pollution; 4.3. Reduce 
greenhouse gas emissions; 4.5. Adopt an integrated approach to land and 
water management, using the drainage basin as the unit of management; 
4.6. Maintain as much as possible of each country's natural and 
modified ecosystems; 4.8 protect large areas of old-growth forest; 4.9. 
Complete and maintain a comprehensive system of protected areas.
    1991-1992--A series writings from USDA Forest Service employees 
described changes happening at the USFS. ``Research in a New Role'' by 
Winifred B. Kessler, Asst. Director for Research and Development, New 
Perspectives Staff, USDA Forest Service, states:

        The research goal for New Perspectives is to enhance the 
        scientific basis for managing the national forests and 
        grasslands in an ecologically sound and socially acceptable 
        manner. New Perspectives presents new research and management 
        challenges that must be addressed from a whole-system 
        perspective. The new challenge is to sustain the integrity of 
        landscapes and ecosystems with their diverse values, rather 
        than simply sustaining a flow of use outputs . . . 
        Increasingly, scientists must take a landscape-level approach 
        in the study of ecosystems and natural resource interactions. 
        The time has never been better, as new developments in remote 
        sensing and geographic information systems provide 
        unprecedented capability for landscape-level research. [http://
        www.fs.fed.us/eco/eco-watch/ew910322]

    In addition in 1992, Dave Iverson talks about ``ecosystem 
management'' and ``overcoming organizational sickness'' in ``Building 
Quality into National Forest Management'' [http://www.fs.fed.us/eco/
eco-watch/ew921014].
    1992--

        The Forest Service participated in a January 1992 conference 
        called ``Defining Sustainable Forestry.'' This conference was 
        attended by ``[e]cologists, foresters, economists, and 
        sociologists.'' The purpose of the conference was to develop 
        the idea of ecosystem management. The participants' ideas were 
        reduced to chapters in a book entitled Defining Sustainable 
        Forestry which was updated and published in 1993. In a chapter 
        written by Forest Service officials, the Forest Service 
        outlined ``four principles to guide the evolution of ecosystem 
        management'':

      1. Protect land health by restoring or sustaining the integrity 
            of soils, air, waters, biological diversity, and ecological 
            processes, thereby sustaining what Aldo Leopold (1949) 
            called the land community and what we now call ecosystems.

      2. Within the sustainable capability of the land, meet the needs 
            of people who depend on natural resources for food, fuel, 
            shelter, livelihood, and inspirational experiences.

      3. Contribute to the social and economic well-being of 
            communities, regions, and the nation through cost effective 
            and environmentally sensitive production and conservation 
            of natural resources such as wood, water, minerals, energy, 
            forage for domestic animals, and recreation opportunities, 
            again within sustainable capability of the land.

      4. Seek balance and harmony between people, land, and resources 
            with equity between interests, across regions, and through 
            generations, meeting this generation's resource needs while 
            maintaining options for future generations also to meet 
            their needs.

        (from The U.S. Commitment to Agenda 21: Chapter 11 Combating 
        Deforestation--The Ecosystem Management Approach, Susan 
        Bucknum. [http://scholarship.law.duke.edu/cgi/
        viewcontent.cgi?article=1005&context=delpf])

    1992--

        The first objective of a strategy for conserving biodiversity 
        must be the development of national and international policy 
        frameworks that foster the sustainable use of biological 
        resources and the maintenance of biodiversity. Additionally, 
        national networks of protected areas must be strengthened and 
        expanded to cover all key biomes and ecosystems, and the 
        management objectives of protected areas must be harmonized 
        with those for the surrounding ecosystems and human 
        communities.

        (from Global Biodiversity Strategy Guidelines for Action to 
        Save, Study, and Use Earth's Biotic Wealth Sustainably and 
        Equitably; World Resources Institute (WRI), The World 
        Conservation Union (IUCN), United Nations Environment Programme 
        (UNEP), in consultation with Food and Agriculture Organization 
        (FAO), United Nations Education, Scientific and Cultural 
        Organization (UNESCO) ``Building a Sustainable Society: The 
        Context for Conserving Biodiversity.'' [http://pdf.wri.org/
        globalbiodiversitystrategy_bw.pdf])

    1992--Rio Earth Summit, President George H.W. Bush signs the 
Framework Convention on Climate Change, endorses the Rio Declaration 
[http://www.un.org/documents/ga/conf151/aconf15126-1annex1.htm], the 
Forest Principles [http://www.un.org/documents/ga/conf151/aconf15126-
3annex3.htm], and adopts Agenda 21 [http://www.un.org/esa/dsd/agenda21/
res_agenda21_00.shtml] on behalf of the United States of America. This 
was coordinated by the new International Forestry branch of the U.S. 
Forest Service.
    Agenda 21 Section II, Conservation and Management of Resources for 
Development, Chapter 11, Combating Deforestation, Section A: Sustaining 
the multiple roles and functions of all types of forests, forest lands 
and woodlands is [http://www.un.org/esa/dsd/agenda21/
res_agenda21_11.shtml].
    According to Hal Salwasser et al., (in Salwasser, Hal; MacCleery, 
Douglas W.; Snellgrove, Thomas A. 1993. An ecosystem perspective on 
sustainable forestry and new directions for the U.S. National Forest 
System. In: Aplet, Gregory H.; Johnson, Nels; Olson, Jeffery T.; 
Sample, Alaric V.; eds. Defining Sustainable Forestry. Washington, 
D.C.: Island Press. 44-89) Section A posed a mandate for change to U.S. 
Forest Service policy. The historic management policies of the Forest 
Service ``focus[ed] on producing and renewing selected resources (such 
as timber, game fish, and livestock forage) or single sectors of 
forest-related enterprises (such as wood products, recreation, and 
cattle industry).'' The selected-use policies only considered 
sustaining certain resources and not protecting the forest as a whole. 
In order for the United States to fulfill its commitment to Chapter 11, 
it needed to assess its management directives and implement sustainable 
management practices which was not management for multiple uses but 
rather for sustaining the forest ecosystem as a whole. The recommended 
``activity'' for attaining sustainable management was to adopt planning 
techniques that protect the biodiversity of a forest.
    Agenda 21 Section II, Section A, Chapter 11.4 required data 
collection as to land classification, land use, forest cover, 
endangered species, ecological values, traditional/indigenous land use 
values, biomass and productivity, correlating demographic, 
socioeconomic and forest resources information. GAP Analysis--Land use 
classification and biological assessment [http://gapanalysis.usgs.gov/
gap-analysis/] was later used as a tool to identify areas for set 
asides/roadless/wilderness and for private land regulation or 
acquisition.
    Agenda 21 Section II, Section B has the major goal for nations to 
plan for the maintenance of their forests as a whole, and not for 
consumption of particular resources. Enhancing the protection, 
sustainable management and conservation of all forests, and the 
greening of degraded areas, through forest rehabilitation, 
afforestation, reforestation and other rehabilitative means was 
specified in Chapter 11.13:

        (b) Establishing, expanding and managing, as appropriate to 
        each national context, protected area systems, which includes 
        systems of conservation units for their environmental, social 
        and spiritual functions and values, including conservation of 
        forests in representative ecological systems and landscapes, 
        primary old-growth forests, conservation and management of 
        wildlife, nomination of World Heritage Sites under the World 
        Heritage Convention, as appropriate, conservation of genetic 
        resources, involving in situ and ex situ measures and 
        undertaking supportive measures to ensure sustainable 
        utilization of biological resources and conservation of 
        biological diversity and the traditional forest habitats of 
        indigenous people, forest dwellers and local communities.

        (c) Undertaking and promoting buffer and transition zone 
        management;

    This is the Man and Biosphere system of core areas, buffers and 
transition areas.
    Prior to the adoption of Agenda 21, the U.S. Forest Service's 
management objectives were directed toward providing for multiple-use 
and sustained yield of resources via the Multiple Use--Sustained Yield 
Act of 1960 (Public Law 86-517). Multiple-use management means managing 
renewable surface resources so that they are utilized in a way that 
best meets the needs of the American public. It does not include 
consideration of effects on sustaining biodiversity.

        Ref: The U.S. Commitment to Agenda 21: Chapter 11 Combating 
        Deforestation--The Ecosystem Management Approach, Susan Bucknum 
        [http://scholarship.law.duke.edu/cgi/
        viewcontent.cgi?article=1005&context=delpf].

    From the Rio Declaration, Annex III Non-legally Binding 
Authoritative Statement of Principles for a Global Consensus on the 
Management, Conservation and Sustainable Development of All Types of 
Forests [http://www.un.org/documents/ga/conf151/aconf15126-
3annex3.htm]:

        Preamble (d) These principles reflect a first global consensus 
        on forests. In committing themselves to the prompt 
        implementation of these principles, countries also decide to 
        keep them under assessment for their adequacy with regard to 
        further international cooperation on forest issues . . .

        Principles/Elements 1.(b) Forest resources and forest lands 
        should be sustainably managed to meet the social, economic, 
        ecological, cultural and spiritual needs of present and future 
        generations.

        Principles/Elements 3.(a) National policies and strategies 
        should provide a framework for increased efforts, including the 
        development and strengthening of institutions and programmes 
        for the management, conservation and sustainable development of 
        forests and forest lands.

        Principles/Elements 8.(e) Forest management should be 
        integrated with management of adjacent areas so as to maintain 
        ecological balance and sustainable productivity.

        Principles/Elements 8.(f) National policies and/or legislation 
        aimed at management, conservation and sustainable development 
        of forests should include the protection of ecologically viable 
        representative or unique examples of forests, including 
        primary/old-growth forests, cultural, spiritual, historical, 
        religious and other unique and valued forests of national 
        importance.

        Principles/Elements 13.(c) Incorporation of environmental costs 
        and benefits into market forces and mechanisms, in order to 
        achieve forest conservation and sustainable development, should 
        be encouraged both domestically and internationally.

    1992-1993--President Bush did not sign the Convention on Biological 
Diversity in 1993. It was signed by President Clinton in 1994, although 
never ratified by Congress. From Article 8. In-situ Conservation 
[http://www.cbd.int/convention/articles/?a=cbd-08]:

        (a) Establish a system of protected areas or areas where 
        special measures need to be taken to conserve biological 
        diversity;

        (b) Develop, where necessary, guidelines for the selection, 
        establishment and management of protected areas or areas where 
        special measures need to be taken to conserve biological 
        diversity;

        (c) Regulate or manage biological resources important for the 
        conservation of biological diversity whether within or outside 
        protected areas, with a view to ensuring their conservation and 
        sustainable use;

        (d) Promote the protection of ecosystems, natural habitats and 
        the maintenance of viable populations of species in natural 
        surroundings;

        (e) Promote environmentally sound and sustainable development 
        in areas adjacent to protected areas with a view to furthering 
        protection of these areas;

        (f) Rehabilitate and restore degraded ecosystems and promote 
        the recovery of threatened species, inter alia, through the 
        development and implementation of plans or other management 
        strategies;
          * * * * *
        (i) Endeavour to provide the conditions needed for 
        compatibility between present uses and the conservation of 
        biological diversity and the sustainable use of its 
        components;.
          * * * * *
        (l) Where a significant adverse effect on biological diversity 
        has been determined, regulate or manage the relevant processes 
        and categories of activities.

    This is the document upon which the infamous map [http://
www.proliberty.com/observer/20091223.htm] entitled ``simulated reserve 
and corridor system to protect biodiversity'' was based.
    1993--The Helsinki Conference defined ``sustainable management of 
forests'' as the stewardship and use of forests and forest lands in a 
way, and at a rate, that maintains their biodiversity, productivity, 
regeneration capacity, vitality, and their potential to fulfill, now 
and in the future, relevant ecological, economic, and social functions, 
at local, national, and global scales, and that does not cause damage 
to other ecosystems.
    1993--The United States became a signatory to The Montreal Process 
[http://www.rinya.maff.go.jp/mpci/evolution_e.html]. Countries 
identified the following seven criteria as essential components in the 
sustainable management of forest ecosystems, as well as 67 different 
indicators specific for each criteria [http://www.rinya.maff.go.jp/
mpci/rep-pub/1995/santiago_e.html] (1) Conservation of biological 
diversity; (2) Maintenance of productive capacity of forest ecosystems; 
(3) Maintenance of forest ecosystem health and vitality; (4) 
Conservation and maintenance of soil and water resources; (5) 
Maintenance of forest contribution to global carbon cycles; (6) 
Maintenance and enhancement of long-term multiple socioeconomic 
benefits to meet the needs of societies; and (7) Legal, institutional 
and economic framework for forest conservation and sustainable 
management.
    1993--Eldon W. Ross Associate Deputy Chief for Research, USDA 
Forest Service submitted a statement [http://www.fs.fed.us/sustained/
ross-june-93.doc] to the Second Ministerial Conference on the 
Protection of Forests in Europe indicating that ``the United States 
believes that the conservation and sustainable management of forests is 
on of our most pressing global needs'' and stating that:

        At a Forest Congress held on April 2, 1993, wherein all 
        interests were gathered, the President proposed this 
        fundamental question related to harmonizing human, biological, 
        and economic imperatives: ``How can we achieve a balanced and 
        comprehensive policy that recognizes the importance of forests 
        and timber to the economy and jobs of this region, and how can 
        we preserve our precious old-growth forests, which are part of 
        our national heritage and that, once destroyed, can never be 
        replaced?''

        This Forest Conference initiated an aggressive assessment, with 
        ensuing announcements to be released this summer.

        This situation is an example of a larger commitment by U.S. 
        forest land management agencies towards implementation of 
        Agenda 21. As announced in June 1992, all U.S. Federal forests 
        are to be managed using an ecological approach. This policy 
        will continue to uphold multiple-use, but with an emphasis on 
        blending the needs of people and environmental values--with the 
        result that our national forests and associated ecosystems will 
        be diverse, healthy, productive, and sustainable.

    1993--Presidential Decision Directive/NSC-16 Environmental Policy 
on International Desertification, Forest Conservation and Fresh Water 
Security, The White House November 5, 1993 [http://www.fs.fed.us/
sustained/pres-decision-11-1993.doc] stated:

        Our strategy includes bilateral programs to conserve forests 
        and biodiversity and maintain existing carbon reservoirs, and 
        support for appropriate activities in the proposed World 
        Commission on Forests and Sustainable Development, the United 
        Nations Commission on Sustainable Development, the Food and 
        Agriculture Organization, and other fora to foster 
        international agreement on forest management . . .

        The United States is committed to a national goal of achieving 
        sustainable management of U.S. forests by the year 2000.

    1993--Vice President Al Gore called for the Federal Government to 
adopt an approach for ensuring sustainable economic development while 
also sustaining the environment through ecosystem management. An 
accompanying report of the National Performance Review, Improving 
Environmental Management [http://govinfo.library.unt.edu/npr/library/
reports/env.html] concluded ``The President should issue a directive 
that: establishes a national policy to encourage sustainable economic 
development and ensure sustainable ecosystems through ecosystem 
management . . .''
    The White House Office of Environmental Policy (OEP) took the lead 
for the Federal initiative on ecosystem management by establishing the 
Interagency Ecosystem Management Task Force (IEMTF) to carry out Vice 
President Gore's mandate.
    The EPA published an internal working document (NPR) [http://
www.discerningtoday.org/members/Analyses/EPA_Ecosystem.htm] outlining 
the Administration's environmental strategy: Evaluating National 
Policies/International Obligations:

        The Executive Branch should direct Federal agencies to evaluate 
        national policies on environmental protection and resource 
        management in light of international policies and obligations, 
        and to amend national policies to more effectively achieve 
        international objectives. The State Department, USDI, EPA, 
        USFS, NMFS, and other involved agencies should be directed to 
        further develop national and international policies related to 
        ecosystem management. In addition, the U.S. should to [sic] 
        develop human population policies that are consistent with 
        sustainable economies and ecosystems. Regional Landscape 
        Planning: ``EPA can take a number of actions that would 
        stimulate land use planning by state and local governments in a 
        constructive manner, and which would not result in an overly 
        intrusive Federal role in land use planning. EPA should direct 
        grants to states and local governments to form regional 
        planning units around ecosystem protection and sustainability 
        values. EPA should provide technical assistance to the state 
        and local governments, and will develop a list of suggested 
        criteria for use by the state and local governments in their 
        planning decision making.''

    1993--When Congress refused to pass legislation to establish the 
National Biological Service [http://www.doi.gov/pfm/par/acct1995/
ar1995nbs.pdf], DOI Secretary Babbitt unilaterally created it and 
shifted funding to it. In 1995, the NBS report Our Living Resources 
[http://archive.org/details/ourlivingresourc00unit] outlined trends on 
the distribution, abundance and health of U.S. plants, animals and 
ecosystems.
    1993--President Clinton created the Office of the Federal 
Environmental Executive, the Office of Science and Technology Policy, 
and the President's Council on Sustainability [http://
clinton2.nara.gov/PCSD/] by Executive Orders. The Council adopted the 
Brundtland Commission's definition of sustainable development: Towards 
a Sustainable America: Advancing Prosperity [http://clinton2.nara.gov/
PCSD/Publications/suscomm/ind_suscom.html], The Road to Sustainable 
Development: A Snapshot of Activities in the United States of America 
[http://clinton2.nara.gov/PCSD/Publications/Snapshot.html], Sustainable 
Communities Task force Report Fall 1997 [http://clinton2.nara.gov/PCSD/
Publications/tsa.pdf], and Advancing Prosperity, Opportunity, and a 
Healthy Environment for the 21st Century, May 1999 [http://
clinton2.nara.gov/PCSD/Publications/TF_Reports/amer-top.html].
    1993--The Forest Ecosystem Management Team (FEMAT) was chartered 
(Northern Spotted Owl case).
    1994--The Sierra Nevada Ecosystem Project (SNEP) was chartered.
    1994--The Ecosystem Management Coordinating Group (IEMCG), focused 
the resources of 20 Federal agencies to achieve ``comprehensive 
integrated resource management'' on an ecosystem basis (see CRS Report 
to Congress [http://www.cnie.org/NLE/CRSreports/Biodiversity/biodv-
4f.cfm]).
    1994--President Clinton signed Executive Order 12906, 
``Coordinating Geographic Data Acquisition and Access: the National 
Spatial Data Infrastructure'' [http://www.archives.gov/federal-
register/executive-orders/pdf/12906.pdf]. (GAP Analysis)
    1994--United States GAO Report is issued on Ecosystem Management 
Ecosystem Management: Additional Actions Needed to Adequately Test a 
Promising Approach [http://archive.gao.gov/t2pbat2/152537.pdf].
    1995--The GBA Global Biodiversity Assessment [http://
jrscience.wcp.muohio.edu/studentresearch/climatechange02/kyoto/
articles/UNEP.pdf] is developed at the behest of the United Nations 
Environment Programme (UNEP) with funding provided by the Global 
Environment Facility (GEF) provides a blueprint for implementation of 
the Convention on Biological Diversity.

        Chapter 10.4--Measures to Conserve and Restore Ecosystems: 
        Ecosystem conservation measures seek to limit human activities 
        in limited geographic areas where they may adversely impact 
        populations of species or interfere with ecosystem processes. 
        The goal of conservation biologists is to use conservation 
        measures in enough areas to protect a representative array of 
        ecosystems and their constituent biodiversity.

        10.4.2.1--Protected Areas Protected areas are defined by the 
        Convention on Biological Diversity as ``a geographically 
        defined area which is designated or regulated and managed to 
        achieve specific conservation objectives.''

        10.4.2.2.2--Corridors in Fragmented Landscapes Biotic: movement 
        in a fragmented landscape requires movements between individual 
        fragments (protected areas). Corridors of native vegetation 
        linking fragments are commonly seen as a solution to this.

        10.4.2.2.3--Protection and Management of Fragments: The 
        protection and management of fragments requires a reduction in 
        the deleterious effects of matrix-derived influences on 
        remnants and an increase in the area and connectivity of 
        habitat. This means that representative areas of all major 
        ecosystems in a region need to be reserved, that blocks should 
        be as large as possible, that buffer zones should be 
        established around core areas, and that corridors should 
        connect these areas. (This basic design is central to the 
        ``Wildlands Project'' in the United States. Reed F. Noss, The 
        Wildlands Project land conservation strategy. WildEarth, 
        Special issue, 1992).

        10.4.4--Restoration and Rehabilitation Landscape restoration 
        aims at improving the design of the existing system of 
        fragments by increasing habitat area and connectivity, and by 
        providing buffer zones around existing fragments to protect 
        them from external influences.

    1995--the President's National Science and Technology Council 
(NSTC) established an Ecosystem Working Group. It concluded (1) that 
pursuit of improved quality of life often threatens the sustainability 
of ecosystems, (2) continued decreases in productivity and vitality of 
ecosystems which can result in increased deterioration of ecosystems 
that are incompletely understood, (3) the basis for human development 
has been the availability of healthy natural ecosystems and the 
resources they provide, and (4) that to sustain further human 
development, the ecological base to support it must be sustained.
    1995--The Seville Strategy and the Statutory Framework for the 
World Network of Biosphere Reserves [http://unesdoc.unesco.org/images/
0010/001038/103849e.pdf] was completed under UNESCO:

        1.1  1. Promote biosphere reserves as means of implementing the 
        goals of the Convention on Biological Diversity.

        1.1  2. Promote a comprehensive approach to biogeographical 
        classification (GAP analysis) that takes into account such 
        ideas as vulnerability analysis.

        1.2  4. Link biosphere reserves with each other, and with other 
        protected areas, through green corridors and in other ways that 
        enhance biodiversity conservation, and ensure that these links 
        are maintained.

        2.1  2. Incorporate biosphere reserves into plans for 
        implementing the sustainable use goals of Agenda 21 and the 
        Convention on Biological Diversity.

        3.1  7. Integrate biosphere reserves into regional planning.

    In 1996 UNESCO began Implementation of the Seville Strategy and 
Statutory Framework of the World Network of Biosphere reserves [http://
www.iisd.ca/forestry/ipfhist.html]. The Intergovernmental Panel on 
Forests (IPF) was established in 1995 by the United Nations Commission 
on Sustainable Development to follow up the UNCED recommendations on 
sustainable forest management.
    1995--The U.S. agreed to the Santiago Declaration [http://
www.fs.fed.us/sustained/santiago3_e.html], Statement on Criteria and 
Indicators for the Conservation and Sustainable Management of Temperate 
and Boreal Forests:

        Affirming their commitment to the conservation and sustainable 
        management of their respective forests . . . Endorse the non-
        legally binding Criteria and Indicators for the Conservation 
        and Sustainable Management of Temperate and Boreal Forests 
        annexed to this Statement as guidelines for use by their 
        respective policy-makers . . .

    1995--Fourteen Federal agencies signed a Memorandum of 
Understanding to Foster the Ecosystem Approach (OEP 1996) [http://
library.fws.gov/Pubs9/ecosystem_approach98_files/
intro_projconcept.htm].

        The memorandum defines the ecosystem approach as A method for 
        sustaining or restoring ecological systems and their functions 
        and values. It is goal driven and it is based on a 
        collaboratively developed vision applied within a geographic 
        framework defined primarily by ecological boundaries. (Section 
        1 Definitions).

        The goal of the Ecosystem Approach as stated in this 
        interagency memorandum, was to: restore and sustain the health, 
        productivity, and biological diversity of ecosystems and the 
        overall quality of life through a natural resource management 
        approach that is fully integrated with social and economic 
        goals.

    An Interagency Ecosystem Management Task Force issues The Ecosystem 
Approach: Healthy Ecosystems and Sustainable Economies Volume II 
Implementation Issues (Overcoming statutory and jurisdictional barriers 
to a unified approach) [http://www.denix.osd.mil/nr/upload/
ecosystem2.htm].
    1996--The President's Council on Sustainability issues a report 
entitled Sustainable America: A New Consensus for Prosperity, 
Opportunity, and A Healthy Environment for the Future [http://
clinton2.nara.gov/PCSD/Publications/TF_Reports/amer-top.html]. This 
report outlined goals for ``economic prosperity, environmental 
protection, and social equity together'' (known as the 3 e's). An 
Excerpt on Sustainable Forest Management, Chapter 5, Natural Resources 
Stewardship [http://www.fs.fed.us/sustained/pcsd-1996.doc] includes the 
statement:

        In 1992, during the United Nations Conference on Environment 
        and Development in Rio de Janeiro, the United States announced 
        its commitment to carry out ecosystem management on all Federal 
        forest lands. And, at the Second Ministerial Conference on the 
        Protection of Forests in 1993 in Helsinki, the United States 
        declared its commitment to the goal of achieving sustainable 
        management of all U.S. forests by the year 2000.

    1996--A Framework for Ecosystem Management in Interior Columbia 
Basin (including parts of the Klamath and Great Basin) was released.
    1996--The Secretary of Agriculture established Dept.-wide policy on 
Sustainable Development (Scty. Memorandum 9500-6) focusing on 
sustainable agriculture, sustainable forestry, and sustainable rural 
community development.
    1997--The President's Council on Sustainability released Building 
on Consensus: A Progress Report on Sustainable America [http://
clinton2.nara.gov/PCSD/Publications/Progress_Report.html]. It 
recommended:

        Fully Participate in International Sustainable Development 
        Activities in 1997. Next year's observance of the fifth 
        anniversary of the Earth Summit in Rio will provide several 
        opportunities for the United States to demonstrate continued 
        international leadership on sustainable development. We 
        encourage you to ensure that the U.S. government fully 
        participates in these fora.

    1997--The Rio Earth Summit+5 Resolution [http://www.un.org/esa/
earthsummit/] adopted by the General Assembly includes:

        We reaffirm that Agenda 21 remains the fundamental programme of 
        action for achieving sustainable development . . . Progress has 
        been made in incorporating the principles contained in the Rio 
        Declaration on Environment and Development--including the 
        principle of common but differentiated responsibilities, which 
        embodies the important concept of and basis for international 
        partnership; the precautionary principle; the polluter pays 
        principle; and the environmental impact assessment principle . 
        . . Economic development, social development and environmental 
        protection are interdependent and mutually reinforcing 
        components of sustainable development . . . . Sustainable 
        development strategies are important mechanisms for enhancing 
        and linking national capacity so as to bring together 
        priorities in social, economic and environmental policies . . . 
        In integrating economic, social and environmental objectives, 
        it is important that a broad package of policy instruments, 
        including regulation, economic instruments, internalization of 
        environmental costs in market prices, environmental and social 
        impact analysis, and information dissemination, be worked out 
        in the light of country-specific conditions to ensure that 
        integrated approaches are effective and cost-efficient. 
        Unsustainable patterns of production and consumption, 
        particularly in the industrialized countries, are identified in 
        Agenda 21 as the major cause of continued deterioration of the 
        global environment. While unsustainable patterns in the 
        industrialized countries continue to aggravate the threats to 
        the environment, there remain huge difficulties for developing 
        countries in meeting basic needs such as food, health care, 
        shelter and education for people. All countries should strive 
        to promote sustainable consumption patterns; developed 
        countries should take the lead in achieving sustainable 
        consumption patterns; developing countries should seek to 
        achieve sustainable consumption patterns in their development 
        process, guaranteeing the provision of basic needs for the 
        poor, while avoiding those unsustainable patterns, particularly 
        in industrialized countries, generally recognized as unduly 
        hazardous to the environment, inefficient and wasteful, in 
        their development processes . . .

    1997--The Nairobi Declaration [http://www.ourplanet.com/imgversn/
86/nairobi.html] of the Governing Council of the United Nations 
Environment Programme on the Role and Mandate of UNEP is issued, in 
which the role of UNEP is confirmed as ``the leading global 
environmental authority that sets the global environmental agenda, that 
promotes the coherent implementation of the environmental dimension of 
sustainable development within the United Nations system and that 
serves as an authoritative advocate for the global environment . . .''
    1997--Information Provided by the Government of United States to 
the United Nations Commission on Sustainable Development--
Implementation of Agenda 21: Review of Progress Made Since the United 
States Conference on Environment and Development, 1992 [http://
www.un.org/esa/earthsummit/usa-cp.htm] includes the statements:
  Chapter 10: Integrated Approach to the Planning and Management of 
        Land Resources
        . . . With respect to Federal lands, the U.S. Department of 
        Agriculture (USDA) and the U.S. Department of the Interior 
        (USDI) have embraced the Ecosystem Approach to land management. 
        The Ecosystem Approach to land management entails a 
        comprehensive evaluation of all natural resource areas when 
        making land management decisions within both Federal and non-
        Federal territory . . . TNC [The Nature Conservancy] has also 
        helped establish a network of ``Heritage Programmes'' which are 
        in place in all fifty states. These programmes inventory 
        endangered and threatened species and provide the scientific 
        basis for prioritizing and guiding development away from 
        critical habitat areas. The USDI National Biological Service 
        (NBS) is establishing mechanisms to collect and assess 
        biological information that will assist decision makers in 
        developing management and protection strategies.
  Chapter 11: Combating Deforestation
        . . . The U.S. is moving forward to enforce its commitment to 
        sustainable forestry by several measures, including: 
        establishing an ecosystem approach to sustainable forest 
        management, inventorying forest area by ecosystem, and 
        adjusting the balance between environmental and commercial use 
        of publicly owned lands. It also includes developing domestic 
        criteria and indicators for sustainable management of U.S. 
        forests and participating in the development of internationally 
        agreed criteria and indicators for the conservation and 
        sustainable management of temperate and boreal forests.

    1997--The Kyoto Protocol of the UN Framework Convention on Climate 
Change, adopted at the third Conference of the Parties makes explicit 
reference to land use change and forestry under several of its 
articles.
    1997--A Committee of Scientists is appointed ``to provide 
scientific and technical advice'' to the Secretary of Agriculture and 
the Chief of the Forest Service on improvements that can be made in the 
National Forest System Land and Resource Management planning process. 
Instead, the Committee declared that ecological sustainability should 
be given priority over social and economic sustainability. In their 
report entitled Sustainability: The Overarching Objective of National 
Forest Stewardship (no longer available online) they wrote:

        Accordingly, based on the statutory framework for the national 
        forests and grasslands, the first priority for management is to 
        retain and restore the ecological sustainability of these 
        watersheds, forests, and rangelands for present and future 
        generations. The Committee believes that the policy of 
        sustainability should be the guiding star for stewardship of 
        the national forests and grasslands to assure the continuation 
        of this array of benefits . . . Sustainability is broadly 
        recognized to be composed of interdependent elements, 
        ecological, economic, and social. It operates on several 
        levels. As a collective vision, sustainability means meeting 
        the needs of the present generation without compromising the 
        ability of future generations to meet their needs. As an 
        approach to decision making, it calls for integrating the 
        management of biological and ecological systems with their 
        social and economic context, while acknowledging that 
        management should not compromise the basic functioning of these 
        systems.

    In Ecological Sustainability: ``A Necessary Foundation for 
Stewardship'' is the statement:

        Ecological sustainability entails maintaining the composition, 
        structure, and processes of a system. The National Forest 
        Management Act (NFMA) establishes the goals of maintaining 
        species' diversity and ecological productivity; these goals are 
        consistent with the concept of ecological sustainability. The 
        Committee recommends that ecological sustainability provide a 
        foundation upon which the management for national forests and 
        grasslands can contribute to economic and social 
        sustainability. This finding does not mean that the Forest 
        Service is expected to maximize the protection of plant and 
        animal species and environmental protection to the exclusion of 
        other human values and uses. Rather, it means that planning for 
        the multiple use and sustained yield of the resources of 
        national forests and grasslands should operate within a 
        baseline level of ensuring the sustainability of ecological 
        systems and native species. Without ecologically sustainable 
        systems, other uses of the land and its resources could be 
        impaired.

    1997--The fifth Council on Sustainable Development and the 19th 
Special Session of the UN General Assembly (UNGASS) endorsed the 
Intergovernmental Panel on Forests' (IPF) outcome and recommended a 
continuation of the intergovernmental policy dialogue on forests. 
Subsequently, the UN Economic and Social Council (ECOSOC) established 
the Intergovernmental Forum on Forests (IFF) to continue this work 
under the auspices of the CSD. In its final meeting in 1997, the UN Ad 
Hoc Intergovernmental Panel on Forests recommended more than 150 
Proposals for Action to the international community to address a range 
of forest problems that countries should address at the domestic level. 
The IPF Proposals cover five themes: (1) Implementation of the United 
Nations Conference on Environment and Development (UNCED) decisions 
related to forests at the national and international levels; (2) 
International cooperation in financial assistance and technology 
transfer; (3) Scientific research, forest assessment, and development 
of criteria and indicators for sustainable forest management; (4) Trade 
and environment in relation to forest products and services; (5) 
International organizations and multilateral institutions, and 
instruments, including appropriate legal mechanisms. See A Brief to 
Global Forest Policy [http://www.iisd.ca/process/
forest_desertification_land-forestintro.htm].
    1998--A UN Workshop on the Ecosystem Approach produced the Malawi 
Principles [http://www.fao.org/DOCREP/006/Y4773E/y4773e0e.htm], twelve 
principles/characteristics of the ecosystem approach to biodiversity 
management which were presented at the Fourth Meeting of the Conference 
of the Parties to the Convention on Biological Diversity.
    1998--Secretary Dan Glickman made these opening remarks [http://
www.fao.org/DOCREP/006/Y4773E/y4773e0e.htm] at the Sustainable Resource 
Management Meeting:

        It is my hope and expectation that the same level of commitment 
        that led to international development and agreement on the 
        criteria and indicators for sustainable forest management, will 
        now occur at the national level as we work to implement and 
        build on this framework.

    1998--G8 Foreign Ministers, including President Clinton, approved 
an Action Program on Forests [http://www.mofa.go.jp/policy/economy/
summit/2002/g8forest2.html]. The action program commits G8 countries 
(the world's major industrial democracies) to take specific actions in 
five areas: monitoring, remote sensing data and assessment, national 
forest programs, protected areas, private sector, and illegal logging. 
G8 members are providing financial and technical resources for work to 
utilize remote sensing, promote decentralization of forest management, 
consolidate establishment of cross-boundary Peace Parks, encourage 
public-private partnerships, and strengthen forest law and governance.
    1999--The Presidents Council on Sustainable Development issued a 
report entitled Natural Resources Management and Protection Task Force 
Report [http://clinton2.nara.gov/PCSD/Publications/TF_Reports/
natural.pdf] which stated:

        Convene a National Forestry Advisory Council comprised of a 
        representative balance of stakeholders to define and help 
        achieve sustainable management of forests on a national basis 
        by the year 2000.

        . . . this recommendation would include reviewing the possible 
        classification of public and private forestlands in states by 
        management goal categories . . .

        The United States announced its commitment to implement 
        ecosystem management on all Federal forestlands at the Earth 
        Summit in June 1992 at Rio de Janeiro. The United States also 
        made a commitment to a national goal of achieving sustainable 
        management of U.S. forests by the year 2000 at the Ministerial 
        Conference on the Protection of Forests in June 1993 at 
        Helsinki, Finland.

    1999--Doug MacCleery, Assistant Director of Forest Management for 
the USDA/Forest Service, wrote in Ecological Sustainability, 
Consumption and NIMBYism [http://www.inwoodlands.org/storage/past-
issues/EcologicalSustainability.htm]:

        Over the last two decades there has been a substantial shift in 
        the management emphasis of public lands in the United States. 
        This shift has increased the emphasis on managing for 
        biodiversity protection and amenity values, and reduced 
        commodity outputs. Terms like ``ecosystem management'' and 
        ``ecological sustainability'' are used to describe this change 
        in management emphasis, which is often referred to as a 
        ``paradigm shift.''

    McCleery goes on to decry the fact that consumption patterns have 
not decreased, redirecting timber production to Canada and private 
forests. He advocates for an individual behavioral ethic of reduction 
in personal consumption.
    1999--The Board on Sustainable Development, Policy Division, 
National Research Council at the National Academy of Sciences released 
Our Common Journey 
[http://www.nap.edu/openbook.php?isbn=0309067839] to address the 
research needs for the global commons of atmosphere, land, and water as 
well as to respond to the Academies' desire to reinvigorate the role of 
science and development in sustainable development.
    1999--The UNCED Committee on Forestry, Inter-governmental Panel on 
Forests (IPF) [http://www.fao.org/docrep/meeting/X0703e.htm] issued a 
final report containing 143 proposals for action in four areas relating 
to the implementation of UNCED decisions: (1) formulation and 
implementation of national forest and land use plans, (2) international 
cooperation in financial assistance and technology transfer, (3) forest 
assessment and development of Criteria and Indicators for sustainable 
forest management, (4) trade and the environment relating to forest 
products and services, international organizations and multilateral 
institutions and instruments, including appropriate mechanisms.
    2000--The UN Economic and Social Council (ECOSOC), responding to 
recommendations of the ad hoc Intergovernmental Forum on Forests (IFF), 
outlined an international arrangement on forests and established a new 
permanent subsidiary body, the UN Forum on Forests (UNFF). The 
international arrangement and UNFF were established to facilitate 
implementation of the IPF/IFF Proposals for Action, provide forum for 
policy dialogue, enhance coordination of work of international 
organizations, foster international cooperation, monitor and assess 
progress, and enhance political commitment to sustainable forest 
management.
    2000-2005--The UN Forum on Forests (UNFF) operated under a multi-
year program of work from 2000-2005, focusing on thematic areas related 
to sustainable forest management, including: deforestation, forest 
restoration, biological diversity, forest health, forest products, 
economic aspects of forests, forest-related scientific knowledge, 
social and cultural aspects, traditional forest-related knowledge, and 
monitoring, assessment and reporting. Also through this process, the 
Collaborative Partnership on Forests (CPF) [http://www.cpfweb.org/en/], 
a partnership among international forest-related organizations, was 
established to provide a means for United Nations agencies and 
multilateral donors to improve coordination of their efforts to 
facilitate sustainable forest management. The interagency partnership, 
which includes fourteen key institutions, is contributing to 
international cooperation through work, among other things, on: 
Sourcebook on Funding Sustainable Forest Management [http://
www.cpfweb.org/73034/en/]; Streamlining Forest-Related Reporting 
[http://www.cpfweb.org/73035/en/]; Harmonizing Forest-Related 
definitions [http://www.cpfweb.org/73036/en/]; Establishing a Global 
Forest Information Service [http://www.cpfweb.org/73037/en/]; Forests 
and Climate Change [http://www.cpfweb.org/73031/en/].
    2000--A Federal MOU was signed on Sustainable Forest Management 
Data [http://www.fs.fed.us/sustained/commitment.html] making data 
available on an ongoing basis related to the Montreal Process Criteria 
and Indicators.
    2000--Sustainable Forest and Resource Management, Domestic Actions 
of the Forest Service, List of Actions Being Taken was issued [http://
www.fs.fed.us/sustained/sus-res-mgt-accom-fs-apr21.doc], as was the 
Integration Of Sustainable Resource Management and Criteria And 
Indicators In The USDA Forest Service 
[http://www.fs.fed.us/sustained/sdit-action-plan-2-26-01.doc].
    2000--The USFS published its USDA Forest Service Strategic Plan 
(2000 Revision) [http://www.fs.fed.us/plan/stratplan.pdf] listing 
``Ecosystem Health'' as its #1 Goal--Promote ecosystem health and 
conservation using a collaborative approach to sustain the Nation's 
forests, grasslands and watersheds. Goal #2 was ``Multiple Benefits to 
People''--Provide a variety of uses, values, products, and services for 
present and future generations by managing within the capability of 
sustainable ecosystems.
    2000--Ruth McWilliams (USDA Forest Service) gave an address to the 
National Planning Conference on ``Healthy Ecosystems . . . Healthy 
Communities'' [http://www.fs.fed.us/sustained/apa-april-2000.doc], 
stating ``Sustainability is the goal'' and ``Collaboration is the 
Approach''.
    2000--At the Federal Interagency Leadership Meeting on Sustainable 
Forest Management, USDA Deputy Secretary Richard Rominger spoke on the 
U.S. Commitment to Sustainable Forest Management [http://www.fs.fed.us/
sustained/rominger-aug-00.doc]. Rominger stated:

        Sustainable forest management . . . builds on and advances the 
        work of the Brundtland Commission that articulated sustainable 
        development in 1987 . . .

        Action on sustainable forest management is at a critical 
        juncture--internationally and domestically.

        * Internationally, the United Nations is establishing a new 
        Forum on Forests. This should expedite implementation of 
        existing agreements, provide a policy framework, and coordinate 
        the work of international organizations.

        * Domestically, the multi-stakeholder Roundtable on Sustainable 
        Forests is using the framework provided by the Montreal Process 
        Criteria and Indicators to move us closer to achieving 
        sustainable forest management. As the Roundtable moves from its 
        first phase of building understanding, to assessment and 
        reporting, it's important that we clearly identify the Federal 
        leadership role.

    2000--Regarding the Roundtable on Sustainable Forest, Phil Janik 
wrote 
[http://www.fs.fed.us/sustained/ltr-rsf-janik-10-12-2000.doc]:

        I am the Federal lead for the Roundtable. In that capacity, I 
        advocate the use of the Criteria and Indicators as a common 
        framework for the discussion and dialogue at Roundtable 
        meetings. I participate personally in related national and 
        international activities. For example, I chaired the eleventh 
        meeting of the Montreal Process Working Group, and I work with 
        State Foresters to promote the use of the Criteria and 
        Indicators in their endeavors within states.

    2001--Doug MacCleery, USDA/Forest Service, wrote a memo on 
Measuring SFM (Sustainable Forest management): What are some of the 
elements and scales? [http://www.fs.fed.us/sustained/measuring-
smf2.rtf]
    2001--In an address to the Executive Leadership Meeting of the 
Roundtable on Sustainable Forests entitled The Forest Service's 
Commitment to Sustainable Forest Management And the Roundtable on 
Sustainable Forests [http://www.fs.fed.us/sustained/bosworth-sfm-11-14-
2001.doc], Forest Service Chief Dale Bosworth stated:

        Work done by the Brundlandt Commission during the 1980s, the 
        agenda identified at the Earth Summit in 1992, and efforts now 
        underway by Montreal Process countries on the Criteria and 
        Indicators for the Conservation and Sustainable Management of 
        Temperate and Boreal Forests define the basic elements of 
        sustainable development and serve as anchors for Federal policy 
        . . .

        Last year the Forest Service incorporated these ideas into an 
        updated expression of the agency's mission. Our long-term 
        Strategic Plan states: ``The mission of the USDA Forest Service 
        is to sustain the health, diversity, and productivity of the 
        nation's forests and grasslands to meet the needs of present 
        and future generations.'' . . .

        At the national level I do intend to continue strong support 
        for sustainability. We are advancing use of the Montreal 
        Process Criteria and Indicators as a common framework for 
        measuring progress. For example, we used the seven Criteria to 
        organize the 2000 Assessment of Forest and Range Lands, and we 
        are applying the Criteria and Indicators to local conditions on 
        six national forests in the east and west to test their 
        usefulness and better understand how to integrate processes 
        across scales . . . More work is underway at the ecoregional, 
        national, and global levels--and so now the key is to integrate 
        our local to global efforts in ways that make sense.

    Bosworth reiterated these ideas in a speech to the Society of 
American Foresters entitled The Forest Service's Role in Fostering 
Sustainability [http://www.fs.fed.us/sustained/2001may29-
bosworth.html].
    2002--The Pinchot Institute published Linkages Between the IPF/IFF 
Proposals for Action and the Montreal Process Criteria and Indicators 
[http://www.fs.fed.us/global/aboutus/policy/multi/reports/
Crosswalk1.pdf].
    2002--The Johannesburg Plan of Implementation was agreed upon at 
the World Summit on Sustainable Development (Earth Summit 2002) [http:/
/en.wikipedia.org/wiki/World_Summit_on_Sustainable_Development]. It 
affirmed UN commitment to ``full implementation'' of Agenda 21, 
alongside achievement of the Millennium Development Goals [http://
en.wikipedia.org/wiki/Millennium_Development_Goals] and other 
international agreements. The Millennium Development Goals Report 2010 
Environmental Sustainability [http://www.un.org/millenniumgoals/pdf/
MDG%20Report%202010%20En%20r15%20-low%20res%2020100615%20-.pdf#page=54] 
includes: Target 7.A: Integrate the principles of sustainable 
development into country policies and programmes and reverse the loss 
of environmental resources; Target 7.B: Reduce biodiversity loss, 
achieving, by 2010, a significant reduction in the rate of loss.
    2002--A memorandum [http://www.fs.fed.us/sustained/wssd-respons-
upd.doc] was issued outlining the U.S. Forest Service Responsibilities 
for Covering and Coordinating Activities at the World Summit on 
Sustainable Development in Johannesburg.
    2002--A memorandum from Joel D. Holtrop, Deputy Chief State and 
Private Forestry, talked about their attendance at the World Summit on 
Sustainable Development in South Africa and discussed the USFS's 
commitment to championing sustainable development, including chairing 
the Roundtable on Sustainable Forests (Montreal Process).
    2002--Chief Dale Bosworth addressed Leadership for Sustainable 
Development within the Forest Service [http://www.fs.fed.us/sustained/
leadership-sustainable-development.doc], attaching a Sustainable 
Development Portfolio of Work [http://www.fs.fed.us/sustained/final-
enclosure.doc], which included such items as: United Nations Forum on 
Forests (UNFF)--Proposals for Action; U.S. assessment underway; World 
Summit on Sustainable Development (WSSD)--Follow-up to Earth Summit 
with preparations through Federal interagency, USDA, and FS teams; 
World Forestry Congress--Preparations for 2003 event getting underway; 
WO-Sustainable Development Issues Team (SDIT)--Chartered by Ecosystem 
Sustainability Corporate Team (ESCT) to advance use of CI through 
annually updated Action Plan.
    2007--After 15 years of discussions and negotiations on a global 
approach to protect the world's forests, countries (meeting at United 
Nations Headquarters in New York ) adopted an agreement on 
international forest policy and cooperation (International Forest 
Policy--the instruments, agreements and processes that shape it [http:/
/www.un.org/esa/forests/pdf/publications/Intl_Forest_Policy_
instruments_agreements.pdf]), as well as a new multi-year program of 
work through 2015. The new agreement, although not legally binding, 
aims to promote both international cooperation and national action to 
reduce deforestation, prevent forest degradation, promote sustainable 
livelihoods and reduce poverty for all forest-dependent peoples. 
Another area of disagreement that has long plagued forest negotiations 
concerned a financing mechanism to mobilize funding for sustainable 
forest management. The agreement calls on countries to adopt, by 2009, 
a voluntary global financing mechanism for forest management.
    2008-2009--A briefing paper entitled ``Completion and Outcomes of 
the United Nations (UN) Commission on Sustainable Development (CSD), 
Third Implementation Cycle (2008-2009), Policy Session on Thematic 
Areas: Agriculture, Rural Development, Land, Drought, Desertification, 
and Africa'' described the USDA and Forest Service's close association 
with the CSD. This report is no longer available on the Net. One 
section more than adequately documents the fact that USFS policies and 
rules have been heavily molded and driven by an international agenda 
embraced by the Administration, rather than Congressional statute.
Implementation in the Siskiyou County/Klamath Area
    Tom McDonnell wrote in his Technical Review Of The Wildlands 
Project And How It Is Affecting The Management Of State, Federal And 
Private Lands In The United States [http://citizenreviewonline.org/
april_2002/wildlands_project_history.htm]:

        In the introduction to the Wildlands Project, Dave Foreman 
        states that this project serves as a coming together of grass-
        roots conservation activists and as a foundation for their 
        active vision of how to protect and perpetuate native species 
        and systems across the North American continent. He states, 
        ``Our vision is continental . . . we seek to bring together 
        conservationist, ecologists, indigenous peoples, and others to 
        protect and restore evolutionary processes and biodiversity.'' 
        He then states that areas such as National Parks and 
        wildernesses are insufficient for they are designed ``to 
        protect scenery and recreation, or to create outdoor zoos.'' He 
        goes on to state that the ``Wildlands Project in contrast calls 
        for reserves established to protect wildlife habitat, 
        biodiversity, ecological integrity, ecological service and 
        evolutionary processes--that is vast interconnected areas of 
        true wilderness.'' ``[W]e see wilderness as the home for 
        unfettered life, free from industrial human intervention.'' He 
        also says that this wilderness will be ``extensive areas of 
        native vegetation in various successional stages, off-limits to 
        human exploitation. Vast landscapes without roads, dams, 
        motorized vehicles, powerlines, overflights, or other artifacts 
        of civilization.'' Over half the North American land mass is 
        envisioned as making up this massive wilderness reserve system.

        The project calls on the establishment of systems of core 
        wilderness areas where human activity is prohibited, linked 
        with biological corridors. Around these core reserve areas and 
        their interlinking corridors, buffers are to be established. 
        The buffer areas are to be managed to restore ecological 
        health. Human activity associated with civilization--
        agriculture, industrial production, urban centers--will be 
        allowed to continue outside these buffered regions.

        Using the Noss model, the activist groups will identify and map 
        all existing protected areas including Federal and state 
        wilderness areas, parks and wildlife refuges, heritage areas, 
        monuments, BLM Areas of Critical Concern (ACC) and USFS 
        Research Natural Areas (RNA). To assist in this step, activists 
        rely on a variety of other maps including: National Park system 
        maps, National Wildlife Refuge maps, Forest Service RNA maps, 
        Bureau of Land Management ACC maps, BLM Wilderness Status maps 
        and Nature Conservancy preserve maps.

        After all the currently protected areas are laid out onto a 
        single map, the third step is to overlay this map of currently 
        protected areas with a map of large roadless areas. Roadless 
        areas, also called Big Outside Areas, are defined as roadless 
        areas of 100,000 or more acres in the West, and 50,000 or more 
        acres in the East. These roadless areas may include state, 
        Federal and private land. Roadless maps may include protected 
        areas such as National Parks, and unprotected areas such as 
        Federal multiple-use lands, state lands and private lands. The 
        only qualify factors of this roadless area map is size in term 
        of acreage and the fact that there are no roads. The Wildlands 
        Project's central Tucson office has at least 385 maps of large 
        roadless areas available and has been working the last year on 
        the development of more detailed state maps to assist regional 
        groups in their work.

        The fourth step is to analyze the geographical arrangement of 
        the map of currently protected areas, with its overlay of 
        roadless areas, for logical complexes of wild places and 
        probable linking corridors. The protected areas such as 
        wildernesses and National Parks within the Big Outside 
        (roadless) areas are identified as key core areas. Protected 
        areas found outside identified roadless areas are examined to 
        see if they can ``serve as beads in Biological Corridors 
        linking Core Wilderness together.'' Identified roadless areas 
        that are not already protected with National Park, wilderness 
        or other similar designations, are considered unprotected and 
        given the highest priority for conservation. Unprotected 
        roadless areas which are Federal and state lands are targeted 
        for future wilderness bills, heritage sites or other protective 
        legislation. Private lands within these areas are given the 
        highest priority for public agency or trust group acquisition.

        In addition to legislation, this map also establishes the 
        priorities for appeals and litigation. As stated within 
        Wildlands documents, ``It is usually more important . . . to 
        stop an old-growth timber sale within a Big Outside area or in 
        a corridor between two core areas than to stop an old-growth 
        sale in a fragmented area far from potential cores or 
        corridors. It is usually more important to establish a 
        Wilderness Area that is part of a large complex, than one 
        isolated in a matrix of intensive human use.''

    Siskiyou County, specifically the Klamath River Basin, has long 
been a target for implementation of rewilding strategies under 
``biodiversity,'' ``ecosystem management'' and ``sustainable 
development.'' Drs. Michael Soule and Reed Noss recognized three 
independent features that characterize contemporary rewilding: large, 
strictly protected core reserves (the wild), connectivity, and keystone 
species (aka the 3C's: Cores, Corridors, and Carnivores). Ref: Soule, 
M., and R. Noss. 1998. Rewilding and biodiversity: Complementary goals 
for continental conservation. WildEarth 8(3):18-28.
    Noss indicated that in selecting keystone or focus species, he 
would (1) identify and protect populations of rare and endangered 
species; (2) maintain healthy populations of species that play critical 
roles in their ecosystems (keystone species) or that have pragmatic 
value as ``umbrellas'' (species that require large wild areas to 
survive, and thus if protected will bring many species along with them) 
or ``flagships'' (charismatic species that serve as popular symbols for 
conservation); (3) protect high-quality examples of all natural 
communities; and (4) identify and manage greater ecosystems or 
landscapes for both biodiversity conservation and sustainable human 
use.
    Core reserves are wilderness areas that supposedly allow 
biodiversity to flourish. These typically followed the pattern of 
UNESCO's Man and the Biosphere (MAB) program with the set-aside of 
``protected'' or ``core'' areas; ``managed use areas'' or ``buffer 
zones''; and ``zones of cooperation'' or ``transition Areas.'' These 
strategies were adopted under FEMAT for the Northwest Forest Plan for 
the northern spotted owl, as well as the Sierra Nevada Framework.
    In his article ``The Wildlands Project,'' WildEarth, Special Issue, 
written in 1992, Noss stated that ``It is estimated that large 
carnivores and ungulates require reserves on the scale of 2.5 to 25 
million acres . . . For a minimum viable population of 1,000 (large 
mammals), the figures would be 242 million acres for grizzly bears, 200 
million acres for wolverines, and 100 million acres for wolves. Core 
reserves should be managed as roadless areas (wilderness). All roads 
should be permanently closed.''
    In 1985, an effort was made by Reed Noss, author of the Wildlands 
Project, to have four million hectares of the Klamath/Siskiyou area 
designated a UN Biosphere Reserve. The NGO coordinating the work was 
the Klamath Forest Alliance. The project sought not only to develop a 
successful bioregional plan for Klamath/Siskiyou, but also to develop 
methods for planning and implementation that were transferable to other 
regions. The Klamath Corridors Project selected large unfragmented 
habitat areas to be protected, connected by wide corridors to be set 
aside for migration and genetic biodiversity. The area covered 
approximately four million hectares, about \1/3\ in Oregon and the 
balance in California. The project was funded by the W. Alton Jones 
Foundation, the Foundation for Deep Ecology, The Wildlands Project, the 
USDA Forest Service, and the U.S. Fish and Wildlife Service.
    In 1992 the World Conservation Union declared a 12 million acre 
area of the Klamath-Siskiyou to be an Area of Global Botanical 
Significance. This was one of seven such areas in North America and was 
classified by the World Wildlife Fund (WWF) as a Global 200 site 
[http://www.worldwildlife.org/science/ecoregions/global200.html].
    In 1995, work began on an ambitious Klamath-Siskiyou Biodiversity 
Conservation Plan, sponsored by the Siskiyou Regional Education Project 
of Cave Junction, in partnership with the World Wildlife Fund. In 1997 
The First Conference on Siskiyou Ecology was held and a petition was 
sent from the conference to President Clinton, calling upon him to 
preserve ``for posterity the principal values of biodiversity, 
ecological stability, and aesthetic enrichment which the Klamath-
Siskiyou Province represents.''
    In 1999, Noss and Strittholt completed A Science-based Conservation 
Assessment for the Klamath-Siskiyou Ecoregion. In 2001, Noss and the 
World Wildlife Federation set forth recommendations for preservation of 
the Klamath-Siskiyou Forests. A proposed ``roadless map'' with 
designated wilderness was developed for the region. Recommendations 
included: the elimination of grazing; the listing of the fisher and 
wolverine; reintroduction of wolves and grizzlies; halting of all 
logging; establishing a system of parks and reserves; protecting 
roadless areas; and purchasing of private lands for endangered species. 
This was accompanied in 2002 by a case study of the Klamath-Siskiyou 
Ecoregion on the ``Importance of Roadless Areas in Biodiversity 
Conservation in Forested Ecosystems.''
    In 2000, the Cascade-Siskiyou National Monument was established in 
southern Oregon. Siskiyou County successfully fought the portion 
proposed in its county. In 2003, the Klamath Basin Coalition of 
environmental groups produced ``A Conservation Vision for the Klamath 
Basin'' with a map of proposed ``protected areas.'' In 2004, the 
Klamath Basin was named among the Top 10 ``Most Endangered Areas'' in 
California. In 2005, the World Wildlife Fund named the Klamath among 
California's Most Threatened Wild Places.
    In 2004, the Nature Conservancy conducted an Assessment of the 
Klamath Mountains Ecoregion. The California Wilderness Coalition 
modeled a network of habitat linkages in the Klamath-Siskiyou Region. 
The 2004 Siskiyou Private Lands Conservation Assessment identified 19 
areas of private lands to be targeted for their high conservation 
values.
    In 2006, the Siskiyou National Monument was proposed to establish 
corridors for biodiversity conservation.
    In 2007, the CA Wild Heritage Act proposed several areas of 
Wilderness expansion in Siskiyou County. The California Wildlife Action 
Plan prepared for the California Department of Fish and Game by the UC 
Davis Wildlife Health Center. The document listed 76 bird, 26 
mammalian, two reptilian and 42 fish taxa on the ``Special Status 
Vertebrates List'' and an additional 71 invertebrates on the Special 
Animals List. The report targeted water management; instream gravel 
mining; forest management; fire; agriculture; urban development, 
livestock grazing and invasive species as ``stressors'' to wildlife 
habitats.
    In 2009, California Wild 2009 created another map targeting 
Wilderness Expansion, additional Wild Rivers designation, roadless area 
designation and reserve designs in the county. In 2009, another group 
proposed 3,500,000 acres in California and Oregon to be called the 
Ancient Forest National Park. The National Park Service has established 
the Klamath Vital Signs Network of regional parks to be to be 
inventoried and monitored. Documents appear to indicate that the Obama 
Administration is again considering expanding the Oregon monument into 
Siskiyou. Also, a second 200,000 acre national monument appears to have 
also been put forth for consideration known as the ``Siskiyou Crest'' 
by KS WILD.
    By 2011, the Nature Conservancy (TNC) and the Federal Government 
had acquired 100,000 acres of private farms and ranches from the Upper 
Klamath Basin and converted them to wetlands. The Secure Act allocates 
WaterSMART funding for studies and a ``trade-off'' analysis leading to 
a cooperative watershed management program. This would focus on 
sustainable development; climate change; water supply and demand; 
endangered species; flow; and flood control.
    As mentioned in the prior section, since 1999, 8,625.71 acres have 
been converted to Federal land. Another 11,236 acres of ranch land in 
the Shasta Valley is currently proposed for conversion to a new 
wildlife refuge. In addition, The proposed Klamath Basin Restoration 
Agreement seeks to convert some 44,479 acres of farmland in the Upper 
Klamath Basin to wetlands, (some of which may be in Siskiyou County.) 
It also proposes to secure 21,800 acres of farmland by acquisition or 
conservation easements in the Scott and Shasta Valleys of the county.
    For several years, a campaign has been waged for the removal of 
four (three hydroelectric) dams on the Klamath River. Three of those 
dams are located in Siskiyou County. The Board of Supervisors is firmly 
against dam removal and the associated Klamath Basin Restoration 
Agreement that accompanies it. Negative impacts will be severely felt 
by the people who live in Siskiyou County.
    I sincerely thank you for this opportunity to comment.

Marcia H. Armstrong
Supervisor District 5,
Siskiyou County,
Yreka, CA.
                               appendix a
Timber Harvest Levels on the Major National Forests in Siskiyou County
(Portions of the Shasta Trinity and Six Rivers lie outside of Siskiyou 
        Co.)

                     Volume of Timber Sold by Forest
                               1978-2009 *
                   National Forests in Siskiyou County
------------------------------------------------------------------------
      Year            Klamath         Shasta Trinity       Six Rivers
------------------------------------------------------------------------
         1978              238.78             273.93              72.95
         1979              286.69             243.15             165.43
         1980              255.3              212.29             146.99
         1981              280.2              243.15             149.53
         1982              243.73             219.59             120.14
         1983              230.71             227.48             206.27
         1984              128.66             198.76             128.07
         1985              189.64             215.02             154.07
         1986              173.64             160.39             129.53
         1987              182.08             208.3              145.48
         1988              311.66             243.11             137.77
         1989              168.69             175.55             107.15
         1990               99.82             179.95              55.16
         1991               86.15              30.81              66.38
         1992               27.93              52.94              11.08
         1993               32.48              31.24              54.03
         1994               23.82              19.9                3.49
         1995               25.7               29.9                4.3
         1996               39.6               52.7               10
         1997               52.2               57.6               18.9
         1998               29.5               87.1               14.7
         1999               30.6               58.8               11.7
         2000                2.9                4.2                2.8
         2001               23.9               24.6                2.3
         2002               24.3               39.1                1.8
         2003               12.2               46.7                4.6
         2004               14.4               44.4                4.5
         2005               27.8               63.2                7
         2006               20.7               40.4               12.7
         2007               29.2               71.6                7.1
         2008               19.8               21.9                8.2
         2009               50.1               12.1               11.5
------------------------------------------------------------------------
* Data supplied by CFA (California Forestry Assoc.)

Volume of Timber Sold by Forest 1978-2009

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        In 2009, the Klamath NF sold 50.06 MMBF. It had a net growth of 
        125.7 MMBF and an annual mortality of 90.1 MMBF

        In 2009, the Shasta Trinity NF sold 12.07 MMBF. It had a net 
        growth of 459.7 MMBF and an annual mortality of 99.4 MMBF

        (Data Source: Western Core Table Reports [http://www.fs.fed.us/
        r5/rsl/publications/westcore/] and 2009 Accomplishment Report. 
        Data from growing stock on available, productive forestland.
                                 ______
                                 
   Submitted Statement by Jerry Petik, Director, Grand River Grazing 
                        Cooperative Association
Mar. 27 2012

    The Grand River Grazing Association thanks the Committee for the 
opportunity to submit comment to the Record regarding the hearing held 
on March 27 titled ``U.S. Forest Service Land Management: Challenges 
and Opportunities''
    The Grand River Grazing Association was organized in 1940 for the 
purpose of managing the newly acquired land, 136,000 acres, by the 
Federal Government in Corson and Perkins Counties in Northwestern South 
Dakota. The Association now consists of 90 members nearly all family 
farm operations, running about 14,600 cattle plus sheep on these 
National Grasslands.
    The National grasslands evolved from lands purchased under the 
Bankhead-Jones Farm Tenant Act. According to the Act, ``The intent of 
the government was to re-vegetate these lands and to stabilize the 
local economies.''
    The objectives of the Association is and always has been to produce 
meat for the country and world consumers, provide for the well-being 
for the families on these diverse lands and local communities, allow 
for the diversity of the rangeland and strive to improve the range, 
doing it all in a sustainable manner.
    In this testimony the Grand River Grazing Association would like to 
address the general management processes of the Forest Service 
including how they deal with people and organizations that are directly 
impacted by their decisions.
    Unfortunately, the Forest Service has a history of retaliation, 
intimidation, abuse of power and harassment toward the grazing 
associations that represent the farmers and ranchers using the National 
Forests. That ill treatment is documented in a report issued by the 
Grand River Cooperative Grazing Association:

Documentation of retaliation, intimidation, abuse of power, and 
    harassment By the Forest Service toward the Grand River Cooperative 
    Grazing Association
Date: March 2011
Report by: Van C. Elsbernd (e-mail: [Redacted]), manager, Great Plains 
    Consulting LLC, [Redacted], Fort Collins, CO

    Overall, the Forest Service personnel have not followed Forest 
Service policy and have not implemented the protocols for dealing with 
impacted people and their representative organizations, like Grand 
River Grazing Association in an effective way. This leaves ranchers 
unprepared for new regulations and changes to their grazing practices 
and unable to plan for their operations OR the best use of all grazing 
lands in the region.
    Forest Service personnel have made a habit of not following the 
plans and Forest Service policy but expect the ranchers to follow it to 
a Tee. Actions such as Removal of allotments without cause and 
developing projects without any intention to garner input or support 
from the Grazing Association and local government are just two examples 
of clear violations of the Grazing Agreement.
    One reason this happens so frequently is due to the appeals process 
within the Forest Service. ``The appeal process in house'' is a term 
used within the Forest Service to allow personnel's actions to be 
evaluated, revised, approved or rejected by that person's supervisor. 
However, the more controversial plans often circumvent this in house 
approach and projects are only developed in conjunction with one's 
immediate supervisor. This limits the ability for more creative 
thinking and new ideas to be injected into these plans and also limits 
the ability for the impacted ranchers to give input.
    The FS has set up a new grazing assn. without following FS policy 
or South Dakota state laws as to the incorporation of associations.
    We only need to look to the Founders of our Constitution for the 
best example as to conduct the business and to work and communicate 
with the ranchers using the national Grasslands. The Constitution 
provides for three branches of Government each meant to keep the others 
in line. This emphasizes the need for respect and all parties to 
understand the `rules of engagement'. This allows for independence yet 
assures others can participate and provide for an amicable atmosphere 
for debate and decision making. It also provides an avenue for finding 
positive solutions with peers, and not a confrontational struggle for 
dominance or a struggle from weakness just to be heard or to 
participate!
    In other cases the Forest Service attempts to amend Grazing 
Agreements even when it is not agreeable to both parties. We believe it 
is essential that any amendments must be agreeable to both parties 
involved. Forest Service policy requires cooperation with impacted 
groups and a mechanism for cooperating has been in place since the 
founding of our Grazing Association in 1940. However, the Forest 
Service is unwilling, in many cases, to use that process and come to an 
agreement through negotiation. The Forest Service personnel must 
recognize this policy of cooperation and make good-will efforts to 
negotiate any changes or amendment to Grazing Agreements through the 
process established and historically utilized.
    Communications about the actual management of the grasslands has 
been sparse and input from ranchers who have taken care of this land 
for generations has not been sought. Two examples of unclear 
communication and decisions without input are regarding the Prairie 
dogs and Crested Wheat Grass.
    For Prairie Dogs, the official plan shows where the Forest Service 
wants the colonies and what minimum size is needed but gives no 
information as to what the maximum size would be and how to deal with 
the dogs after the size and number of colonies has been reached. The 
development of the general plan and how the plan would be managed was 
never discussed with the Assn. other than told where the colonies were 
going to be. Also, there is no plan to control the dogs that leave and 
go to private lands where they are not wanted. However, there is a 
``good neighbor policy'' that states that the dogs are to be controlled 
when they go to private land. But, when asked, there has not been any 
information as to how large the colonies would be permitted to grow or 
how to control the dogs after needed numbers were achieved.
    Crested wheatgrass was developed and introduced during the 1930s to 
stop the wind erosion because of the drought. I would say it this way 
``crested wheatgrass is what held the world together.'' However, the 
Forest Service is now planning to drastically reduce it from the 
National Grasslands.
    Burning of heavy old growth/crested wheat grass can be an 
indication of failed management practices. If there were better 
relations between the Forest Service personal and the ranchers, it 
could be possible to increase and decrease the cattle numbers to 
reflect the prairie growing conditions.
    Burning can be a good tool but it can do long term damage as well. 
The soil and material moisture needs to be right. If too dry, the 
crowns of the preferable grass species will burn and they will not grow 
to take advantage of the burned out crested wheatgrass. The results 
will be an even more vigorous stand of crested wheat grass. Burned 
areas need to be grazed reasonable heavy the years following the burn 
to keep pressure on the crested wheatgrass or it will just come back 
and all your efforts will be lost. Burning should be the tool of last 
resort after heavier grazing and better rotation practices. 
Unfortunately, the Forest Service did not take these factors into 
account when burning the grasslands in our region.
    I must confess that ranchers could also have done a better job in 
dealing with crested wheatgrass and getting better usage of it. Grass 
species diversity is always good for rangeland's health.
    The Forest Service has not been willing to allow the ranchers and 
college experts (NDSU) to participate in developing the objectives that 
would enhance the health of plant life in our region and have not even 
involved them in developing the criteria for determining how that 
objective should be approached or even if it should attempted.
    Some personnel have lost sight of the diversity goals for National 
Grasslands and are now monitoring for single and specific objectives. 
One of those objectives is improving the habitat for the grouse. They 
think the grouse need high native grasses. The FS says the National 
Grassland in pastures 1-5 are 97% capable of tall grass. A rangeland 
specialist, Dr. Kevin Sedivec from NDSU puts that number at 3%. 
However, it is clear that our region is a short grass prairie and 
grouse have thrived on that short grass prairie for generations.
    Finally, in 2012, there is going to be research to determine how 
much of the range is capable to produce tall grass. One would think 
that this research should have been done before any decision to strive 
for tall grass for the grouse.
    The Forest Service has not only used these strong arm tactics with 
individual ranchers and the Grazing Association. They have attempted to 
over-ride state law in closing roads on section lines, and require the 
county to build roads on private lands to be incorporated into forest 
service road systems.
    Building a ``road to no-where'' and locating a camping site in a 
flood-plain are other examples of non-cooperation and plowing ahead 
with a single person's idea.
    Very recently, two Forest Service personal have been replaced. 
Lines of communication have improved. Time will tell how successful 
that will be. Both sides see a window of opportunity and are working in 
a positive direction. This came about because of intervention by South 
Dakota and North Dakota Congressional delegations and the states' 
Secretaries of Agriculture not because of any internal Forest Service 
policy.
    In closing, I would like to ask you to re-evaluate the oversight 
process and make policy very clear, that impacted individuals and 
groups are to be included in a meaningful manner at all steps in 
project development and implementation.
    Thank you for this opportunity to provide comment and taking our 
recommendations into account. If you have any questions or would like 
additional information, please contact me at [Redacted] or [Redacted].
            Sincerely,

Jerry Petik,
Director,
Grand River Grazing Cooperative Association,
Lemmon, SD.
                               attachment
Grand River Cooperative Grazing Association
Documentation of retaliation, intimidation, abuse of power, and 
        harassment by the Forest Service toward the Grand River 
        Cooperative Grazing Association
March 2011
1. Allotments 1-5 Project
    During the working group meetings with Grand River Cooperative 
Grazing Association (GRCGA), District Ranger Joby Timm and writer/
editor Dan Swingen both promised the P. 1-5 ranchers the following:

  <bullet> Reductions would be temporary.

  <bullet> Reductions would be reinstated ASAP after the decision.

  <bullet> The FS will keep reductions to a minimum, hardly any impact 
        to the ranchers.

    At a Board of Directors meeting in April of 2010, Joby Timm told 
the GRCGA Board of Directors the following:

        Joby said the new Reviewing Officer on the Mediation Process of 
        Pastures One thru Five is Rick Brazell. He is with the Clear 
        Water National Forest in Idaho. We can expect his written 
        comments within 30 days. Joby said Grand River's appeal has one 
        more level, to the Regional Office. In the meantime there is a 
        stay on projects, no new fences, no new NEPA done. Question--no 
        cuts/reductions? Joby said yes, unless resource concerns arise, 
        drought, etc. (Doc #1).

    In 2009, long before the Decision Notice for Pastures 1-5 was 
signed, the Grand River Ranger District implemented most of the 
reductions for the Pasture 1-5 Project through the AOIs that year and 
continued them into 2010. District Ranger Joby Timm tried to explain 
this away in his letter and attached table (Doc #2) to GRCGA on April 
28, 2010. District Ranger Joby Timm states the following:

        ``The table shows planned stocking rates for 2009, actual 
        stocking rates for 2009 and planned stocking rate for 2010''

    What District Ranger Joby Timm doesn't tell which is the basis for 
the reductions, is that the reductions where taken off the 2008 
stocking rates. This is explained in an analysis by Van C. Elsbernd, 
Great Plains Consulting LLC (Doc #3) which shows what the true 
reductions were for each allotment compared to the 2008 stocking rates 
outlined in the Decision Notice and EA for Pasture 1-5 Project. The 
2010 AOI's for the Grand River Cooperative Grazing Association were 
prepared by the Forest Service on April 12, 2010. In each of the AOI's 
the following statement is added (Allotment 4A is used as the example):

        ``4A is taking partial nonuse for resource protection, reducing 
        the stocking rate to 2.9ac/HM''

    Van Elsbernd asked Tim Smith, President of the GRCGA, if all the 
allotments had actually requested this type of partial nonuse. He said 
that upon checking with each Director, that they knew of only one 
Allotment that had made that request, Allotment 2A.
    What the Forest Service has done by making the above statement is 
imply that the permittees are requesting the partial nonuse for 
resource protection. This is not the case at all. The above statement 
should read as follows:

        ``The Forest Service is requiring Allotment 4A to take partial 
        nonuse for resource protection, reducing the stocking rate to 
        2.9ac/HM''

    The Forest Service is implementing the reductions outlined in the 
DN and Final EA for Pastures 1-5, which was at that time stayed. Since 
the Grand River Ranger District has the final approval of the AOIs, and 
the fact they actually prepare them, they could put anything they 
wanted in the AOI with no consequences. It was not the members who 
requested to take the reductions being implemented by the FS through 
each AOI.
    The Grand River Ranger District would then meet with each Pasture 
Director and say to them that if you don't sign the AOI, then you won't 
be allowed to graze this year. Having no recourse, each Director 
signed.
    During the 2011 AOIs Pasture meetings, the Grand River Ranger 
District did not tell the GRCGA members that the stay had been lifted 
from the Decision Notice and that they the FS was supposed to implement 
the 10% per year reductions as outlined in the DN. The reason for this 
is they had already implemented those reductions in 2009 and 2010 AOIs 
and did not want to give those up. This was confirmed in the Pasture 3A 
meeting when Tim Smith asked Joby Timm and Paul Drayton if they had 
told the members in the other Pasture meetings that the FS was to 
implement the reductions schedule as outlined in the DN. Both Joby and 
Paul said they had not.
2. Retaliation Against GRCGA AOI Stocking Rates
    Before the 2010 grazing season started Grand River District Ranger 
Joby Timm announced a 35% reduction in livestock grazing for the 2010 
season on Pasture 3A, which is grazed by several permittees, including 
the President of the GRCGA. Mr. Timm explained: ``We are not 
implementing the plan this year, because of the appeal. I can stock it 
[Pastures 1-5] at any rate because I am the district ranger. It is my 
call.''
    Mr. Timm also said that the Forest Service would not approve any 
range projects this year on the allotments covered by the Decision 
Notice also because of the appeal. Finally, he then stated ifGRCGA were 
to drop the appeal, he would return to the phased-in reductions in the 
Decision Notice and allow range improvement projects identified in the 
same decision to go forward.
    By tying an offer to return to the 10% reductions identified in the 
Decision Notice to dropping of the appeal, Mr. Timm clearly connected 
the recently announced reductions to the Association's exercise of its 
right to file an appeal. Even though GRCGA did not appeal the range 
improvements in the decision, Timm halted that work unless GRCGA would 
drop its appeal. This action violates the constitutional rights of the 
Association members and is per se arbitrary and unlawful action.
    A federal agency cannot interfere with the exercise of 
constitutional rights, and that exercising the right to appeal a 
decision is protected under the First Amendment. La Compania Ocho v. 
U.S. Forest Service, 874 F. Supp. 1242, 1247-49 (D. N.M. 1995). An 
agency ``may not take retaliatory action against an individual designed 
either to punish him for having exercised his constitutional right to 
seek judicial relief or to intimidate or chill his exercise of that 
right in the future.'' Harrison v. Springdale Water & Sewer Commission, 
780 F.2d 1422, 1428 (8th Cir. 1986). Constitutional claims against 
federal agency officials enjoy the same protection as actions against 
state officials under the Civil Rights Act. 42 U.S.C.  1983. Gordon v. 
Hansen, 168 F.3d 1109, 1113 (8th Cir. 1999).
    Mr. Timm is also incorrect when he stated that he has unlimited 
authority to impose reductions. The Grazing Agreement requires the 
Forest Service to mediate with the Association about any reductions. 
``Any changes in management policy including but not limited to changes 
in permitted numbers and/or adjustments to the grazing season will be 
mutually resolved. Every effort will be made by both parties to settle 
disputes in good faith in an honest and open manner. Impasses will be 
negotiated through the C.R.M. (Coordinated Resource Management) 
process, or the M.O.U. (Memorandum of Understanding--Allotment 
Management Planning of South Dakota).'' Grazing Agreement at  C4.
    Forest Service grazing policy also precludes reductions of more 
than 20% in any single year. Forest Service Manual (FSM) 2200 Range 
Management, Chapter 30, WO Amendment, 2231.61--Modification of Grazing 
Permits; Forest Service Handbook (FSH) 2209.13, Chapter 10, R-1 Interim 
Directive No: 2209.1302007-1, 16.1--Modification of Grazing Permit; 
compare FSH 2209.13, 08/3/92 (for reference).
    GRCGA understands that the Forest Service attributes the reductions 
to resource conditions, due to drought and ``impacts of continuous 
livestock grazing.'' The Forest Service rules provide ``Where the 
modification is the result of concerns about the condition of rangeland 
resources, 36 C.F.R. 222.4(a)(8) requires the authorized officer to 
provide the permittee with one year's advance notice prior to 
implementation of the modification.''
    The inescapable conclusion is that Mr. Timm does not have unlimited 
power to impose a 35% reduction two months before the start of the 
grazing season. The Grazing Agreement and Forest Service rules and 
policy impose procedures and limit the scope of reductions. Timm has 
ignored everything to bring more pressure on GRCGA to drop the appeal 
and this violates the law.
    On June 22, 2010 GRCGA filed a request for modification of stay 
Grand River District Ranger's post-appeal livestock grazing reductions 
following its September 30, 2009 Notice of Decision (Decision Notice), 
Finding of No Significant Impact (FONSI), and Environmental Assessment 
(EA). The Decision Notice notified GRCGA's members of changes in the 
terms and conditions for livestock grazing on Allotments 1-5 for the 
Grand River National Grassland located in Perkins County, South Dakota 
and managed as part of the Dakota Prairie Grasslands (Doc #47).
    A modified stay is warranted under  251.91(b), which allows for 
the issuance of a stay if harmful effects occur during the pendency of 
the appeal. Since GRCGA's appeal of the Decision Notice was filed and 
in direct retaliation therefore, the District Ranger Joby Timm has 
unlawfully imposed without process required by the 2002 Grazing 
Agreement, law, Forest Service rules and policy, significant reductions 
in livestock grazing for the 2010 season on the majority of the 
allotments that are the subject of this appeal. The decision was 
verbally implemented in a meeting held on March 25, 2010, and more 
recently through the affected grazing permittees' 2010 AOIs, under the 
false premise of non-use for resource protection.
    The unwarranted retaliatory reductions are over and above, and 
directly contradict, the District Ranger's September 30, 2009 Decision 
Notice which imposes a maximum 10% or less reduction on Allotments 1-5. 
That decision was issued through a public NEPA decision-making process 
in which the GRCGA was afforded the opportunity to administratively 
appeal. On November 16, 2010, GRCGA exercised its right of appeal under 
36 C.F.R. Part 251, and as demonstrated below, the harmful and adverse 
livestock reductions are in direct retaliation for GRCGA's appeal of 
the Decision Notice.
    On February 15, 2010, Tim Smith gave a deposition on the meeting 
his Allotment 3A had with the Grand River Ranger District confirming 
the retaliation by District Ranger Joby Timm in the above comments. Tim 
states in his deposition:

        ``During the discussion, the District Ranger then said if GRCGA 
        were to drop the appeal of his decision then he would return to 
        the phased in reductions and allow range improvement projects 
        to go forward.Range improvements are designed to improve 
        resource conditions, and without them, the range will suffer 
        environmental harm. The retaliatory range improvement freeze 
        will also preclude projects that could potentially mitigate the 
        reductions, leaving my livestock operation without any means to 
        offset their economic losses. The District Ranger's retaliatory 
        stocking rate reduction is causing irreparable economic harm to 
        my livestock operation. These livestock grazing reductions will 
        greatly decrease revenue while increasing my operating expenses 
        through the need to lease or purchase alternative pasture. In 
        the current climate of lower livestock prices and tightening or 
        unavailable credit, my ranch operations is even more vulnerable 
        to the significant changes being unilaterally implemented by 
        the District Ranger (Doc #4).''

    On April 28, 2010 District Ranger Joby Timm responded to the above 
stay request. He stated; ``We derived the information you have 
requested from the 2009 and 2010 annual operating instructions (AOIs) 
that permittees and the Association received in March 2009 and April 
2010.'' What Ranger Timm fails to mentions is that the FS created the 
AOIs, and they have the final say on what goes into the AOs. When 
presented with the AOI, Pasture Directors are told to sign or they 
won't be allowed to graze that year (Doc #48).
3. Mediation on Pasture 1-5 Decision
    At the start of 2010, GRCGA spent four days in mediation with the 
Grand River Ranger District at Bismarck, ND. There were two mediation 
sessions. At the first mediation session, District Ranger Joby Timm 
stated he would not change anything in the Pasture 1-5 Decision Notice. 
And he didn't. During mediation the FS rejected all offers made by 
GRCGA to compromise and end mediation.
    District Ranger Joby Timm did not go into mediation to ``mediate in 
good faith'' as required in the process.
4. Earmarked Weed Money
    Under a Participating Agreement, GRCGA entered into Noxious Weed 
Eradication with the Dakota Prairie Grasslands in 2004. The last 
Participating Agreement that was signed by both parties was in 2007, 
and it was good for the 2007 and 2008 calendar years (Doc #5). In the 
Participating Agreement, GRCGA was supposed to do the work on the 
ground and the FS was supposed to administer the agreement.
    A summary of how the Agreements came about is provided in a 
statement by Kevin Ormiston, Range Foreman for GRCGA (Doc #6). In 2009, 
at the GRCGA told the FS it would not be able to participate in the 
earmarked FS program for spraying noxious weeds. Kevin told GRCGA, the 
Forest Service is planning to hire an additional seasonal for this 
purpose and it is the hope that will prove sufficient. (Doc #7). The 
same happened in 2010.
    Grand River Cooperative Grazing Association (GRCGA) had Weed 
Agreements for the Senator Dorgan Earmark weed money for years 2004 to 
2008. GRCGA did not have weed agreements in 2009 and 2010. The Forest 
Service took the earmarked money and used it to supplement their 
appropriated dollars to purchase equipment (6 wheeled HOV's), pay for 
their weed crews and purchase other materials.
    The Forest Service should have held the earmarked money in an 
account, carried it over for use by GRCGA over the next two years. The 
Forest Service misappropriated the funds, spent them to either 
supplement or augment their appropriated funds and used their 
appropriated funds elsewhere. This could be a misuse of earmarked funds 
and an investigation should be done on how the FS spent the money.
    As far as we know this is the only documentation by GRCGA letting 
the FS know they will not be using the earmarked money in 2009. The 
following sentence shows the FS was already counting on hiring an 
additional seasonal with the earmarked money:

  <bullet> The Forest Service is planning to hire an additional 
        seasonal for this purpose and it is the hope that will prove 
        sufficient.

    The process that should have been used between the two people that 
are involved in how this money is spent, that being Grassland 
Supervisor David Pieper and GRCGA President Nate Skjoldal is as 
follows:

  <bullet> GRCGA President Nate Skjoldal notifies the Forest Service 
        that GRCGA will not be able to use the earmarked money in 2009. 
        This should have been done by letter, However, letting District 
        Ranger Joby Timm know at the Board Meeting that GRCGA will not 
        be able to use the earmarked money in 2009 should be 
        sufficient.

  <bullet> Grassland Supervisor David Pieper should notify GRCGA 
        President Nate Skjoldal that the earmarked money will be held 
        and carried over to the next year for GRCGA use in weed 
        control. Another option Supervisor Piper would have is to 
        notify GRCGA that he had return the earmarked money to be 
        reallocated to the other Grazing Associations for 2009.

  <bullet> Grassland Supervisor David Pieper did not send a letter to 
        GRCGA, and we do not know if Ranger Joby Timm ever notified 
        Supervisor Pieper that GRCGA was not going to use the earmarked 
        money in 2009.

  <bullet> GRCGA does know Ranger Timm spent the earmarked money for 
        his own use. Without an accounting from the FS, GRCGA doesn't 
        know how he spent the money, they can only guess.

    In 2010, there wasn't any discussion at a Board Meeting on the use 
of the earmarked weed money. However, according to Kevin Ormiston, 
Chancey O'Dell, Range Specialist with the GR Ranger District asked 
Kevin if they were going to use the earmarked weed money in 2010. The 
reason he asked him was Ranger Timm wanted to know if GRCGA was going 
to use it or was it available for him to spend. Kevin replied to 
Chancey that he would not be able to make use of the earmarked money in 
2010.
    Kevin later asked Chancey what Ranger Timm used the earmarked money 
for. Chancey did not know since he was being excluded by Ranger Timm 
from any decisions on the District (Doc #8).
    A congressional Investigation or at least an oversight hearing 
needs to be implemented to find out what the FS did with earmarked 
money.
    Kevin Ormiston also talked with Chancey O'Dell on September 15, 
2010 and he said that since GRCGA didn't use the Ear Marked weed money, 
Ranger Joby Timm spent the money in 2009 on FS weed spray equipment. In 
2010 Ranger Timm came to Chancey and asked him if GRCGA wasn't going to 
use that weed money again in 2010. Chancey said no they weren't. So 
Joby took the money and spent it again (Doc #9).
    Kevin talked with Paul Drayton on September 16, 2010. Kevin was 
collecting as much information on the weed program as he can so he can 
have a complete summary of the entire program for the review. Paul 
Drayton said he shouldn't even worry about the review; they won't even 
talk about the weed program. This review isn't about that at all. Paul 
said ``you would be surprised what it is really about''.
    Kevin Ormiston said in Sept. 2010 he knew the FS wanted to go to 
direct permits and that would directly affect his job, like he wouldn't 
have one. Drayton did not deny the direct permit allegation. He just 
said that there would be enough of the permittees left who would hire 
him to do work for them. (Doc #10).
    Kevin was talking with Chancey O'Dell again on September 17, 2010, 
and had asked him for the Quad maps of the riparian areas for Pastures 
1A, 1B, 2A, 3A, and 5A. Chancey asked him what for. Kevin informed 
Chancey that Van Elsbernd was coming to do PFC monitoring and that the 
FS was welcome to come along. At that point Chancey said he remembered 
the FS talking about that and that Ranger Joby Timm had said the 
following (Doc #11):

  <bullet> ``If I catch him (Van Elsbernd) out their doing that 
        monitoring, I'll have him arrested for trespassing''.
5. Notice of Civil Rights Complaint January 25, 2010
    It is well known that the FS has wanted to eliminate all the 
Grazing Associations and go to direct FS grazing permits on all the 
National Grasslands. R-1 past Director of Range Management, Bruce Fox; 
R-1 Range Staff Jim Wickel, and Grassland Supervisor David Pieper have 
all said the GPG Grazing Associations have out lived their usefulness 
and should be eliminated. All three have been heard to say this at FS 
meetings.
    However, Grassland Supervisor David Pieper is the main proponent of 
this effort. He dislikes the Grazing Associations so much he will go 
extreme measures to eliminate them. He has a severe dislike of Keith 
Winter, MCGA, because he views Keith as the main person who beat him in 
court over many issues. He has spent the last 10 years getting the 
Grassland Plan completed and has worked very hard to line up the people 
he wants in place (staff and Rangers) to do whatever it takes to go to 
direct permits. His direction to the Rangers and Staff--look for ways 
to make it happen.
    The FS has made civil rights discrimination allegations against 
GRCGA. District Ranger Joby Timm and Range Specialist Paul Drayton have 
created the civil rights issue, and have done everything they can 
through threats and intimidation to make this an issue. For the FS to 
say they want to go direct permits on the National Grasslands, means 
the Grazing Agreement will either be canceled or the FS will take 
enough members to direct permits, approximately 40% of GRCGA 
membership, to create an Association that is financially unsound.
    On January 25, 2010, Grassland Supervisor Dave Pieper sent a letter 
to GRCGA President, Tim Smith (certified mail) giving GRCGA their first 
notice that allegations had been made against them by a GRCGA member, 
although it does not specify which member or what the specific 
allegations are. Grassland Supervisor Dave Pieper states:

        . . . Specifically, under II.D. 11. of the current grazing 
        agreement, the association will ``Comply with nondiscrimination 
        conditions of Executive Order No. 11246 and Civil Rights Act of 
        1964, and on subsequent amendments. Recently, DR Timm informed 
        me of a member's allegations of unequal treatment and 
        discrimination by the GRCGA. Based upon my discussion with Timm 
        and as required by USDA policy, I have asked him to begin an 
        administrative review of the complaint and to engage the R-1 
        Civil Right office and the Office of the General Counsel.''

    However, what Grassland Supervisor Dave Pieper doesn't tell GRCGA 
is that this ``complaint'' started back in November, 2008 (Refer to Doc 
#12 for a complete breakdown of FS actions in the civil rights 
investigation). This is when District Ranger Joby Timm is working with 
Matt Lopez and Standing Rock Sioux Tribe to get Matt Lopez a permit 
with GRCGA. He campaigned for him over Rock Creek Local District to get 
the permit. He did this because he is good friends with Matt's brother. 
Joby tried to influence the GRCGA board to give a permit to Matt Lopez 
(see meeting notes, Jan 15, 2009--original Platte Map found) (Doc #13).
    Dec 11, 2009 is the date that Rock Creel Local District and the 
Grand River Ranger District start the discrimination complaint, the 
direct permit talks, and putting all responsibility for what has 
happened on GRCGA. FS does not accept any responsibility or feel they 
were a part of the letters or discussion with RCLD. Grand River Ranger 
District had from the Sept. 22, 2009 meeting to Dec. 11, 2009 to talk 
RCLD into what is about to take place in the following notes and 
messages.
    In a FS Issue Paper prepared on January 13, 2010 by District Ranger 
Joby Timm, he states; ``No contact was made by the GRCGA to the FS 
concerning Rock Creek.'' District Ranger Joby Timm is not telling the 
truth at this point. It was hard for GRCGA to contact the FS concerning 
Rock Creel Local District's actions when it is the FS who is meeting 
with them without the GRCGA. The following is a sequence of events that 
demonstrate that GRCGA did contact the FS and the members:

  <bullet> April 29, 2009--meeting with RCLD, Lonnie Hall and the FS.

  <bullet> Aug. 17, 2009--GRCGA calls Paul Drayton that Rock Cree's 
        livestock were in the wrong pasture. Forest Service contacted 
        the pasture director to inform him of the situation.

  <bullet> Aug. 19, 2009--Violation letter from GRCGA to RCLD about not 
        following AOI. A letter went out to RCLD from GRCGA as a follow 
        up to a call made to RCLD for the purpose of informing them 
        that the cattle on Shambo Allotment are not in the correct 
        pasture, which the FS determines a violation of their AOI. Jane 
        also encouraged RCLD to call the FS so they could aid in 
        explaining their AOI.

  <bullet> August 20, 2009--Paul Drayton's notes to Joby Timm on how 
        the FS found Rock Creek Local District livestock in the wrong 
        pasture and how RCLD was not following the FS AOI. Paul Drayton 
        called Len Hofer to let him know of the situation. Len in turn 
        called Jane who then called RCLD.

    Courtney Brownotter then called Paul Drayton to apologize and said 
        he would have them moved into the correct pasture by 8/21. He 
        said they really didn't know much about the allotment since 
        this is the first year running in there.

    Courtney said Jane had faxed them another copy of their AOI. He 
        also told me (Paul Drayton) they turned out 41 less head than 
        permitted including bulls.

  <bullet> Sept. 4, 2009--Paul Drayton's conversation with Len Hofer 
        calling to notify FS that the bulls were still out past the 
        date when they were to be removed from the Shambo Allotment. 
        Also discussed was the problem of Rock Creek turning out open 
        cows which is against state policy due to tric. concerns.

  <bullet> Sept. 4, 2009--Paul Drayton calls Lonnie Hall about having 
        his bulls out past the removal date.

  <bullet> Sept 4, 2009--Paul Drayton calls Rock Creek and left a 
        message to ``leave their cows in the west pasture on Shambo 
        until 9/16 when they are to rotate with Lonnie Hall back to the 
        east pasture. At that time, the bulls are to be removed.'' 
        Again, At this point, Paul waves any violation on the part of 
        Lonnie or Rock Creek.

  <bullet> Sept 4, 2009--Paul Drayton's notes documents a conversation 
        with Cathy Evans, secretary at GRCGA, and at Paul's request she 
        said she would be sending a letter to Rock Creek about 
        violating their AOI (I called Cathy on Dec. 23, 2010, and she 
        confirmed that Paul told her to send the letter). Paul says he 
        told Cathy that both Rock Creek and Lonnie Hall should receive 
        a letter because neither one of them were following their AOI 
        by not being in the right pasture and not removing their bulls 
        on time.

  <bullet> Sept 4, 2009--GRCGA sends out second letter of violation to 
        RCLD based on Len Hofer's report of RCLD not following bull 
        policy and not following AOI.

  <bullet> Sept. 15, 2009--Paul Drayton received a copy of a letter 
        from the GRCGA to Rock Creek Local District requesting their 
        attendance at the special meeting to be help on Sept. 22, 2009 
        to discuss issues concerning their allotment.

  <bullet> Sept. 22, 2009--Paul Drayton records he has notes from the 
        special meeting held with the GRCGA and RCLD discussing issues 
        concerning their allotment.

  <bullet> Dec. 11, 2009--Paul Drayton received a phone call from 
        Courtney Brownotter expressing concern about receiving 2 
        letters and possibly losing their permit if they receive 1 more 
        letter. Paul reports that RCLD feels like they may be 
        discriminated against.

    It is after Dec. 11, 2009 that the FS is the one who does not 
        contact GRCGA about the situation with RCLD. It is the FS who 
        goes on to encourage the actions proposed by RCLD and actually 
        openly criticizes GRCGA for their management practices.

    On Jan 13, 2009, a meeting was held at the Grand River Ranger 
District Office. Present were Rock Creek Local District, GRCGA and FS. 
This meeting was held because of questions Matt Lopez asked on Nov. 8, 
2008 (see above). Dan Anderson showed everyone a map of the base 
property of the Shambo ranch from 1942. There was 2,636 ac. of base 
property. There were letters from the FS in 1985, 1986 and 1995, that 
showed the base acres had changed. Dan informed everyone that this was 
``incorrect''. Dan said the FS had confused ``base'' acres with 
``commensurate'' acres. So the FS misled everyone. Eric Bogue said the 
base acres had not changed since 1942. Joby Timm said Gary Petik had 
written the letters above.
    These meetings start the Grand River Ranger District down the road 
of taking two letters of violation and a supposed ``racially motivated 
remark'' by a Pasture Director and turning it into a USDA investigation 
in the form of a compliance review of the grazing program which is 
administered by GRCGA and which could result in enforcement proceedings 
as provided in DR 4330-002.
    On August 16, 2010, Regional Forester gives GRCGA its second 
notification that the Northern Region of the USDA Forest Service will 
conduct a compliance review of the grazing program administered by the 
Grand River Grazing Association (GRGA). The letter refers to 
allegations of violation of Title VI of the Civil Rights Act and then 
states that the Forest Service has received ``written and verbal 
allegations from program participants of discrimination, harassment, 
and mistreatment by members and directors.''
    The claims include the following:

  <bullet> disparate treatment by use of threats and intimidation

  <bullet> reports of racially motivated or discriminatory remarks by 
        board members

  <bullet> concerns that all permit holders are not able to participate 
        in officer election meetings

  <bullet> use of economic sanctions to force compliance with arbitrary 
        rules

  <bullet> selective application of economic sanctions

  <bullet> failure to comply with primary purpose of GRCGA bylaws, 
        conservation of natural resources

  <bullet> disparate treatment of permittees through arbitrary 
        application of Rules of Management

    An analysis of August 16, 2010 letter from the RF is attached (Doc 
#14). A statement taken from the analysis by Chet Anderson is as 
follows:

  <bullet> In a conversation Chet Anderson had with Joby Timm and Paul 
        Drayton, Chet asked Drayton if the members they interviewed 
        came in on their own or if the FS called them in. With Joby 
        Timm standing there, Drayton said they called the members in to 
        question them.

    The written and verbal allegations came from the members the Grand 
River Ranger District called into question.
    The GRCGA has tried to identify where the ``reports of racially 
motivated or discriminatory remarks by board members'' would have come 
from. From an analysis of the documents received on October 18, 2010 at 
the start of the USDA investigation through a compliance review, GRCGA 
thinks it comes from a conversation Pasture Director Len Hofer had with 
Grand River Ranger District employee Paul Drayton. Attached is a 
statement made by Len Hofer on what he actually said to Paul Drayton 
concerning the Standing Rock Sioux Tribe permit (Doc #15). A summary of 
what Len said is as follows:

        ``I did say that considering all the rules the Forest Service 
        has and the Grazing Association has that Rock Creek might not 
        keep their permit very long. I made the comment only in the 
        light that Rock Creek had only used part of their permit the 
        last few years, leasing out the entire allotment before that 
        and they do have issues with distance, etc. and meeting the 
        requirements might not be worth the hassle. There was no malice 
        in my comment, skin color was never an issue; I have friends 
        that are Native American. I say this because I'm suspecting 
        that a personal comment I made to Paul has been misconstrued.''

    Len Hofer did not make a ``racially motivated remark''. It was Paul 
Drayton who made it a ``racially motivated remark'' by reporting it 
incorrectly. In a letter from Mr. James Cerney on April 7, 2010 to 
District Ranger Joby Timm stating (Doc #16):

        Of greater concern were comments that may have been made at an 
        Association meeting in the fall of 2009. It has come to my 
        attention that one of the Board members may have made, what 
        appears to be, a racially motivated statement. The alleged 
        statement was that if the Association makes things tough for 
        Rock Creek, they (Rock Creek) will withdraw from the 
        Association.

    In early October, GRCGA President Tim Smith sent a letter to GRCGA 
membership explaining what the compliance review entailed. Tim did not 
at any time tell the membership they shouldn't or could not meet with 
the FS. What he does say is, ``The Association and any member are 
entitled to have counsel or a personal representative'', ``We have 
asked the FS to contact counsel rather than communicating with the 
Board, Officers or employees directly'', ``You are entitled to have 
counsel or the personal representative present during the interview'', 
``If you want counsel present'', and ``you may call the GRCGA office 
for guidance, if you so desire''. These are all first amendment rights 
which the GRCGA is exercising (Doc #17).
    On October 6, 2010, Grassland Supervisor David Pieper sent a letter 
to the GRCGA membership, contrary to the request made by GRCGA. In the 
``unofficial'' copy of the Program Compliance Review Report, the FS 
states that ``It appeared that the GRCGA attempted to limit membership 
participation in the compliance review.'' This is not true and a 
statement made to make GRCGA look controlling (Doc #18).

    Summary of Notice of Civil Rights complaint:

    At no time has the Forest Service provided the Association with 
factual information regarding the allegations that GRCGA has violated 
the Civil Rights Act. Nor has the Forest Service adequately explained 
the alleged violations of the Grazing Agreement other than to report 
allegations from a long-time member, who unsuccessfully sued the 
Association making the same or very similar allegations.
    When the Civil Rights Compliance Director for Region 1 of the 
Forest Service met with the GRCGA Board in February 2010, the 
Association's lawyer Eric Bogue asked for a copy of the complaint. 
Nothing was ever provided. Forest Service Civil Rights investigation 
policy requires the Forest Service to produce the case file and it has 
not done so despite requests for the file.
    GRCGA does not currently receive financial assistance from the 
federal government. In the past, it received ear-marked weed control 
funds but has not for the last two years. The Forest Service relies on 
the fact that GRCGA is its agent in administering the grazing 
agreement. GRCGA does not receive federal financial assistance or 
payment for the duties it assumes under the grazing agreement.
    The Forest Service appears to be combining the investigation 
conducted under the Civil Rights program, with a `grazing program 
compliance review,' even though they are independent factually and 
legally. In both cases, GRCGA faces vague statements alleging ``written 
and verbal allegations from program participants of discrimination, 
harassment, and mistreatment by members and directors.'' The letter 
also alleges the Board members have made discriminatory remarks, 
arbitrarily enforced the Rules of Management, threatened economic 
sanctions to enforce the Rules of Management, and failed to conserve 
natural resources.
    At this point, GRCGA is left in the dark as to whether this is a 
civil rights case or a grazing agreement compliance matter. Forest 
Service employees from the Grand River office have said that the Forest 
Service will soon cancel the grazing agreement for these violations and 
that the outcome of the investigation is a `done deal.'
    GRCGA can say that its Board has endeavored to always treat its 
members with respect and has not intentionally or knowingly 
discriminated on the basis of race, religion, gender or ethnicity.
    GRCGA has always worked to comply with the grazing agreement and 
Rules of Management and to ensure that all members comply.
6. Direct Permits
    It is well known that the FS has wanted to eliminate all the 
Grazing Associations and go to direct FS grazing permits on all the 
National Grasslands. R-1 past Director of Range Management, Bruce Fox; 
R-1 Range Staff Jim Wickel, and Grassland Supervisor David Pieper have 
all said the GPG Grazing Associations have out lived their usefulness 
and should be eliminated. All three have been heard to say this at FS 
meetings.
    Listed below are statements and incidents where the FS has talked 
to members, directors and GRCGA employees about direct permits and 
actually issued a direct permit:

    1. On Sept. 24, 2010 Chet Anderson made the following statement: In 
        the fall of 2009 Director Ed Wiesinger and I, members of the 
        resource committee, attended a tour of pastures 1through 5. 
        Representing the Forest Service and conducting the tour were 
        Joby Timm and Paul Drayton. The tour itself was fine and 
        informative, but as we neared the end of the tour, Joby and 
        Paul changed the topic of the conversation to direct permits. 
        They promoted the idea that direct permits would have a much 
        lower cost to individual producers than being members of an 
        association. They made a comment that members of the Grand 
        River Grazing Association paid the highest costs of any 
        association members they were aware of. They were also 
        wondering if we knew of any association members that would be 
        interested in changing to direct permits. I was alarmed that 
        they would present this idea to two board members and that it 
        was presented in this setting. I felt that if they were this 
        bold with board members, are they doing the same thing every 
        time they get alone with a member (Doc #19)?

    2. Kevin Ormiston, GRCGA Range Foreman, had a conversation in 
        September 2010 with Paul Drayton on direct permits. When Kevin 
        said he knew the FS wanted to go to direct permits and that 
        would directly affect his job, like he wouldn't have one. 
        Drayton did not deny the direct permit allegation. He just said 
        that there would be enough of the permittees left who would 
        hire him to do work for them. (Doc #10).

    3. During the 2010 GRCGA Annual Membership meeting in December 
        2010, District Ranger Joby Timm talked to the members about 
        direct permits with the Forest Service.

    4. On January 10, 2011 District Ranger Joby Timm sent a letter to 
        GRCGA concerning the expiration of the existing grazing 
        agreement between the FS and GRCGA. In the second paragraph of 
        the letter, Ranger Timm states the following (Doc #20):

                ``I would like to begin by holding meetings with the 
                membership of the Grazing Association and other 
                interested parties. During the meeting(s) we will 
                openly discuss options that may provide additional 
                opportunities and flexibility to improve livestock 
                operation while meeting DPG LRMP goals and objectives. 
                As I outlined to the membership during the annual 
                meeting, I would expect us to discuss a variety of 
                issues that include individual grazing permit 
                options..''

The individual grazing permit options discussed by Ranger Timm at the 
        annual meeting were ``direct permits''.

    District Ranger Joby Timm can't say he supports the Grazing 
        Agreement (GA) and campaign for wit the members to go to direct 
        permits. He is working against the GRCGA and the GA and 
        encouraging as many GRCGA members to go to direct permits. At 
        some point of diminishing returns, GRCGA is unable to function 
        as an Association because of not enough members.

    5. Grassland Supervisor David Pieper sent a letter on February 11, 
        2011 to GRCGA notifying them that the FS would be administering 
        the Tribe's grazing privileges as follows (Doc #21):

                ``Given my trust responsibilities to the Tribe and my 
                determination that, at least for the near term, the 
                Forest Service should administer the Tribe's grazing 
                privileges based on their specific request, I have 
                decided to remove the Shambo Allotment and associated 
                Animal Unit Months (AUMs) from administration under the 
                Grazing Agreement and work directly with the Standing 
                Rock Sioux Tribe in authorizing grazing on the 
                allotment.''

                ``When the Forest Service finalizes the Annual 
                Operating Instructions (AOIs) and prepares the bill for 
                the next grazing season in April 2011, those documents 
                will reflect the withdrawal effective May12, 2011. At 
                this time, we will also provide amended Brazing 
                Agreement exhibits reflecting this change in lands and 
                AUM's covered by the Agreement.''

    The Shambo Allotment has 1530 Animal Months (AMs) associated with 
        it. What Grassland Supervisor David Pieper will issue to SRST 
        is a ``direct permit'', even though he never says those words 
        in his decision.
7. Threat Imposed by District Ranger Joby Timm and Range Specialist 
        Paul Drayton on GRCGA staff
    On Oct. 18, 2010 the US Forest Service (FS) conducted a civil 
rights review of the grazing program administered by the GRCGA. During 
that review it came to GRCGAs attention that there Secretary, Cathy 
Evans, and past secretary Jane Peterson felt threatened and intimidated 
by District Ranger Joby Timm and Range Specialist Paul Drayton when 
they come to the GRCGA office and Cathy is alone at the office.
    On Oct 26, 2010 and Nov. 1, 2010 counsel for GRCGA wrote letters, 
to District Ranger Joby Timm and Grassland Supervisor David Pieper, who 
supervises Ranger Joby Timm and asked the following (Doc #22):

        ``The GRCGA Board requests that the District Ranger and his 
        staff call to make an appointment prior to any future visit to 
        the Association's office and with any Association employee so 
        that members of the Association's Board of Directors can be 
        present as well. This should go a long way towards avoiding the 
        opportunity for `miscommunication' between the Association and 
        the Forest Service.''

    On November 3, 2010 Grassland Supervisor David Pieper wrote a 
response to GRCGAs letters of Oct. 26, 2010 and Nov. 1, 2010 (Doc #23). 
Supervisor Pieper states he wants to first establish guidelines for 
both parties. He wants his staff to set appointments with GRCGA and FS 
to develop guidelines for business operations. GRCGA declines the offer 
and states there is no need to establish any guidelines; they have 
already been established in the first two letters.
    On January 10, 2011, Ranger Timm called Cathy Evans at the GRCGA 
office and asked if someone from his office could come to the GRCGA 
office and deliver some letters. Cathy Evans assumed that their FS 
Secretary would come with the letters. Cathy Evans agreed it would be 
OK. Ranger Timm and Paul Drayton both came to deliver the letters. They 
stayed about 2 minutes. They did not honor GRCGA request as outlined in 
the attached letter. Because of their actions, GRCGA contacted the 
Lemmon Police Department and asked if Cathy Evans would be able to call 
the Lemmon Police Department and be able to request a civil assist if 
either Range Joby Timm or Paul Drayton, or both show up at the office, 
for whatever reason (Doc #24).
    The procedure GRCGA Board of Directors will instruct Cathy Evans to 
use is: if either one or both of the above FS employees comes to the 
office when she is alone is:

    1. If either one or both, Range Joby Timm or Paul Drayton come to 
        the GRCGA Office will she is alone, she will instantly call for 
        a civil assist from the Lemmon Police Dept.

    2. Next, she will ask them to leave.

    3. When the officer from the Lemmon Police Dept. makes it to the 
        GRCGA office, and either Ranger Timm or Paul Drayton, or both 
        are still there then GRCGA would ask that they be removed from 
        the office.
8. Threat Made by District Ranger Joby Timm to GRCGA
    At the Board meeting on November 9, 2010, District Ranger Joby Timm 
threatened GRCGA by making the following statement to Mr. Tim Smith: 
``You tell the Board that, and you are going to have a fight on your 
hands!'' This is prohibited retaliation (Doc #25).
    The threat was made in reference to the letters that were sent to 
Grassland Supervisor David Pieper and District Ranger Joby Timm about 
the acts of intimidation by Ranger Timm and Paul Drayton creating a 
hostile work environment and altering the working conditions of the 
Grand River Cooperative Grazing Association (GRCGA) employees.
    District Ranger Joby Timm was telling GRCGA President Tim Smith 
that if he told the Board about the letters and they acted on them, 
that Mr. Smith was going to have a fight on his hands with Joby Timm.
    Joby Timm was very angry and upset when he made the statement. This 
is a very threatening and intimidating statement to have been made by a 
line officer in the FS. However, it does demonstrate Joby's dislike for 
Tim Smith and the GRCGA, and his continued harassment of both.
    Pasture Directors Gary Frisvold and Raymond Akers were both present 
when Joby Timm made the threat. Tim Smith had turned to Gary when Joby 
walked away after making the threat, and said to Gary, ``Did you hear 
that. Gary said, `I sure did.' ''
    Disciplinary action needs to against District Ranger Joby Timm for 
his abuse of power in the position he is in, making threats against the 
President of GRCGA and the entire GRCGA. The continued abuse and 
threats by Joby Timm are making for a hostile work environment for the 
entire Board of Directors and the GRCGA.
9. Shadehill Recreation Project
    GRCGA appealed the Shadehill Recreation Project on august 19, 2010 
(Doc #26).
    On September 24, 2010 Chet Anderson attended a meeting at the Grand 
River Ranger District office to discuss his appeal of the Shadehill 
Lake Recreation project. Chet made the following statement concerning 
statements made by Acting District Ranger Tanya Weisbeck:

        ``On Sept. 24, 2010 Chet Anderson made the following statement: 
        In the late summer of 2010, at the request of Pasture 8 member 
        John Bartell, I attended a meeting at the Forest Service office 
        to discuss his appeal of the Shadehill Lake Recreation project. 
        In attendance were Vivian Lyon, John Bartell, Tanya Weisbeck 
        and Barbara from the FS office in Bismarck, and I. One of 
        John's concerns was that with a horse riding trail in the 
        pasture, cows and their grazing patterns would be disturbed. 
        Tanya proceeded to explain that in the Ft. Pierre National 
        Grasslands, where she used to be employed, it is common for 
        people to hunt on horseback. `There've been instances where 
        producer's livestock have been shot by hunters' said Tanya. 
        John expressed that having cattle shot would be much worse, but 
        having cattle disturbed is also detrimental. Tanya responded 
        that considering the `cheap grazing fee' we pay, we should be 
        expected to tolerate the disturbance, injury, or death of some 
        livestock. I feel this comment was extremely prejudiced and 
        implied two things: (1) That grazing associations are similar 
        to government assistance programs, and (2) That if government 
        assistance is received, the recipients should be expected to 
        tolerate poor treatment. I will reply to both of these 
        implications. First, our association doesn't receive one cent 
        of government assistance. Second, for anyone, especially 
        someone in a supervisory governmental position, to suggest that 
        we should tolerate livestock mistreatment in any form, is very 
        concerning. In my opinion, her comment implied that it should 
        be okay to kick the dog of someone who receives food stamps, or 
        that someone on Medicaid should tolerate the mistreatment of 
        their pet because they are receiving federal assistance. I am 
        gravely concerned that Tanya, with her supervisory position, 
        has this underlying opinion of our association and the 
        livestock we manage.

        I would be willing to comment more on this topic, but am having 
        trouble putting all of my thoughts onto paper. I have never 
        felt discriminated against until now.''

    During the appeal the Grand River Ranger district agreed to try and 
resolve the appeal through informal resolution. On December 8, 2010 an 
informal resolution meeting was held to discuss the GRCGA's appeal. The 
GRCGA and the FS narrowed the appeal down to the following issues (Doc 
#27):

        Issue potentially resolved.

    1. GRCGA proposed reducing size of exclosure at the Shadehill 
        Campground. Forest Service agreed to reduce size of exclosure 
        from 450 acres to approximately 110 acres. FS would be 
        responsible for the construction of the fence and GRCGA would 
        maintain it. If fence does not keep cattle out of campground, 
        additional fence would be constructed increasing the size of 
        the exclosure to approximately 185 acres. See attached maps.

    2. GRCGA proposed that there would not be a reduction in permitted 
        animal months due to the building of the approximately 110 acre 
        campground exclosure. Forest Service agreed to this proposal.

    3. GRCGA proposed that the FS monitor the use of the facilities 
        constructed in phase 1 (as described in the Decision Notice) of 
        the campground before building phase 2. No ``trigger point'' 
        for amount of use was proposed. FS agreed to monitor the use 
        before building phase 2.

    Attempts to agree on the proposed three issues above failed and 
District Ranger Joby Timm moved ahead on January 19, 2011 with his 
responsive statement to Grassland Supervisor David Pieper (Doc #28). 
The main issue the FS would not agree to is the maintenance of the 
fence they would build to fence off their campground. The FS wanted to 
assign maintenance of the fence to GRCGA.
    In District Ranger Joby Timm's responsive statement, he used two 
and a half pages to describe the ``informal resolution process'' 
stating that even though he tried very hard to make it work with Chet 
Anderson from GRCGA who would not return his calls. When Chet was asked 
why he didn't return his calls, Chet said he never got a call or a 
message to call Ranger Timm back.
    In the Responsive Statement, Page 18, Ranger Timm makes the 
following statements:

        ``The decision was to fence the 450 acres out of Pasture 8 and 
        to review annually to determine if cattle can graze the area. 
        Because grazing may still be authorized annually, it is 
        difficult to quantify the economic impacts due to the fact that 
        there are several possibilities to achieve this reduction in 
        authorized use.

        The appellant also state that the reduction in livestock will 
        have a negative effect on the economy of our area of $138,600. 
        In 2009, the Hettinger Research Extension Center conducted a 
        study of the potential effect of reducing livestock numbers on 
        22 allotments in the Pasture 1-5 area of the Grand River 
        National Grasslands on the regional economy. Under the 
        parameters of this study, the reductions in livestock proposed 
        may negatively impact individual permittees involved, but are 
        not forecast to adversely affect the regional economy.''

    In the Responsive Statement, Page 10, Ranger Timm makes the 
following statements:

        ``Livestock grazing may still be allowed. Any changes in 
        livestock grazing would be reviewed annually, there are no 
        permanent adjustments proposed. Actual reduction in livestock 
        grazing would be no greater than 6%. If grazing does not occur 
        in the exclosure in a given year, the reduction does not have 
        to be in livestock numbers, the grazing season can be shortened 
        (approximately 11 days less).

        This project will involve installation of a new fence and 
        watering locations which will in fact affect the operating 
        costs of the GRGA. The 450 acre exclosure which was in the 
        selected alternative will add approximately 6,000 feet (1.14 
        mi) of fence. Whereas, the 240 acre exclosure which was also 
        analyzed would add approximately 7,300 feet (1.38 mi). So 
        utilizing the 450 acre exclosure will have an overall lower 
        maintenance cost than the smaller exclosure.''

    ``The FS says the reductions in livestock proposed may negatively 
impact individual permittees involved, but are not forecast to 
adversely affect the regional economy.'' So it is OK to impose 
reductions because a study says it will not adversely affect the 
regional economy. Somehow the logic is flawed. The FS should consider 
the individual members first in any reduction, especially if one is not 
warranted.
    What the Ranger Timm is saying from in the above paragraphs is, 
because grazing may still be authorized annually, there are no 
permanent adjustments proposed. It should be noted that grazing that 
does occur in exclosures across the DPG is ``incidental'' to the 
regularly scheduled grazing. Incidental is described as; 1. Secondary 
or minor, 2. Miscellaneous or minor items. Incidental use should not be 
counted on the normal operation of the Pasture grazing system. 
Therefore, it is a true reduction is use and should be considered a 
cancellation of part of the permit. To say there are no permanent 
adjustments proposed is misleading when the FS knows it is not going to 
be grazed. The purpose of the campground is for public safety and to 
prevent resource damage, which if livestock were allowed to graze, the 
FS would say they damaged the campground.
    The reasoning behind where the fence should be installed is based 
on 1,300 feet of fence (.25 mi.) difference because the maintenance 
costs will be lower. And this justifies an actual reduction in 
livestock grazing would be no greater than 6%. Again, this is flawed 
logic. The reductions may not cause the FS to rethink their logic, but 
to Pasture 8 members, it is significant.
    On February 7, 2011 the Grand River Cooperative Grazing Association 
(GRCGA), on behalf of its members, submits this reply to the Responsive 
Statement in the Appeal of the Decision Notice (DN) and Finding of No 
Significant Impact (FONSI) for the Grand River Recreation Projects 
Environmental Assessment, Grand River Ranger District, and Dakota 
Prairie Grasslands. It asked Grassland Supervisor David Pieper to 
reconsider the size of the fenced area from 450 ac. To 185 ac. as was 
proposed and agreed to in informal resolution (Doc #29). Decision from 
Grassland Supervisor Pieper is pending.
10. Civil Rights Complaint, Program Compliance Review Report and 
        Standing Rock Sioux Tribe Direct Permit
    On January 25, 2010, Grassland Supervisor David Pieper sent a 
letter to GRCGA President, Tim Smith giving GRCGA their first notice 
that allegations have been made by a GRCGA member. Supervisor Pieper 
states in his letter;

        ``Specifically, under II.D. 11. of the current grazing 
        agreement, the association will `Comply with nondiscrimination 
        conditions of Executive Order No. 11246 and Civil Rights Act of 
        1964, and on subsequent amendments. Recently, DR Timm informed 
        me of a member's allegations of unequal treatment and 
        discrimination by the GRCGA. Based upon my discussion with Timm 
        and as required by USDA policy, I have asked him to begin an 
        administrative review of the complaint and to engage the R-1 
        Civil Right office and the Office of the General Counsel.' 
        Supervisor Pieper has just given GRCGA its 1st notice that 
        allegations of unequal treatment and discrimination by the 
        GRCGA have been made.''

    In Mr. Pieper's next sentence he calls the allegation a 
``complaint''. Supervisor Pieper is careful not to disclose any 
information about who made the allegations or how long this has been 
going on.
    The Program Compliance Review Report is the culmination of an 
effort that started in January of 2009 by the Grand River Ranger 
District to get the Standing Rock Sioux Tribe (SRST) to a direct 
permit. Grand River Ranger District planned and implemented a strategy 
between September 22, 2009 and December 11, 2009 to get Rock Creek 
Local District, a tribal entity with SRST, to request a direct permit 
with the Forest Service and make the claim they are being discriminated 
against by Grand River Cooperative Grazing Association (GRCGA.) Grand 
River Ranger District then spent the next twelve (12) months working 
with SRST and their lawyers, with no involvement by GRCGA, to get 
Charles W. Murphy, Chairman, and Standing Rock Sioux Tribe to a point 
of sending a letter dated December 20, 2010 to Grassland Supervisor 
David Pieper. The letter states; ``Therefore, based on the foregoing, 
the Standing Rock Sioux Tribe is hereby requesting that it be issued a 
grazing permit from the U.S. Forest Service for the national grasslands 
in relation to the grazing privileges of Shambo Ranch. The Rock Creek 
District of the Standing Rock Sioux Reservation looks forward to 
working directly with the U.S. Forest Service beginning with the 2011 
grazing season.''
    The FS conducted an investigation in the form of a compliance 
review which could result in enforcement proceeding as provided in DR 
4330-002 (Oct. 18, 2010 Regional Forester, Leslie Weldon letter to 
Constance E. Brooks, P. 3, paragraph 1, sentence 4). GRCGA is not a 
``Forest Service Federally Assisted Program''. GRCGA administers a 
grazing program on the Grand River National Grasslands (Aug 16, 2010 
Regional Forester, Leslie Weldon letter to Tim Smith, President, GRCGA, 
P. 1, paragraph 1, sentence 1).
    A letter from Regional Forester Leslie Weldon to Constance E. 
Brooks, counsel for GRCGA, along with 19 documents, were hand delivered 
on October 18, 2010, by Lindsay Carter at the GRCGA office. This letter 
was in response to the September 17, 2010, FOIA request. On page 2, 
paragraph 1 of the letter, the regional forester states,

        ``The objective of the compliance review, as stated in our 
        letter, is to ascertain whether the allegations have merit and 
        to ensure compliance with and enforcement of the prohibition 
        against discrimination. Specifically, a compliance review is an 
        investigation that assess and evaluates the civil rights and 
        equal opportunity policies, procedures, and practices of an 
        organization or its instrumentality, funded in whole or part by 
        USDA, to determine compliance with applicable civil rights 
        statutes, regulation, standards, and policies.''

    A summary of the timeline and documents and what lead to a Civil 
Rights complaint by the Forest Service for Standing Rock Sioux Tribe/
Rock Creek Local District--member of GRCGA is attached (Doc #30).
    On page 3, paragraph 1 of the October 18, 2010 letter the Regional 
Forester states, ``The USDA is undertaking an investigation in the form 
of a compliance review which could result in an enforcement proceeding 
as provided in DR 4330-002.''
    On the afternoon of October 18, 2010, review team leader Lindsay 
Carter conducted a pre-review meeting at the GRCGA office with the 
review team, Eric Bogue, counsel for GRCGA, Van Elsbernd, consultant 
and Cathy Evans, secretary treasurer for GRCGA. Lindsay Carter opened 
the meeting by saying the Review Team was there to conduct a compliance 
review of the grazing program. When questioned by Eric Bogue about the 
investigation, Lindsay Carter said that it was not an investigation, 
even though the October 18, 2010 letter expressly says it is. Lindsay 
Carter continued the meeting by making the following opening comments;

        ``I am here to clear up any misconceptions/misunderstandings 
        about some of the things I've said. There must be some pretty 
        serious misunderstandings about what we are here to do.''

        ``What we are here to do is a compliance review. It is a 
        programmatic review. Pat Jackman is here to serve as technical 
        advisor.''

        ``The Grazing program is a USDA program. The Grand River 
        Grazing Association is our agent; it's the Forest Service 
        agent, therefore is a recipient and as a recipient the Grazing 
        Association has obligations to meet and the FS has obligations 
        to tell them what they are.''

        ``What this is, is a review of how the program is being 
        delivered.''

        ``We are here to conduct some interviews, hopefully with 
        Grazing Association directors, pasture directors, and grazing 
        association members. So you all can tell us your concerns with 
        the program, so we can listen to those. If there is something 
        the Forest Service needs to do to improve our service to you at 
        all we want to know what that is.''

        ``What we are here to do is help make the program better and 
        whether that is on the Forest Service side or the Grazing 
        Association side, we don't know what that is going to be yet. 
        So that is really why are here.''

        ``One of the things I want to know is what the Grazing 
        Association impressions, what their perceptions of how the 
        grazing program is supposed to work so that if there is any 
        misconceptions there we can start working to achieve a more 
        common understanding of what the expectations are. And we need 
        to know what you alls expectations of the Forest Service are. 
        And you all need to know what the Forest Service expectations 
        of the Grazing Association are.''

        ``This has nothing to do with canceling the Grazing Agreement 
        as has been mentioned in letters we've received and also on the 
        radio broadcast of your meeting last Saturday.''

        ``Once we are through the requirements dictate that we generate 
        a report within 30 days. You all will be furnished a copy of 
        the report. In there will be issues identified, there will be 
        findings identified, and there will be recommendations about 
        what we need to do whether it's a recommendation for the 
        Grazing Association or recommendation for the Grand River 
        District of the Forest Service. And I can tell you there is 
        going to be some recommendations for the Forest Service.''

        ``So that report will be done and then we will work with you on 
        it to develop a corrective action plan. So that our goal is to 
        help you all recognize whatever deficiencies there are, if 
        there are any.''

    At this point, GRCGA was very confused by the direct reversal by 
Lindsay Carter saying this was not an investigation, when the Regional 
Forester stated in the letter of October 18, 2011 that was handed to 
GRCGA that afternoon stating ``The USDA is undertaking an investigation 
in the form of a compliance review which could result in an enforcement 
proceeding as provided in DR 4330-002.''
    GRCGA was very guarded in its approach to the civil rights 
investigation, especially since the FS intentionally kept GRCGA in the 
dark for almost a year as to what they were working on with their 
members and changing the investigation to a review on Oct. 18, 2010. 
The FS is openly critical of this guarded attitude in the Program 
Compliance Report of February 2, 2011, especially in how the GRCGA 
conducted itself during the FS interviews (Program Compliance Report 
February 2, 2011, IX. Observations of Treatment of Program 
Participants, P. 15, point #4.)
    On January 10, 2010, District Ranger Joby Timm sent GRCGA a letter 
stating on December 20, 2010 the FS received a request from the SRST 
for an individual grazing permit (direct permit) in regards to the 
Shambo Allotment. The FS stated it would like to consult with GRCGA 
about removing the NFS lands in the Shambo Allotment from the Grazing 
Agreement. The FS then states; ``Please add this topic to your agenda 
for discussion at your board meeting on January 11, 2011.'' The 
consultation the FS was after was removing the Shambo Allotment from 
the Grazing Agreement. The FS had already determined they were going to 
issue SRST a direct permit (Doc #31). Consultation with GRCGA was 
merely a formality.
    The FS stated in their January 10, 2011 letter that:

        ``As indicated in the current Grazing Agreement on page 9, 
        section F #4--Lower priority withdrawals of service lands may 
        be made after consultation with the Association and upon 90 
        days written notice, but not to be effective prior to the end 
        of the current grazing season.''

    In the current Grazing Agreement, Section F--It is Further 
Understood That, #4 actually reads as follows:

  <bullet> #4--In the event the Service lands and facilities, or any 
        part thereof, are needed for military, or other similar 
        priority purposes, this Agreement may be terminated, or the 
        necessary lands and facilities may be withdrawn from this 
        Agreement any time upon 30 days written notice to the 
        Association by the Service. Lower priority withdrawals may be 
        made after consultation with the Association and upon 90 days 
        written notice, but not to be effective prior to the end of the 
        current grazing season.

    Section F, #4 is referring to the Service lands (National 
Grasslands) being needed for military, or other similar priority 
purposes. Using this clause in the Grazing Agreement to go to a direct 
permit does not meet this criteria and the FS is wrong in their 
interpretation of the Grazing Agreement. If #4 stands as being 
applicable to remove land and AMs from the Grazing Agreement, then the 
entire National Grasslands can be classed as a ``lower priority 
withdrawal'' and the grazing agreement canceled and direct permits 
given to anyone.
    GRCGA has a grazing permit with the FS through the Grazing 
Agreement. If the FS is going to suspend or cancel all or part of the 
permit, in this case it would be cancel, then that is an adverse action 
that has to be taken against GRCGA. There has to be just cause to do 
so.
    On January 11, 2011 the Board took the following stand with the FS:

  <bullet> The District Ranger (DR) delivered the first letter 4 p.m. 
        the day before the Board meeting, without sufficient notice to 
        get it on the next day's agenda. The Board properly deferred 
        discussion when it had no information. Mr. Timm did not bring 
        SRST's request with him when he attended the meeting.

  <bullet> The Board requested a copy of the SRST request. The DR said 
        he would provide it; it was not provided till Feb. 9, 2011, two 
        days before Grassland Supervisor Pieper made his decision. So 
        the Board did not have the relevant information they could not 
        discuss it with the DR.

  <bullet> The Board has insufficient information in order to begin 
        consultation. Announcing the request without providing any of 
        the background information or the FS file, is not consultation.

  <bullet> GRCGAs interpretation of the Grazing Agreement requires a 
        90-day consultation period. A final decision by 2/11/11 is not 
        consistent with the Grazing Agreement.

    At the Board meeting Tim Smith asked District Ranger Joby Timm for 
a copy of the SRST request. Joby responded that he had left it on his 
desk and he would get it to right away.
    The GRCGA wanted to contact Standing Rock Sioux Tribe (SRST), 
because they were still a member of the Association, to explain from 
their point of view what had transpired over the last two years to get 
SRST to the point of requesting a direct permit. On January 28, 2011 
GRCGA sent a letter to Charles W. Murphy, Chairman, SRST, asking the 
Tribe to come to Lemmon and meet with the Board on February 14, 2011 at 
2:30 p.m. (Doc #32).
    On January 31, 2011 GRCGA sent a letter to Joby Timm requesting the 
following (Doc #33):

        ``Before Grand River Cooperative Grazing Association (GRCGA) 
        can consult with or respond to your January 10, 2011 letter 
        stating the Forest Service received a Dec. 20, 20011 request 
        from the Standing Rock Sioux Tribe (SRST) for an individual 
        term grazing permit (direct permit) in regards to the Shambo 
        Allotment, GRCGA will need to receive a copy of the request 
        made by SRST. At the Jan. 11, 2011 Board meeting when Tim Smith 
        asked for a copy of the letter of SRST's request, you stated 
        that you had it but it was at your office. Please provide a 
        copy and all additional documentation pertaining to the 
        request.''

    On January 31, 2011 a letter was sent from Grassland Supervisor 
David Pieper to GRCGA stating (Doc #34):

        ``If GRCGA wishes to discuss this matter I propose a meeting 
        with Ranger Timm at 10 a.m. on February 4, 2011 at the GRRD 
        office.'' ``The agency intends to conclude consultation and 
        make a decision concerning the SRST's request by February 11, 
        2011.''

    Tim Smith called District Ranger Joby Timm on February 4, 2011 to 
advise him that a letter was forth coming to Grassland Supervisor David 
Pieper. Ranger Timm asked Tim Smith if they had sent a letter to SRST, 
and he said he they had. On February 9, 2011 GRCGA responded to 
Grassland Supervisor David Pieper with a letter that explained GRCGA 
concern for withdrawing the Shambo Ranch under Section F, #4 as follows 
(Doc #35):

        ``Your letter of Jan. 31, 2011 states, `to Grand River 
        Cooperative Grazing Agreement (GRCGA) on Page 9, section F#4, 
        provides lower priority withdrawals may be made after 
        consultation with the Association and upon 90 days written 
        notice, but not to be effective prior to the end of the current 
        grazing season.' It also states the Jan. 10, 2011, letter to 
        GRCGA initiated the process outlined in the Grand River 
        Cooperative Grazing Agreement. Even assuming that the above 
        provision in the GRCGA Grazing Agreement applies to this 
        situation and even assuming that the Jan. 10, 2011 letter 
        triggered a 90-day consultation period, it would not expire 
        until April 11, 2011.''

        ``Therefore it is GRCGA's contention that the FS has clearly 
        misinterpreted this clause. The Federal Land Policy and 
        Management Act defines a withdrawal as:

                [W]ithholding an area of Federal land from settlement, 
                sale, location, or entry, under some or all of the 
                general land laws, for the purpose of limiting 
                activities under those laws in order to maintain other 
                public values in the area or reserving the area for a 
                particular public purpose or program; or transferring 
                jurisdiction over an area of Federal land, other than 
                `property' governed by the Federal Property and 
                Administrative Services Act, as amended (40 U.S.C. 472) 
                from one department, bureau or agency to another 
                department, bureau or agency.

        43 U.S.C. 1702(j). This clause clearly applies to situations 
        when the administration of the federal land is transferred to 
        another agency, not the removal of land from a grazing 
        agreement.''

        ``GRCGA believes that a direct permit and a term grazing permit 
        are similar, neither one being a lower priority withdrawal. It 
        is also GRCGA's assumption that since the only term permit that 
        has been issued on the Grand River National Grasslands is to 
        the GRCGA, any actions pertaining to that permit would be done 
        according to FS rules and policies regarding changes in the 
        grazing permit, i.e., FSM, 2200, `Cancellation, in whole or in 
        part, applies if a permanent change in the permit is necessary' 
        and just cause has to be produced for any cancellation. The FS 
        Handbook governing the administration of the grazing agreement 
        further provides: `22.1--Changes in Lands or Improvements. The 
        grazing agreement shall require that the Forest Service notify 
        the organization of all proposed changes in lands and/or 
        improvements included in the agreements and the reasons for the 
        changes. The parties to grazing agreements must agree to the 
        changes before they are effective.' FSH 2209.13, ch. 20,  
        22.1.''

    On February 11, 2011 Grassland Supervisor David Pieper sent GRCGA a 
letter stating (Doc #36):

        ``First you state that Mr. Timm failed to provide you a copy of 
        the Tribe's letter and, you declined to initiate consultation 
        for the reason. However, on January 18, 2011, Mr. Timm spoke to 
        your counsel Mr. Eric Bogue by telephone and informed him that 
        he would be sending by fax a copy of the Tribe's letter. Mr. 
        Timm did so on January 18 in accordance with the telephone 
        call.''

        ``Given my trust responsibilities to the Tribe and my 
        determination that, at least for the near future, the Forest 
        Service should administer the Tribe's grazing privileges based 
        on their specific request, I have decided to remove the Shambo 
        Allotment and associated Animal Unit Months (AUMs) from the 
        administration under the Grazing Agreement and work with the 
        Standing Rock Sioux Tribe in authorizing grazing on the 
        allotment.''

    The GRCGA could not have stopped the FS from withdrawing the Shambo 
Allotment from the Grazing Agreement, even if they would have consulted 
with the FS in January, 2011. Some keys points about the withdrawal are 
as follows:

    1. There was nothing that GRCGA could have done to prevent this. 
        The FS was on a mission to get SRST to a direct permit, as 
        stated in their first letter of January 10, 2011:

                ``The FS takes its tribal trust responsibilities very 
                seriously and would like to consult with you about 
                removing the NFS lands in the Shambo Allotment from the 
                Grazing Agreement.''

    2. Even if GRCGA would have met with the FS prior to Feb. 11, 2011, 
        just by the way the letter is written the FS would have made 
        the same decision.

    3. If the FS can withdraw this lands and AM's from the Association, 
        they can do as many as they want, for whatever the reason 
        maybe; i.e., wildlife area, recreation area, direct permits, 
        etc.

    4. GRCGA only has to lose 35-40% of their membership to direct 
        permits, before the Association becomes unprofitable to 
        operate.

    1. Even if GRCGA would have agreed to everything so far, no 
        appeals, etc., GRCGA would end up in the same place. The FS 
        wants GRCGA replaced with direct permits.

    On February 9, 2011, Eric Bogue talked with Mr. Timm about the fax. 
Mr. Timm asserted that he sent the letter to me previously and said it 
was a ``lie'' to state otherwise in the letter, basically calling Eric 
a liar. Mr. Timm also told Eric that they (FS) are recording all of the 
meeting now and that he didn't ``promise'' anyone regarding the SRST 
letter at the meeting. He said he ``confirmed'' that discussion when he 
re-listened to his recording of the meeting, basically calling Tim 
Smith a liar.
    Eric Bogue was asked to check his fax log, which he did and sent 
the following e-mail on what he found on Feb. 16, 2011:

        ``I did just print that received log. It does go back far 
        enough. I did get a fax on the 18th, however, it does not 
        indicate from whom. Interestingly enough though, the fax that I 
        can confirm getting from them (FS) on the 9th does show their 
        fax number ([Redacted]). Without doing a full file search I 
        don't think I can tell you which other matter the fax was in 
        reference to.''

    So I think we can safely say Bogue Law Offices fax machine records 
do not show the receipt of any telefax from the District Ranger's 
office fax machine, [Redacted] on 1/18/11 as claimed by the District 
Ranger Joby Timm.
    On February 9, 2011 District Ranger Joby Timm did fax a copy of the 
December 9, 2010 SRST request for a direct permit (Doc #37).
11. GRCGA Development of AOIs
    On December 28, 2010, GRCGA sent a letter to District Ranger Joby 
Timm concerning the development of Annual Operating Instructions 
(AOIs). In the letter GRCGA stated the following (Doc #38):

        ``The Grand River Cooperative Grazing Association (GRCGA) 
        recently determined from a review of the Grazing Agreement that 
        the authority to prepare annual operating instructions (AOIs) 
        is delegated to GRCGA. Even though the FS assumed this aspect 
        of the administration of the grazing program, GRCGA will accept 
        its responsibility of preparing AOIs for the 2011 grazing 
        season. The format for the 2011 AOIs would be similar to the 
        2010 AOIs that the FS completed and sent out.''

    On January 10, 2010 District Ranger Joby Timm delivered a letter to 
GRCGA office stating the following about the GRCGAs letter of Dec. 28, 
2010 (Doc #39):

        ``Keep in mind that if all AOIs are not completed and delivered 
        to the Forest Service (FS) office by March 15, the FS will have 
        to develop the AOIs. This deadline will ensure the AOIs are 
        completed in a timely manner to allow the calculation of the 
        grazing bill. As you know, livestock cannot be turned onto the 
        National Grasslands until the bill is paid.''

    GRCGA sent a letter to Ranger Timm on January 31, 2011, and 
reviewed the 2010 AOIs that were prepared by the FS, and noticed the 
following (Doc #40):

  <bullet> The AOI date and the District Ranger signature were assumed 
        to be the same, as no date accompanied the Ranger's signature.

  <bullet> Only two AOIs were dated before March 15, 2010 (March 4 and 
        March 7)

  <bullet> The rest of the AOI's were signed after March 15.

    Once again, Ranger Timm is trying to intimidate the GRCGA by 
stating a policy that doesn't exist. Even his office doesn't have the 
AOIs prepared by March 15.
    The GRCGA makes a request of the FS to help facilitate the AOI 
process with GRCGA as follows:

        ``To facilitate the process, GRCGA requests that the FS use the 
        same first billing for 2011 that was made for the first billing 
        in 2010. Any differences between 2010 and 2011 first billing 
        can be adjusted in the second billing. This will help meet our 
        concern of a timely calculation and payment of the grazing bill 
        so livestock can be turned onto the National Grasslands.''

    The Grand River Ranger District did not respond back to GRCGA on 
this request.
12. District Ranger Joby Timm Gives GRCGA SOPs for Board Meetings and 
        Directors
    At the Board meeting on January 11, 2011 District Ranger Joby Timm 
gave the GRCGA a set of draft outline of ``Standard Operating 
Procedures'' for the GRCGA monthly meetings (Doc #41). It appears 
Ranger Timm is trying to put the GRCGA in a staff role to his position 
as Ranger and have them report out each month on what they did. GRCGA 
informed Ranger Timm they already had a set of standard operating 
procedures for their meetings and would continue to use those.
13. District Ranger Joby Timm Gives GRCGA a Grand River National 
        Grasslands, USFS, Answers to Your Questions ``Fact Sheet''
    At the Board meeting on January 11, 2011 District Ranger Joby Timm 
gave the GRCGA a Grand River National Grasslands, USFS, Answers to your 
questions ``Fact Sheet'' (Doc #42). Ranger Timm said these were 
questions he was getting asked most often and wanted GRCGA to have a 
copy to disperse. He said look it over and get back to me if GRCGA 
see's anything they would like to comment on.
    On page 2 of Fact Sheet, #9 references ``Program Compliance 
Reviews''. This topic must be receiving a lot of attention. GRCGA is 
still working on a response to the Fact sheet, but doubts if their 
comments will convince the FS to change it.
    During the pre-briefings of the Program Compliance Review Report by 
the FS with South Dakota and North Dakota officials, the Fact Sheet was 
handed out as part of the briefing packet provided by the FS. The name 
on the Fact had been changed to ``Grand River National Grasslands, 2010 
Compliance Review: Answers to your questions `Fact Sheet' ''. It is the 
same fact sheet, only with one word noticeably put in bold print. That 
word lies in the following sentence:

    4. Currently the GRCGA, working as an agent for the U.S. Forest 
        Service, helps administer the grazing program on the Grand 
        River Ranger District. The Forest Service allows the GRCGA to 
        administer the grazing program through a grazing agreement. The 
        Grazing Agreement and Rules of Management outline the processes 
        and responsibilities of both the Forest Service and the GRCGA. 
        The current grazing agreement expires on December 31, 2011.

    The Fact Sheet must serve many needs depending on what emphasis the 
FS wants to put on it. And the FS wanted to make sure the officials 
knew that the ``Forest Service'' allows the GRCGA to administer the 
grazing program through a grazing agreement.
14. District Ranger Giving GRCGA 5 Letters on January 10, 2011 and 
        Expecting Some of the Letters To Be Answered at the Board 
        Meeting on January 11, 2011
    On January 10, 2011, District Ranger Joby Timm and Range Specialist 
Paul Drayton came to the GRCGA office at about 4:00 p.m. and hand 
delivered 5 letters from the FS. Some of the letters required immediate 
answers, i.e., next day Board meeting. Others were answers to previous 
GRCGA letters. This delivery of letters was done to send a message of 
intimidation and harassment to the GRCGA and Cathy Evans, GRCGA 
Secretary. The number of letters delivered and with both Ranger Timm 
and Mr. Drayton delivering the letters, which they were notified not to 
do, clearly sends a message that Grand River Ranger District can do 
whatever they want and GRCGA can't do thing about it.
15. District Ranger Joby Timm Gives GRCGA a FS Agenda for Board 
        Meetings
    Prior to the February 14, 2011 Board meeting, Paul Drayton sent an 
e-mail on February 8, 2011 to GRCGA with an agenda for the Board 
meeting titled (Doc #43):

        ``United State Forest Service, Grand River Ranger District 
        Monthly Grazing Administration Meeting with Association, 
        February 14, 2011.''

    In Mr. Drayton's e-mail he states:

        ``Hi Cathy. Here is an agenda we would like you to forward on 
        to the directors before the meeting next week. This will give 
        them a chance to look it over and prepare for any items they 
        need or want to discuss. I also scanned in your January meeting 
        notes with some edits/corrections/suggestions that Joby and I 
        came up with. Thanks and see you next week.''

    The FS agenda provide in the e-mail had many topics that the FS 
proposed to spend approximately three (3) hours of time and requiring 
seven (7) decisions by the FS. Many of the topics needed more 
information or could have been handled with a letter or an email. GRCGA 
prepared a response to FS on their agenda (Doc #44).
    Upon review of the current Grazing Agreement GRCGA could not find 
the above mentioned meeting or any reference to a monthly grazing 
administration meeting. In the future GRCGA will provide the FS an 
agenda for its Board of Directors monthly meeting the day before the 
meeting. This may help the FS's understanding of what GRCGA is doing in 
the administration of the grazing program on the Grand River National 
Grasslands as outlined in the Grazing Agreement. This may help the FS's 
understanding of what GRCGA is doing in the administration of the 
grazing program on the Grand River National Grasslands as outlined in 
the Grazing Agreement.
    It appears Ranger Timm is trying to put the GRCGA in a staff role 
to his position as Ranger and have GRCGA structure their meetings each 
month with an agenda provided by the FS.
16. District Ranger Joby Timm Gives GRCGA Corrected Board Minutes
    Prior to the February 14, 2011 Board meeting, Paul Drayton sent an 
email on February 8, 2011 to GRCGA with an agenda for the Board meeting 
titled:

        ``United State Forest Service, Grand River Ranger District 
        Monthly Grazing Administration Meeting with Association, 
        February 14, 2011.''

    In Mr. Drayton's e-mail he states:

        ``Hi Cathy, Here is an agenda we would like you to forward on 
        to the directors before the meeting next week. This will give 
        them a chance to look it over and prepare for any items they 
        need or want to discuss. I also scanned in your January meeting 
        notes with some edits/corrections/suggestions that Joby and I 
        came up with (Doc #45). Thanks and see you next week.''

    During the Civil Rights Investigation the week of October 18, 2010, 
one of the issues brought forward by the Civil Rights Investigation 
review team (review team) was an accusation by the Forest Service (FS) 
that Grand River Cooperative Grazing Association (GRCGA) had changed 
their monthly Board of Director minutes. Upon a review of the minutes, 
the review team found the minutes had been changed, but not by the 
GRCGA, but by the FS.
    It appears the FS is again making an attempt to once again change 
the minutes of the GRCGA monthly Board of Director minutes. A review of 
the FS changes to the minutes shows they are mostly points of 
clarification, misspellings, or wording preferences. Aside from 
clerical errors, the Association minutes cannot be changed just to suit 
a participant. The minutes are recorded sessions and principles of 
corporate governance preclude efforts to rewrite the previous meeting. 
If the minutes contain an issue of significance that was not 
transcribed to the satisfaction of the FS, then the FS should bring 
that issue to the next Board meeting where it can be discussed again 
and recorded.
    GRCGA responded to the FS's attempt to correct the minutes with a 
letter dated February 11, 2011 (Doc # 46). GRCGA advised the FS a copy 
of the GRCGA monthly Board of Director minutes are provided to the FS 
as so they can have a record of each meeting. GRCGA will continue to 
provide copies of the minutes.
17. Statements of Forest Service Harassment and Intimidation
1. Intimidation and threat by District Ranger Joby Timm
    On March 2 and 3, 2010, Ranger Timm suggested the GRCGA participate 
in funding the biologically capable study for which the Ranger District 
had received about $250,000.00. Tim Smith, President, GRCGA instead 
stated that the Association members would develop a monitoring program 
using the NDSU baseline range assessment and that the FS would be 
invited to participate.
    Ranger Timm told Tim Smith that unless the monitoring plan was 
approved by him (Ranger Tim), Ranger Timm would end livestock grazing 
for the 2010 season, should the Association proceed without his 
approval (Doc #49).
2. Intimidation by Dan Swingen
    On September 9, 2010 Kevin Ormiston, GRCGA employee made the 
following statement. This documentation was from a Prairie Dog Tour in 
Pastures 7 & 8 on July 27, 2010.

  <bullet> On July 27, 2010 I was at a Prairie Dog meeting in Pastures 
        7&8 with 2 of my directors and various Forest Service 
        personnel, including Dan Swingen and Fish & Wildlife biologist 
        Scott Larson out of Pierre. After viewing the town in 7 Dan 
        asked the group starting with me what do you think & I 
        responded ``I was hoping to retire here but if you introduce 
        the ferret here you're going to destroy this land like down at 
        Wall.'' ``There is 2800 Acres of Dogs & it looks like the moon. 
        What's more important for families that work for Grand River 
        Grazing Assn or animals? The cuts that the permittees take is 
        less money in the bank to pay us and finance the 
        improvements.'' With a nice smile he did not answer me he moved 
        on to the next person & asked him ``what do you think?'' I knew 
        then my job is in trouble.

    Later after the tour we were going to town and I was in the back 
        and Swingen and Larson were talking in the seat ahead of me 
        talking about how they should burn and transplant dogs to 
        expand the towns quicker. Dan said the ``Dems'' were probably 
        going to lose the house and Senate and the Presidency in the 
        next election. The republicans would slow down the process of 
        putting the Black Footed Ferret on the Grand River Ranger 
        District. It's a sad world we live in when we have to fear our 
        Govt.

    Kevin Ormiston
    Foreman Grand River Grazing Assn.

    Signed: Kevin Ormiston 9-23-2010
3. Harassment by Joby Timm
  <bullet> On Sept. 24, 2010 Chet Anderson made the following 
        statement: As a member of the prairie dog committee, pasture 8 
        director, and resource committee member, I have had several 
        opportunities to meet with Forest Service personnel. During one 
        of our meetings the topic turned to a project that I felt would 
        be worthwhile, but would be impossible to complete due to a 
        lack of funds. Joby made a comment that if we (GRCGA) weren't 
        paying lawyers to appeal the Forest Service Decision on 
        pastures 1-5, we would have more funds available for projects.

    Chet Anderson, Pasture Director
4. Abuse of position and intimidation by Joby Timm of the GRCGA Board
    In late 2008 and early 2009, Joby Timm tried to get Matt Lopez a 
permit with GRCGA. He campaigned for him over Rock Creek Local District 
to get the permit. Joby tried to influence the GRCGA board to give a 
permit to Matt Lopez (see meeting notes, Jan 15, 2009--original Platte 
Map found).
5. Intimidation by Joby Timm on two Pasture Directors
    In 2009, Joby Timm talked with Pasture Directors Dan Anderson and 
Len Hofer on why they should go with direct permits, outlining the cost 
of doing so. He tried to influence the directors to leave the 
Association and go with direct permits.

    Report by: Van C. Elsbernd (e-mail: [Redacted]), Manager, Great 
Plains Consulting LLC, [Redacted], Fort Collins, CO.
    Date: March 8, 2011
                                 ______
                                 
Submitted E-Mail by Rhonda Muse, National Institute for the Elimination 
                        of Catastrophic Wildfire
March 30, 2012

To: House Agriculture Committee
Subject: U.S. Forest Health comments

To: the House Committee on Agriculture, Subcommittee on Conservation, 
    Energy, and Forestry

    We are sorry we missed your subcommittee meeting on the topic of 
U.S. Forest Health and Job Creation in Rural America. We are working 
hard on a similar proposal to improve forest health and would like to 
submit to you a recent position paper that you may use as supplemental 
comments. If you are interested in meeting or talking with participants 
of our Institute, please contact Bruce Courtright at [Redacted] or by 
phone at [Redacted].
    Thank you for taking the time to look over our documents for 
potential use in your efforts. Please notice the cover letter indicated 
there are 12 enclosures, most of these are supplemental documents to 
our position paper and I have not included them here. If you would like 
to obtain the entire packet of information please let me know.
            Sincerely,

Rhonda Muse,
National Institute for the Elimination of Catastrophic Wildfire.
www.stopwilfire.org
                              attachment 1
Something of Value: The National Forest System
Congressional Action is Needed for the Revitalization of the National 
        Forest System.
March 12, 2012
Executive Summary
    America's 193 million acre National Forest System is in serious 
decline. The United States Forest Service (USFS) was created to be the 
Congressional designated manager of the forests and to be the leader of 
professional forestry in the United States. As much through designed 
neglect as benign neglect, the national forests are being allowed to 
change from productive forests to fire-prone, insect-infested, and 
disease-wracked lands of declining value to the public, and the USFS 
that manages them for their citizen-owners is declining in its ability 
to carry out its mission of ``caring for the land and serving people.'' 
Congress must act immediately to save the National Forest System and 
its invaluable commodity and amenity resources, and to restore and 
revitalize the beleaguered USFS charged with their management.
    During the past decade, the natural resources on over 12 million 
acres (an area larger than the State of Maryland) of National Forest 
System lands have been damaged or destroyed by catastrophic wildfires, 
insects, and disease. This devastation is a consequence primarily of 
improper and inadequate management in a time of rapidly changing 
environmental conditions caused by climate change. Science-based 
resource management by Forest Service professionals has been preempted 
by those with ideological agendas and the political power to impose 
them. Congress's statutory direction for management of the national 
forests on a sustained yield-multiple use basis has been subverted by 
special interest groups. This situation will only get worse without 
immediate congressional intervention.
    Congress must act now to charter a comprehensive review of the 
legislated mission and physical status of the forests and their 
resources, and then reverse and remedy the situations in those forests 
and their administration that threaten the nation's economical and 
ecological well-being. If it does not, and current trends continues, 
the nation's needs for vital economic goods and ecosystem services 
provided by the National Forest System will not be met (such as water), 
and Forest Service capabilities to manage the national forests will 
decline with the decline of its corps of professional resource managers 
and other specialists.
    We believe the necessary review would best be led by a new public 
land law review commission, or Congress's investigative arm, the 
Government Accountability Office (GAO), with input by members of the 
Forest Service along with representatives of state and local 
governments directly concerned with national forest issues, citizen 
dependent on the forests, resource management experts, and user group 
members. This review should focus on: (1) the biological and physical 
condition of the National Forest System; (2) the management needs and 
challenges which must be met to restore those lands and resources 
through active management, as well as restore public confidence in the 
process; and (3) The indicators of needed service and products being 
delivered to American citizens. As a result of this review, Congress 
should: (1) revise the often-conflicting statutes governing National 
Forest System management and stewardship; and (2) revise, restore and 
reaffirm the mission of the Forest Service to manage those lands to 
produce ``the greatest good for the greatest number in the long run'' 
that was its original charge, as well as provide for accomplishment of 
that mission.
    Steps toward these ends are listed in the white paper.
                              attachment 2
Something of Value: The National Forest System
A Position Paper
The National Institute for the Elimination of Catastrophic Wildfire
March 2012
Something of Value: The National Forest System
Congressional Action is Needed for the Revitalization of the National 
        Forest System.
March 12, 2012
    The Congress of the United States of America began the evolution of 
today's National Forest System over a hundred years ago, and Congress' 
attention is needed now to return these treasured lands to healthy and 
bountiful lands for the welfare of all American citizens.
    Currently, as much through designed neglect as benign neglect, the 
national forests have been allowed to change from productive forests to 
fire-prone, insect-infested and disease-wracked lands of declining 
value to the public. This condition is caused, in part, by lack of 
clear management direction for these lands, lack of human and financial 
resources to protect and manage these lands, and lack of public 
understanding of the importance of effectively managed forests.
    The first step to national forest recovery is for Congress to 
charter a comprehensive review of the legislated mission of the 
forests, the role Congress sees for the forests in meeting the nation's 
increasing need for natural resources, and the actions needed to 
protect the forests from natural and anthropogenic damage and 
destruction. This review would be best led by a new public land law 
review commission, or Congress's Government Accountability Office (GAO) 
with input by representatives of state and local governments directly 
concerned with national forest issues, citizen dependent on the 
forests, resource management experts, and user group members. This 
would be a formidable task; however, these lands and their proper 
management are of vital importance to the nation.
Origin and Value of the National Forest System
    Congress authorized presidents of the United States to reserve 
certain forest lands from the public domain by what is now called the 
Forest Reserve Act of 1891, and provided for management of these forest 
reserves by the Organic Act of 1897 ``. . . to improve and protect the 
forests . . . securing favorable conditions of water flows, and furnish 
a continuous supply of timber . . . .'' The Forest Service's Organic 
Act specified the purposes for which forest reserves (national forests) 
could be created: (1) to insure ``a continuous supply of timber for the 
use and necessities of United States citizens''; and (2) to secure 
favorable conditions of water flows. (In a later court decision, the 
court ruled that the Secretary of Agriculture may also consider the 
economic well-being of the citizens of a state wherein timber is 
located in administering national forest lands ``for the use and 
necessities of citizens of the United States.'') Congress shifted 
jurisdiction of the forest reserves from the Department of the Interior 
to the Department of Agriculture by the Transfer Act of 1905--which 
also established the U.S. Forest Service--and designated the forest 
reserves as national forests by the Designation Act of 1907. The Weeks 
Act of 1911 authorized the Secretary of Agriculture to purchase certain 
lands for addition to the National Forest System. As authorized by 
still other Acts, additional lands were acquired by exchange, donation, 
transfer, and condemnation. As the National Forest System evolved to 
its current size of almost 193 million acres, the Forest Service 
managed these lands to provide an increasingly wider range of multiple 
uses and benefits in terms of commodity and amenity resources for the 
American people. Congress reaffirmed that administration ``. . . for 
outdoor recreation, range, timber, watershed, and wildlife and fish 
purposes . . .'' when it passed the Multiple Use-Sustained Yield Act of 
1960. Since its founding, the Forest Service has been designated by 
Congress to administer these critical natural resources for the 
citizen-owners of the national forests.
    Today, when the United States population has grown from slightly 
more than 50 million in 1897 to 313 million, the purpose of the 
National Forest System and the mission of the Forest Service are more 
important than ever. In the midst of a worldwide economic crisis, the 
American people and their industries are fighting to survive and thrive 
in an increasingly challenging global marketplace. The renewable 
natural resources of the National Forest System, one of the nation's 
most valuable and competitive assets, are in extreme peril. Active and 
effective scientific management and stewardship of these lands that 
provide fresh water for domestic, industrial, and agricultural use; 
habitat for fish and wildlife; a sustained yield of essential wood 
products to support local and national economies--and, yes, outdoor 
recreation to sustain a mentally and physically healthy population--is 
absolutely essential to national survival.
Adverse Impacts Affecting the National Forest System and the U.S. 
        Forest Service
    Myriad impacts are adversely affecting the National Forest System 
and the Forest Service charged with its administration.

    (1) Rapidly changing environmental conditions caused by changing 
        climate conditions.

    (2) Single-species habitat protection policies which have caused 
        dramatic increases in the frequency, severity, and size of 
        wildfires which annually consume millions of acres of precious 
        natural resources and damage or destroy soils which may take 
        1,000 years to rebuild.

    (3) Insect infestations exceeding four million acres in the West 
        which, if not treated, will fuel future catastrophic wildfires.

    (4) Invasive vegetative species are taking over huge numbers of 
        acres of potentially productive forest and grasslands.

    (5) Reduction and deterioration of water quality and quantity which 
        causes increasing water shortages for domestic, industrial, and 
        agricultural uses and fisheries.

    (6) Unnatural overstocking of forest vegetation that leads to 
        declining forest health and insect infestations that are direct 
        results of overstocked stands. This is a direct result of the 
        Forest Service not being permitted to actively manage these 
        valuable forested lands by thinning and harvesting because of 
        frivolous court challenges that result in:

      (a) Severely reduced monetary return to the U.S. Treasury,

      (b) Severely increased unemployment,

      (c) Unnecessary suppression and restoration costs to taxpayers, 
            and

      (d) Dramatic detrimental changes in stand structure and 
            composition.

    (7) A major and perverse shift in use of the justice system during 
        the past 30 years to block active resource management and use 
        and garner economic windfalls for anti-forest management 
        activists that has:

      (a) Drastically reduced sustainable harvesting of the timber 
            resource from about 11 billion board feet 20 years ago to 
            less than 2 billion today, and

      (b) Significantly increased catastrophic wildfires in which 
            overstocked stands and dense canopies contribute to such 
            disastrous fires as the 2002 Hayman Fire in Colorado, the 
            2008 fires in Trinity and Siskiyou counties of California, 
            and the 2011 New Mexico and Arizona fires; more than 1 
            million acres of valuable National Forest resources have 
            been destroyed by these wildfires alone. Overall damage 
            costs of wildfires range from three to 10 times fire 
            suppression costs, not counting associated property losses 
            and personal injuries and deaths.

    (8) The excessive costs of red tape and legal minutia that hinder 
        forest planning and execution of management projects to the 
        point only a small percentage of critical forest health and 
        wildlife habitat projects are accomplished. An example is the 
        death of over four million acres of Colorado and Wyoming 
        forests cause by insect infestations in large part a result of 
        ineffective forest management.

    (9) The shift from professional forest management programs to a 
        passive caretaker mode because the Federal Government fails to 
        meet the legislated promise to the American people and instead 
        permits special interest groups, through misguided legislation, 
        to curtail sound Forest Service forest management. This has 
        taken a heavy toll not only in terms of deteriorating forest 
        health but also in reduced county and school revenues, 
        increased unemployment, and depressed economies that destroy 
        forest-dependent communities.

    (10) The inability to salvage dying and fallen trees after fires or 
        other catastrophic events that leaves large volumes of 
        hazardous fuel for the next fire and creates life-threatening 
        conditions for firefighters and residents.

    (11) Agency fire strategies that contribute to catastrophic fire 
        occurrences rather than limits them, and closures of roads 
        necessary for forest work, firefighting, law enforcement, 
        public use, and search and rescue operations.

    (12) The Forest Service--the strength and effectiveness of which is 
        critical to sustaining and improving forest resource health, 
        providing services to an expanding population, and meeting 
        growing demands for natural resources--has been and continues 
        to be subjected to impacts that severely curtail its efficiency 
        and effectiveness. It has gone from being rated one of the most 
        effective Federal Government organizations in 1984 to one of 
        the least now. These adverse impacts include:

      (a) Tight control of Forest Service by the U.S. Department of 
            Agriculture may limit executive decision space and 
            constrains creativity.

      (b) Reduced staffing has caused lack of depth in most of the 
            organization.

      (c) Loss of credibility with cooperating organizations, local 
            communities, and individuals has resulted from erosion of 
            effective training programs for leaders and managers.

      (d) Lack of leadership at various levels of the organization has 
            affected quality decision making.

      (e) An administrative and accounting system that does not meet 
            the needs of on-the-ground land, natural resource, and 
            business management. The existing system tends to over-
            manage in critical areas, does not provide sufficient 
            decision latitude for local program managers, and does not 
            provide a positive program review system. Major 
            centralization of administrative tasks accomplished in the 
            early 1980s to reduce administrative costs resulted in 
            project personnel spending an inordinate percentage of time 
            doing administrative work previously done by an efficient 
            and effective support staff. This has damaged management 
            effectiveness, reduced morale, and drastically reduced 
            customer service throughout the entire organization as 
            evidenced by the latest GAO review of Forest Service 
            business consolidation effectiveness.
Indicators provided for the review of National Forest System.
    The proposed Congressional review of the Forest Service efforts to 
implement legislative direction regarding National Forest 
administration should have the following indicators of effectiveness. 
They were developed with extensive input from state and local 
officials, diverse resource groups and knowledgeable citizens.

    (1) The National Forest System meets the needs of all American 
        people and contributes to the economic well being of local 
        communities. Local governments are actively included in all 
        Forest Service resource plans and decisions that affect them.

    (2) Congress, the Administration, and domestic and international 
        cooperators receive quality professional Forest Service advice 
        and technical assistance.

    (3) Forest Service research and development programs expand 
        scientific knowledge required by managers of the nation's and 
        the world's renewable natural resources and at the same time 
        involve local resource managers in identifying emerging issues 
        and challenges.

    (4) Forest Service land management programs are harmonized and 
        integrated with those of other public agencies and private 
        ownerships to ensure greater protection of the health of 
        forests and rangelands from wildfire, insects and disease, and 
        human and other threats.

    (5) The Forest Service has the financial resources to employ the 
        full range of management tools including, but not limited to, 
        planned prescribed fire to establish resilient landscapes able 
        to adapt to changing climate conditions and public needs.

    (6) The true cost of wildfire is recognized and fuel reduction 
        programs are funded to achieve the national goals necessary to 
        establish and maintain healthy, productive forests. Grant 
        funding is available to all critical areas regardless of the 
        ability to provide matching funds.

    (7) The Forest Service planning system is consistent with statutory 
        direction and responsive to public users and local community 
        needs as well as to changing climate conditions. Local 
        cooperators are involved in local forest planning from start to 
        project completion.

    (8) Forest Service resource decisions and plans take into account 
        the need for healthy ecosystems balanced with the social and 
        economic needs of counties, local citizens and groups.

    (9) A reliable ``feedstock'' supply from the National Forests 
        supports investment in various local forest product industries 
        that contribute to forest health, carbon storage, and local 
        economies. Efforts are made to support local citizens in 
        development of new projects such as wind, solar, geothermal, 
        hydropower and use of woody renewables for energy and heat.

    (10) There is adequate long-term funding separate from the timber 
        sales program to support the sale and removal of excess forest 
        fuel materials. There is a method of sharing income from 
        cooperative programs with local communities for schools, local 
        roads and investment in future resource projects.

    (11) There is true government-to-government coordination and 
        cooperation between the Forest Service and state, tribal, local 
        groups and local government entities to ensure harmonization of 
        their respective goals and objectives.

    (12) National Forest management goals recognize local public health 
        and safety as well as consider the social and economic well-
        being of forest-dependent communities. This is evident by the 
        creation of collaborative areas set up by forests to support 
        stewardship projects that are mutually designed to meet Forest 
        Service and local goals. In addition there is a revived and 
        robust timber sale program that is able to use emerging 
        legislation allowing product removal for forest health and 
        safety.

    (13) A viable timber sale program exists to provide feedstock to 
        local mills. With this revitalized sale program struggling 
        mills are able to put more people to work to supply the 
        nation's needs for timber products. The outlook for meeting the 
        bulk of the nation's wood supply needs from our own lands is 
        bright.

    (14) Forest recreation plans provide for maximum use of National 
        Forest Service lands to all types of visitor activities. 
        Special efforts are made to include local citizens and groups 
        along with state and local unites in recreation development use 
        plans.
A Desired Future State to Meet the Nation's Current and Future Needs
    Numerous groups that support restoration of critical natural 
resources throughout the United States advocate cooperative efforts on 
both public and private lands to ensure the needs of future generations 
are met. These groups are achieving results in ensuring sustained 
abundance of these resources because some of the roadblocks referred to 
herein have been removed by Congress. Such positive steps are essential 
to restoration of the National Forest System and resolution of the 
nation's financial crisis.
Recommended Actions to Attain the Desired Future State of the National 
        Forest System and the U.S. Forest Service
    A healthy National Forest System and Forest Service may be attained 
if and when the nation's leaders take the following actions to save 
precious natural resources in a way that reduces overall losses and 
associated costs to the American taxpayer:

    (1) Produce a report that recommends Congressional action

    Based on the findings and recommendations of a new public land law 
        review commission or GAO report on its proposed study of the 
        National Forest System, Congress should enact legislation 
        affirming the mission of the U.S. Forest Service and provide 
        congressional direction to manage and restore the National 
        Forest System and provide national and international leadership 
        in all aspects of natural resource management.

    (2) Review the Consequences of Legal Challenges

    A primary roadblock to natural resource management progress is the 
        obstructionism of the few who use the courts to impede or 
        terminate needed resource management work by using (some would 
        say ``perverting'') the Equal Access to Justice Act of 1980 to 
        force taxpayers to reimburse them for legal expenses for often-
        frivolous lawsuits. Some of these plaintiffs and the suits they 
        file state they want no commercial use of the public lands, 
        especially timber harvesting. Such litigation has become a huge 
        and harmful industry that costs the Federal Government millions 
        of dollars per year and many more millions--if not billions--in 
        the costs consequent of not managing public forest lands. Some 
        of these issues could be effectively dealt with through 
        bipartisan support of H.R. 1485, the Catastrophic Wildfire 
        Community Protection Act, and H.R. 1996, the Government 
        Litigation Savings Act; the latter bill would limit 
        reimbursements to law firms for expenditures in lawsuits. If 
        passed, both bills would enhance needed resource work and 
        provide needed employment while costing the nation little.

    (3) Reduce the Costs of Catastrophic Wildfires

      (a) Catastrophic wildfires in 2011 consumed 1.73 million acres of 
            National Forest System lands at a tremendous cost. 
            Suppression costs are but a fraction of the true costs of 
            these wildfires. True costs include impacts on homes, 
            communities, and invaluable natural resources that include 
            watersheds that yield high-quality fresh water, 
            timberlands, fish and wildlife habitat, and outdoor 
            recreation; impact on lands that provide essential 
            ecosystem processes and services; and release of air 
            pollutants that contribute to global warming.

      (b) Allocation by Congress of half these lost dollars to work on 
            National Forest System lands that reduced fuel hazards 
            could not only prevent a large percent of catastrophic 
            wildfires and their myriad expensive consequences, but 
            provide jobs for many citizens who sorely need them. The 
            concept of ``Invest to Save'' must become an essential 
            element in funding National Forest System management.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                          Submitted Questions
Response from Tom Tidwell, Chief, U.S. Forest Service, U.S. Department 
        of Agriculture
Questions Submitted By Hon. Glenn Thompson, a Representative in 
        Congress from Pennsylvania
    Question 1. I'm very concerned that the Forest Service's attempts 
to revise the viability section of the new rule will lead to endless 
legal wrangling, not more responsible forest management. Do you agree 
that the Nation Forest Management Act requires wildlife diversity as an 
objective within the overall multiple use framework? If so, why don't 
you change the viability section to, at the very least, reflect that?
    Answer. Section 219.9 of the final rule fulfills the diversity 
requirement of the National Forest Management Act (NFMA), which directs 
the Forest Service to ``provide for diversity of plant and animal 
communities based on the suitability and capability of the specific 
land area in order to meet multiple-use objectives . . .'' (16 U.S.C. 
1604(g)(3)(B)). NFMA explicitly recognizes plant communities as well as 
animal communities. The final rule provides protections for all native 
plant and animal communities, including protections to fish, 
invertebrate, and plant species. By including both vertebrates and 
invertebrates, the final rule is more consistent with NFMA. The final 
rule will focus on the ecological conditions needed to support 
diversity, instead of taking a species-by-species approach. Maintaining 
or restoring ecological conditions offers the best assurance against 
losses of biological diversity, maintains habitats for the vast 
majority of species in an area, and avoids the need to list species 
under the Endangered Species Act. The new approaches under the final 
rule for addressing species viability and diversity, along with the 
recognition of local land and unit capabilities and limits, will 
increase the flexibility and feasibility of responding to species and 
ecosystem sustainability and recovery needs.
    The Forest Service has had a long standing policy to provide 
habitat to support the viability of both common species including game 
species, and rare species in order to avoid their listing under the 
Endangered Species Act. The requirements for viability are habitat 
based, not species' population based, which makes this manageable 
within our capability. Under the 1982 planning rule, the concept of 
viability was focused on existing native and desired non-native 
vertebrate species, as well as viable populations, at potentially both 
the plan and project level, which was very difficult to meet. The final 
rule establishes a viability requirement that is within our capacity to 
implement. The final rule acknowledges both the limits of our ability 
to control or influence species' viability and the inherent limited 
capability of the land area to sustain a species, while considering the 
ecological capacity to produce the desired ecological conditions. The 
final rule also removes the 1982 requirement that viable populations 
must be maintained on the planning unit. Rather, under the final rule, 
units would ensure that ecological conditions help support viable 
populations across the range.

    Question 2. Congress, and only Congress, has the authority to 
designate wilderness areas. Why, then, does the new rule provide the 
protection and maintenance of the ``ecological and social 
characteristics that provide the basis for their suitability for 
wilderness designation''? Isn't the Forest Service, by doing so, 
creating de facto wilderness areas?
    Answer. It can often take years between the time an area has been 
recommended for wilderness and the time Congress makes a final decision 
on whether to designate an area or not. The Agency believes that it is 
important to preserve Congress's options to designate or not. The new 
rule does not change the current management requirements for 
recommended wilderness. The Department believes the requirement in the 
final rule meets the Agency's intent to ensure the types and levels of 
use allowed would maintain wilderness character and would not preclude 
future designation as wilderness if Congress so chooses to designate 
it. The rule requirements are consistent with many State wilderness 
acts which require that any areas recommended for wilderness 
designation are to be managed for the purpose of protecting the area's 
suitability for wilderness. The Utah Wilderness Act of 1984 is one 
example (Pub. Law No. 98-428.  201(b)(4); 98 Stat 1660).

    Question 3. Are you at all concerned that the new rule includes 
mandatory requirements for the use of the ``best science?'' Isn't 
science itself is always undergoing revision? Isn't this just setting 
up plans and subsequent projects for litigation by those who are not 
interested in seeing the agency achieve its goals, particularly the 
goal of multiple use?
    Answer. The Agency believes that using the best available science 
to inform the planning process leads to more durable plans and more 
credible, legally supportable decisions. The Agency is currently 
required to take relevant scientific information into account in 
decision-making and already has a fundamental legal requirement, 
grounded in the Administrative Procedure Act, to consider relevant 
factors, including relevant scientific information, and explains the 
basis for its decisions. Citizens to Preserve Overton Park v. Volpe, 
401 U.S. 402, 416 (1971). The rule is not intended to impose a higher 
standard for judicial review than the existing ``arbitrary and 
capricious'' standard of the APA, 5 U.S.C. Section 706(2)(A). The rule 
also sets specific stages in the planning framework when consideration 
of the best available scientific information must be documented. The 
rule includes such documentation requirements in recognition that lack 
of documentation has sometimes been a basis for courts to overturn 
agency decisions. The Department believes that defining its 
accountability for use of best available science in the planning 
process is preferable to leaving it open to interpretation and will 
lead to fewer litigation losses.

    Question 4. These new regulations add more process, prescriptive 
requirements, highly subjective criteria for ``species viability'' and 
``best available science'', and require the most expensive and time-
consuming NEPA process (an EIS) for all forest plan revisions. How does 
this comply with Executive Orders and other policies providing that 
regulations should be more cost effective and less burdensome?
    Answer. The new planning rule will create a more efficient and 
effective process through an adaptive framework for land management 
assessment, planning and monitoring. This framework should help the 
Forest Service use resources more effectively; keep plans more current 
through frequent amendments. The rule's focus on achieving desired 
conditions and objectives should mean less time in planning and more 
time implementing plans through projects and activities.
    The new planning rule incorporates many of the best practices 
already widely used by the Forest Service across the National Forest 
System. It supports restoration, and provides a platform for 
collaboration that has proven effective in allowing stakeholders to 
move beyond conflicts of the past to find agreement for accomplishing 
work on the ground.

    Question 5. How long will the Forest Planning process take under 
the new rules? Given how little impact forest plans have had on 
subsequent management, do you think it's fair to the American taxpayer 
to ask them to take that amount of time to participate in the planning 
process?
    Answer. The Forest Service estimates plan revisions will take, on 
average, 3 to 4 years as compared to 5 to 7 years under the 1982 
planning rule. The agency believes that the shorter timeframe for 
revisions will help the public stay engaged throughout the entire 
planning process and will be a more effective use of their time than 
longer, more drawn out revision processes which have occurred under the 
previous rule. The most common request from the public, state, local 
governments and Tribes during the collaborative rule making process has 
been that they want to be involved early and throughout the planning 
process. The final planning rule will provide greater opportunities for 
people to engage early and throughout, and to interact directly with 
the decision maker, and to be able to stay engaged than under current 
procedures.

    Question 6. Where in statute does the Forest Service derive the 
authority to manage wildlife for ``viable populations''? Are wildlife 
not managed by the states, and in some cases the Fish and Wildlife 
Service?
    Answer. The National Forest Management Act (NFMA) requires that 
plans provide for diversity of plant and animal communities (16 U.S.C. 
1604(g)(3)(B)). The Department's ability to maintain the diversity of 
plant and animal communities is dependent on managing for effective 
habitat for plant and animal species within the communities. The 
Organic Administration Act and the Multiple-Use Sustained-Yield Act, 
provide authority to manage for wildlife purposes and provide the 
agency the discretion to manage habitat to maintain wildlife viability. 
The new planning rule does not authorize the Agency to manage wildlife. 
It requires that plans provide for the ``ecological conditions'' 
(habitat) that species require to persist on NFS lands. While the 
intent of the rule is that ecological conditions on a unit provide for 
the persistence of all species, the specific requirement for 
maintaining habitat for viable populations is limited to species of 
conservation concern (SCC). The rule also recognizes circumstances 
where ensuring a viable population of a SCC on a unit is beyond the 
authority of the agency or not within the authority of the land. In 
those cases, the rule allows the responsible official to document this 
conclusion and instead, include plan direction to contribute to 
viability across the species range.
    The agency believes that this rule is an appropriate approach to 
meeting the NFMA requirement for providing for diversity of plant and 
animal communities. This approach allows the agency to focus management 
direction on species for which there is a documented concern about the 
species' capability to persist over the long-term in the plan area. By 
focusing management direction on those vulnerable species, the agency 
can work to reduce the risk these species will be listed as endangered 
or threatened. Once a species is listed under ESA, it is very difficult 
to recover the species and there are very few options for management to 
meet other objectives of the plan such as restoration, timber 
production or recreation.
    While the new rule focuses on providing the habitat necessary to 
support the diversity and persistence of native plant and animal 
species, it also requires that NFS units work collaboratively with 
State fish and wildlife agencies, State and local governments, other 
Federal agencies, and others, to conserve fish, wildlife, and plant 
habitats and populations on NFS lands and to contribute to shared 
goals, such as those provided in state wildlife action plans or in 
threatened or endangered species recovery plans. Requirements in Sec. 
219.4, 219.6, 219.10, and 219.12 of the final rule complement and 
support interagency collaboration on habitat and species conservation.

    Question 7. In your written testimony you stated ``The Forest 
Service also recognizes the need for a strong forest industry to help 
accomplish restoration work.'' I encourage you to also emphasize that 
timber production is an end goal of the National Forest System. One of 
the multiple uses the forests serve is to help supply the forest 
product needs of the United States.
    Answer. The Forest Service recognizes the role of a strong forest 
products industry in accomplishing restoration. The willingness of 
industry to pay for forest products and biomass resulting from 
restoration treatments increases our ability to achieve restoration 
goals, protect communities and provide healthy forests. The combination 
of treatments and product removal is often the least-cost alternative. 
In addition to restoring the forest, this combination provides 
employment and helps sustain the social and economic well-being of the 
communities we serve. The agency sets goals for both acres restored and 
forest products produced. Our commitment to accelerating our 
restoration includes both an increase in acres and forest products.

    Question 8. How do you expect timber and biomass production to 
shift over the next several years under the new planning rule? How many 
board feet of timber? How many tons of non-timber biomass?
    Answer. The Forest Service is continuing to increase the pace of 
forest restoration on National Forest System lands. The new planning 
rule will enable us to work more collaboratively with our partners. As 
a result, we expect the volume of timber production to increase over 
the next few years from 2.6 billion board feet to 3.0 billion board 
feet. We also expect the green tons of non-timber biomass to increase 
from 2.7 million green tons to an amount commensurate with the increase 
of timber extracted.

    Question 9. You noted that the market for forest products is 
critical for forest restoration efforts. Forest Service policies have 
arguably contributed to the ``struggling markets'' your reference, as 
dramatic reductions in timber sales in some parts of the country 
decimated market `ecology' of the local timber industry. I'd appreciate 
your thoughts on ways the Forest Service can partner with industry to 
facilitate the development of consistent and sustainable markets for 
forest products across the different regions of the National Forest 
System.
    Answer. The Forest Service has been increasing the volume of timber 
sold for the last several years even though the nation is struggling 
with one of the worst downturns in housing starts and lumber 
production. Every possible contract and legal authority has been 
employed to help struggling timber purchasers through this downturn. In 
addition, the use of stewardship contracting has steadily increased 
enabling longer-term contracts and expanding the job opportunities for 
communities. Stewardship contracting has also enabled the agency to 
continue restoration treatments and hazardous fuels reduction by 
offsetting some of the cost with appropriations to compensate for the 
decline in timber values. As you are aware, the authority to use 
stewardship contracting expires on September 30, 2013.
    Additionally, the agency is using the Collaborative Forest 
Landscape Restoration Act (CFLRA). This legislation has helped to 
provide collaborative ways and means for all stakeholders to come 
together to facilitate landscape scale restoration and development of a 
consistent and sustainable market for forest products. The agency is 
also implementing the pilot authority for the Integrated Resource 
Restoration line item, which will enable the agency and communities to 
focus on the right treatments in the right place, including the needed 
removal of forest products.

    Question 10. The most recent timber sale reports from the Forest 
Service seem to suggest that the agency is somewhat behind on its goals 
for timber sales for the year. I'd appreciate your comments on this.
    Answer. The timber sale volume accomplishment for the first half of 
fiscal year 2012 is about 9 percent less than the accomplishment in the 
first half of fiscal year 2011. Five regions are ahead of or similar to 
last year.

    Question 11. You noted at several points in your testimony 
recommendations to restore the ``ecological role of fire'' in our 
forests. How will the forest service balance the use of fire as a 
management tool with the risks posed by fire to other multiple use 
objectives, as well as the risks posed to property in and near the 
forest?
    Answer. The Forest Service manages all wildfires with a singular 
approach where we first establish a protection strategy for those 
values at risk. Incident objectives, strategies, and tactics can change 
as the fire spreads across the landscape, due to changes in 
environmental conditions (weather, vegetation, topography), human 
influence, land ownership/jurisdiction, planning unit objectives, 
perceived threats to human safety, predicted threats to property, 
infrastructure, and natural resources, opportunities to achieve 
resource benefits, and availability of firefighting resources to 
accomplish the work. Responses to wildfire are also coordinated across 
levels of government, regardless of the jurisdiction at the ignition.
    The agency puts firefighter and public safety as the first priority 
in every fire management activity. No natural or cultural resource, 
home, or item of property is worth a human life. All strategies and 
tactics seek to mitigate the risk to firefighters and the public. We do 
however; recognize that a policy of full suppression of all wildfires 
does not eliminate risk. Over time, exclusion of wildland fire can 
result in fuels accumulation and deterioration of forest conditions 
which can contribute to even greater long-term risk.
    We also recognize that after all strategies, tactics and objectives 
are established and risks have been identified and mitigated, 
undesirable outcomes sometimes still occur when managing wildfires, as 
it is still not possible to predict every possible weather scenario 
that could play out over weeks or months that a fire may be managed. 
The agency is committed to completing reviews after wildfire incidents 
to learn from our successes and our failures in the spirit of 
continuous improvement.

    Question 12. Chief Tidwell, the 3rd Circuit Court of Appeals has 
recently upheld a District Court ruling that no Federal permit is 
required for access and development of the private mineral estate on 
the Allegheny National Forest. Why and under what delegated regulatory 
authority does the Forest Service continue to require oil, gas, and 
mineral owners to pay a set $400 fee for a Forest Service road use 
permit just for the privilege to use Forest Service roads in accessing 
their private mineral estates when the deeds expressly reserve the 
rights of access over these roads at no cost and without preconditions.
    Answer. All commercial use of Forest Service infrastructure (in 
this case, roads) is subject to a use fee. The $400 charge for use of 
Forest Service System roads is for use of the infrastructure, not for 
access to any private mineral estate.

    Question 13. In March 2008, then Allegheny National Forest 
Supervisor Leanne Marten issued a directive to all oil and gas 
operators stating that District Rangers will not allow development of 
the ``mineral materials'' on private mineral estates and based this 
edict on authority of 36 CFR 228 Subpart C. As I understand it, 36 CFR 
228 Subpart C applies only to FEDERALLY-OWNED mineral estate--not 
unacquired PRIVATE mineral estates. In light of the recent Third 
Circuit decision holding that the Forest Service has extremely limited 
regulatory authority over private mineral estates, this strikes me as 
an unlawful directive that is intended to impede and prevent oil, gas, 
and mineral development.
    Is this a national policy? When will this directive be canceled?
    Answer. The Forest Service position on mineral materials (sand, 
gravel, stone, pumice, clay, etc.) is that such materials are part of 
the surface estate, not the private mineral estate, unless explicitly 
and clearly reserved in a mineral severance deed. Because these 
materials are part of the federal surface estate, their development is 
subject to regulatory provisions at 36 CFR 228 Subpart C--Disposal of 
Mineral Materials.
Questions Submitted By Hon. Bob Goodlatte, a Representative in Congress 
        from Virginia
    Question 1. Last year, I had the pleasure of attending an 
announcement by Sec. Vilsack concerning USDA's green building policy. 
Based on his comments at that announcement, I think we agree that 
restoration of both public and private forest lands requires resources. 
Strong markets for forest products can help fund restoration and 
reinvestment in our forests. The USDA Green building policy changes 
that were announced that night could go a long way towards increasing 
demand for forest products in building construction markets. What steps 
have you taken internally to implement this policy? Have you increased 
wood use in Forest Service buildings?
    Answer. The Forest Service updated its policy to require all new 
buildings over 10,000 square feet be designed to meet a third-party 
``green building'' certification systems, e.g., U.S. Green Building 
Council's Leadership in Energy and Environmental Design (LEED) rating 
system (minimum Silver certification); Green Globes (minimum Two Green 
Globes certification); or other equivalent third-party certification 
system. Additionally, all other buildings, whether new or major 
renovation projects larger than 2,500 square feet, must be designed to 
incorporate sustainable principles into the systems and components 
appropriate to the building type and project scope.
    In a March, 2011 letter to Forest Service leaders, Chief Tidwell 
affirmed our commitment to increase our ability to support the use of 
sustainably grown, domestically produced wood products, including wood 
from the National Forests as the preferred green building material for 
all USDA facilities and buildings. Our Forest Products Laboratory is 
facilitating research and development of environmental product 
declarations (EPD's) for wood products based on Life Cycle Assessments 
(LCA). LCA identifies the flow of materials and energy through various 
stages, from the point of extracting raw materials from the 
environment, through manufacture, construction, use and final disposal. 
The life cycle information in EPDs can be used to compare the 
environmentally preferable benefits of wood products versus non-wood 
products for alternative designs of building components (such as walls, 
floors, and roofs).

    Question 2. In testimony before the Senate Energy and Natural 
Resources Committee on March 6th, you stated that you plan on 
decommissioning over 2000 miles of roads in FY 2013. How is the Forest 
Service supposed to affordably manage National Forests when it is 
removing access making it more difficult for management interests to 
get to areas in desperate need of management? Additionally, why is the 
FS making it more difficult for recreational interests to access FS 
lands?
    Answer. Appropriate access is very important in the management of 
National Forest System lands. The agency utilizes a process called 
Travel Analysis to inform the size of our road system and to inform the 
creation of motor vehicle use maps, which guide the use of our road 
system. This analysis includes National Forest System roads, as well as 
unauthorized roads. If this analysis identifies a road as not needed 
for safe and efficient travel and for administration, utilization and 
administration of National Forest System lands, the road is identified 
for decommissioning following appropriate NEPA. This process helps to 
ensure the agency has the road system necessary for the management and 
public enjoyment of National Forest System lands, while reducing the 
ecologic impacts of unneeded roads, and also reducing the costs 
associated with the roads system.
Question Submitted By Hon. Reid J. Ribble, a Representative in Congress 
        from Wisconsin
    Question. Chief Tidwell, invasive species management represents a 
significant challenge to the U.S. Forest Service as well as to other 
Federal, local and private entities that are concerned with land 
management. Furthermore, due to the current fiscal climate, the Forest 
Service and others have been forced to continue the invasive species 
fight with less funding. A September 2010 Office of Inspector General 
report made numerous recommendations on how invasive species programs 
may be improved in light of the current budget issues, and the Forest 
Service largely agreed with those recommendations. Please provide a 
status update on implementation of those recommendations as well as any 
other additional thoughts you may have regarding how invasive species 
management can continue to be improved regardless of the ultimate 
budget.
    Answer. The Forest Service (FS) is committed to responding to the 
threat of invasive species by addressing the significant challenges 
associated with invasive species management identified in the OIG Audit 
Report (08601-7-AT). To date the FS has carried out OIG Recommendations 
1-5, and 7-11. OIG Recommendation 6 is in the review stage and expected 
to be completed in December 2012.
    OIG Recommendations 1-4 are being carried out by developing and 
issuing the final invasive species directive (Forest Service Manual 
2900--Invasive Species Management) to compile the internal policies 
specifically on ``Early Detection and Rapid Response'' (EDRR) within 
the Forest Service, and to develop an adequate, cohesive, internal 
control environment for managing the invasive species program. The 
final directive was issued on December 5, 2011. For OIG Recommendation 
4, the National Forest System revised the national NFS budgeting 
database known as ``Workplan'' to allow the field to track all the 
programmatic expenditures and costs associated with Invasive Species 
Management on the National Forest System. Direction has been provided 
to the field to implement the revised ``Workplan'' work activity coding 
system to track their invasive species management expenditures on 
National Forests and Grasslands.
    OIG Recommendation 5 is being implemented through the development 
of an ``Invasive Species Systems Approach'' (ISSA) which is being built 
to address concerns raised under OIG Recommendation 5 and to help 
improve program effectiveness, increase accountability, and standardize 
operational procedures to ensure consistency across the agency. The 
draft ISSA identifies 12 specific actions for an improved comprehensive 
and integrated approach, which will provide a foundation for the FS 
Invasive Species Management Program.
    OIG Recommendation 7 called for the development of an inventory 
plan for inventorying all invasive species, the risk each species 
poses, and the efficacy of available treatments. Progress has been made 
on the development of guidance, criteria, protocols, and other 
direction for quantifying the extent and impacts of invasive species 
infestation across the National Forest System, within Chapter 40 
(Invasive Species Detection, Surveys, and Inventories), of the draft 
Forest Service Handbook 2909.11. A draft of FSH 2909.11 is expected to 
be ready to being the review process in 2013. Once finalized, the 
direction provided in Chapter 40 will help National areas. Forest 
System personnel quantify populations of invasive species in all 
aquatic and terrestrial
    OIG Recommendation 9 (establishing national standards for reporting 
performance results) has already been established for all NFS invasive 
species program activities, record keeping, and reporting. Direction is 
provided on-lie and in the annual budget and performance program 
direction. OIG Recommendation 9 was accomplished soon after the OIG 
Report was released. In the intervening time period, NFS national 
program performance measures have undergone many modifications, 
including those for Invasive Species Management. Corrective actions are 
underway to meet the national Performance and Accountability System for 
the FY 2013 field season. OIG Recommendation 10 is completed annually 
during end-of-year performance data validation processes conducted for 
all NFS invasive species program performance records. OIG 
Recommendation 11 has been initiated, beginning with informal reviews, 
conducted in FY 2012, and formal reviews planned for FY 2014. The ISSA 
(noted above) give the FS the opportunity to establish and conduct a 
formal review system to verify the accuracy of invasive species 
accomplishment data by comparing reported information to actual work 
accomplished during projects on the ground.
    OIG Recommendation 6 called for the revision of the 2004 National 
Strategy and Implementation Plan for Invasive Species Management and 
for establishing control for revising the strategy every 5 years. The 
draft National Strategy has been released draft for a Forest Service-
wide review. The revised National Strategy will be completed by 
December 2012, and a revision schedule will be established on a 5 year 
basis, completing the FS obligations under OIG Recommendation 6.
    As invasive species populations continue to invade our aquatic and 
terrestrial ecosystems and prevent us from reaching our landscape-scale 
restoration goals, we will continue our work against aquatic and 
terrestrial invasive species by implementing the efforts and program 
improvements I have described. In light of increasing economic 
constraints, our approaches and policies call for increasing our 
cooperation and collaboration with partners and other external 
stakeholders, to share knowledge, share information, and share the 
resources necessary to address invasive species across the landscape. 
By utilizing our new policy (FSM 2900) and integrating our invasive 
species management activities under the ISSA to increase our collective 
capacity across the agency, we are hopeful that we will be able to keep 
up the pace against the spread of invasive species. In addition, with 
the expected issuance of the final Forest Service Handbook (FSH 
2909.11) in FY 2014, we hope to improve our efficiencies and 
effectiveness against invasive species, even in times of budget 
volatility.

                                  <all>

</pre></body></html>
